                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




December 1997
                                   Nationwide Data on
                                   Minority Participation
                                   in Farm Service Agency’s
                                   Farm Loan Programs -
                                   Phase III
                                   Volume 5 of 5
                                   Tennessee through Wyoming




Evaluation Report No. 50801-4-Hq
                            Demographics         1470
                        FSA’s Loan Portfolio     1482
                        FSA’s Application data   1514




USDA/OIG-A/50801-4-Hq                                   1469
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American            Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                Population       68,250        64,320    94%          2,753      4%        236      0%        537          1%         23          0%        381       1%
        Anderson County   Borrowers             1             1   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                          Farms               441           441   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                          Land in Farms    41,899        41,899   100%              0      0%          0      0%          0          0%          0          0%          0       0%

        TN                Population       30,411        27,005    89%          3,056     10%         34      0%        141          0%              3      0%        172       1%
        Bedford County    Borrowers            38            35    92%              2      5%          0      0%          0          0%              0      0%          1       3%
                          Farms             1,259         1,244    99%             15      1%          0      0%          0          0%              0      0%          0       0%
                          Land in Farms   213,603       213,603   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                Population       14,524        14,050    97%            345      2%         23      0%         31          0%              3      0%         72       0%
        Benton County     Borrowers             9             9   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Farms               355           355   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Land in Farms    62,989        62,989   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                Population        9,669         9,213    95%            373      4%         42      0%              3      0%              0      0%         38       0%
        Bledsoe County    Borrowers            36            36   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                          Farms               502           499    99%              0      0%          0      0%              0      0%              0      0%          3       1%
                          Land in Farms    93,098        92,830   100%              0      0%          0      0%              0      0%              0      0%        268       0%

        TN                Population       85,969        82,207    96%          2,780      3%        190      0%        405          0%         19          0%        368       0%
        Blount County     Borrowers             3             3   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                          Farms             1,012         1,009   100%              3      0%          0      0%          0          0%          0          0%          0       0%
                          Land in Farms    96,181        96,181   100%              0      0%          0      0%          0          0%          0          0%          0       0%

        TN                Population       73,712        69,704    95%          2,871      4%        191      0%        222          0%         12          0%        712       1%
        Bradley County    Borrowers            29            28    97%              1      3%          0      0%          0          0%          0          0%          0       0%
                          Farms               704           700    99%              4      1%          0      0%          0          0%          0          0%          0       0%
                          Land in Farms    91,858        91,783   100%             75      0%          0      0%          0          0%          0          0%          0       0%

        TN                Population       35,079        34,621    99%            130      0%        175      0%         35          0%              1      0%        117       0%
        Campbell County   Borrowers             2             2   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Farms               425           425   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Land in Farms    30,299        30,299   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                Population       10,467        10,215    98%            184      2%         15      0%         14          0%              0      0%         39       0%
        Cannon County     Borrowers            23            23   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Farms               712           712   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                          Land in Farms    96,550        96,550   100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1470
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                 Population       27,514        24,214    88%          3,129     11%         34      0%              9      0%              3      0%        125       0%
        Carroll County     Borrowers            53            49    92%              4      8%          0      0%              0      0%              0      0%          0       0%
                           Farms               783           753    96%             24      3%          0      0%              0      0%              0      0%          6       1%
                           Land in Farms   165,547       165,547   100%              0      0%          0      0%              0      0%              0      0%          0       0%

        TN                 Population       51,505        50,637    98%            455      1%         91      0%        125          0%              6      0%        191       0%
        Carter County      Borrowers             5             5   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               662           662   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    36,633        36,633   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       27,140        26,344    97%            532      2%         80      0%         34          0%         11          0%        139       1%
        Cheatham County    Borrowers             4             4   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               512           501    98%              8      2%          0      0%          0          0%          0          0%          3       1%
                           Land in Farms    58,289        56,405    97%          1,305      2%          0      0%          0          0%          0          0%        579       1%

        TN                 Population       12,819        11,334     88%         1,386     11%         20      0%         21          0%              5      0%         53       0%
        Chester County     Borrowers            24            23     96%             1      4%          0      0%          0          0%              0      0%          0       0%
                           Farms               347           339     98%             8      2%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    71,513        70,741     99%           772      1%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       26,137        25,641    98%            248      1%         56      0%        108          0%              1      0%         83       0%
        Claiborne County   Borrowers            60            58    97%              2      3%          0      0%          0          0%              0      0%          0       0%
                           Farms             1,565         1,550    99%              9      1%          0      0%          0          0%              0      0%          6       0%
                           Land in Farms   142,729       142,327   100%              0      0%          0      0%          0          0%              0      0%        402       0%

        TN                 Population        7,238         7,083    98%            116      2%         11      0%              1      0%              0      0%         27       0%
        Clay County        Borrowers            45            45   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               507           507   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    70,483        70,483   100%              0      0%          0      0%              0      0%              0      0%          0       0%

        TN                 Population       29,141        28,278    97%            612      2%         77      0%         28          0%              2      0%        144       0%
        Cocke County       Borrowers            17            17   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               995           990    99%              5      1%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    84,029        83,470    99%            559      1%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       40,339        38,257    95%          1,492      4%         81      0%        245          1%              3      0%        261       1%
        Coffee County      Borrowers            22            22   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               838           835   100%              3      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   132,388       132,145   100%            243      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1471
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                  Population       13,378        11,064     83%         2,250     17%              9      0%              4      0%              2      0%         49       0%
        Crockett County     Borrowers           101            91     90%             9      9%              0      0%              0      0%              1      1%          0       0%
                            Farms               425           417     98%             8      2%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms   144,918       143,165     99%         1,753      1%              0      0%              0      0%              0      0%          0       0%

        TN                  Population       34,736        34,384    99%             42      0%        136          0%         46          0%              4      0%        124       0%
        Cumberland County   Borrowers            37            37   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               639           639   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    96,874        96,874   100%              0      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population      510,784       378,925    74%        118,813     23%      1,089          0%      6,916          1%        266          0%      4,775       1%
        Davidson County     Borrowers             2             2   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                            Farms               440           427    97%             13      3%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms    47,319        46,591    98%            728      2%          0          0%          0          0%          0          0%          0       0%

        TN                  Population       10,472         9,961    95%            417      4%         23          0%         21          0%              1      0%         49       0%
        Decatur County      Borrowers            22            22   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               443           443   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    86,858        86,858   100%              0      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       14,360        14,049    98%            215      1%         19          0%         12          0%              3      0%         62       0%
        De Kalb County      Borrowers            81            80    99%              1      1%          0          0%          0          0%              0      0%          0       0%
                            Farms               775           772   100%              0      0%          0          0%          0          0%              0      0%          3       0%
                            Land in Farms    95,818        95,818   100%              0      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       35,061        33,008    94%          1,741      5%         63          0%         71          0%              1      0%        177       1%
        Dickson County      Borrowers            28            28   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,012         1,001    99%             11      1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   144,267       143,190    99%          1,077      1%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       34,854        30,455    87%          4,138     12%         61          0%         58          0%              5      0%        137       0%
        Dyer County         Borrowers            44            43    98%              0      0%          0          0%          0          0%              1      2%          0       0%
                            Farms               510           507    99%              3      1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   230,906       230,874   100%             32      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       25,559        14,157    55%         11,224     44%         32          0%         15          0%              1      0%        130       1%
        Fayette County      Borrowers           104            77    74%             27     26%          0          0%          0          0%              0      0%          0       0%
                            Farms               671           613    91%             58      9%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   258,265       258,265   100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1472
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                Population       14,669        14,600   100%              2      0%              9      0%         18          0%              1      0%         39       0%
        Fentress County   Borrowers            67            67   100%              0      0%              0      0%          0          0%              0      0%          0       0%
                          Farms               453           449    99%              4      1%              0      0%          0          0%              0      0%          0       0%
                          Land in Farms    70,457        70,297   100%            160      0%              0      0%          0          0%              0      0%          0       0%

        TN                Population       34,725        32,292    93%          2,086      6%         51          0%         95          0%         14          0%        187       1%
        Franklin County   Borrowers            56            54    96%              1      2%          1          2%          0          0%          0          0%          0       0%
                          Farms             1,022         1,013    99%              9      1%          0          0%          0          0%          0          0%          0       0%
                          Land in Farms   135,469       135,354   100%            115      0%          0          0%          0          0%          0          0%          0       0%

        TN                Population       46,315        37,116    80%          8,919     19%         37          0%         59          0%              3      0%        181       0%
        Gibson County     Borrowers            90            83    92%              7      8%          0          0%          0          0%              0      0%          0       0%
                          Farms               898           879    98%             19      2%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms   272,121       270,897   100%          1,224      0%          0          0%          0          0%              0      0%          0       0%

        TN                Population       25,741        22,119     86%         3,397     13%         51          0%         61          0%              4      0%        109       0%
        Giles County      Borrowers            44            38     86%             6     14%          0          0%          0          0%              0      0%          0       0%
                          Farms             1,426         1,378     97%            42      3%          0          0%          0          0%              0      0%          6       0%
                          Land in Farms   256,272       251,530     98%         4,220      2%          0          0%          0          0%              0      0%        522       0%

        TN                Population       17,095        16,902    99%            102      1%         42          0%              8      0%              0      0%         41       0%
        Grainger County   Borrowers            22            22   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                          Farms             1,242         1,242   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms   104,457       104,457   100%              0      0%          0          0%              0      0%              0      0%          0       0%

        TN                Population       55,853        54,323    97%          1,202      2%         89          0%         69          0%              7      0%        163       0%
        Greene County     Borrowers            51            50    98%              1      2%          0          0%          0          0%              0      0%          0       0%
                          Farms             3,380         3,364   100%              7      0%          0          0%          0          0%              0      0%          9       0%
                          Land in Farms   236,912       236,387   100%              0      0%          0          0%          0          0%              0      0%        525       0%

        TN                Population       13,362        13,243    99%             18      0%         27          0%              6      0%              0      0%         68       1%
        Grundy County     Borrowers            36            36   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                          Farms               353           353   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms    42,735        42,735   100%              0      0%          0          0%              0      0%              0      0%          0       0%

        TN                Population       50,480        47,770    95%          2,313      5%         83          0%        126          0%         13          0%        175       0%
        Hamblen County    Borrowers             3             3   100%              0      0%          0          0%          0          0%          0          0%          0       0%
                          Farms               769           761    99%              8      1%          0          0%          0          0%          0          0%          0       0%
                          Land in Farms    57,216        56,987   100%            229      0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1473
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American            Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                 Population      285,536       226,239    79%         54,303     19%        566      0%      2,416          1%         66          0%      1,946       1%
        Hamilton County    Borrowers            11            11   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               559           556    99%              3      1%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    62,542        62,542   100%              0      0%          0      0%          0          0%          0          0%          0       0%

        TN                 Population        6,739         6,564    97%            119      2%         18      0%              1      0%              2      0%         35       1%
        Hancock County     Borrowers            60            59    98%              1      2%          0      0%              0      0%              0      0%          0       0%
                           Farms               736           736   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    80,348        80,348   100%              0      0%          0      0%              0      0%              0      0%          0       0%

        TN                 Population       23,377        14,399     62%         8,724     37%         17      0%         59          0%              3      0%        175       1%
        Hardeman County    Borrowers            73            64     88%             9     12%          0      0%          0          0%              0      0%          0       0%
                           Farms               457           415     91%            39      9%          0      0%          3          1%              0      0%          0       0%
                           Land in Farms   159,927       154,743     97%         5,082      3%          0      0%        102          0%              0      0%          0       0%

        TN                 Population       22,633        21,487    95%            987      4%         34      0%         34          0%              4      0%         87       0%
        Hardin County      Borrowers            15            15   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               517           512    99%              5      1%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   110,215       110,215   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       44,565        43,552    98%            740      2%         77      0%         56          0%              6      0%        134       0%
        Hawkins County     Borrowers            24            24   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms             1,933         1,921    99%              4      0%          3      0%          0          0%              0      0%          5       0%
                           Land in Farms   155,600       155,192   100%              0      0%          0      0%          0          0%              0      0%        408       0%

        TN                 Population       19,437         9,621    49%          9,620     49%         24      0%         13          0%              3      0%        156       1%
        Haywood County     Borrowers           101            66    65%             35     35%          0      0%          0          0%              0      0%          0       0%
                           Farms               432           378    88%             54     13%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   224,247       224,247   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       21,844        19,908    91%          1,799      8%         20      0%         16          0%              1      0%        100       0%
        Henderson County   Borrowers            39            38    97%              1      3%          0      0%          0          0%              0      0%          0       0%
                           Farms               767           756    99%             11      1%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   146,868       146,559   100%            309      0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       27,888        24,862    89%          2,812     10%         50      0%         51          0%              3      0%        110       0%
        Henry County       Borrowers            27            26    96%              1      4%          0      0%          0          0%              0      0%          0       0%
                           Farms               779           767    98%              9      1%          0      0%          0          0%              0      0%          3       0%
                           Land in Farms   191,486       191,065   100%            421      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1474
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                 Population       16,754        15,781    94%            858         5%         38          0%              8      0%              2      0%         67       0%
        Hickman County     Borrowers            19            19   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                           Farms               642           636    99%              6         1%          0          0%              0      0%              0      0%          0       0%
                           Land in Farms   130,167       129,517   100%            650         0%          0          0%              0      0%              0      0%          0       0%

        TN                 Population        7,018         6,701    95%            264         4%              8      0%              4      0%              0      0%         41       1%
        Houston County     Borrowers            19            19   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                           Farms               241           241   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    44,415        44,415   100%              0         0%              0      0%              0      0%              0      0%          0       0%

        TN                 Population       15,795        15,123    96%            550         3%         26          0%         32          0%              1      0%         63       0%
        Humphreys County   Borrowers            18            18   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               505           502    99%              0         0%          0          0%          0          0%              0      0%          3       1%
                           Land in Farms   119,419       118,778    99%              0         0%          0          0%          0          0%              0      0%        641       1%

        TN                 Population        9,297         9,212    99%                 7      0%         19          0%         19          0%              2      0%         38       0%
        Jackson County     Borrowers            39            39   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               667           667   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    87,298        87,298   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

        TN                 Population       33,016        31,862    97%            926         3%         75          0%         40          0%         13          0%        100       0%
        Jefferson County   Borrowers            26            25    96%              1         4%          0          0%          0          0%          0          0%          0       0%
                           Farms             1,234         1,221    99%              5         0%          3          0%          0          0%          0          0%          5       0%
                           Land in Farms    98,669        98,503   100%            166         0%          0          0%          0          0%          0          0%          0       0%

        TN                 Population       13,766        13,644    99%             61         0%         14          0%         14          0%              1      0%         32       0%
        Johnson County     Borrowers            34            34   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               828           828   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    54,518        54,518   100%              0         0%          0          0%          0          0%              0      0%          0       0%

        TN                 Population      335,749       300,040    89%         29,483         9%        775          0%      3,263          1%        121          0%      2,067       1%
        Knox County        Borrowers             5             4    80%              0         0%          0          0%          0          0%          1         20%          0       0%
                           Farms             1,157         1,146    99%              4         0%          3          0%          0          0%          0          0%          4       0%
                           Land in Farms    94,254        94,064   100%              0         0%          0          0%          0          0%          0          0%        190       0%

        TN                 Population        7,129         5,408    76%          1,688        24%              4      0%              2      0%              0      0%         27       0%
        Lake County        Borrowers             1             1   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                           Farms                85            85   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    91,343        91,343   100%              0         0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1475
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American            Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                  Population       23,491        15,914    68%          7,250     31%        127      1%         20          0%              2      0%        178       1%
        Lauderdale County   Borrowers            43            37    86%              5     12%          0      0%          0          0%              1      2%          0       0%
                            Farms               472           450    95%             22      5%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   182,754       181,876   100%            878      0%          0      0%          0          0%              0      0%          0       0%

        TN                  Population       35,303        34,545    98%            482      1%         59      0%         72          0%              0      0%        145       0%
        Lawrence County     Borrowers            73            73   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms             1,424         1,415    99%              6      0%          0      0%          0          0%              0      0%          3       0%
                            Land in Farms   196,733       196,000   100%            381      0%          0      0%          0          0%              0      0%        352       0%

        TN                  Population        9,247         9,035    98%            119      1%         24      0%              7      0%              8      0%         54       1%
        Lewis County        Borrowers             4             4   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms               195           195   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms    36,978        36,978   100%              0      0%          0      0%              0      0%              0      0%          0       0%

        TN                  Population       28,157        25,499    91%          2,414      9%         38      0%         63          0%              6      0%        137       0%
        Lincoln County      Borrowers            65            64    98%              1      2%          0      0%          0          0%              0      0%          0       0%
                            Farms             1,578         1,540    98%             33      2%          0      0%          0          0%              0      0%          5       0%
                            Land in Farms   275,219       274,820   100%              0      0%          0      0%          0          0%              0      0%        399       0%

        TN                  Population       31,255        30,668    98%            400      1%         52      0%         49          0%              3      0%         83       0%
        Loudon County       Borrowers            13            13   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               715           715   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms    73,654        73,654   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                  Population       42,383        39,949    94%          2,041      5%         95      0%        120          0%              4      0%        174       0%
        McMinn County       Borrowers            41            41   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               970           964    99%              0      0%          3      0%          0          0%              0      0%          3       0%
                            Land in Farms   123,557       123,302   100%              0      0%          0      0%          0          0%              0      0%        255       0%

        TN                  Population       22,422        20,836    93%          1,430      6%         21      0%         40          0%              0      0%         95       0%
        McNairy County      Borrowers            53            50    94%              3      6%          0      0%          0          0%              0      0%          0       0%
                            Farms               605           592    98%             13      2%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms   121,848       121,848   100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                  Population       15,906        15,778     99%            44      0%         34      0%         10          0%              1      0%         39       0%
        Macon County        Borrowers            69            68     99%             0      0%          0      0%          0          0%              1      1%          0       0%
                            Farms             1,359         1,348     99%             3      0%          4      0%          0          0%              0      0%          4       0%
                            Land in Farms   138,618       137,618     99%           106      0%        138      0%          0          0%              0      0%        756       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1476
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                  Population       77,982        53,219     68%        24,065     31%         64          0%        245          0%         13          0%        376       0%
        Madison County      Borrowers            77            56     73%            19     25%          0          0%          0          0%          2          3%          0       0%
                            Farms               505           467     92%            38      8%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   141,357       136,491     97%         4,866      3%          0          0%          0          0%          0          0%          0       0%

        TN                  Population       24,860        23,678    95%          1,029      4%         36          0%         31          0%              1      0%         85       0%
        Marion County       Borrowers            24            24   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               278           278   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    50,767        50,767   100%              0      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       21,539        19,462     90%         1,906      9%         24          0%         53          0%              2      0%         92       0%
        Marshall County     Borrowers            18            17     94%             1      6%          0          0%          0          0%              0      0%          0       0%
                            Farms               960           953     99%             7      1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms   161,902       160,616     99%         1,286      1%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       54,812        45,662    83%          8,597     16%         70          0%        153          0%              7      0%        323       1%
        Maury County        Borrowers            22            20    91%              2      9%          0          0%          0          0%              0      0%          0       0%
                            Farms             1,506         1,454    97%             49      3%          0          0%          0          0%              0      0%          3       0%
                            Land in Farms   245,681       245,457   100%              0      0%          0          0%          0          0%              0      0%        224       0%

        TN                  Population        8,033         7,868    98%            118      1%         28          0%              2      0%              0      0%         17       0%
        Meigs County        Borrowers            11            11   100%              0      0%          0          0%              0      0%              0      0%          0       0%
                            Farms               319           316    99%              3      1%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms    56,253        56,047   100%            206      0%          0          0%              0      0%              0      0%          0       0%

        TN                  Population       30,541        29,468    96%            831      3%         47          0%         70          0%              2      0%        123       0%
        Monroe County       Borrowers            22            22   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               881           870    99%              4      0%          0          0%          0          0%              0      0%          7       1%
                            Land in Farms   100,176        99,710   100%              0      0%          0          0%          0          0%              0      0%        466       0%

        TN                  Population      100,498        77,505    77%         17,580     17%        370          0%      1,728          2%         87          0%      3,228       3%
        Montgomery County   Borrowers            60            48    80%             12     20%          0          0%          0          0%          0          0%          0       0%
                            Farms               941           873    93%             60      6%          0          0%          0          0%          0          0%          8       1%
                            Land in Farms   174,807       173,967   100%              0      0%          0          0%          0          0%          0          0%        840       0%

        TN                  Population        4,721         4,518    96%            174      4%              7      0%              2      0%              0      0%         20       0%
        Moore County        Borrowers             9             9   100%              0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               359           345    96%             14      4%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    48,098        46,746    97%          1,352      3%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1477
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                Population       17,300        16,907    98%            263         2%         45          0%         24          0%              1      0%         60       0%
        Morgan County     Borrowers            23            23   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                          Farms               300           300   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    43,202        43,202   100%              0         0%          0          0%          0          0%              0      0%          0       0%

        TN                Population       31,717        28,241    89%          3,238        10%         47          0%         47          0%              6      0%        138       0%
        Obion County      Borrowers            83            83   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                          Farms               697           689    99%              0         0%          0          0%          0          0%              0      0%          8       1%
                          Land in Farms   257,000       254,851    99%              0         0%          0          0%          0          0%              0      0%      2,149       1%

        TN                Population       17,636        17,519    99%             30         0%         10          0%              4      0%              0      0%         73       0%
        Overton County    Borrowers            85            84    99%              0         0%          0          0%              0      0%              1      1%          0       0%
                          Farms               818           818   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms   105,519       105,519   100%              0         0%          0          0%              0      0%              0      0%          0       0%

        TN                Population        6,612         6,442    97%            119         2%              8      0%              7      0%              0      0%         36       1%
        Perry County      Borrowers            14            14   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                          Farms               219           219   100%              0         0%              0      0%              0      0%              0      0%          0       0%
                          Land in Farms    53,026        53,026   100%              0         0%              0      0%              0      0%              0      0%          0       0%

        TN                Population        4,548         4,529   100%                 0      0%              4      0%              2      0%              0      0%         13       0%
        Pickett County    Borrowers            86            86   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                          Farms               395           395   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                          Land in Farms    37,550        37,550   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

        TN                Population       13,643        13,540    99%                 0      0%         25          0%         42          0%              0      0%         36       0%
        Polk County       Borrowers            16            16   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                          Farms               251           251   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    31,368        31,368   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

        TN                Population       51,373        49,660    97%            873         2%         79          0%        454          1%         13          0%        294       1%
        Putnam County     Borrowers            18            18   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                          Farms             1,081         1,075    99%              0         0%          3          0%          0          0%          0          0%          3       0%
                          Land in Farms   116,696       116,478   100%              0         0%        128          0%          0          0%          0          0%         90       0%

        TN                Population       24,344        23,517    97%            578         2%         54          0%         52          0%         11          0%        132       1%
        Rhea County       Borrowers            19            19   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                          Farms               346           346   100%              0         0%          0          0%          0          0%          0          0%          0       0%
                          Land in Farms    52,462        52,462   100%              0         0%          0          0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1478
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                  Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        TN                  Population       47,227        45,274    96%          1,456         3%         95          0%        186          0%              4      0%        212       0%
        Roane County        Borrowers             7             7   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               510           506    99%              4         1%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    52,433        52,152    99%            281         1%          0          0%          0          0%              0      0%          0       0%

        TN                  Population       41,494        36,672     88%         4,536        11%         59          0%         42          0%         12          0%        173       0%
        Robertson County    Borrowers            83            79     95%             3         4%          0          0%          0          0%          1          1%          0       0%
                            Farms             1,447         1,410     97%            34         2%          0          0%          3          0%          0          0%          0       0%
                            Land in Farms   233,312       230,200     99%         2,139         1%          0          0%        973          0%          0          0%          0       0%

        TN                  Population      118,570       105,139     89%        10,602         9%        213          0%      1,641          1%         49          0%        926       1%
        Rutherford County   Borrowers            24            22     92%             2         8%          0          0%          0          0%          0          0%          0       0%
                            Farms             1,417         1,377     97%            36         3%          4          0%          0          0%          0          0%          0       0%
                            Land in Farms   200,097       197,758     99%         1,802         1%        537          0%          0          0%          0          0%          0       0%

        TN                  Population       18,358        18,234    99%                 5      0%         67          0%         11          0%              3      0%         38       0%
        Scott County        Borrowers             5             5   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms               235           235   100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms    32,714        32,714   100%                 0      0%          0          0%          0          0%              0      0%          0       0%

        TN                  Population        8,863         8,827   100%                 2      0%              4      0%              5      0%              0      0%         25       0%
        Sequatchie County   Borrowers            10            10   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Farms               164           164   100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms    24,832        24,832   100%                 0      0%              0      0%              0      0%              0      0%          0       0%

        TN                  Population       51,043        50,266    98%            215         0%        128          0%        193          0%              4      0%        237       0%
        Sevier County       Borrowers             4             4   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                            Farms               863           853    99%              3         0%          0          0%          0          0%              0      0%          7       1%
                            Land in Farms    74,107        73,488    99%            318         0%          0          0%          0          0%              0      0%        301       0%

        TN                  Population      826,330       451,209     55%       358,827        43%      1,416          0%      7,506          1%        281          0%      7,091       1%
        Shelby County       Borrowers            25            18     72%             7        28%          0          0%          0          0%          0          0%          0       0%
                            Farms               609           562     92%            47         8%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms   144,953       137,517     95%         7,436         5%          0          0%          0          0%          0          0%          0       0%

        TN                  Population       14,143        13,589     96%           459         3%         36          0%              9      0%              2      0%         48       0%
        Smith County        Borrowers            48            44     92%             4         8%          0          0%              0      0%              0      0%          0       0%
                            Farms             1,115         1,102     99%            13         1%          0          0%              0      0%              0      0%          0       0%
                            Land in Farms   150,309       149,358     99%           951         1%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1479
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American               Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                 Population        9,479         9,252    98%             96         1%         56      1%         25          0%              2      0%         48       1%
        Stewart County     Borrowers            21            21   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                           Farms               342           342   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    53,795        53,795   100%              0         0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population      143,596       139,678    97%          2,551         2%        358      0%        479          0%              9      0%        521       0%
        Sullivan County    Borrowers             3             3   100%              0         0%          0      0%          0          0%              0      0%          0       0%
                           Farms             1,331         1,326   100%              0         0%          0      0%          0          0%              0      0%          5       0%
                           Land in Farms    92,773        92,597   100%              0         0%          0      0%          0          0%              0      0%        176       0%

        TN                 Population      103,281        96,630    94%          5,539         5%        185      0%        345          0%         15          0%        567       1%
        Sumner County      Borrowers            29            29   100%              0         0%          0      0%          0          0%          0          0%          0       0%
                           Farms             1,669         1,639    98%             21         1%          0      0%          3          0%          0          0%          6       0%
                           Land in Farms   177,522       176,933   100%            409         0%          0      0%          0          0%          0          0%        180       0%

        TN                 Population       37,568        28,280    75%          8,823        23%        112      0%         96          0%              4      0%        253       1%
        Tipton County      Borrowers            57            45    79%             12        21%          0      0%          0          0%              0      0%          0       0%
                           Farms               588           552    94%             32         5%          0      0%          0          0%              0      0%          4       1%
                           Land in Farms   183,178       183,178   100%              0         0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population        5,920         5,016     85%           851        14%         14      0%              6      0%              2      0%         31       1%
        Trousdale County   Borrowers            14            12     86%             2        14%          0      0%              0      0%              0      0%          0       0%
                           Farms               389           377     97%            12         3%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    55,097        54,323     99%           774         1%          0      0%              0      0%              0      0%          0       0%

        TN                 Population       16,549        16,421    99%                 3      0%         10      0%         14          0%              4      0%         97       1%
        Unicoi County      Borrowers             0             0     0%                 0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms               237           237   100%                 0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    11,292        11,292   100%                 0      0%          0      0%          0          0%              0      0%          0       0%

        TN                 Population       13,694        13,624    99%                 3      0%         23      0%              5      0%              1      0%         38       0%
        Union County       Borrowers            12            12   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               541           541   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    49,452        49,452   100%                 0      0%          0      0%              0      0%              0      0%          0       0%

        TN                 Population        4,846         4,815    99%                 5      0%         16      0%              0      0%              0      0%         10       0%
        Van Buren County   Borrowers            19            19   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms               210           210   100%                 0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    32,892        32,892   100%                 0      0%          0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1480
DEMOGRAPHICS OF STATES AND COUNTIES
                                                               White             African American Native American            Asian                  Other                 Hispanic
                                              Total        Number      Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        TN                  Population         32,992        31,414     95%          1,125      3%         51      0%        115          0%         11          0%        276       1%
        Warren County       Borrowers             136           130     96%              4      3%          1      1%          0          0%          1          1%          0       0%
                            Farms               1,313         1,295     99%             11      1%          0      0%          0          0%          0          0%          7       1%
                            Land in Farms     165,309       165,001    100%              0      0%          0      0%          0          0%          0          0%        308       0%

        TN                  Population         92,315        88,047     95%          3,268      4%        146      0%        369          0%         14          0%        471       1%
        Washington County   Borrowers              25            25    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Farms               1,856         1,856    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms     117,608       117,608    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        TN                  Population         13,935        13,719     98%            137      1%         15      0%              9      0%              3      0%         52       0%
        Wayne County        Borrowers              18            18    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms                 617           617    100%              0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms     125,092       125,092    100%              0      0%          0      0%              0      0%              0      0%          0       0%

        TN                  Population         31,972        29,300     92%          2,214      7%         39      0%        275          1%         16          0%        128       0%
        Weakley County      Borrowers              76            74     97%              1      1%          0      0%          0          0%          1          1%          0       0%
                            Farms                 857           857    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms     204,146       204,146    100%              0      0%          0      0%          0          0%          0          0%          0       0%

        TN                  Population         20,090        19,587     97%            378      2%         24      0%         25          0%              2      0%         74       0%
        White County        Borrowers              52            51     98%              1      2%          0      0%          0          0%              0      0%          0       0%
                            Farms               1,043         1,043    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms     123,792       123,792    100%              0      0%          0      0%          0          0%              0      0%          0       0%

        TN                  Population         81,021        74,519     92%          5,378      7%        130      0%        461          1%         11          0%        522       1%
        Williamson County   Borrowers              17            14     82%              3     18%          0      0%          0          0%          0          0%          0       0%
                            Farms               1,296         1,272     98%             21      2%          0      0%          0          0%          0          0%          3       0%
                            Land in Farms     204,391       204,131    100%              0      0%          0      0%          0          0%          0          0%        260       0%

        TN                  Population         67,675        62,266     92%          4,589      7%        178      0%        252          0%              4      0%        386       1%
        Wilson County       Borrowers              28            28    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms               1,637         1,604     98%             28      2%          0      0%          0          0%              0      0%          5       0%
                            Land in Farms     214,497       213,461    100%              0      0%          0      0%          0          0%              0      0%      1,036       0%

        TN                  Population       4,877,185     4,027,631    83%        774,925     16%      9,685      0%     30,938          1%      1,265          0%     32,741       1%
        STATE               Borrowers            3,331         3,125    94%            192      6%          2      0%          0          0%         11          0%          1       0%
                            Farms               75,076        73,992    99%            915      1%         23      0%          9          0%          0          0%        137       0%
                            Land in Farms   11,169,086    11,113,576   100%         42,305      0%        803      0%      1,075          0%          0          0%     11,327       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1481
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ANDERSON, TENNESSEE                                BEDFORD, TENNESSEE                                 BENTON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            1                       0                         38                     12                         9                      4
                              Loans                                1                       0                         83                     28                     19                        10
                              Principal and Interest    187,689                            0             4,113,144                   237,711                882,553                     32,395

WHITE                         Borrowers                            1     100%              0      0%                 35     92%             12   100%                  9   100%               4   100%
                              Loans                                1     100%              0      0%                 78     94%             28   100%              19      100%              10   100%
                              Principal and Interest    187,689          100%              0      0%     3,758,479          91%      237,711     100%       882,553        100%         32,395    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  2      5%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  4      5%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%       313,030           8%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  1      3%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  1      1%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%        41,635           1%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1482
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         BLEDSOE, TENNESSEE                                 BLOUNT, TENNESSEE                               BRADLEY, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        36                         14                         3                      0                     29                         5
                              Loans                            76                         31                         5                      0                     62                        11
                              Principal and Interest   4,662,273                    512,539                261,345                          0             4,526,634                  406,615

WHITE                         Borrowers                        36        100%             14   100%                  3   100%               0      0%             28        97%              5   100%
                              Loans                            76        100%             31   100%                  5   100%               0      0%             59        95%             11   100%
                              Principal and Interest   4,662,273         100%       512,539    100%        261,345       100%               0      0%     4,116,569         91%      406,615     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                 0      0%              0      0%                 1      3%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 3      5%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%      410,065           9%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1483
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CAMPBELL, TENNESSEE                                  CANNON, TENNESSEE                                CARROLL, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            2                       1                         23                      6                     53                        15
                              Loans                                2                       1                         46                     13                    133                        51
                              Principal and Interest     76,457                          674             2,762,782                   161,967               7,693,712                 1,409,737

WHITE                         Borrowers                            2     100%              1   100%                  23   100%               6   100%              49        92%             13     87%
                              Loans                                2     100%              1   100%                  46   100%              13   100%             125        94%             47     92%
                              Principal and Interest     76,457          100%            674   100%      2,762,782        100%       161,967     100%      7,539,549         98%     1,388,405      98%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 4      8%              2     13%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 8      6%              4      8%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%      154,164           2%        21,332       2%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1484
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CARTER, TENNESSEE                              CHEATHAM, TENNESSEE                                CHESTER, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            5                       2                         4                      2                     24                        10
                              Loans                                8                       3                         7                      4                     44                        18
                              Principal and Interest    217,902                       6,703                458,174                  207,537               1,701,060                  190,475

WHITE                         Borrowers                            5     100%              2   100%                  4   100%               2   100%              23        96%              9     90%
                              Loans                                8     100%              3   100%                  7   100%               4   100%              42        95%             17     94%
                              Principal and Interest    217,902          100%         6,703    100%        458,174       100%       207,537     100%      1,696,861       100%       189,718     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                 0      0%              0      0%                 1      4%              1     10%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 2      5%              1      6%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%         4,199          0%            757      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1485
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CLAIBORNE, TENNESSEE                                    CLAY, TENNESSEE                                 COCKE, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        60                          7                         45                     12                     17                         7
                              Loans                            99                         16                         74                     20                     29                        11
                              Principal and Interest   3,651,172                    291,034              2,793,508                   132,518               1,777,590                  104,078

WHITE                         Borrowers                        58         97%              7   100%                  45   100%              12   100%              17      100%               7   100%
                              Loans                            97         98%             16   100%                  74   100%              20   100%              29      100%              11   100%
                              Principal and Interest   3,629,400          99%       291,034    100%      2,793,508        100%       132,518     100%      1,777,590       100%       104,078     100%

AFRICAN AMERICAN              Borrowers                            2       3%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                2       2%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     21,772            1%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1486
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           COFFEE, TENNESSEE                              CROCKETT, TENNESSEE                               CUMBERLAND, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        22                         10                     101                         24                     37                         9
                              Loans                            64                         42                     202                         64                     67                        20
                              Principal and Interest   5,587,115                  1,216,864              13,417,083                  1,997,476              5,719,216                  248,343

WHITE                         Borrowers                        22        100%             10   100%                   91     90%             21     88%             37      100%               9   100%
                              Loans                            64        100%             42   100%              185         92%             59     92%             67      100%              20   100%
                              Principal and Interest   5,587,115         100%     1,216,864    100%      11,801,788          88%     1,893,475      95%     5,719,216       100%       248,343     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                   9      9%              3     13%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  15      7%              5      8%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%      1,386,901          10%      104,002        5%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                   1      1%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   2      1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%        228,395           2%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1487
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        DAVIDSON, TENNESSEE                                 DE KALB, TENNESSEE                               DECATUR, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            2                       1                         81                     12                     22                         2
                              Loans                                4                       3                    156                         24                     43                         4
                              Principal and Interest    474,864                     145,206              6,863,748                   181,660               1,690,288                    11,679

WHITE                         Borrowers                            2     100%              1   100%                  80     99%             12   100%              22      100%               2   100%
                              Loans                                4     100%              3   100%             154         99%             24   100%              43      100%               4   100%
                              Principal and Interest    474,864          100%       145,206    100%      6,859,809        100%       181,660     100%      1,690,288       100%         11,679    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  1      1%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  2      1%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%          3,938          0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1488
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         DICKSON, TENNESSEE                                    DYER, TENNESSEE                                FAYETTE, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        28                          7                         44                      8                     104                        40
                              Loans                            54                          9                         71                     15                     242                       111
                              Principal and Interest   2,240,841                     20,063              4,137,235                   155,187               13,123,496                 3,732,480

WHITE                         Borrowers                        28        100%              7   100%                  43     98%              8   100%               77        74%             29     73%
                              Loans                            54        100%              9   100%                  70     99%             15   100%              180        74%             86     77%
                              Principal and Interest   2,240,841         100%        20,063    100%      3,950,180          95%      155,187     100%      11,380,198         87%     3,357,631      90%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%              27        26%             11     28%
                              Loans                                0       0%              0      0%                  0      0%              0      0%              62        26%             25     23%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%      1,743,299         13%      374,849       10%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  1      2%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  1      1%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%       187,055           5%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1489
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         FENTRESS, TENNESSEE                              FRANKLIN, TENNESSEE                                  GIBSON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        67                         22                         56                     14                     90                        16
                              Loans                          122                          38                         92                     20                    177                        30
                              Principal and Interest   4,391,962                    515,988              3,699,297                   135,198               9,822,413                  347,507

WHITE                         Borrowers                        67        100%             22   100%                  54     96%             13     93%             83        92%             12     75%
                              Loans                          122         100%             38   100%                  88     96%             19     95%            163        92%             26     87%
                              Principal and Interest   4,391,962         100%       515,988    100%      3,602,349          97%      135,180     100%      9,549,862         97%      341,662       98%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  1      2%              1      7%                 7      8%              4     25%
                              Loans                                0       0%              0      0%                  2      2%              1      5%             14         8%              4     13%
                              Principal and Interest               0       0%              0      0%          8,922          0%             18      0%      272,551           3%         5,846       2%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  1      2%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  2      2%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%        88,027           2%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1490
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             GILES, TENNESSEE                             GRAINGER, TENNESSEE                                 GREENE, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        44                         11                         22                      3                     51                        21
                              Loans                            77                         20                         29                      4                    116                        45
                              Principal and Interest   6,107,386                    735,800                773,997                      2,138              6,720,431                 1,101,826

WHITE                         Borrowers                        38         86%             10     91%                 22   100%               3   100%              50        98%             20     95%
                              Loans                            69         90%             19     95%                 29   100%               4   100%             115        99%             44     98%
                              Principal and Interest   5,787,646          95%       726,063      99%       773,997        100%          2,138    100%      6,608,705         98%     1,096,603    100%

AFRICAN AMERICAN              Borrowers                            6      14%              1      9%                  0      0%              0      0%                 1      2%              1      5%
                              Loans                                8      10%              1      5%                  0      0%              0      0%                 1      1%              1      2%
                              Principal and Interest    319,740            5%         9,738       1%                  0      0%              0      0%      111,727           2%         5,223       0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1491
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          GRUNDY, TENNESSEE                               HAMBLEN, TENNESSEE                              HAMILTON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        36                         13                         3                      1                     11                         6
                              Loans                            67                         21                         4                      1                     18                        10
                              Principal and Interest   1,916,237                     48,824                435,315                  178,630                884,847                     88,204

WHITE                         Borrowers                        36        100%             13   100%                  3   100%               1   100%              11      100%               6   100%
                              Loans                            67        100%             21   100%                  4   100%               1   100%              18      100%              10   100%
                              Principal and Interest   1,916,237         100%        48,824    100%        435,315       100%       178,630     100%       884,847        100%         88,204    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1492
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HANCOCK, TENNESSEE                              HARDEMAN, TENNESSEE                                  HARDIN, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        60                         16                         73                     27                     15                         3
                              Loans                            92                         25                    117                         45                     30                         4
                              Principal and Interest   2,130,538                     47,323              6,340,082                   571,921                898,548                         574

WHITE                         Borrowers                        59         98%             15     94%                 64     88%             26     96%             15      100%               3   100%
                              Loans                            88         96%             21     84%            100         85%             43     96%             30      100%               4   100%
                              Principal and Interest   2,031,468          95%        41,903      89%     5,954,485          94%      568,659       99%      898,548        100%             574   100%

AFRICAN AMERICAN              Borrowers                            1       2%              1      6%                  9     12%              1      4%                 0      0%              0      0%
                              Loans                                4       4%              4     16%                 17     15%              2      4%                 0      0%              0      0%
                              Principal and Interest     99,070            5%         5,420      11%       385,597           6%         3,262       1%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1493
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         HAWKINS, TENNESSEE                                HAYWOOD, TENNESSEE                               HENDERSON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        24                          5                     101                         51                     39                        13
                              Loans                            42                         16                     239                        131                     81                        29
                              Principal and Interest   1,367,866                     46,662              13,072,579                  1,832,155              3,444,467                  700,483

WHITE                         Borrowers                        24        100%              5   100%                   66     65%             28     55%             38        97%             12     92%
                              Loans                            42        100%             16   100%              147         62%             76     58%             80        99%             28     97%
                              Principal and Interest   1,367,866         100%        46,662    100%      10,489,339          80%     1,414,713      77%     3,404,309         99%      699,965     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  35     35%             23     45%                 1      3%              1      8%
                              Loans                                0       0%              0      0%                  92     38%             55     42%                 1      1%              1      3%
                              Principal and Interest               0       0%              0      0%      2,583,240          20%      417,443       23%        40,158          1%            519      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1494
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HENRY, TENNESSEE                                HICKMAN, TENNESSEE                                HOUSTON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        27                         11                         19                      1                     19                         3
                              Loans                            57                         20                         28                      1                     26                         3
                              Principal and Interest   3,519,202                    313,072                840,016                         345              541,540                      5,719

WHITE                         Borrowers                        26         96%             11   100%                  19   100%               1   100%              19      100%               3   100%
                              Loans                            56         98%             20   100%                  28   100%               1   100%              26      100%               3   100%
                              Principal and Interest   3,512,145         100%       313,072    100%        840,016        100%             345   100%       541,540        100%          5,719    100%

AFRICAN AMERICAN              Borrowers                            1       4%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                1       2%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       7,057           0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1495
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HUMPHREYS, TENNESSEE                                JACKSON, TENNESSEE                              JEFFERSON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        18                          4                         39                      8                     26                         9
                              Loans                            25                          6                         72                     12                     64                        23
                              Principal and Interest    749,815                       4,802              1,880,822                     56,536              6,509,373                  462,453

WHITE                         Borrowers                        18        100%              4   100%                  39   100%               8   100%              25        96%              9   100%
                              Loans                            25        100%              6   100%                  72   100%              12   100%              62        97%             23   100%
                              Principal and Interest    749,815          100%         4,802    100%      1,880,822        100%         56,536    100%      6,401,642         98%      462,453     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 1      4%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 2      3%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%      107,731           2%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1496
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         JOHNSON, TENNESSEE                                    KNOX, TENNESSEE                                  LAKE, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        34                         14                         5                      0                         1                      1
                              Loans                            59                         20                         6                      0                     10                        10
                              Principal and Interest   2,081,551                     52,951                450,277                          0              357,809                   198,387

WHITE                         Borrowers                        34        100%             14   100%                  4     80%              0      0%                 1   100%               1   100%
                              Loans                            59        100%             20   100%                  5     83%              0      0%             10      100%              10   100%
                              Principal and Interest   2,081,551         100%        52,951    100%        385,659         86%              0      0%      357,809        100%       198,387     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                 1     20%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 1     17%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%        64,618         14%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1497
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       LAUDERDALE, TENNESSEE                             LAWRENCE, TENNESSEE                                    LEWIS, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        43                         17                         73                     21                         4                      0
                              Loans                            75                         32                    133                         38                         6                      0
                              Principal and Interest   2,553,465                    325,530              5,492,020                   316,869                  86,365                          0

WHITE                         Borrowers                        37         86%             12     71%                 73   100%              21   100%                  4   100%               0      0%
                              Loans                            62         83%             25     78%            133       100%              38   100%                  6   100%               0      0%
                              Principal and Interest   2,135,486          84%       248,398      76%     5,492,020        100%       316,869     100%         86,365       100%               0      0%

AFRICAN AMERICAN              Borrowers                            5      12%              5     29%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                            10         13%              7     22%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    257,445           10%        77,132      24%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            1       2%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                3       4%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    160,534            6%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1498
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         LINCOLN, TENNESSEE                                 LOUDON, TENNESSEE                                  MACON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        65                         16                         13                      3                     69                        15
                              Loans                          121                          28                         18                      5                     98                        25
                              Principal and Interest   7,281,371                    489,588              1,311,641                     11,847              3,393,811                  372,097

WHITE                         Borrowers                        64         98%             15     94%                 13   100%               3   100%              68        99%             15   100%
                              Loans                          119          98%             27     96%                 18   100%               5   100%              97        99%             25   100%
                              Principal and Interest   7,273,844         100%       489,563    100%      1,311,641        100%         11,847    100%      3,355,263         99%      372,097     100%

AFRICAN AMERICAN              Borrowers                            1       2%              1      6%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                2       2%              1      4%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       7,527           0%             25      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 1      1%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 1      1%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%        38,548          1%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1499
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MADISON, TENNESSEE                                 MARION, TENNESSEE                               MARSHALL, TENNESSEE
                                                        Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         77                         45                         24                      7                     18                         6
                              Loans                           209                         121                         51                     11                     40                        20
                              Principal and Interest   11,259,830                  1,741,286              1,984,864                   286,037               2,583,786                  316,241

WHITE                         Borrowers                         56         73%             31     69%                 24   100%               7   100%              17        94%              5     83%
                              Loans                           143          68%             78     64%                 51   100%              11   100%              33        83%             13     65%
                              Principal and Interest    8,119,157          72%       996,356      57%     1,984,864        100%       286,037     100%      2,223,967         86%      253,932       80%

AFRICAN AMERICAN              Borrowers                         19         25%             13     29%                  0      0%              0      0%                 1      6%              1     17%
                              Loans                             52         25%             30     25%                  0      0%              0      0%                 7     18%              7     35%
                              Principal and Interest    1,984,326          18%       193,233      11%                  0      0%              0      0%      359,819          14%        62,309      20%

NATIVE AMERICAN               Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                             2       3%              1      2%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                             14          7%             13     11%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    1,156,347          10%       551,697      32%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1500
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MAURY, TENNESSEE                                 MCMINN, TENNESSEE                                MCNAIRY, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        22                          6                         41                     12                     53                        15
                              Loans                            58                         18                         68                     18                    110                        26
                              Principal and Interest   2,861,330                    255,976              5,861,862                   763,935               4,766,502                  173,031

WHITE                         Borrowers                        20         91%              5     83%                 41   100%              12   100%              50        94%             13     87%
                              Loans                            53         91%             17     94%                 68   100%              18   100%             103        94%             24     92%
                              Principal and Interest   2,677,846          94%       244,850      96%     5,861,862        100%       763,935     100%      4,686,939         98%      172,012       99%

AFRICAN AMERICAN              Borrowers                            2       9%              1     17%                  0      0%              0      0%                 3      6%              2     13%
                              Loans                                5       9%              1      6%                  0      0%              0      0%                 7      6%              2      8%
                              Principal and Interest    183,484            6%        11,126       4%                  0      0%              0      0%        79,563          2%         1,018       1%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1501
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            MEIGS, TENNESSEE                                MONROE, TENNESSEE                              MONTGOMERY, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        11                          2                         22                     12                      60                        15
                              Loans                            23                          4                         63                     39                     133                        53
                              Principal and Interest   1,597,254                      1,579              5,251,229                  1,111,136              6,649,794                   636,517

WHITE                         Borrowers                        11        100%              2   100%                  22   100%              12   100%               48        80%             12     80%
                              Loans                            23        100%              4   100%                  63   100%              39   100%               86        65%             19     36%
                              Principal and Interest   1,597,254         100%         1,579    100%      5,251,229        100%      1,111,136    100%      5,857,753          88%      322,301       51%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%              12        20%              3     20%
                              Loans                                0       0%              0      0%                  0      0%              0      0%              47        35%             34     64%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%       792,041          12%      314,217       49%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1502
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MOORE, TENNESSEE                                MORGAN, TENNESSEE                                    OBION, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            9                       1                         23                      8                     83                        16
                              Loans                            11                          1                         37                      8                    177                        40
                              Principal and Interest    404,436                       5,010              1,224,410                     21,899              9,745,632                 1,015,928

WHITE                         Borrowers                            9     100%              1   100%                  23   100%               8   100%              83      100%              16   100%
                              Loans                            11        100%              1   100%                  37   100%               8   100%             177      100%              40   100%
                              Principal and Interest    404,436          100%         5,010    100%      1,224,410        100%         21,899    100%      9,745,632       100%      1,015,928    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1503
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         OVERTON, TENNESSEE                                   PERRY, TENNESSEE                                PICKETT, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        85                         21                         14                      3                     86                        16
                              Loans                          147                          36                         17                      4                    132                        26
                              Principal and Interest   6,445,219                    592,069                713,514                     12,235              6,538,769                  721,324

WHITE                         Borrowers                        84         99%             21   100%                  14   100%               3   100%              86      100%              16   100%
                              Loans                          146          99%             36   100%                  17   100%               4   100%             132      100%              26   100%
                              Principal and Interest   6,330,919          98%       592,069    100%        713,514        100%         12,235    100%      6,538,769       100%       721,324     100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            1       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                1       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    114,300            2%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1504
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             POLK, TENNESSEE                                PUTNAM, TENNESSEE                                    RHEA, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        16                          2                         18                      4                     19                         4
                              Loans                            36                          8                         32                     11                     47                         9
                              Principal and Interest   2,326,432                     47,834              1,834,752                   710,801               3,135,824                    19,067

WHITE                         Borrowers                        16        100%              2   100%                  18   100%               4   100%              19      100%               4   100%
                              Loans                            36        100%              8   100%                  32   100%              11   100%              47      100%               9   100%
                              Principal and Interest   2,326,432         100%        47,834    100%      1,834,752        100%       710,801     100%      3,135,824       100%         19,067    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1505
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ROANE, TENNESSEE                               ROBERTSON, TENNESSEE                              RUTHERFORD, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent    Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            7                       1                          83                     28                     24                        14
                              Loans                            23                          1                     184                         66                     64                        36
                              Principal and Interest    941,796                       2,022              14,408,494                  1,519,625              4,081,731                  856,976
WHITE                         Borrowers                            7     100%              1   100%                   79     95%             26     93%             22        92%             12     86%
                              Loans                            23        100%              1   100%              174         95%             58     88%             62        97%             34     94%
                              Principal and Interest    941,796          100%         2,022    100%      13,988,025          97%     1,437,785      95%     3,800,249         93%      637,396       74%
AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                   3      4%              1      4%                 2      8%              2     14%
                              Loans                                0       0%              0      0%                   9      5%              7     11%                 2      3%              2      6%
                              Principal and Interest               0       0%              0      0%        238,584           2%        80,971       5%      281,482           7%      219,580       26%
NATIVE AMERICAN               Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0       0%              0      0%                   1      1%              1      4%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   1      1%              1      2%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%        181,884           1%            869      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                   0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1506
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            SCOTT, TENNESSEE                             SEQUATCHIE, TENNESSEE                                 SEVIER, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            5                       1                         10                      3                         4                      1
                              Loans                                8                       1                         17                      7                         8                      1
                              Principal and Interest    223,822                            1             1,301,797                   140,584                418,624                      1,103

WHITE                         Borrowers                            5     100%              1   100%                  10   100%               3   100%                  4   100%               1   100%
                              Loans                                8     100%              1   100%                  17   100%               7   100%                  8   100%               1   100%
                              Principal and Interest    223,822          100%              1   100%      1,301,797        100%       140,584     100%       418,624        100%          1,103    100%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1507
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           SHELBY, TENNESSEE                                  SMITH, TENNESSEE                               STEWART, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        25                         13                         48                      9                     21                         5
                              Loans                            65                         47                         94                     20                     26                         6
                              Principal and Interest   2,828,013                  1,457,043              4,001,991                     97,098               530,098                     14,104

WHITE                         Borrowers                        18         72%              9     69%                 44     92%              9   100%              21      100%               5   100%
                              Loans                            51         78%             37     79%                 88     94%             20   100%              26      100%               6   100%
                              Principal and Interest   2,434,457          86%     1,382,352      95%     3,910,034          98%        97,098    100%       530,098        100%         14,104    100%

AFRICAN AMERICAN              Borrowers                            7      28%              4     31%                  4      8%              0      0%                 0      0%              0      0%
                              Loans                            14         22%             10     21%                  6      6%              0      0%                 0      0%              0      0%
                              Principal and Interest    393,556           14%        74,691       5%        91,957           2%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1508
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SULLIVAN, TENNESSEE                                 SUMNER, TENNESSEE                                  TIPTON, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                            3                       0                         29                     11                     57                        19
                              Loans                                5                       0                         46                     20                    123                        45
                              Principal and Interest    146,506                            0             2,591,607                     85,852              5,580,417                 1,023,122

WHITE                         Borrowers                            3     100%              0      0%                 29   100%              11   100%              45        79%             13     68%
                              Loans                                5     100%              0      0%                 46   100%              20   100%             101        82%             35     78%
                              Principal and Interest    146,506          100%              0      0%     2,591,607        100%         85,852    100%      4,516,594         81%      511,584       50%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%                  0      0%              0      0%             12        21%              6     32%
                              Loans                                0       0%              0      0%                  0      0%              0      0%             22        18%             10     22%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%     1,063,823         19%      511,538       50%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1509
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TROUSDALE, TENNESSEE                                   UNION, TENNESSEE                             VAN BUREN, TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        14                          4                         12                      3                     19                         5
                              Loans                            27                          7                         16                      6                     46                         7
                              Principal and Interest    899,029                      20,021                844,611                     14,064              2,542,319                  565,541

WHITE                         Borrowers                        12         86%              2     50%                 12   100%               3   100%              19      100%               5   100%
                              Loans                            23         85%              3     43%                 16   100%               6   100%              46      100%               7   100%
                              Principal and Interest    744,577           83%        11,707      58%       844,611        100%         14,064    100%      2,542,319       100%       565,541     100%

AFRICAN AMERICAN              Borrowers                            2      14%              2     50%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                4      15%              4     57%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    154,451           17%         8,314      42%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1510
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           WARREN, TENNESSEE                              WASHINGTON, TENNESSEE                                 WAYNE, TENNESSEE
                                                        Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       136                          32                         25                      9                     18                         3
                              Loans                           301                         100                         46                     14                     22                         3
                              Principal and Interest   14,069,080                  1,832,952              2,982,586                     54,531              1,260,741                    17,527

WHITE                         Borrowers                       130          96%             32   100%                  25   100%               9   100%              18      100%               3   100%
                              Loans                           294          98%            100   100%                  46   100%              14   100%              22      100%               3   100%
                              Principal and Interest   13,817,992          98%     1,832,952    100%      2,982,586        100%         54,531    100%      1,260,741       100%         17,527    100%

AFRICAN AMERICAN              Borrowers                             4       3%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 5       2%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest     146,415            1%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             1       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 1       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      48,715            0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                             1       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 1       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      55,957            0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1511
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WEAKLEY, TENNESSEE                                   WHITE, TENNESSEE                             WILLIAMSON, TENNESSEE
                                                        Portfolio        Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         76                         26                         52                      9                     17                         7
                              Loans                           173                          86                    104                         19                     37                        11
                              Principal and Interest   12,329,022                  1,961,074              4,120,820                   275,892               2,661,027                    46,749

WHITE                         Borrowers                         74         97%             25     96%                 51     98%              9   100%              14        82%              5     71%
                              Loans                           170          98%             85     99%            103         99%             19   100%              31        84%              9     82%
                              Principal and Interest   12,263,303          99%     1,960,331    100%      4,120,411        100%       275,892     100%      2,215,148         83%        44,425      95%

AFRICAN AMERICAN              Borrowers                             1       1%              1      4%                  1      2%              0      0%                 3     18%              2     29%
                              Loans                                 1       1%              1      1%                  1      1%              0      0%                 6     16%              2     18%
                              Principal and Interest        4,551           0%            743      0%            409          0%              0      0%      445,879          17%         2,325       5%

NATIVE AMERICAN               Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                             1       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 2       1%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      61,168            0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0       0%              0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1512
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WILSON, TENNESSEE                                  STATE OF TENNESSEE
                                                       Portfolio        Percent   Delinquent   Percent     Portfolio        Percent    Delinquent   Percent
TOTAL                         Borrowers                        28                         10                    3,331                         963
                              Loans                            63                         18                    6,581                      2,145
                              Principal and Interest   2,592,579                    102,616              344,617,073                  38,886,772

WHITE                         Borrowers                        28        100%             10   100%             3,125         94%             867     90%
                              Loans                            63        100%             18   100%             6,110         93%          1,909      89%
                              Principal and Interest   2,592,579         100%       102,616    100%      327,731,418          95% 35,828,581          92%

AFRICAN AMERICAN              Borrowers                            0       0%              0      0%              192          6%              94     10%
                              Loans                                0       0%              0      0%              440          7%             222     10%
                              Principal and Interest               0       0%              0      0%      14,458,473           4%      2,505,631       6%

NATIVE AMERICAN               Borrowers                            0       0%              0      0%                    2      0%               0      0%
                              Loans                                0       0%              0      0%                    3      0%               0      0%
                              Principal and Interest               0       0%              0      0%         136,742           0%               0      0%

ASIAN                         Borrowers                            0       0%              0      0%                    0      0%               0      0%
                              Loans                                0       0%              0      0%                    0      0%               0      0%
                              Principal and Interest               0       0%              0      0%                    0      0%               0      0%

OTHER                         Borrowers                            0       0%              0      0%                   11      0%               2      0%
                              Loans                                0       0%              0      0%                   27      0%              14      1%
                              Principal and Interest               0       0%              0      0%       2,248,806           1%       552,566        1%

HISPANIC                      Borrowers                            0       0%              0      0%                    1      0%               0      0%
                              Loans                                0       0%              0      0%                    1      0%               0      0%
                              Prinicpal and Interest               0       0%              0      0%          41,635           0%               0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                            Page 1513
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TN CARROLL               Approved   No. of Applications             26        26   100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     27                     0                    0                0                0
                                      Completion to Approval                     2                     0                    0                0                0
                                      Approval to Loan Closing                  29                     0                    0                0                0

                           Rejected   No. of Applications             3         3    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    27                      0                    0                0               0
                                      Completion to Rejected                   16                      0                    0                0               0

                           Withdrawn No. of Applications              7         7    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      5                      0                    0                0               0
                                     Completion to Withdrawn                   43                      0                    0                0               0

 TN    CROCKETT            Approved   No. of Applications            29        26    90%           3       10%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     4                  8                        0                0               0
                                      Completion to Approval                    1                  2                        0                0               0
                                      Approval to Loan Closing                 23                 17                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 TN    FAYETTE             Approved   No. of Applications            63        60    95%           3       5%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    27                 38                        0                0               0
                                      Completion to Approval                   14                  0                        0                0               0
                                      Approval to Loan Closing                 19                 29                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     68                      0                    0                0               0
                                     Completion to Withdrawn                   17                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1514
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TN FRANKLIN              Approved   No. of Applications             20        18   90%           2       10%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     23                 5                        0                0                0
                                      Completion to Approval                     7                 5                        0                0                0
                                      Approval to Loan Closing                  23                16                        0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              3         3    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     34                      0                    0                0               0
                                     Completion to Withdrawn                    2                      0                    0                0               0

 TN    HAYWOOD             Approved   No. of Applications            32        21    66%          11       34%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     4                  0                        0                0               0
                                      Completion to Approval                    0                  0                        0                0               0
                                      Approval to Loan Closing                 18                 40                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              3         2    67%           1       33%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                  0                        0                0               0
                                     Completion to Withdrawn                    0                 64                        0                0               0

 TN    HICKMAN             Approved   No. of Applications             3         3    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    39                      0                    0                0               0
                                      Completion to Approval                    1                      0                    0                0               0
                                      Approval to Loan Closing                 27                      0                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                  133                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1515
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African               Native
 State  Servicing Office   Decision           Average Days       Total       White              American              American            Asian            Hispanic
  TN KNOX                  Approved   No. of Applications                9        9      100%              0    0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                      29                        0                     0                0                0
                                      Completion to Approval                     27                        0                     0                0                0
                                      Approval to Loan Closing                    4                        0                     0                0                0

                           Rejected   No. of Applications                0           0    0%               0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                     0                0               0
                                      Completion to Rejected                         0                     0                     0                0               0

                           Withdrawn No. of Applications                 2           2   100%              0    0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                     0                0               0
                                     Completion to Withdrawn                         0                     0                     0                0               0

 TN    LAWRENCE            Approved   No. of Applications                4        4      100%              0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                       9                        0                     0                0               0
                                      Completion to Approval                      7                        0                     0                0               0
                                      Approval to Loan Closing                   19                        0                     0                0               0

                           Rejected   No. of Applications                0           0    0%               0    0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                     0                0               0
                                      Completion to Rejected                         0                     0                     0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0    0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                     0                0               0
                                     Completion to Withdrawn                         0                     0                     0                0               0

 TN    LINCOLN             Approved   No. of Applications            20          19      95%           1        5%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      17                   51                         0                0               0
                                      Completion to Approval                     21                   14                         0                0               0
                                      Approval to Loan Closing                   25                   19                         0                0               0

                           Rejected   No. of Applications                1           0    0%           1       100%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                15                         0                0               0
                                      Completion to Rejected                         0                 0                         0                0               0

                           Withdrawn No. of Applications                 8        7      88%               1   13%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       44                        0                     0                0               0
                                     Completion to Withdrawn                     83                        0                     0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                       Page 1516
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TN MCMINN                Approved   No. of Applications             18        18   100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                     57                     0                    0                0                0
                                      Completion to Approval                     8                     0                    0                0                0
                                      Approval to Loan Closing                  15                     0                    0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 TN    MCNAIRY             Approved   No. of Applications            18        17    94%           1       6%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    22                 34                        0                0               0
                                      Completion to Approval                    8                 14                        0                0               0
                                      Approval to Loan Closing                 16                 15                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

 TN    MONTGOMERY          Approved   No. of Applications            26        24    92%           2       8%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    13                 24                        0                0               0
                                      Completion to Approval                   12                 44                        0                0               0
                                      Approval to Loan Closing                 17                  0                        0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              3         1    33%               2   67%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1517
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  TN OBION                 Approved   No. of Applications             20        20   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     18                     0                   0                0                0
                                      Completion to Approval                    11                     0                   0                0                0
                                      Approval to Loan Closing                  31                     0                   0                0                0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    36                      0                   0                0               0
                                      Completion to Rejected                    5                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 TN    OVERTON             Approved   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    17                      0                   0                0               0
                                      Completion to Approval                    0                      0                   0                0               0
                                      Approval to Loan Closing                 13                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 TN    SUMNER              Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     9                      0                   0                0               0
                                      Completion to Approval                    8                      0                   0                0               0
                                      Approval to Loan Closing                 63                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     73                      0                   0                0               0
                                     Completion to Withdrawn                   67                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1518
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  TN WARREN                Approved   No. of Applications             26        24   92%           2       8%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     57                26                       0                0                0
                                      Completion to Approval                     9                24                       0                0                0
                                      Approval to Loan Closing                  20                13                       0                0                0

                           Rejected   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    16                      0                   0                0               0
                                      Completion to Rejected                    9                      0                   0                0               0

                           Withdrawn No. of Applications             21        21    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 TN    WASHINGTON          Approved   No. of Applications            29        29    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    33                      0                   0                0               0
                                      Completion to Approval                   19                      0                   0                0               0
                                      Approval to Loan Closing                 34                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    67                      0                   0                0               0
                                      Completion to Rejected                   59                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     25                      0                   0                0               0
                                     Completion to Withdrawn                   45                      0                   0                0               0

 TN    WHITE               Approved   No. of Applications            16        16    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    20                      0                   0                0               0
                                      Completion to Approval                   20                      0                   0                0               0
                                      Approval to Loan Closing                 18                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1519
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African           Native
 State  Servicing Office   Decision           Average Days       Total    White           American          American            Asian            Hispanic
  TN STATE                 Approved   No. of Applications           365      340    93%           25   7%              0   0%           0   0%           0     0%
                                      Receipt to Completion                    25                 13                   0                0                0
                                      Completion to Approval                   11                  7                   0                0                0
                                      Approval to Loan Closing                 22                 27                   0                0                0

                           Rejected   No. of Applications            14       13    93%           1    7%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   24                 15                    0                0               0
                                      Completion to Rejected                  14                  0                    0                0               0

                           Withdrawn No. of Applications             58       54    93%           4    7%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    11                  0                    0                0               0
                                     Completion to Withdrawn                  21                 16                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                             Page 1520
                            Demographics         1522
                        FSA’s Loan Portfolio     1555
                        FSA’s Application data   1637




USDA/OIG-A/50801-4-Hq                                   1521
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        48,024        32,665     68%        11,091        23%        117          0%        107          0%         91          0%       3,953      8%
      Anderson County    Borrowers             21            14     67%             7        33%          0          0%          0          0%          0          0%           0      0%
                         Farms              1,488         1,406     94%            64         4%          9          1%          0          0%          0          0%           9      1%
                         Land in Farms    352,488       340,936     97%         7,892         2%      1,796          1%          0          0%          0          0%       1,864      1%

      TX                 Population        14,338         9,281    65%            259         2%         64          0%        142          1%         40          0%       4,552      32%
      Andrews County     Borrowers             12            11    92%              0         0%          0          0%          0          0%          1          8%           0       0%
                         Farms                134           131    98%              0         0%          0          0%          0          0%          0          0%           3       2%
                         Land in Farms    962,576       962,576   100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                 Population        69,884        52,777    76%         10,551        15%        144          0%        259          0%         81          0%       6,072      9%
      Angelina County    Borrowers             14            14   100%              0         0%          0          0%          0          0%          0          0%           0      0%
                         Farms                669           655    98%              6         1%          0          0%          0          0%          3          0%           5      1%
                         Land in Farms    103,063       102,325    99%            105         0%          0          0%          0          0%        271          0%         362      0%

      TX                 Population         17,892       13,306    74%            301         2%         95          1%        574          3%         28          0%       3,588      20%
      Aransas County     Borrowers               1            1   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                         Farms                  45           45   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                         Land in Farms      19,131       19,131   100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                 Population         7,973         7,733    97%             11         0%         36          0%              4      0%              0      0%         189      2%
      Archer County      Borrowers              6             6   100%              0         0%          0          0%              0      0%              0      0%           0      0%
                         Farms                449           446    99%              0         0%          0          0%              0      0%              0      0%           3      1%
                         Land in Farms    612,718       612,718   100%              0         0%          0          0%              0      0%              0      0%           0      0%

      TX                 Population         2,021         1,951    97%                 0      0%              9      0%              5      0%              1      0%          55      3%
      Armstrong County   Borrowers             17            17   100%                 0      0%              0      0%              0      0%              0      0%           0      0%
                         Farms                216           216   100%                 0      0%              0      0%              0      0%              0      0%           0      0%
                         Land in Farms    500,665       500,665   100%                 0      0%              0      0%              0      0%              0      0%           0      0%

      TX                 Population        30,533        14,194     46%           108         0%         46          0%         58          0%         63          0%      16,064      53%
      Atascosa County    Borrowers             17             9     53%             0         0%          2         12%          0          0%          1          6%           5      29%
                         Farms              1,238         1,017     82%             0         0%          0          0%          0          0%         67          5%         154      12%
                         Land in Farms    765,139       727,127     95%             0         0%          0          0%          0          0%     10,731          1%      27,281       4%

      TX                 Population        19,832        15,125     76%         2,556        13%         46          0%         26          0%          6          0%       2,073      10%
      Austin County      Borrowers             11            10     91%             1         9%          0          0%          0          0%          0          0%           0       0%
                         Farms              1,748         1,699     97%            26         1%          0          0%          0          0%          6          0%          17       1%
                         Land in Farms    337,351       333,685     99%         2,538         1%          0          0%          0          0%        261          0%         867       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1522
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                Asian              Other                 Hispanic
                                           Total        Number     Percent     Number    Percent   Number       Percent   Number   Percent   Number       Percent   Number    Percent
      TX                Population           7,064         4,184     59%           117      2%              9      0%         12      0%              2      0%       2,740      39%
      Bailey County     Borrowers              137           126     92%             0      0%              0      0%          0      0%              0      0%          11       8%
                        Farms                  406           387     95%             0      0%              3      1%          0      0%              3      1%          13       3%
                        Land in Farms      432,939       425,691     98%             0      0%              0      0%          0      0%              0      0%       7,248       2%

      TX                Population          10,562         9,276    88%             23      0%         62          1%         25      0%              4      0%       1,172      11%
      Bandera County    Borrowers                2             2   100%              0      0%          0          0%          0      0%              0      0%           0       0%
                        Farms                  586           564    96%              0      0%          0          0%          0      0%              5      1%          17       3%
                        Land in Farms      396,508       389,538    98%              0      0%          0          0%          0      0%              0      0%       6,970       2%

      TX                Population          38,263        26,665    70%          4,351     11%        142          0%        122      0%         50          0%       6,933      18%
      Bastrop County    Borrowers                5             5   100%              0      0%          0          0%          0      0%          0          0%           0       0%
                        Farms                1,630         1,517    93%             62      4%          6          0%          0      0%         10          1%          35       2%
                        Land in Farms      394,923       376,840    95%         12,107      3%        261          0%          0      0%        886          0%       4,829       1%

      TX                Population           4,385         3,848    88%            180      4%              9      0%         13      0%              1      0%         334      8%
      Baylor County     Borrowers               23            22    96%              0      0%              0      0%          0      0%              1      4%           0      0%
                        Farms                  277           277   100%              0      0%              0      0%          0      0%              0      0%           0      0%
                        Land in Farms      357,933       357,933   100%              0      0%              0      0%          0      0%              0      0%           0      0%

      TX                Population          25,135        11,211     45%           690      3%         61          0%        200      1%         64          0%      12,909      51%
      Bee County        Borrowers               28            21     75%             0      0%          0          0%          0      0%          0          0%           7      25%
                        Farms                  688           612     89%             0      0%          3          0%          0      0%         22          3%          51       7%
                        Land in Farms      442,173       427,471     97%             0      0%          0          0%          0      0%      5,482          1%       9,220       2%

      TX                Population         191,088       124,908    65%         34,977     18%        792          0%      5,178      3%        238          0%      24,995      13%
      Bell County       Borrowers               25            25   100%              0      0%          0          0%          0      0%          0          0%           0       0%
                        Farms                1,622         1,590    98%              9      1%          3          0%          0      0%          6          0%          14       1%
                        Land in Farms      416,631       412,464    99%            479      0%        162          0%          0      0%      1,443          0%       2,083       0%

      TX                Population        1,185,394      496,149    42%         81,356      7%      2,506          0%     13,832      1%      2,371          0%     589,180      50%
      Bexar County      Borrowers                 7            7   100%              0      0%          0          0%          0      0%          0          0%           0       0%
                        Farms                 1,872        1,570    84%             26      1%          7          0%          3      0%         80          4%         186      10%
                        Land in Farms       408,710      379,972    93%            648      0%        276          0%         87      0%      9,613          2%      18,114       4%

      TX                Population           5,972         5,038     84%            56      1%         17          0%         19      0%              2      0%         840      14%
      Blanco County     Borrowers                0             0      0%             0      0%          0          0%          0      0%              0      0%           0       0%
                        Farms                  567           557     98%             0      0%          0          0%          0      0%              3      1%           7       1%
                        Land in Farms      371,257       367,976     99%             0      0%          0          0%          0      0%              0      0%       3,281       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1523
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population             799           669     84%                 0      0%         10          1%              0      0%              0      0%         120      15%
      Borden County     Borrowers               24            24    100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                        Farms                  123           123    100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                        Land in Farms      629,681       629,681    100%                 0      0%          0          0%              0      0%              0      0%           0       0%

      TX                Population          15,125        13,320      88%           312         2%         25          0%         32          0%              6      0%       1,430      9%
      Bosque County     Borrowers               17            16      94%             0         0%          0          0%          0          0%              1      6%           0      0%
                        Farms                  966           957      99%             0         0%          0          0%          0          0%              0      0%           9      1%
                        Land in Farms      547,829       544,976      99%             0         0%          0          0%          0          0%              0      0%       2,853      1%

      TX                Population          81,665        61,964      76%        17,697        22%        401          0%        258          0%         11          0%       1,334      2%
      Bowie County      Borrowers               39            37      95%             2         5%          0          0%          0          0%          0          0%           0      0%
                        Farms                  998           929      93%            54         5%         11          1%          0          0%          0          0%           4      0%
                        Land in Farms      263,077       257,867      98%         3,861         1%      1,297          0%          0          0%          0          0%          52      0%

      TX                Population         191,707       139,683      73%        15,425         8%        687          0%      1,837          1%        278          0%      33,797      18%
      Brazoria County   Borrowers               51            47      92%             0         0%          0          0%          0          0%          0          0%           4       8%
                        Farms                1,489         1,389      93%            55         4%          0          0%          0          0%         15          1%          30       2%
                        Land in Farms      563,993       553,628      98%         3,580         1%          0          0%          0          0%      1,744          0%       5,041       1%

      TX                Population         121,862        87,139      72%        13,409        11%        223          0%      4,248          3%        130          0%      16,713      14%
      Brazos County     Borrowers                5             4      80%             1        20%          0          0%          0          0%          0          0%           0       0%
                        Farms                1,006           954      95%            26         3%          0          0%          0          0%         10          1%          16       2%
                        Land in Farms      295,601       291,216      99%         2,106         1%          0          0%          0          0%          0          0%       2,279       1%

      TX                Population            8,681         4,833    56%             77         1%         17          0%         48          1%              4      0%       3,702      43%
      Brewster County   Borrowers                 1             1   100%              0         0%          0          0%          0          0%              0      0%           0       0%
                        Farms                   122           119    98%              0         0%          0          0%          0          0%              0      0%           3       2%
                        Land in Farms     2,405,018     2,405,018   100%              0         0%          0          0%          0          0%              0      0%           0       0%

      TX                Population           1,971         1,532     78%             68         3%              4      0%              0      0%              0      0%         367      19%
      Briscoe County    Borrowers               63            62     98%              0         0%              1      2%              0      0%              0      0%           0       0%
                        Farms                  231           231    100%              0         0%              0      0%              0      0%              0      0%           0       0%
                        Land in Farms      408,824       408,824    100%              0         0%              0      0%              0      0%              0      0%           0       0%

      TX                Population           8,204           824      10%                2      0%              5      0%              8      0%         27          0%       7,338      89%
      Brooks County     Borrowers                4             1      25%                0      0%              0      0%              0      0%          0          0%           3      75%
                        Farms                  288            68      24%                0      0%              0      0%              0      0%         64         22%         156      54%
                        Land in Farms      566,400       503,731      89%                0      0%              0      0%              0      0%     16,689          3%      45,980       8%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1524
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American               Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population         34,371        28,814    84%          1,530         4%        115      0%         85          0%         28          0%       3,799      11%
      Brown County      Borrowers              26            25    96%              0         0%          0      0%          0          0%          0          0%           1       4%
                        Farms               1,098         1,070    97%              0         0%          0      0%          0          0%         12          1%          16       1%
                        Land in Farms     513,533       511,098   100%              0         0%          0      0%          0          0%          0          0%       2,435       0%

      TX                Population         13,625         9,543     70%         2,392        18%         40      0%              9      0%         17          0%       1,624      12%
      Burleson County   Borrowers              10             8     80%             1        10%          0      0%              0      0%          1         10%           0       0%
                        Farms               1,283         1,186     92%            58         5%          4      0%              0      0%         11          1%          24       2%
                        Land in Farms     317,187       309,506     98%         5,564         2%          0      0%              0      0%        458          0%       1,659       1%

      TX                Population         22,677        19,814    87%            255         1%         98      0%         50          0%         20          0%       2,440      11%
      Burnet County     Borrowers               6             4    67%              0         0%          1     17%          0          0%          1         17%           0       0%
                        Farms                 980           974    99%              0         0%          0      0%          0          0%          0          0%           6       1%
                        Land in Farms     548,351       547,848   100%              0         0%          0      0%          0          0%          0          0%         503       0%

      TX                Population         26,392        13,547     51%         2,675        10%         48      0%         80          0%         54          0%       9,988      38%
      Caldwell County   Borrowers              18            17     94%             1         6%          0      0%          0          0%          0          0%           0       0%
                        Farms                 957           901     94%            18         2%          0      0%          0          0%         13          1%          25       3%
                        Land in Farms     263,925       257,856     98%             0         0%          0      0%          0          0%      2,354          1%       3,715       1%

      TX                Population         19,053        11,021    58%            542         3%         31      0%        548          3%         18          0%       6,893      36%
      Calhoun County    Borrowers              13            12    92%              0         0%          0      0%          0          0%          1          8%           0       0%
                        Farms                 249           246    99%              0         0%          0      0%          0          0%          0          0%           3       1%
                        Land in Farms     208,073       208,073   100%              0         0%          0      0%          0          0%          0          0%           0       0%

      TX                Population         11,859        11,289    95%                 2      0%         44      0%         33          0%              2      0%         489      4%
      Callahan County   Borrowers              16            15    94%                 0      0%          0      0%          0          0%              1      6%           0      0%
                        Farms                 771           771   100%                 0      0%          0      0%          0          0%              0      0%           0      0%
                        Land in Farms     490,739       490,739   100%                 0      0%          0      0%          0          0%              0      0%           0      0%

      TX                Population        260,120        45,354     17%           567         0%        184      0%        602          0%        418          0%     212,995      82%
      Cameron County    Borrowers              98            53     54%             0         0%          4      4%          1          1%          1          1%          39      40%
                        Farms                 904           498     55%             0         0%          3      0%         13          1%        115         13%         275      30%
                        Land in Farms     329,288       264,825     80%             0         0%          0      0%      5,098          2%     20,338          6%      39,027      12%

      TX                Population           9,904        7,015    71%          2,349        24%         33      0%              5      0%              1      0%         501      5%
      Camp County       Borrowers               12           11    92%              1         8%          0      0%              0      0%              0      0%           0      0%
                        Farms                  417          394    94%             20         5%          0      0%              0      0%              0      0%           3      1%
                        Land in Farms       68,448       68,448   100%              0         0%          0      0%              0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1525
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population         6,576         6,158    94%             11      0%         41          1%              9      0%              3      0%         354      5%
      Carson County      Borrowers             13            12    92%              0      0%          0          0%              0      0%              1      8%           0      0%
                         Farms                356           353    99%              0      0%          0          0%              0      0%              0      0%           3      1%
                         Land in Farms    622,130       622,130   100%              0      0%          0          0%              0      0%              0      0%           0      0%

      TX                 Population        29,982        23,464    78%          6,020     20%        101          0%         23          0%              1      0%         373      1%
      Cass County        Borrowers             40            36    90%              3      8%          0          0%          0          0%              1      3%           0      0%
                         Farms                804           774    96%             27      3%          0          0%          0          0%              0      0%           3      0%
                         Land in Farms    166,939       166,497   100%              0      0%          0          0%          0          0%              0      0%         442      0%

      TX                 Population         9,070         4,574    50%            259      3%              8      0%         14          0%         28          0%       4,187      46%
      Castro County      Borrowers            126           117    93%              2      2%              0      0%          0          0%          0          0%           7       6%
                         Farms                520           517    99%              0      0%              0      0%          0          0%          0          0%           3       1%
                         Land in Farms    518,316       518,316   100%              0      0%              0      0%          0          0%          0          0%           0       0%

      TX                 Population        20,088        16,170    80%          2,540     13%         49          0%        113          1%         21          0%       1,195      6%
      Chambers County    Borrowers             26            20    77%              6     23%          0          0%          0          0%          0          0%           0      0%
                         Farms                334           326    98%              8      2%          0          0%          0          0%          0          0%           0      0%
                         Land in Farms    251,249       251,249   100%              0      0%          0          0%          0          0%          0          0%           0      0%

      TX                 Population        41,049        31,201     76%         6,858     17%         97          0%        180          0%         16          0%       2,697      7%
      Cherokee County    Borrowers             24            23     96%             1      4%          0          0%          0          0%          0          0%           0      0%
                         Farms              1,422         1,368     96%            38      3%          3          0%          0          0%          0          0%          13      1%
                         Land in Farms    269,146       264,182     98%         3,711      1%          0          0%          0          0%          0          0%       1,253      0%

      TX                 Population         5,953         4,736    80%            318      5%         25          0%         17          0%              4      0%         853      14%
      Childress County   Borrowers             39            39   100%              0      0%          0          0%          0          0%              0      0%           0       0%
                         Farms                257           257   100%              0      0%          0          0%          0          0%              0      0%           0       0%
                         Land in Farms    449,972       449,972   100%              0      0%          0          0%          0          0%              0      0%           0       0%

      TX                 Population        10,024         9,642    96%             33      0%         84          1%         23          0%              0      0%         242      2%
      Clay County        Borrowers              9             8    89%              0      0%          0          0%          0          0%              1     11%           0      0%
                         Farms                808           805   100%              0      0%          0          0%          0          0%              0      0%           3      0%
                         Land in Farms    670,459       670,094   100%              0      0%          0          0%          0          0%              0      0%         365      0%

      TX                 Population         4,377         2,275     52%           230      5%         11          0%              1      0%          3          0%       1,857      42%
      Cochran County     Borrowers             81            78     96%             0      0%          1          1%              0      0%          0          0%           2       2%
                         Farms                227           216     95%             0      0%          0          0%              0      0%          4          2%           7       3%
                         Land in Farms    370,572       356,477     96%             0      0%          0          0%              0      0%      4,208          1%       9,887       3%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1526
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                     Population        3,424         2,977    87%                 4      0%         17          0%              2      0%              2      0%         422      12%
      Coke County            Borrowers            23            23   100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                             Farms               356           356   100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                             Land in Farms   523,049       523,049   100%                 0      0%          0          0%              0      0%              0      0%           0       0%

      TX                     Population        9,710         8,288    85%            244         3%         27          0%              7      0%          5          0%       1,139      12%
      Coleman County         Borrowers            15            15   100%              0         0%          0          0%              0      0%          0          0%           0       0%
                             Farms               762           745    98%              0         0%          4          1%              0      0%          6          1%           7       1%
                             Land in Farms   680,567       673,477    99%              0         0%      1,946          0%              0      0%      2,500          0%       2,644       0%

      TX                     Population      264,036       226,654    86%         10,727         4%        997          0%      7,317          3%        183          0%      18,158      7%
      Collin County          Borrowers             7             7   100%              0         0%          0          0%          0          0%          0          0%           0      0%
                             Farms             1,235         1,226    99%              0         0%          0          0%          0          0%          3          0%           6      0%
                             Land in Farms   275,638       274,987   100%              0         0%          0          0%          0          0%          0          0%         651      0%

      TX                     Population        3,573         2,750     77%           227         6%         28          1%              3      0%          4          0%         561      16%
      Collingsworth County   Borrowers            78            77     99%             0         0%          1          1%              0      0%          0          0%           0       0%
                             Farms               468           459     98%             0         0%          0          0%              0      0%          4          1%           5       1%
                             Land in Farms   462,533       458,735     99%             0         0%          0          0%              0      0%      1,867          0%       1,931       0%

      TX                     Population       18,383        12,437    68%          3,060        17%         26          0%         13          0%         14          0%       2,833      15%
      Colorado County        Borrowers             6             6   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                             Farms             1,547         1,509    98%             19         1%          3          0%          0          0%          4          0%          12       1%
                             Land in Farms   549,167       543,741    99%          2,031         0%      1,000          0%          0          0%        258          0%       2,137       0%

      TX                     Population       51,832        39,233    76%            421         1%        108          0%        145          0%         61          0%      11,864      23%
      Comal County           Borrowers             1             1   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                             Farms               617           601    97%              5         1%          0          0%          0          0%          0          0%          11       2%
                             Land in Farms   207,350       205,577    99%              0         0%          0          0%          0          0%          0          0%       1,773       1%

      TX                     Population       13,381        11,109     83%            10         0%         33          0%              8      0%         16          0%       2,205      16%
      Comanche County        Borrowers           118           114     97%             0         0%          1          1%              0      0%          1          1%           2       2%
                             Farms             1,405         1,367     97%             0         0%          3          0%              0      0%         10          1%          25       2%
                             Land in Farms   543,750       535,241     98%             0         0%          0          0%              0      0%          0          0%       8,509       2%

      TX                     Population        3,044         1,827    60%             14         0%              4      0%              4      0%              1      0%       1,194      39%
      Concho County          Borrowers            27            27   100%              0         0%              0      0%              0      0%              0      0%           0       0%
                             Farms               391           388    99%              0         0%              0      0%              0      0%              0      0%           3       1%
                             Land in Farms   571,684       571,684   100%              0         0%              0      0%              0      0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1527
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population         30,777        27,864     91%          1,151         4%        218          1%        131          0%              5      0%       1,408      5%
      Cooke County       Borrowers              14            14    100%              0         0%          0          0%          0          0%              0      0%           0      0%
                         Farms               1,330         1,315     99%              4         0%          6          0%          0          0%              0      0%           5      0%
                         Land in Farms     430,377       427,687     99%            260         0%        484          0%          0          0%              0      0%       1,946      0%

      TX                 Population         64,213        42,681     66%         13,293        21%        397          1%      1,507          2%         92          0%       6,243      10%
      Coryell County     Borrowers              40            38     95%              0         0%          1          3%          0          0%          1          3%           0       0%
                         Farms                 994           991    100%              0         0%          0          0%          0          0%          0          0%           3       0%
                         Land in Farms     605,252       604,566    100%              0         0%          0          0%          0          0%          0          0%         686       0%

      TX                 Population          2,247         1,676      75%           196         9%              4      0%              3      0%              1      0%         367      16%
      Cottle County      Borrowers              74            66      89%             2         3%              0      0%              0      0%              1      1%           5       7%
                         Farms                 179           171      96%             0         0%              0      0%              0      0%              3      2%           5       3%
                         Land in Farms     471,498       468,126      99%             0         0%              0      0%              0      0%              0      0%       3,372       1%

      TX                 Population          4,652         2,920     63%            128         3%         11          0%         10          0%              6      0%       1,577      34%
      Crane County       Borrowers               0             0      0%              0         0%          0          0%          0          0%              0      0%           0       0%
                         Farms                  50            50    100%              0         0%          0          0%          0          0%              0      0%           0       0%
                         Land in Farms     394,805       394,805    100%              0         0%          0          0%          0          0%              0      0%           0       0%

      TX                 Population           4,078         2,016     49%            31         1%              8      0%              2      0%              0      0%       2,021      50%
      Crockett County    Borrowers                0             0      0%             0         0%              0      0%              0      0%              0      0%           0       0%
                         Farms                  157           152     97%             0         0%              0      0%              0      0%              0      0%           5       3%
                         Land in Farms    2,001,152     1,966,383     98%             0         0%              0      0%              0      0%              0      0%      34,769       2%

      TX                 Population          7,304         3,869      53%           297         4%              5      0%              8      0%         14          0%       3,111      43%
      Crosby County      Borrowers              83            81      98%             0         0%              0      0%              0      0%          0          0%           2       2%
                         Farms                 343           338      99%             0         0%              0      0%              0      0%          0          0%           5       1%
                         Land in Farms     451,584       448,102      99%             0         0%              0      0%              0      0%          0          0%       3,482       1%

      TX                 Population           3,407           950    28%                 2      0%         11          0%         25          1%              0      0%       2,419      71%
      Culberson County   Borrowers                6             5    83%                 0      0%          0          0%          0          0%              0      0%           1      17%
                         Farms                   78            70    90%                 0      0%          0          0%          0          0%              3      4%           5       6%
                         Land in Farms    1,584,367     1,584,367   100%                 0      0%          0          0%          0          0%              0      0%           0       0%

      TX                 Population          5,461         4,157     76%            102         2%         31          1%         14          0%              6      0%       1,151      21%
      Dallam County      Borrowers              45            45    100%              0         0%          0          0%          0          0%              0      0%           0       0%
                         Farms                 369           369    100%              0         0%          0          0%          0          0%              0      0%           0       0%
                         Land in Farms     780,925       780,925    100%              0         0%          0          0%          0          0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1528
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American            Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                  Population      1,852,810     1,115,096    60%        362,130     20%      7,644      0%     49,928          3%      2,382          0%     315,630      17%
      Dallas County       Borrowers               7             7   100%              0      0%          0      0%          0          0%          0          0%           0       0%
                          Farms                 656           603    92%             29      4%          5      1%          4          1%          6          1%           9       1%
                          Land in Farms     123,756       119,824    97%          2,687      2%        586      0%         46          0%        291          0%         322       0%

      TX                  Population        14,349         7,569      53%           608      4%         14      0%         19          0%         19          0%       6,120      43%
      Dawson County       Borrowers            202           195      97%             0      0%          1      0%          0          0%          0          0%           6       3%
                          Farms                465           446      96%             0      0%          0      0%          0          0%          5          1%          14       3%
                          Land in Farms    553,047       539,334      98%             0      0%          0      0%          0          0%      5,759          1%       7,954       1%

      TX                  Population        19,153         9,417      49%           287      1%         33      0%         32          0%         28          0%       9,356      49%
      Deaf Smith County   Borrowers             60            59      98%             0      0%          0      0%          0          0%          0          0%           1       2%
                          Farms                638           592      93%             0      0%          0      0%          0          0%         18          3%          28       4%
                          Land in Farms    856,707       851,361      99%             0      0%          0      0%          0          0%        504          0%       4,842       1%

      TX                  Population         4,857         4,344     89%            400      8%         39      1%              7      0%              0      0%          67      1%
      Delta County        Borrowers             35            34     97%              1      3%          0      0%              0      0%              0      0%           0      0%
                          Farms                374           374    100%              0      0%          0      0%              0      0%              0      0%           0      0%
                          Land in Farms    107,565       107,565    100%              0      0%          0      0%              0      0%              0      0%           0      0%

      TX                  Population       273,525       232,885     85%         13,314      5%      1,326      0%      6,753          2%        234          0%      19,013      7%
      Denton County       Borrowers             18            18    100%              0      0%          0      0%          0          0%          0          0%           0      0%
                          Farms              1,529         1,500     98%              3      0%          5      0%          0          0%          5          0%          16      1%
                          Land in Farms    365,618       360,549     99%              0      0%      1,250      0%          0          0%        115          0%       3,704      1%

      TX                  Population        18,840        12,265      65%         1,956     10%         15      0%              7      0%         30          0%       4,567      24%
      De Witt County      Borrowers             16            14      88%             0      0%          1      6%              0      0%          0          0%           1       6%
                          Farms              1,515         1,448      96%            24      2%          0      0%              0      0%         12          1%          31       2%
                          Land in Farms    569,212       559,096      98%         4,484      1%          0      0%              0      0%          0          0%       5,632       1%

      TX                  Population         2,571         1,964     76%            111      4%         13      1%              1      0%              3      0%         479      19%
      Dickens County      Borrowers             54            50     93%              2      4%          1      2%              1      2%              0      0%           0       0%
                          Farms                270           270    100%              0      0%          0      0%              0      0%              0      0%           0       0%
                          Land in Farms    561,521       561,521    100%              0      0%          0      0%              0      0%              0      0%           0       0%

      TX                  Population        10,433         1,655      16%            50      0%         14      0%              4      0%         22          0%       8,688      83%
      Dimmit County       Borrowers              3             2      67%             0      0%          0      0%              0      0%          0          0%           1      33%
                          Farms                206           178      86%             0      0%          0      0%              0      0%          8          4%          20      10%
                          Land in Farms    677,308       650,634      96%             0      0%          0      0%              0      0%      2,601          0%      24,073       4%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1529
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population           3,696         3,415     92%            127         3%         13          0%              2      0%              0      0%         139      4%
      Donley County     Borrowers               58            55     95%              0         0%          0          0%              0      0%              1      2%           2      3%
                        Farms                  331           328     99%              3         1%          0          0%              0      0%              0      0%           0      0%
                        Land in Farms      599,637       599,637    100%              0         0%          0          0%              0      0%              0      0%           0      0%

      TX                Population          12,918         1,601      12%                8      0%              4      0%         12          0%          26         0%      11,267      87%
      Duval County      Borrowers               18             2      11%                0      0%              0      0%          1          6%           0         0%          15      83%
                        Farms                  946            84       9%                5      1%              0      0%          0          0%         254        27%         603      64%
                        Land in Farms      801,159       427,683      53%                0      0%              0      0%          0          0%     108,720        14%     264,756      33%

      TX                Population          18,488        16,605     90%            395         2%         43          0%         33          0%              8      0%       1,404      8%
      Eastland County   Borrowers               43            42     98%              0         0%          0          0%          0          0%              1      2%           0      0%
                        Farms                1,120         1,112     99%              0         0%          3          0%          0          0%              0      0%           5      0%
                        Land in Farms      493,227       491,792    100%              0         0%          0          0%          0          0%              0      0%       1,435      0%

      TX                Population         118,934        74,822     63%          5,391         5%        542          0%        598          1%        266          0%      37,315      31%
      Ector County      Borrowers                0             0      0%              0         0%          0          0%          0          0%          0          0%           0       0%
                        Farms                  195           192     98%              0         0%          0          0%          0          0%          0          0%           3       2%
                        Land in Farms      518,788       518,771    100%              0         0%          0          0%          0          0%          0          0%          17       0%

      TX                Population            2,266         1,076    47%                 0      0%              4      0%              4      0%          0          0%       1,182      52%
      Edwards County    Borrowers                 1             1   100%                 0      0%              0      0%              0      0%          0          0%           0       0%
                        Farms                   264           252    95%                 0      0%              0      0%              0      0%          3          1%           9       3%
                        Land in Farms     1,117,134     1,115,708   100%                 0      0%              0      0%              0      0%        300          0%       1,126       0%

      TX                Population          85,167        64,895      76%         8,407        10%        315          0%        204          0%         103         0%      11,243      13%
      Ellis County      Borrowers               38            35      92%             2         5%          0          0%          0          0%           0         0%           1       3%
                        Farms                1,521         1,457      96%            20         1%         11          1%          0          0%           7         0%          26       2%
                        Land in Farms      426,189       415,265      97%         1,050         0%        570          0%          0          0%       1,699         0%       7,605       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1530
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White              African American Native American                Asian                  Other                 Hispanic
                                          Total        Number      Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population        591,610       151,313      26%        20,525      3%      1,634          0%      5,820          1%        699          0%     411,619      70%
      El Paso County    Borrowers              18             5      28%             0      0%          0          0%          0          0%          0          0%          13      72%
                        Farms                 438           214      49%             4      1%          4          1%          0          0%         69         16%         147      34%
                        Land in Farms           0       (23,456)                     0                  0                      0                  3,443                  20,013

      TX                Population         27,991        25,123      90%           192      1%         90          0%        109          0%         19          0%       2,458      9%
      Erath County      Borrowers              43            42      98%             0      0%          0          0%          0          0%          0          0%           1      2%
                        Farms               1,637         1,622      99%             0      0%          0          0%          0          0%          5          0%          10      1%
                        Land in Farms     581,776       573,824      99%             0      0%          0          0%          0          0%          0          0%       7,952      1%

      TX                Population         17,712        10,843      61%         4,732     27%         30          0%         20          0%         15          0%       2,072      12%
      Falls County      Borrowers             159           144      91%            14      9%          0          0%          0          0%          0          0%           1       1%
                        Farms               1,032           992      96%            16      2%          0          0%          0          0%          9          1%          15       1%
                        Land in Farms     378,003       369,750      98%         1,843      0%          0          0%          0          0%        757          0%       5,653       1%

      TX                Population         24,804        22,466     91%          1,623      7%        172          1%         53          0%              5      0%         485      2%
      Fannin County     Borrowers              41            41    100%              0      0%          0          0%          0          0%              0      0%           0      0%
                        Farms               1,411         1,378     98%             20      1%          6          0%          0          0%              0      0%           7      0%
                        Land in Farms     412,632       409,719     99%          2,476      1%          0          0%          0          0%              0      0%         437      0%

      TX                Population         20,095        16,678     83%          1,662      8%         23          0%         13          0%         17          0%       1,702      8%
      Fayette County    Borrowers               3             3    100%              0      0%          0          0%          0          0%          0          0%           0      0%
                        Farms               2,642         2,576     98%             27      1%          5          0%          0          0%          9          0%          25      1%
                        Land in Farms     496,742       490,117     99%          2,499      1%        175          0%          0          0%      1,055          0%       2,896      1%

      TX                Population          4,842         3,652      75%           186      4%              6      0%              0      0%          1          0%         997      21%
      Fisher County     Borrowers              98            89      91%             0      0%              0      0%              0      0%          0          0%           9       9%
                        Farms                 547           514      94%             0      0%              0      0%              0      0%         12          2%          21       4%
                        Land in Farms     545,666       531,264      97%             0      0%              0      0%              0      0%      3,830          1%      10,572       2%

      TX                Population          8,497         4,759      56%           313      4%         13          0%         12          0%         19          0%       3,381      40%
      Floyd County      Borrowers             126           121      96%             1      1%          1          1%          0          0%          0          0%           3       2%
                        Farms                 474           464      98%             0      0%          0          0%          0          0%          4          1%           6       1%
                        Land in Farms     629,148       622,694      99%             0      0%          0          0%          0          0%          0          0%       6,454       1%

      TX                Population          1,794         1,478      82%            73      4%              5      0%              4      0%          1          0%         233      13%
      Foard County      Borrowers              46            44      96%             0      0%              1      2%              0      0%          0          0%           1       2%
                        Farms                 201           192      96%             0      0%              0      0%              0      0%          3          1%           6       3%
                        Land in Farms     321,752       319,819      99%             0      0%              0      0%              0      0%        838          0%       1,095       0%

      TX                Population        225,421       121,245      54%        45,678     20%        411          0%     13,978          6%        217          0%      43,892      19%

Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1531
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      Fort Bend County   Borrowers              7             7   100%              0      0%              0      0%              0      0%          0          0%           0      0%
                         Farms              1,199         1,123    94%             31      3%              0      0%              5      0%         11          1%          29      2%
                         Land in Farms    422,464       411,498    97%          2,970      1%              0      0%              0      0%      3,063          1%       4,933      1%

      TX                 Population         7,802         7,040    90%            349      4%         37          0%         18          0%              1      0%         357      5%
      Franklin County    Borrowers             26            26   100%              0      0%          0          0%          0          0%              0      0%           0      0%
                         Farms                486           474    98%              9      2%          0          0%          0          0%              0      0%           3      1%
                         Land in Farms    128,533       128,533   100%              0      0%          0          0%          0          0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1532
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        15,818        12,124     77%         2,999        19%         43          0%         32          0%              1      0%         619      4%
      Freestone County   Borrowers             33            17     52%            14        42%          0          0%          0          0%              0      0%           2      6%
                         Farms              1,172         1,034     88%           129        11%          0          0%          0          0%              4      0%           5      0%
                         Land in Farms    370,140       347,635     94%        20,251         5%          0          0%          0          0%              0      0%       2,254      1%

      TX                 Population        13,472         3,509     26%           141         1%              8      0%         29          0%         36          0%       9,749      72%
      Frio County        Borrowers             30            17     57%             0         0%              0      0%          1          3%          0          0%          12      40%
                         Farms                560           466     83%             6         1%              0      0%          0          0%         23          4%          65      12%
                         Land in Farms    749,504       724,060     97%             0         0%              0      0%          0          0%      4,271          1%      21,173       3%

      TX                 Population        14,123         9,096     64%           324         2%         31          0%         14          0%         50          0%       4,608      33%
      Gaines County      Borrowers             94            91     97%             1         1%          0          0%          0          0%          1          1%           1       1%
                         Farms                616           588     95%             0         0%          0          0%          0          0%          6          1%          22       4%
                         Land in Farms    686,578       678,841     99%             0         0%          0          0%          0          0%        306          0%       7,431       1%

      TX                 Population       217,399       144,852    67%         37,414        17%        632          0%      3,357          2%        182          0%      30,962      14%
      Galveston County   Borrowers              5             5   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                         Farms                435           412    95%              4         1%          0          0%          0          0%          7          2%          12       3%
                         Land in Farms    102,229        97,402    95%            699         1%          0          0%          0          0%        709          1%       3,419       3%

      TX                 Population         5,143         3,354    65%            306         6%              4      0%         21          0%              4      0%       1,454      28%
      Garza County       Borrowers             36            33    92%              0         0%              0      0%          0          0%              0      0%           3       8%
                         Farms                262           257    98%              0         0%              0      0%          0          0%              0      0%           5       2%
                         Land in Farms    573,827       573,164   100%              0         0%              0      0%          0          0%              0      0%         663       0%

      TX                 Population        17,204        14,676    85%             29         0%         43          0%         24          0%              6      0%       2,426      14%
      Gillespie County   Borrowers             28            26    93%              0         0%          2          7%          0          0%              0      0%           0       0%
                         Farms              1,373         1,355    99%              0         0%          0          0%          0          0%              5      0%          13       1%
                         Land in Farms    688,330       687,200   100%              0         0%          0          0%          0          0%              0      0%       1,130       0%

      TX                 Population         1,447         1,018    70%                 0      0%              0      0%              0      0%              5      0%         424      29%
      Glasscock County   Borrowers             30            30   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Farms                204           198    97%                 0      0%              3      1%              0      0%              0      0%           3       1%
                         Land in Farms    477,515       474,955    99%                 0      0%              0      0%              0      0%              0      0%       2,560       1%

      TX                 Population         5,980         3,420     57%           387         6%         12          0%              5      0%         11          0%       2,145      36%
      Goliad County      Borrowers              6             4     67%             0         0%          0          0%              0      0%          1         17%           1      17%
                         Farms                726           666     92%             3         0%          0          0%              0      0%         20          3%          37       5%
                         Land in Farms    465,365       449,446     97%             0         0%          0          0%              0      0%      5,549          1%      10,370       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1533
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American            Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        17,205         9,398     55%         1,581      9%         15      0%         19          0%         50          0%       6,142      36%
      Gonzales County    Borrowers             69            63     91%             2      3%          1      1%          0          0%          0          0%           3       4%
                         Farms              1,623         1,534     95%            41      3%          0      0%          0          0%         15          1%          33       2%
                         Land in Farms    665,421       654,924     98%         5,711      1%          0      0%          0          0%          0          0%       4,786       1%

      TX                 Population        23,967        20,841    87%            882      4%        201      1%        114          0%         34          0%       1,895      8%
      Gray County        Borrowers             11            11   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                         Farms                313           313   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                         Land in Farms    576,013       576,013   100%              0      0%          0      0%          0          0%          0          0%           0      0%

      TX                 Population        95,021        84,271    89%          6,511      7%      1,012      1%        391          0%         41          0%       2,795      3%
      Grayson County     Borrowers             10            10   100%              0      0%          0      0%          0          0%          0          0%           0      0%
                         Farms              1,784         1,753    98%             10      1%          9      1%          4          0%          0          0%           8      0%
                         Land in Farms    409,501       406,088    99%          1,665      0%        877      0%          0          0%          0          0%         871      0%

      TX                 Population       104,948        80,358     77%        19,835     19%        455      0%        480          0%         45          0%       3,775      4%
      Gregg County       Borrowers              4             3     75%             1     25%          0      0%          0          0%          0          0%           0      0%
                         Farms                290           265     91%            22      8%          3      1%          0          0%          0          0%           0      0%
                         Land in Farms     47,196        45,754     97%         1,442      3%          0      0%          0          0%          0          0%           0      0%

      TX                 Population        18,828        11,554     61%         4,552     24%         40      0%         14          0%         11          0%       2,657      14%
      Grimes County      Borrowers              9             8     89%             0      0%          0      0%          0          0%          1         11%           0       0%
                         Farms              1,321         1,231     93%            60      5%          4      0%          0          0%          7          1%          19       1%
                         Land in Farms    352,915       343,926     97%         6,661      2%          0      0%          0          0%          0          0%       2,328       1%

      TX                 Population        64,873        41,454     64%         3,451      5%        171      0%        403          1%        148          0%      19,246      30%
      Guadalupe County   Borrowers             20            16     80%             4     20%          0      0%          0          0%          0          0%           0       0%
                         Farms              1,698         1,553     91%            68      4%          0      0%          0          0%         27          2%          50       3%
                         Land in Farms    347,313       328,036     94%         6,383      2%          0      0%          0          0%      3,908          1%       8,986       3%

      TX                 Population        34,671        18,181    52%          1,766      5%        103      0%        112          0%         81          0%      14,428      42%
      Hale County        Borrowers            194           186    96%              2      1%          0      0%          0          0%          0          0%           6       3%
                         Farms                774           757    98%              0      0%          0      0%          0          0%          7          1%          10       1%
                         Land in Farms    560,355       557,749   100%              0      0%          0      0%          0          0%          0          0%       2,606       0%

      TX                 Population         3,905         2,850    73%            301      8%         15      0%              7      0%              5      0%         727      19%
      Hall County        Borrowers            112           112   100%              0      0%          0      0%              0      0%              0      0%           0       0%
                         Farms                297           297   100%              0      0%          0      0%              0      0%              0      0%           0       0%
                         Land in Farms    443,027       443,027   100%              0      0%          0      0%              0      0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1534
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American               Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population           7,733         7,284      94%                2      0%         19      0%         24          0%              1      0%         403      5%
      Hamilton County   Borrowers               56            53      95%                0      0%          2      4%          0          0%              1      2%           0      0%
                        Farms                  933           923      99%                0      0%          0      0%          0          0%              0      0%          10      1%
                        Land in Farms      461,249       458,126      99%                0      0%          0      0%          0          0%              0      0%       3,123      1%

      TX                Population           5,848         4,637     79%                 0      0%         23      0%              6      0%              8      0%       1,174      20%
      Hansford County   Borrowers               20            20    100%                 0      0%          0      0%              0      0%              0      0%           0       0%
                        Farms                  280           274     98%                 0      0%          3      1%              0      0%              0      0%           3       1%
                        Land in Farms      576,468       559,458     97%                 0      0%      4,600      1%              0      0%              0      0%      12,410       2%

      TX                Population           5,283         4,331     82%            318         6%         26      0%         13          0%              6      0%         589      11%
      Hardeman County   Borrowers               47            46     98%              1         2%          0      0%          0          0%              0      0%           0       0%
                        Farms                  303           303    100%              0         0%          0      0%          0          0%              0      0%           0       0%
                        Land in Farms      313,952       313,952    100%              0         0%          0      0%          0          0%              0      0%           0       0%

      TX                Population           41,320       37,006     90%          3,459         8%        117      0%         54          0%              5      0%         679      2%
      Hardin County     Borrowers                 1            1    100%              0         0%          0      0%          0          0%              0      0%           0      0%
                        Farms                   274          268     98%              3         1%          0      0%          0          0%              0      0%           3      1%
                        Land in Farms        32,436       32,436    100%              0         0%          0      0%          0          0%              0      0%           0      0%

      TX                Population        2,818,199     1,528,113    54%        527,964        19%      6,143      0%     106,327         4%      4,717          0%     644,935      23%
      Harris County     Borrowers                15            15   100%              0         0%          0      0%           0         0%          0          0%           0       0%
                        Farms                 1,565         1,467    94%             49         3%          4      0%          13         1%          9          1%          23       1%
                        Land in Farms       308,344       301,835    98%          3,289         1%          0      0%         991         0%          0          0%       2,229       1%

      TX                Population          57,483        39,907     69%         15,960        28%        185      0%        135          0%         18          0%       1,278      2%
      Harrison County   Borrowers               12            10     83%              2        17%          0      0%          0          0%          0          0%           0      0%
                        Farms                  973           896     92%             73         8%          0      0%          0          0%          0          0%           4      0%
                        Land in Farms      201,952       201,564    100%              0         0%          0      0%          0          0%          0          0%         388      0%

      TX                Population           3,634         3,388     93%                 9      0%         28      1%              7      0%              1      0%         201      6%
      Hartley County    Borrowers               34            34    100%                 0      0%          0      0%              0      0%              0      0%           0      0%
                        Farms                  228           228    100%                 0      0%          0      0%              0      0%              0      0%           0      0%
                        Land in Farms      686,578       686,578    100%                 0      0%          0      0%              0      0%              0      0%           0      0%

      TX                Population           6,820         5,229      77%           239         4%         15      0%         16          0%              9      0%       1,312      19%
      Haskell County    Borrowers              117           116      99%             0         0%          0      0%          0          0%              1      1%           0       0%
                        Farms                  546           541      99%             0         0%          0      0%          0          0%              0      0%           5       1%
                        Land in Farms      494,177       491,152      99%             0         0%          0      0%          0          0%              0      0%       3,025       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1535
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American               Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        65,614        44,661    68%          2,091         3%        162      0%        396          1%         55          0%      18,249      28%
      Hays County        Borrowers              6             6   100%              0         0%          0      0%          0          0%          0          0%           0       0%
                         Farms                704           681    97%              6         1%          0      0%          0          0%          4          1%          13       2%
                         Land in Farms    463,450       462,569   100%            881         0%          0      0%          0          0%          0          0%           0       0%

      TX                 Population         3,720         3,275    88%                 7      0%         22      1%              4      0%              0      0%         412      11%
      Hemphill County    Borrowers              8             8   100%                 0      0%          0      0%              0      0%              0      0%           0       0%
                         Farms                229           220    96%                 0      0%          4      2%              0      0%              0      0%           5       2%
                         Land in Farms    545,664       543,606   100%                 0      0%          0      0%              0      0%              0      0%       2,058       0%

      TX                 Population        58,543        51,135     87%         4,727         8%        169      0%        129          0%         15          0%       2,368      4%
      Henderson County   Borrowers             15            14     93%             1         7%          0      0%          0          0%          0          0%           0      0%
                         Farms              1,579         1,526     97%            27         2%          7      0%          0          0%          6          0%          13      1%
                         Land in Farms    356,170       352,370     99%         1,797         1%        989      0%          0          0%        335          0%         679      0%

      TX                 Population       383,545        54,259     14%           518         0%        229      0%        847          0%        720          0%     326,972      85%
      Hidalgo County     Borrowers             51            27     53%             1         2%          2      4%          0          0%          0          0%          21      41%
                         Farms              1,565           719     46%             0         0%          0      0%         12          1%        254         16%         580      37%
                         Land in Farms    660,412       434,342     66%             0         0%          0      0%     11,655          2%     59,890          9%     154,525      23%

      TX                 Population        27,146        22,310     82%         2,492         9%         66      0%         36          0%         12          0%       2,230      8%
      Hill County        Borrowers             63            62     98%             0         0%          0      0%          0          0%          0          0%           1      2%
                         Farms              1,494         1,462     98%            16         1%          0      0%          0          0%          5          0%          11      1%
                         Land in Farms    470,096       463,739     99%         1,284         0%          0      0%          0          0%          0          0%       5,073      1%

      TX                 Population        24,199        15,410     64%           997         4%         63      0%         31          0%         44          0%       7,654      32%
      Hockley County     Borrowers            155           150     97%             0         0%          0      0%          0          0%          0          0%           5       3%
                         Farms                567           557     98%             0         0%          0      0%          0          0%          3          1%           7       1%
                         Land in Farms    490,578       486,293     99%             0         0%          0      0%          0          0%          0          0%       4,285       1%

      TX                 Population        28,981        27,251    94%             52         0%        147      1%        166          1%         12          0%       1,353      5%
      Hood County        Borrowers              6             5    83%              0         0%          0      0%          0          0%          1         17%           0      0%
                         Farms                659           642    97%              0         0%          3      0%          0          0%          3          0%          11      2%
                         Land in Farms    225,852       225,511   100%              0         0%          0      0%          0          0%          0          0%         341      0%

      TX                 Population        28,833        24,755     86%         2,469         9%        121      0%         67          0%         14          0%       1,407      5%
      Hopkins County     Borrowers             92            87     95%             4         4%          0      0%          0          0%          0          0%           1      1%
                         Farms              1,759         1,700     97%            38         2%          8      0%          0          0%          5          0%           8      0%
                         Land in Farms    386,546       376,268     97%         6,092         2%      2,205      1%          0          0%        654          0%       1,327      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1536
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                  Population        21,375        14,042      66%         6,272        29%         26          0%         47          0%         23          0%         965      5%
      Houston County      Borrowers             48            31      65%            16        33%          0          0%          0          0%          0          0%           1      2%
                          Farms              1,360         1,217      89%           137        10%          0          0%          0          0%          0          0%           6      0%
                          Land in Farms    417,187       414,462      99%             0         0%          0          0%          0          0%          0          0%       2,725      1%

      TX                  Population        32,343        22,226     69%          1,174         4%        128          0%        155          0%         53          0%       8,607      27%
      Howard County       Borrowers             35            35    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                          Farms                366           352     96%              0         0%          0          0%          0          0%          6          2%           8       2%
                          Land in Farms    489,398       487,374    100%              0         0%          0          0%          0          0%        512          0%       1,512       0%

      TX                  Population          2,915           956     33%                9      0%              8      0%              2      0%          5          0%       1,935      66%
      Hudspeth County     Borrowers              40            25     63%                0      0%              0      0%              1      3%          0          0%          14      35%
                          Farms                 131            88     67%                0      0%              0      0%              0      0%         15         11%          28      21%
                          Land in Farms   2,234,262     1,900,345     85%                0      0%              0      0%              0      0%          0          0%     333,917      15%

      TX                  Population        64,343        54,118      84%         6,736        10%        253          0%        346          1%         14          0%       2,876      4%
      Hunt County         Borrowers             25            22      88%             1         4%          0          0%          0          0%          1          4%           1      4%
                          Farms              1,904         1,848      97%            23         1%         16          1%          0          0%          4          0%          13      1%
                          Land in Farms    345,138       338,747      98%         3,539         1%      1,577          0%          0          0%        192          0%       1,083      0%

      TX                  Population        25,689        22,098     86%            661         3%        333          1%         69          0%         19          0%       2,509      10%
      Hutchinson County   Borrowers              5             5    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                          Farms                192           189     98%              0         0%          3          2%          0          0%          0          0%           0       0%
                          Land in Farms    402,897       402,897    100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                  Population         1,629         1,240     76%                 2      0%              1      0%              0      0%              1      0%         385      24%
      Irion County        Borrowers              0             0      0%                 0      0%              0      0%              0      0%              0      0%           0       0%
                          Farms                151           148     98%                 0      0%              0      0%              0      0%              0      0%           3       2%
                          Land in Farms    656,961       656,961    100%                 0      0%              0      0%              0      0%              0      0%           0       0%

      TX                  Population         6,981         6,668     96%             51         1%         18          0%         10          0%              2      0%         232      3%
      Jack County         Borrowers              3             3    100%              0         0%          0          0%          0          0%              0      0%           0      0%
                          Farms                671           667     99%              0         0%          4          1%          0          0%              0      0%           0      0%
                          Land in Farms    519,043       519,043    100%              0         0%          0          0%          0          0%              0      0%           0      0%

      TX                  Population        13,039         9,047     69%          1,195         9%         13          0%         11          0%          1          0%       2,772      21%
      Jackson County      Borrowers             43            43    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                          Farms                775           739     95%             12         2%          0          0%          0          0%         10          1%          14       2%
                          Land in Farms    461,829       447,329     97%          2,322         1%          0          0%          0          0%      6,066          1%       6,112       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1537
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                  Population         31,102       24,529      79%         5,852        19%         74          0%         36          0%         17          0%         594      2%
      Jasper County       Borrowers              22           21      95%             0         0%          0          0%          0          0%          0          0%           1      5%
                          Farms                 532          507      95%            16         3%          0          0%          0          0%          0          0%           9      2%
                          Land in Farms      70,165       69,636      99%             0         0%          0          0%          0          0%          0          0%         529      1%

      TX                  Population          1,946         1,154    59%                 6      0%         12          1%              4      0%              0      0%         770      40%
      Jeff Davis County   Borrowers               1             1   100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                          Farms                  99            99   100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                          Land in Farms   1,524,636     1,524,636   100%                 0      0%          0          0%              0      0%              0      0%           0       0%

      TX                  Population       239,397       147,333     62%         73,779        31%        525          0%      4,938          2%        193          0%      12,629      5%
      Jefferson County    Borrowers             36            32     89%              3         8%          1          3%          0          0%          0          0%           0      0%
                          Farms                492           478     97%             14         3%          0          0%          0          0%          0          0%           0      0%
                          Land in Farms    322,324       322,324    100%              0         0%          0          0%          0          0%          0          0%           0      0%

      TX                  Population         5,109           424       8%                3      0%              7      0%              3      0%         13          0%       4,659      91%
      Jim Hogg County     Borrowers              8             3      38%                0      0%              1     13%              0      0%          0          0%           4      50%
                          Farms                193            60      31%                0      0%              0      0%              0      0%         33         17%         100      52%
                          Land in Farms    736,407       609,501      83%                0      0%              0      0%              0      0%     19,378          3%     107,528      15%

      TX                  Population        37,679        10,092      27%           191         1%         37          0%         54          0%        104          0%      27,201      72%
      Jim Wells County    Borrowers             27            14      52%             0         0%          2          7%          1          4%          0          0%          10      37%
                          Farms                689           440      64%             0         0%          0          0%          0          0%         71         10%         178      26%
                          Land in Farms    517,671       428,444      83%             0         0%          0          0%          0          0%     18,912          4%      70,315      14%

      TX                  Population        97,165        86,434     89%          2,449         3%        379          0%        397          0%         49          0%       7,457      8%
      Johnson County      Borrowers             28            28    100%              0         0%          0          0%          0          0%          0          0%           0      0%
                          Farms              1,763         1,722     98%              5         0%          9          1%          0          0%         12          1%          15      1%
                          Land in Farms    330,173       327,390     99%            156         0%      1,104          0%          0          0%        533          0%         990      0%

      TX                  Population        16,490        12,970      79%           651         4%         39          0%         29          0%         15          0%       2,786      17%
      Jones County        Borrowers            105            97      92%             2         2%          1          1%          1          1%          0          0%           4       4%
                          Farms                793           750      95%             6         1%          3          0%          0          0%         13          2%          21       3%
                          Land in Farms    513,418       498,472      97%         1,228         0%        412          0%          0          0%      4,507          1%       8,799       2%

      TX                  Population        12,455         6,136     49%            343         3%         16          0%         12          0%         32          0%       5,916      47%
      Karnes County       Borrowers             27            27    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                          Farms              1,053           998     95%              5         0%          3          0%          0          0%         15          1%          32       3%
                          Land in Farms    383,573       376,182     98%          2,605         1%          0          0%          0          0%        991          0%       3,795       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1538
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population         52,220        41,225     79%         7,233        14%        177          0%        212          0%         33          0%       3,340      6%
      Kaufman County    Borrowers              21            18     86%             3        14%          0          0%          0          0%          0          0%           0      0%
                        Farms               1,674         1,626     97%            17         1%          9          1%          0          0%          3          0%          19      1%
                        Land in Farms     386,991       383,295     99%         1,238         0%        571          0%          0          0%          0          0%       1,887      0%

      TX                Population         14,589        12,052    83%             49         0%         70          0%         26          0%              0      0%       2,392      16%
      Kendall County    Borrowers               6             6   100%              0         0%          0          0%          0          0%              0      0%           0       0%
                        Farms                 672           653    97%              0         0%          0          0%          0          0%              3      0%          16       2%
                        Land in Farms     354,917       352,234    99%              0         0%          0          0%          0          0%              0      0%       2,683       1%

      TX                Population            460            93     20%                0      0%              0      0%              0      0%              5      1%         362      79%
      Kenedy County     Borrowers               0             0      0%                0      0%              0      0%              0      0%              0      0%           0       0%
                        Farms                  29            21     72%                0      0%              0      0%              0      0%              0      0%           8      28%
                        Land in Farms     553,226       518,775     94%                0      0%              0      0%              0      0%              0      0%      34,451       6%

      TX                Population          1,010           883    87%                 6      1%              1      0%              0      0%              0      0%         120      12%
      Kent County       Borrowers              24            23    96%                 0      0%              0      0%              0      0%              0      0%           1       4%
                        Farms                 156           156   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                        Land in Farms     595,420       595,420   100%                 0      0%              0      0%              0      0%              0      0%           0       0%

      TX                Population         36,304        29,303     81%           752         2%        104          0%        128          0%         23          0%       5,994      17%
      Kerr County       Borrowers               4             3     75%             0         0%          1         25%          0          0%          0          0%           0       0%
                        Farms                 651           642     99%             0         0%          0          0%          0          0%          0          0%           9       1%
                        Land in Farms     531,206       527,371     99%             0         0%          0          0%          0          0%          0          0%       3,835       1%

      TX                Population          4,122         3,330    81%                 2      0%              5      0%              2      0%         11          0%         772      19%
      Kimble County     Borrowers               2             2   100%                 0      0%              0      0%              0      0%          0          0%           0       0%
                        Farms                 476           476   100%                 0      0%              0      0%              0      0%          0          0%           0       0%
                        Land in Farms     774,804       774,804   100%                 0      0%              0      0%              0      0%          0          0%           0       0%

      TX                Population            354           301    85%                 0      0%              0      0%              0      0%              0      0%          53      15%
      King County       Borrowers              14            14   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                        Farms                  34            34   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                        Land in Farms     436,040       436,040   100%                 0      0%              0      0%              0      0%              0      0%           0       0%

      TX                Population          3,119         1,463    47%             48         2%         22          1%              7      0%          9          0%       1,570      50%
      Kinney County     Borrowers               4             4   100%              0         0%          0          0%              0      0%          0          0%           0       0%
                        Farms                 128           121    95%              0         0%          0          0%              0      0%          3          2%           4       3%
                        Land in Farms     698,832       671,843    96%              0         0%          0          0%              0      0%     13,190          2%      13,799       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1539
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White               African American Native American                Asian                  Other                 Hispanic
                                          Total        Number       Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population          30,274        10,279      34%           955      3%         49          0%        381          1%         81          0%      18,529      61%
      Kleberg County    Borrowers                6             5      83%             0      0%          0          0%          0          0%          0          0%           1      17%
                        Farms                  222           132      59%             0      0%          0          0%          0          0%         32         14%          58      26%
                        Land in Farms            0       (20,331)                     0                  0                      0                  8,837                  11,494

      TX                Population          4,837         3,396      70%            335      7%              6      0%              5      0%              7      0%       1,088      22%
      Knox County       Borrowers              80            77      96%              0      0%              0      0%              0      0%              2      3%           1       1%
                        Farms                 298           294      99%              0      0%              0      0%              0      0%              0      0%           4       1%
                        Land in Farms     576,893       576,893     100%              0      0%              0      0%              0      0%              0      0%           0       0%

      TX                Population         43,949        36,546      83%          6,369     14%        403          1%        147          0%              9      0%         475      1%
      Lamar County      Borrowers              91            86      95%              5      5%          0          0%          0          0%              0      0%           0      0%
                        Farms               1,401         1,372      98%             22      2%          3          0%          0          0%              0      0%           4      0%
                        Land in Farms     424,701       423,918     100%              0      0%          0          0%          0          0%              0      0%         783      0%

      TX                Population         15,072         8,700       58%           794      5%         36          0%         19          0%         14          0%       5,509      37%
      Lamb County       Borrowers             241           231       96%             5      2%          2          1%          0          0%          0          0%           3       1%
                        Farms                 745           719       97%             7      1%          0          0%          0          0%          7          1%          12       2%
                        Land in Farms     518,028       511,585       99%         2,662      1%          0          0%          0          0%      1,235          0%       2,546       0%

      TX                Population         13,521        11,321      84%            241      2%         71          1%        126          1%              9      0%       1,753      13%
      Lampasas County   Borrowers              11            10      91%              1      9%          0          0%          0          0%              0      0%           0       0%
                        Farms                 689           679      99%              0      0%          0          0%          0          0%              3      0%           7       1%
                        Land in Farms     432,379       431,485     100%              0      0%          0          0%          0          0%              0      0%         894       0%

      TX                Population          5,254         1,102       21%            52      1%              6      0%              5      0%         21          0%       4,068      77%
      La Salle County   Borrowers               5             2       40%             0      0%              0      0%              0      0%          0          0%           3      60%
                        Farms                 261           225       86%             0      0%              0      0%              0      0%         12          5%          24       9%
                        Land in Farms     766,037       740,277       97%             0      0%              0      0%              0      0%          0          0%      25,760       3%

      TX                Population         18,690        15,716       84%         1,316      7%         15          0%         14          0%         33          0%       1,596       9%
      Lavaca County     Borrowers               9             8       89%             0      0%          0          0%          0          0%          0          0%           1      11%
                        Farms               2,465         2,402       97%            28      1%          0          0%          4          0%          7          0%          24       1%
                        Land in Farms     527,837       519,814       98%         3,621      1%          0          0%          0          0%      1,127          0%       3,275       1%

      TX                Population         12,854         9,650      75%          1,752     14%         13          0%         12          0%         17          0%       1,410      11%
      Lee County        Borrowers               9             9     100%              0      0%          0          0%          0          0%          0          0%           0       0%
                        Farms               1,545         1,464      95%             77      5%          0          0%          0          0%          0          0%           4       0%
                        Land in Farms     318,658       309,937      97%          8,391      3%          0          0%          0          0%          0          0%         330       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                          Page 1540
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        12,665        10,507     83%         1,601        13%         39          0%              8      0%          1          0%         509      4%
      Leon County        Borrowers             22            19     86%             3        14%          0          0%              0      0%          0          0%           0      0%
                         Farms              1,570         1,470     94%            80         5%          5          0%              0      0%          5          0%          10      1%
                         Land in Farms    482,165       469,602     97%         9,216         2%        482          0%              0      0%        610          0%       2,255      0%

      TX                 Population        52,726        42,699     81%         6,821        13%        144          0%        116          0%         66          0%       2,880      5%
      Liberty County     Borrowers             24            21     88%             3        13%          0          0%          0          0%          0          0%           0      0%
                         Farms                886           850     96%            27         3%          0          0%          0          0%          0          0%           9      1%
                         Land in Farms    342,213       335,420     98%         2,831         1%          0          0%          0          0%          0          0%       3,962      1%

      TX                 Population        20,946        15,239     73%         4,127        20%         38          0%         48          0%         35          0%       1,459      7%
      Limestone County   Borrowers             95            81     85%             7         7%          6          6%          0          0%          0          0%           1      1%
                         Farms              1,151         1,085     94%            46         4%          8          1%          0          0%          0          0%          12      1%
                         Land in Farms    428,068       413,366     97%         6,429         2%      1,991          0%          0          0%          0          0%       6,282      1%

      TX                 Population         3,143         2,723    87%                 1      0%         27          1%         13          0%              0      0%         379      12%
      Lipscomb County    Borrowers             18            18   100%                 0      0%          0          0%          0          0%              0      0%           0       0%
                         Farms                304           304   100%                 0      0%          0          0%          0          0%              0      0%           0       0%
                         Land in Farms    588,500       588,500   100%                 0      0%          0          0%          0          0%              0      0%           0       0%

      TX                 Population         9,556         6,158     64%                3      0%         30          0%         17          0%         24          0%       3,324      35%
      Live Oak County    Borrowers             57            50     88%                0      0%          0          0%          0          0%          0          0%           7      12%
                         Farms                707           641     91%                0      0%          0          0%          0          0%         23          3%          43       6%
                         Land in Farms    558,553       537,352     96%                0      0%          0          0%          0          0%          0          0%      21,201       4%

      TX                 Population        11,631        11,098    95%             22         0%         35          0%         20          0%              3      0%         453      4%
      Llano County       Borrowers              4             4   100%              0         0%          0          0%          0          0%              0      0%           0      0%
                         Farms                517           517   100%              0         0%          0          0%          0          0%              0      0%           0      0%
                         Land in Farms    507,135       507,135   100%              0         0%          0          0%          0          0%              0      0%           0      0%

      TX                 Population           107            93    87%                 0      0%              0      0%              0      0%              0      0%          14      13%
      Loving County      Borrowers              0             0     0%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Farms                 14            14   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Land in Farms    346,653       346,653   100%                 0      0%              0      0%              0      0%              0      0%           0       0%

      TX                 Population       222,636       151,414     68%        16,646         7%        593          0%      2,616          1%        356          0%      51,011      23%
      Lubbock County     Borrowers            132           127     96%             1         1%          0          0%          0          0%          0          0%           4       3%
                         Farms                946           905     96%             7         1%          0          0%          0          0%         10          1%          24       3%
                         Land in Farms    481,539       471,834     98%             0         0%          0          0%          0          0%      2,207          0%       7,498       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1541
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population         6,758         3,683     54%           222         3%         17          0%              1      0%         16          0%       2,819      42%
      Lynn County        Borrowers             97            95     98%             0         0%          0          0%              0      0%          0          0%           2       2%
                         Farms                478           465     97%             0         0%          0          0%              0      0%          5          1%           8       2%
                         Land in Farms    491,015       488,421     99%             0         0%          0          0%              0      0%        754          0%       1,840       0%

      TX                 Population         8,778         6,289    72%            151         2%         14          0%              7      0%          0          0%       2,317      26%
      McCulloch County   Borrowers             16            16   100%              0         0%          0          0%              0      0%          0          0%           0       0%
                         Farms                529           507    96%              0         0%          0          0%              0      0%          7          1%          15       3%
                         Land in Farms    675,927       662,936    98%              0         0%          0          0%              0      0%      5,753          1%       7,238       1%

      TX                 Population       189,123       134,507     71%        29,036        15%        472          0%      1,323          1%        142          0%      23,643      13%
      McLennan County    Borrowers             14            13     93%             0         0%          1          7%          0          0%          0          0%           0       0%
                         Farms              1,847         1,769     96%            44         2%          6          0%          3          0%          7          0%          18       1%
                         Land in Farms    472,332       463,526     98%         4,642         1%        214          0%        756          0%        407          0%       2,787       1%

      TX                 Population           817           493    60%                 0      0%              3      0%              0      0%              1      0%         320      39%
      McMullen County    Borrowers              5             5   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Farms                207           191    92%                 0      0%              0      0%              0      0%              4      2%          12       6%
                         Land in Farms    515,960       512,382    99%                 0      0%              0      0%              0      0%              0      0%       3,578       1%

      TX                 Population        10,931         7,127     65%         2,547        23%         54          0%         12          0%         13          0%       1,178      11%
      Madison County     Borrowers              3             1     33%             1        33%          0          0%          0          0%          1         33%           0       0%
                         Farms                760           722     95%            30         4%          0          0%          0          0%          0          0%           8       1%
                         Land in Farms    243,989       239,683     98%             0         0%          0          0%          0          0%          0          0%       4,306       2%

      TX                 Population          9,984        6,696    67%          3,093        31%         40          0%              7      0%              1      0%         147      1%
      Marion County      Borrowers               2            2   100%              0         0%          0          0%              0      0%              0      0%           0      0%
                         Farms                 186          169    91%             17         9%          0          0%              0      0%              0      0%           0      0%
                         Land in Farms      49,579       49,579   100%              0         0%          0          0%              0      0%              0      0%           0      0%

      TX                 Population         4,956         2,881     58%            87         2%         11          0%              7      0%         10          0%       1,960      40%
      Martin County      Borrowers             69            62     90%             0         0%          1          1%              0      0%          2          3%           4       6%
                         Farms                322           307     95%             0         0%          0          0%              0      0%          5          2%          10       3%
                         Land in Farms    512,473       508,884     99%             0         0%          0          0%              0      0%      1,316          0%       2,273       0%

      TX                 Population         3,423         2,734    80%                 6      0%              9      0%              3      0%              0      0%         671      20%
      Mason County       Borrowers              7             7   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Farms                550           550   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                         Land in Farms    547,428       547,428   100%                 0      0%              0      0%              0      0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1542
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                   Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population        36,928        21,878    59%          5,030        14%         74          0%        798          2%         60          0%       9,088      25%
      Matagorda County   Borrowers             19            19   100%              0         0%          0          0%          0          0%          0          0%           0       0%
                         Farms                738           688    93%             24         3%          0          0%          0          0%          9          1%          17       2%
                         Land in Farms    562,612       554,953    99%          3,600         1%          0          0%          0          0%      1,862          0%       2,197       0%

      TX                 Population        36,378         1,571      4%            13         0%        679          2%         51          0%         40          0%      34,024      94%
      Maverick County    Borrowers              0             0      0%             0         0%          0          0%          0          0%          0          0%           0       0%
                         Farms                199           107     54%             0         0%          0          0%          0          0%         30         15%          62      31%
                         Land in Farms    678,590       449,240     66%             0         0%          0          0%          0          0%          0          0%     229,350      34%

      TX                 Population        27,312        14,928     55%            71         0%         83          0%         47          0%         49          0%      12,134      44%
      Medina County      Borrowers              8             6     75%             0         0%          0          0%          0          0%          1         13%           1      13%
                         Farms              1,460         1,314     90%             3         0%          3          0%          0          0%         41          3%          99       7%
                         Land in Farms    658,204       637,544     97%             0         0%        222          0%          0          0%      4,077          1%      16,361       2%

      TX                 Population         2,252         1,511     67%                7      0%              4      0%              0      0%              4      0%         726      32%
      Menard County      Borrowers             10             8     80%                0      0%              0      0%              0      0%              1     10%           1      10%
                         Farms                280           276     99%                0      0%              0      0%              0      0%              0      0%           4       1%
                         Land in Farms    487,573       482,358     99%                0      0%              0      0%              0      0%              0      0%       5,215       1%

      TX                 Population       106,611        74,499    70%          8,016         8%        347          0%        837          1%        132          0%      22,780      21%
      Midland County     Borrowers             12            10    83%              0         0%          0          0%          0          0%          0          0%           2      17%
                         Farms                310           307    99%              0         0%          0          0%          0          0%          0          0%           3       1%
                         Land in Farms    724,706       724,706   100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                 Population        22,946        16,528     72%         2,884        13%         46          0%         23          0%          9          0%       3,456      15%
      Milam County       Borrowers             42            37     88%             3         7%          1          2%          0          0%          1          2%           0       0%
                         Farms              1,576         1,524     97%            25         2%          0          0%          0          0%         10          1%          17       1%
                         Land in Farms    551,148       544,486     99%         2,264         0%          0          0%          0          0%          0          0%       4,398       1%

      TX                 Population         4,531         4,029    89%             10         0%              4      0%              1      0%              3      0%         484      11%
      Mills County       Borrowers             24            23    96%              0         0%              0      0%              0      0%              0      0%           1       4%
                         Farms                689           678    98%              0         0%              0      0%              0      0%              3      0%           8       1%
                         Land in Farms    428,243       427,112   100%              0         0%              0      0%              0      0%              0      0%       1,131       0%

      TX                 Population         8,016         5,241     65%           362         5%         13          0%              5      0%          6          0%       2,389      30%
      Mitchell County    Borrowers             91            76     84%             0         0%          0          0%              1      1%          0          0%          14      15%
                         Farms                371           330     89%             0         0%          0          0%              0      0%         17          5%          24       6%
                         Land in Farms    587,316       573,035     98%             0         0%          0          0%              0      0%          0          0%      14,281       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1543
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                   Population       17,274        16,632    96%                 4      0%         71          0%         13          0%              6      0%         548      3%
      Montague County      Borrowers            11            11   100%                 0      0%          0          0%          0          0%              0      0%           0      0%
                           Farms             1,132         1,121    99%                 0      0%          7          1%          0          0%              0      0%           4      0%
                           Land in Farms   495,364       491,027    99%                 0      0%      3,924          1%          0          0%              0      0%         413      0%

      TX                   Population      182,201       159,436    88%          7,659         4%        646          0%      1,143          1%         80          0%      13,237      7%
      Montgomery County    Borrowers             3             3   100%              0         0%          0          0%          0          0%          0          0%           0      0%
                           Farms               926           883    95%             19         2%          0          0%          5          1%          4          0%          15      2%
                           Land in Farms   193,885       188,924    97%          3,448         2%          0          0%         61          0%          0          0%       1,452      1%

      TX                   Population       17,865        11,707    66%             79         0%        109          1%        255          1%         22          0%       5,693      32%
      Moore County         Borrowers             7             6    86%              0         0%          0          0%          0          0%          0          0%           1      14%
                           Farms               292           289    99%              0         0%          0          0%          0          0%          0          0%           3       1%
                           Land in Farms   587,264       587,264   100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                   Population        13,200        9,660    73%          3,220        24%         69          1%         11          0%              1      0%         239      2%
      Morris County        Borrowers              6            6   100%              0         0%          0          0%          0          0%              0      0%           0      0%
                           Farms                349          322    92%             24         7%          0          0%          0          0%              0      0%           3      1%
                           Land in Farms     73,948       71,353    96%          2,026         3%          0          0%          0          0%              0      0%         569      1%

      TX                   Population        1,532         1,319    86%             68         4%              5      0%              4      0%              0      0%         136      9%
      Motley County        Borrowers            32            31    97%              0         0%              0      0%              0      0%              0      0%           1      3%
                           Farms               190           190   100%              0         0%              0      0%              0      0%              0      0%           0      0%
                           Land in Farms   479,889       479,889   100%              0         0%              0      0%              0      0%              0      0%           0      0%

      TX                   Population       54,753        42,575     78%         8,948        16%        125          0%        283          1%         34          0%       2,788      5%
      Nacogdoches County   Borrowers           169           165     98%             4         2%          0          0%          0          0%          0          0%           0      0%
                           Farms             1,132         1,080     95%            25         2%          3          0%          0          0%          4          0%          20      2%
                           Land in Farms   220,355       213,606     97%         2,644         1%        586          0%          0          0%         98          0%       3,421      2%

      TX                   Population       39,926        29,120     73%         7,523        19%        117          0%        254          1%         21          0%       2,891      7%
      Navarro County       Borrowers            45            43     96%             2         4%          0          0%          0          0%          0          0%           0      0%
                           Farms             1,378         1,321     96%            35         3%          0          0%          0          0%          8          1%          14      1%
                           Land in Farms   525,885       515,487     98%         2,787         1%          0          0%          0          0%          0          0%       7,611      1%

      TX                   Population        13,569       10,329     76%         3,027        22%         43          0%         11          0%              6      0%         153      1%
      Newton County        Borrowers              9            8     89%             1        11%          0          0%          0          0%              0      0%           0      0%
                           Farms                225          206     92%            15         7%          0          0%          0          0%              0      0%           4      2%
                           Land in Farms     30,268       29,279     97%             0         0%          0          0%          0          0%              0      0%         989      3%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1544
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American               Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                  Population       16,594        11,524    69%            732         4%         41      0%         18          0%         33          0%       4,246      26%
      Nolan County        Borrowers           118           111    94%              1         1%          0      0%          2          2%          0          0%           4       3%
                          Farms               439           429    98%              0         0%          0      0%          0          0%          5          1%           5       1%
                          Land in Farms   536,300       534,302   100%              0         0%          0      0%          0          0%        489          0%       1,509       0%

      TX                  Population      291,145       123,716     42%        11,946         4%        806      0%      2,059          1%        567          0%     152,051      52%
      Nueces County       Borrowers            23            22     96%             0         0%          0      0%          0          0%          0          0%           1       4%
                          Farms               541           476     88%             0         0%          4      1%          0          0%         15          3%          46       9%
                          Land in Farms   443,224       434,348     98%             0         0%        112      0%          0          0%      4,273          1%       4,491       1%

      TX                  Population        9,128         7,373    81%                 2      0%         87      1%              7      0%         18          0%       1,641      18%
      Ochiltree County    Borrowers            17            17   100%                 0      0%          0      0%              0      0%          0          0%           0       0%
                          Farms               374           374   100%                 0      0%          0      0%              0      0%          0          0%           0       0%
                          Land in Farms   593,819       593,819   100%                 0      0%          0      0%              0      0%          0          0%           0       0%

      TX                  Population        2,278         2,020    89%                 9      0%         29      1%         17          1%              3      0%         200      9%
      Oldham County       Borrowers            10             9    90%                 0      0%          0      0%          0          0%              1     10%           0      0%
                          Farms               133           133   100%                 0      0%          0      0%          0          0%              0      0%           0      0%
                          Land in Farms   847,608       847,608   100%                 0      0%          0      0%          0          0%              0      0%           0      0%

      TX                  Population        80,509       71,142    88%          6,734         8%        182      0%        477          1%         41          0%       1,933      2%
      Orange County       Borrowers             11           10    91%              1         9%          0      0%          0          0%          0          0%           0      0%
                          Farms                270          266    99%              0         0%          0      0%          0          0%          0          0%           4      1%
                          Land in Farms     56,975       56,743   100%              0         0%          0      0%          0          0%          0          0%         232      0%

      TX                  Population       25,055        21,707    87%            783         3%         79      0%        170          1%         15          0%       2,301      9%
      Palo Pinto County   Borrowers             3             3   100%              0         0%          0      0%          0          0%          0          0%           0      0%
                          Farms               733           733   100%              0         0%          0      0%          0          0%          0          0%           0      0%
                          Land in Farms   517,272       517,272   100%              0         0%          0      0%          0          0%          0          0%           0      0%

      TX                  Population       22,035        17,429    79%          4,042        18%         57      0%         23          0%              7      0%         477      2%
      Panola County       Borrowers            22            22   100%              0         0%          0      0%          0          0%              0      0%           0      0%
                          Farms               789           754    96%             32         4%          0      0%          0          0%              0      0%           3      0%
                          Land in Farms   195,147       193,701    99%              0         0%          0      0%          0          0%              0      0%       1,446      1%

      TX                  Population       64,785        60,950     94%           570         1%        337      1%        219          0%         12          0%       2,697      4%
      Parker County       Borrowers            17            16     94%             1         6%          0      0%          0          0%          0          0%           0      0%
                          Farms             1,965         1,925     98%             3         0%         11      1%          0          0%          7          0%          19      1%
                          Land in Farms   415,694       408,446     98%            60         0%        346      0%          0          0%          0          0%       6,842      2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1545
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                Population           9,863         5,600      57%           113         1%         21          0%         20          0%         13          0%       4,096      42%
      Parmer County     Borrowers               98            94      96%             0         0%          0          0%          0          0%          1          1%           3       3%
                        Farms                  645           633      98%             0         0%          0          0%          0          0%          5          1%           7       1%
                        Land in Farms      526,276       520,159      99%             0         0%          0          0%          0          0%      3,146          1%       2,971       1%

      TX                Population           14,675         6,209     42%            51         0%         31          0%         21          0%         32          0%       8,331      57%
      Pecos County      Borrowers                18            14     78%             0         0%          0          0%          0          0%          1          6%           3      17%
                        Farms                   262           236     90%             0         0%          0          0%          0          0%          6          2%          20       8%
                        Land in Farms     2,891,640     2,777,768     96%             0         0%          0          0%          0          0%          0          0%     113,872       4%

      TX                Population          30,687        24,531     80%          3,848        13%        635          2%         55          0%              8      0%       1,610      5%
      Polk County       Borrowers                7             6     86%              1        14%          0          0%          0          0%              0      0%           0      0%
                        Farms                  515           502     97%             13         3%          0          0%          0          0%              0      0%           0      0%
                        Land in Farms      141,215       140,817    100%            398         0%          0          0%          0          0%              0      0%           0      0%

      TX                Population          97,874        66,877     68%          8,460         9%        709          1%      2,431          2%        151          0%      19,246      20%
      Potter County     Borrowers                5             5    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                        Farms                  163           152     93%              0         0%          0          0%          0          0%          4          2%           7       4%
                        Land in Farms      402,011       401,546    100%              0         0%          0          0%          0          0%          0          0%         465       0%

      TX                Population            6,637         1,197     18%                2      0%         11          0%         10          0%          0          0%       5,417      82%
      Presidio County   Borrowers                 8             0      0%                0      0%          1         13%          0          0%          0          0%           7      88%
                        Farms                   151            92     61%                0      0%          0          0%          0          0%         17         11%          42      28%
                        Land in Farms     1,695,484     1,613,612     95%                0      0%          0          0%          0          0%          0          0%      81,872       5%

      TX                Population            6,715        6,234      93%           284         4%         28          0%              8      0%              3      0%         158      2%
      Rains County      Borrowers                18           16      89%             2        11%          0          0%              0      0%              0      0%           0      0%
                        Farms                   457          447      98%             6         1%          0          0%              0      0%              0      0%           4      1%
                        Land in Farms        98,449       96,460      98%         1,216         1%          0          0%              0      0%              0      0%         773      1%

      TX                Population          89,673        81,364     91%          1,082         1%        414          0%        626          1%         43          0%       6,144      7%
      Randall County    Borrowers               31            30     97%              1         3%          0          0%          0          0%          0          0%           0      0%
                        Farms                  561           555     99%              0         0%          3          1%          0          0%          0          0%           3      1%
                        Land in Farms      497,106       497,106    100%              0         0%          0          0%          0          0%          0          0%           0      0%

      TX                Population           4,514         2,458     54%            108         2%              7      0%              0      0%              0      0%       1,941      43%
      Reagan County     Borrowers               16            12     75%              0         0%              0      0%              0      0%              0      0%           4      25%
                        Farms                  104           104    100%              0         0%              0      0%              0      0%              0      0%           0       0%
                        Land in Farms      617,851       617,851    100%              0         0%              0      0%              0      0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1546
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population          2,412         1,814     75%                 0      0%         23          1%              0      0%              1      0%         574      24%
      Real County        Borrowers               1             1    100%                 0      0%          0          0%              0      0%              0      0%           0       0%
                         Farms                 215           212     99%                 0      0%          0          0%              0      0%              0      0%           3       1%
                         Land in Farms     362,642       362,392    100%                 0      0%          0          0%              0      0%              0      0%         250       0%

      TX                 Population         14,317        11,107      78%         2,857        20%         61          0%         14          0%              5      0%         273      2%
      Red River County   Borrowers              37            34      92%             2         5%          0          0%          0          0%              0      0%           1      3%
                         Farms                 955           916      96%            31         3%          3          0%          0          0%              0      0%           5      1%
                         Land in Farms     425,281       422,060      99%         2,837         1%          0          0%          0          0%              0      0%         384      0%

      TX                 Population          15,852         3,909     25%           340         2%         26          0%         31          0%          1          0%      11,545      73%
      Reeves County      Borrowers               67            53     79%             0         0%          0          0%          1          1%          1          1%          12      18%
                         Farms                  169           146     86%             0         0%          0          0%          0          0%         11          7%          12       7%
                         Land in Farms    1,555,905     1,543,317     99%             0         0%          0          0%          0          0%      5,974          0%       6,614       0%

      TX                 Population          7,976         4,181     52%            608         8%         12          0%              5      0%              6      0%       3,164      40%
      Refugio County     Borrowers              10            10    100%              0         0%          0          0%              0      0%              0      0%           0       0%
                         Farms                 230           220     96%              0         0%          0          0%              0      0%              3      1%           7       3%
                         Land in Farms     667,177       664,859    100%              0         0%          0          0%              0      0%              0      0%       2,318       0%

      TX                 Population          1,025           988     96%                 0      0%              1      0%              2      0%              0      0%          34      3%
      Roberts County     Borrowers               4             4    100%                 0      0%              0      0%              0      0%              0      0%           0      0%
                         Farms                 105           105    100%                 0      0%              0      0%              0      0%              0      0%           0      0%
                         Land in Farms     510,079       510,079    100%                 0      0%              0      0%              0      0%              0      0%           0      0%

      TX                 Population         15,511         9,373      60%         4,197        27%         19          0%         12          0%          6          0%       1,904      12%
      Robertson County   Borrowers              44            40      91%             2         5%          0          0%          0          0%          1          2%           1       2%
                         Farms               1,173         1,074      92%            76         6%          4          0%          0          0%          6          1%          13       1%
                         Land in Farms     391,842       375,940      96%        11,110         3%        193          0%          0          0%        953          0%       3,646       1%

      TX                 Population          25,604       22,981     90%            851         3%         99          0%        159          1%         14          0%       1,500      6%
      Rockwall County    Borrowers               17           15     88%              2        12%          0          0%          0          0%          0          0%           0      0%
                         Farms                  184          184    100%              0         0%          0          0%          0          0%          0          0%           0      0%
                         Land in Farms       47,446       47,446    100%              0         0%          0          0%          0          0%          0          0%           0      0%

      TX                 Population         11,294         8,340      74%           181         2%         11          0%         15          0%          7          0%       2,740      24%
      Runnels County     Borrowers              35            34      97%             0         0%          0          0%          0          0%          1          3%           0       0%
                         Farms                 807           789      98%             0         0%          0          0%          0          0%          7          1%          11       1%
                         Land in Farms     572,607       567,362      99%             0         0%          0          0%          0          0%        858          0%       4,387       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1547
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                     Population       43,735        32,899     75%         8,924     20%        115          0%         49          0%         12          0%       1,736      4%
      Rusk County            Borrowers            13            10     77%             3     23%          0          0%          0          0%          0          0%           0      0%
                             Farms             1,226         1,154     94%            58      5%          0          0%          0          0%          0          0%          14      1%
                             Land in Farms   268,058       259,605     97%         6,166      2%          0          0%          0          0%          0          0%       2,287      1%

      TX                     Population         9,586        8,339     87%         1,109     12%         10          0%         11          0%              6      0%         111      1%
      Sabine County          Borrowers              2            1     50%             1     50%          0          0%          0          0%              0      0%           0      0%
                             Farms                185          177     96%             8      4%          0          0%          0          0%              0      0%           0      0%
                             Land in Farms     33,544       32,711     98%           833      2%          0          0%          0          0%              0      0%           0      0%

      TX                     Population         7,999        5,607    70%          2,236     28%         11          0%              6      0%              1      0%         138      2%
      San Augustine County   Borrowers             16           16   100%              0      0%          0          0%              0      0%              0      0%           0      0%
                             Farms                293          287    98%              6      2%          0          0%              0      0%              0      0%           0      0%
                             Land in Farms     54,580       54,580   100%              0      0%          0          0%              0      0%              0      0%           0      0%

      TX                     Population        16,372       13,319    81%          2,534     15%         71          0%         14          0%              3      0%         431      3%
      San Jacinto County     Borrowers              1            1   100%              0      0%          0          0%          0          0%              0      0%           0      0%
                             Farms                334          312    93%             22      7%          0          0%          0          0%              0      0%           0      0%
                             Land in Farms     82,721       82,721   100%              0      0%          0          0%          0          0%              0      0%           0      0%

      TX                     Population       58,749        27,669     47%           863      1%        150          0%        113          0%        145          0%      29,809      51%
      San Patricio County    Borrowers            33            30     91%             0      0%          0          0%          0          0%          1          3%           2       6%
                             Farms               486           443     91%             0      0%          0          0%          0          0%         14          3%          29       6%
                             Land in Farms   358,211       350,190     98%             0      0%          0          0%          0          0%      2,769          1%       5,252       1%

      TX                     Population        5,401         4,373    81%             13      0%              8      0%              1      0%              8      0%         998      18%
      San Saba County        Borrowers            27            27   100%              0      0%              0      0%              0      0%              0      0%           0       0%
                             Farms               640           636    99%              0      0%              0      0%              0      0%              0      0%           4       1%
                             Land in Farms   743,638       743,638   100%              0      0%              0      0%              0      0%              0      0%           0       0%

      TX                     Population        2,990         1,898    63%             24      1%              2      0%              0      0%              4      0%       1,062      36%
      Schleicher County      Borrowers            12            12   100%              0      0%              0      0%              0      0%              0      0%           0       0%
                             Farms               258           255    99%              0      0%              0      0%              0      0%              0      0%           3       1%
                             Land in Farms   764,723       764,723   100%              0      0%              0      0%              0      0%              0      0%           0       0%

      TX                     Population       18,634        13,214     71%           866      5%         56          0%         28          0%         16          0%       4,454      24%
      Scurry County          Borrowers            19            18     95%             0      0%          1          5%          0          0%          0          0%           0       0%
                             Farms               553           539     97%             0      0%          0          0%          0          0%          5          1%           9       2%
                             Land in Farms   518,371       514,523     99%             0      0%          0          0%          0          0%      1,952          0%       1,896       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1548
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                   Population        3,316         3,016     91%             12         0%              9      0%              2      0%              5      0%         272      8%
      Shackelford County   Borrowers             6             6    100%              0         0%              0      0%              0      0%              0      0%           0      0%
                           Farms               236           236    100%              0         0%              0      0%              0      0%              0      0%           0      0%
                           Land in Farms   564,382       564,382    100%              0         0%              0      0%              0      0%              0      0%           0      0%

      TX                   Population       22,034        16,719     76%          4,710        21%         34          0%         30          0%              2      0%         539      2%
      Shelby County        Borrowers            90            85     94%              4         4%          0          0%          0          0%              0      0%           1      1%
                           Farms             1,017           996     98%             17         2%          0          0%          0          0%              0      0%           4      0%
                           Land in Farms   187,728       186,996    100%              0         0%          0          0%          0          0%              0      0%         732      0%

      TX                   Population        2,858         2,302      81%                4      0%              7      0%              7      0%              0      0%         538      19%
      Sherman County       Borrowers            17            12      71%                0      0%              1      6%              0      0%              1      6%           3      18%
                           Farms               275           269      98%                0      0%              0      0%              0      0%              0      0%           6       2%
                           Land in Farms   507,449       500,057      99%                0      0%              0      0%              0      0%              0      0%       7,392       1%

      TX                   Population      151,309       109,853      73%        31,289        21%        478          0%        623          0%         80          0%       8,986      6%
      Smith County         Borrowers            10             7      70%             3        30%          0          0%          0          0%          0          0%           0      0%
                           Farms             1,609         1,502      93%            94         6%          3          0%          0          0%          3          0%           7      0%
                           Land in Farms   247,626       240,412      97%         6,610         3%         94          0%          0          0%         99          0%         411      0%

      TX                   Population         5,360        4,547     85%             10         0%         34          1%         18          0%              2      0%         749      14%
      Somervell County     Borrowers              2            2    100%              0         0%          0          0%          0          0%              0      0%           0       0%
                           Farms                229          229    100%              0         0%          0          0%          0          0%              0      0%           0       0%
                           Land in Farms     62,850       62,850    100%              0         0%          0          0%          0          0%              0      0%           0       0%

      TX                   Population       40,518         1,001       2%                9      0%              6      0%         13          0%         99          0%      39,390      97%
      Starr County         Borrowers            37             4      11%                0      0%              2      5%          1          3%          0          0%          30      81%
                           Farms               676           (72)    -11%                0      0%              3      0%          0          0%        224         33%         521      77%
                           Land in Farms   632,622       310,033      49%                0      0%              0      0%          0          0%          0          0%     322,589      51%

      TX                   Population        9,010         7,950     88%            234         3%         29          0%         28          0%              2      0%         767      9%
      Stephens County      Borrowers             3             3    100%              0         0%          0          0%          0          0%              0      0%           0      0%
                           Farms               434           425     98%              0         0%          4          1%          0          0%              0      0%           5      1%
                           Land in Farms   536,507       533,619     99%              0         0%          0          0%          0          0%              0      0%       2,888      1%

      TX                   Population        1,438         1,067     74%                 0      0%              4      0%              0      0%              1      0%         366      25%
      Sterling County      Borrowers             1             1    100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                           Farms                74            74    100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                           Land in Farms   835,337       835,337    100%                 0      0%              0      0%              0      0%              0      0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1549
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White              African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                    Population         2,013         1,677     83%             88         4%              2      0%              7      0%              2      0%         237      12%
      Stonewall County      Borrowers             30            29     97%              0         0%              0      0%              0      0%              0      0%           1       3%
                            Farms                313           308     98%              0         0%              0      0%              0      0%              0      0%           5       2%
                            Land in Farms    512,247       510,435    100%              0         0%              0      0%              0      0%              0      0%       1,812       0%

      TX                    Population         4,135         2,244     54%                 1      0%         14          0%              6      0%          4          0%       1,866      45%
      Sutton County         Borrowers              4             4    100%                 0      0%          0          0%              0      0%          0          0%           0       0%
                            Farms                211           198     94%                 0      0%          0          0%              0      0%          4          2%           9       4%
                            Land in Farms    926,093       892,151     96%                 0      0%          0          0%              0      0%      7,520          1%      26,422       3%

      TX                    Population         8,133         5,254     65%            332         4%         26          0%         13          0%         12          0%       2,496      31%
      Swisher County        Borrowers            129           115     89%              1         1%          0          0%          0          0%          3          2%          10       8%
                            Farms                502           486     97%              3         1%          0          0%          0          0%          6          1%           7       1%
                            Land in Farms    505,140       505,140    100%              0         0%          0          0%          0          0%          0          0%           0       0%

      TX                    Population      1,170,103      857,272     73%        138,302        12%      4,921          0%     28,676          2%      1,053          0%     139,879      12%
      Tarrant County        Borrowers               1            1    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                            Farms                 974          927     95%             21         2%         10          1%          0          0%          3          0%          13       1%
                            Land in Farms     167,569      161,018     96%            866         1%      1,143          1%          0          0%          0          0%       4,542       3%

      TX                    Population       119,655        92,955     78%          7,336         6%        366          0%      1,342          1%        145          0%      17,511      15%
      Taylor County         Borrowers             31            31    100%              0         0%          0          0%          0          0%          0          0%           0       0%
                            Farms                915           900     98%              0         0%          3          0%          0          0%          3          0%           9       1%
                            Land in Farms    509,017       506,743    100%              0         0%          0          0%          0          0%        189          0%       2,085       0%

      TX                    Population          1,410           651    46%                 1      0%              3      0%              2      0%              2      0%         751      53%
      Terrell County        Borrowers               3             3   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                            Farms                  96            96   100%                 0      0%              0      0%              0      0%              0      0%           0       0%
                            Land in Farms   1,396,275     1,396,275   100%                 0      0%              0      0%              0      0%              0      0%           0       0%

      TX                    Population        13,218         7,486      57%           438         3%         31          0%         24          0%         45          0%       5,194      39%
      Terry County          Borrowers            105           102      97%             0         0%          0          0%          0          0%          0          0%           3       3%
                            Farms                489           463      95%             0         0%          0          0%          0          0%         11          2%          15       3%
                            Land in Farms    459,120       456,145      99%             0         0%          0          0%          0          0%          0          0%       2,975       1%

      TX                    Population         1,880         1,732     92%                 0      0%              4      0%              8      0%              0      0%         136      7%
      Throckmorton County   Borrowers             10             9     90%                 0      0%              0      0%              0      0%              1     10%           0      0%
                            Farms                264           264    100%                 0      0%              0      0%              0      0%              0      0%           0      0%
                            Land in Farms    581,511       581,511    100%                 0      0%              0      0%              0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1550
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American            Asian                  Other                 Hispanic
                                           Total        Number      Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number    Percent
      TX                 Population         24,009        18,128      76%         3,188     13%         96      0%         23          0%         18          0%       2,556      11%
      Titus County       Borrowers              12            11      92%             0      0%          0      0%          0          0%          0          0%           1       8%
                         Farms                 702           668      95%            19      3%          7      1%          3          0%          0          0%           5       1%
                         Land in Farms     180,332       177,609      98%         1,410      1%        485      0%          0          0%          0          0%         828       0%

      TX                 Population          98,458        67,642     69%         3,955      4%        280      0%        951          1%        129          0%      25,501      26%
      Tom Green County   Borrowers               21            20     95%             0      0%          0      0%          0          0%          0          0%           1       5%
                         Farms                  857           818     95%             0      0%          3      0%          0          0%         12          1%          24       3%
                         Land in Farms    1,020,756     1,005,685     99%             0      0%          0      0%          0          0%      5,968          1%       9,103       1%

      TX                 Population        576,407       375,279      65%        60,998     11%      1,562      0%     15,883          3%        996          0%     121,689      21%
      Travis County      Borrowers               7             6      86%             1     14%          0      0%          0          0%          0          0%           0       0%
                         Farms               1,015           948      93%            30      3%          0      0%          3          0%         12          1%          22       2%
                         Land in Farms     332,826       326,098      98%         2,494      1%          0      0%          0          0%        193          0%       4,041       1%

      TX                 Population         11,445         9,485     83%          1,642     14%         24      0%         21          0%              1      0%         272      2%
      Trinity County     Borrowers               8             8    100%              0      0%          0      0%          0          0%              0      0%           0      0%
                         Farms                 504           491     97%             13      3%          0      0%          0          0%              0      0%           0      0%
                         Land in Farms     109,635       109,635    100%              0      0%          0      0%          0          0%              0      0%           0      0%

      TX                 Population          16,646       14,426      87%         1,986     12%         45      0%         12          0%              0      0%         177      1%
      Tyler County       Borrowers               10            9      90%             1     10%          0      0%          0          0%              0      0%           0      0%
                         Farms                  409          399      98%             7      2%          0      0%          0          0%              0      0%           3      1%
                         Land in Farms       58,690       58,111      99%           458      1%          0      0%          0          0%              0      0%         121      0%

      TX                 Population         31,370        26,714     85%          3,858     12%        115      0%         28          0%         14          0%         641      2%
      Upshur County      Borrowers               9             9    100%              0      0%          0      0%          0          0%          0          0%           0      0%
                         Farms               1,029           977     95%             40      4%          4      0%          0          0%          0          0%           8      1%
                         Land in Farms     194,008       191,819     99%              0      0%          0      0%          0          0%          0          0%       2,189      1%

      TX                 Population          4,447         2,666     60%             88      2%         19      0%              2      0%              6      0%       1,666      37%
      Upton County       Borrowers               7             6     86%              0      0%          0      0%              0      0%              0      0%           1      14%
                         Farms                 112           112    100%              0      0%          0      0%              0      0%              0      0%           0       0%
                         Land in Farms     694,909       694,909    100%              0      0%          0      0%              0      0%              0      0%           0       0%

      TX                 Population         23,340         9,030     39%             35      0%         28      0%         53          0%         90          0%      14,104      60%
      Uvalde County      Borrowers              28            28    100%              0      0%          0      0%          0          0%          0          0%           0       0%
                         Farms                 617           590     96%              0      0%          0      0%          0          0%          9          1%          18       3%
                         Land in Farms     917,186       900,912     98%              0      0%          0      0%          0          0%        545          0%      15,729       2%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1551
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American            Asian              Other             Hispanic
                                           Total        Number      Percent     Number    Percent   Number   Percent   Number   Percent   Number   Percent   Number    Percent
      TX                  Population         38,721        10,418    27%            680      2%         61      0%        219      1%         44      0%      27,299      71%
      Val Verde County    Borrowers               4             4   100%              0      0%          0      0%          0      0%          0      0%           0       0%
                          Farms                 236           196    83%              0      0%          0      0%          0      0%         14      6%          26      11%
                          Land in Farms   1,806,639     1,792,707    99%              0      0%          0      0%          0      0%      1,136      0%      12,796       1%

      TX                  Population        37,944        34,786      92%         1,451      4%        148      0%         41      0%          3      0%       1,515      4%
      Van Zandt County    Borrowers             47            43      91%             2      4%          0      0%          0      0%          2      4%           0      0%
                          Farms              2,230         2,177      98%            13      1%         13      1%          0      0%         11      0%          16      1%
                          Land in Farms    378,217       374,641      99%         1,435      0%          0      0%          0      0%          0      0%       2,141      1%

      TX                  Population        74,361        43,835      59%         4,638      6%        141      0%        225      0%        150      0%      25,372      34%
      Victoria County     Borrowers             28            25      89%             0      0%          0      0%          0      0%          0      0%           3      11%
                          Farms              1,018           965      95%            14      1%          0      0%          0      0%         11      1%          28       3%
                          Land in Farms    430,736       415,606      96%             0      0%          0      0%          0      0%      4,382      1%      10,748       2%

      TX                  Population        50,917        32,856     65%         12,050     24%        147      0%        301      1%         70      0%       5,493      11%
      Walker County       Borrowers              5             5    100%              0      0%          0      0%          0      0%          0      0%           0       0%
                          Farms                722           685     95%             32      4%          0      0%          0      0%          0      0%           5       1%
                          Land in Farms    213,923       210,305     98%          3,048      1%          0      0%          0      0%          0      0%         570       0%

      TX                  Population        23,390        11,956      51%         8,738     37%         20      0%         66      0%         18      0%       2,592      11%
      Waller County       Borrowers              6             5      83%             1     17%          0      0%          0      0%          0      0%           0       0%
                          Farms                907           840      93%            48      5%          0      0%          0      0%          5      1%          14       2%
                          Land in Farms    242,901       237,659      98%         3,698      2%          0      0%          0      0%          0      0%       1,544       1%

      TX                  Population        13,115         7,728     59%            432      3%         64      0%         20      0%         41      0%       4,830      37%
      Ward County         Borrowers              2             1     50%              0      0%          0      0%          0      0%          0      0%           1      50%
                          Farms                 79            74     94%              0      0%          0      0%          0      0%          0      0%           5       6%
                          Land in Farms    455,873       454,608    100%              0      0%          0      0%          0      0%          0      0%       1,265       0%

      TX                  Population        26,154        19,321      74%         5,427     21%         37      0%        181      1%         30      0%       1,158      4%
      Washington County   Borrowers              6             5      83%             1     17%          0      0%          0      0%          0      0%           0      0%
                          Farms              1,903         1,834      96%            50      3%          0      0%          5      0%          4      0%          10      1%
                          Land in Farms    328,367       322,964      98%         3,869      1%          0      0%        741      0%          0      0%         793      0%

      TX                  Population        133,239         7,427      6%            68      0%         44      0%        397      0%        234      0%     125,069      94%
      Webb County         Borrowers               5             1     20%             0      0%          0      0%          0      0%          0      0%           4      80%
                          Farms                 414           150     36%             0      0%          0      0%          0      0%         57     14%         207      50%
                          Land in Farms   1,712,044     1,357,914     79%             0      0%          0      0%          0      0%          0      0%     354,130      21%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                             Page 1552
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                          Total        Number     Percent     Number    Percent   Number       Percent   Number       Percent   Number       Percent   Number    Percent
      TX                  Population       39,955        23,501     59%         6,166     15%         17          0%        103          0%         65          0%      10,103      25%
      Wharton County      Borrowers            57            55     96%             1      2%          0          0%          0          0%          0          0%           1       2%
                          Farms             1,273         1,215     95%            37      3%          0          0%          0          0%          7          1%          14       1%
                          Land in Farms   644,730       638,640     99%         2,992      0%          0          0%          0          0%          0          0%       3,098       0%

      TX                  Population        5,879         5,297    90%            145      2%         35          1%         21          0%              3      0%         378      6%
      Wheeler County      Borrowers            39            38    97%              0      0%          1          3%          0          0%              0      0%           0      0%
                          Farms               445           442    99%              0      0%          0          0%          0          0%              0      0%           3      1%
                          Land in Farms   501,692       500,660   100%              0      0%          0          0%          0          0%              0      0%       1,032      0%

      TX                  Population      122,378        98,127    80%         10,986      9%        813          1%      1,778          1%        119          0%      10,555      9%
      Wichita County      Borrowers             4             4   100%              0      0%          0          0%          0          0%          0          0%           0      0%
                          Farms               508           498    98%              3      1%          0          0%          0          0%          0          0%           7      1%
                          Land in Farms   307,783       306,438   100%              0      0%          0          0%          0          0%          0          0%       1,345      0%

      TX                  Population       15,121        11,437    76%          1,336      9%         71          0%         70          0%         22          0%       2,185      14%
      Wilbarger County    Borrowers           122           121    99%              0      0%          0          0%          0          0%          0          0%           1       1%
                          Farms               461           461   100%              0      0%          0          0%          0          0%          0          0%           0       0%
                          Land in Farms   863,384       863,384   100%              0      0%          0          0%          0          0%          0          0%           0       0%

      TX                  Population       17,705         2,648     15%            73      0%              8      0%         11          0%         28          0%      14,937      84%
      Willacy County      Borrowers            23            10     43%             0      0%              0      0%          0          0%          0          0%          13      57%
                          Farms               274           192     70%             0      0%              0      0%          0          0%         21          8%          61      22%
                          Land in Farms   260,892       229,282     88%             0      0%              0      0%          0          0%      4,434          2%      27,176      10%

      TX                  Population      139,551       110,724    79%          6,537      5%        424          0%      1,760          1%        102          0%      20,004      14%
      Williamson County   Borrowers            16            16   100%              0      0%          0          0%          0          0%          0          0%           0       0%
                          Farms             1,829         1,784    98%              3      0%          4          0%          0          0%         14          1%          24       1%
                          Land in Farms   545,670       537,933    99%          1,031      0%      1,005          0%          0          0%      1,813          0%       3,888       1%

      TX                  Population       22,650        14,273     63%           235      1%         30          0%         17          0%         41          0%       8,054      36%
      Wilson County       Borrowers           126           118     94%             0      0%          1          1%          2          2%          0          0%           5       4%
                          Farms             1,698         1,567     92%             5      0%          0          0%          0          0%         40          2%          86       5%
                          Land in Farms   476,493       459,718     96%           146      0%          0          0%          0          0%      5,437          1%      11,192       2%

      TX                  Population        8,626         5,236    61%            155      2%         40          0%              8      0%         15          0%       3,172      37%
      Winkler County      Borrowers             0             0     0%              0      0%          0          0%              0      0%          0          0%           0       0%
                          Farms                25            25   100%              0      0%          0          0%              0      0%          0          0%           0       0%
                          Land in Farms   432,887       432,887   100%              0      0%          0          0%              0      0%          0          0%           0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1553
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American                   Asian                  Other                  Hispanic
                                           Total        Number      Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent    Number     Percent
      TX                Population          34,679        31,340     90%            387         1%        189          1%         79          0%         21          0%        2,663       8%
      Wise County       Borrowers               15            15    100%              0         0%          0          0%          0          0%          0          0%            0       0%
                        Farms                1,795         1,758     98%              0         0%          9          1%          0          0%         13          1%           15       1%
                        Land in Farms      461,127       454,026     98%              0         0%      1,677          0%          0          0%        932          0%        4,492       1%

      TX                Population          29,380        26,069      89%         2,374         8%        105          0%         39          0%              5      0%          788       3%
      Wood County       Borrowers               11            10      91%             1         9%          0          0%          0          0%              0      0%            0       0%
                        Farms                1,285         1,237      96%            37         3%          0          0%          0          0%              4      0%            7       1%
                        Land in Farms      203,667       199,812      98%         2,592         1%          0          0%          0          0%              0      0%        1,263       1%

      TX                Population           8,786         5,442      62%            85         1%         30          0%              9      0%           3         0%        3,217      37%
      Yoakum County     Borrowers               88            83      94%             0         0%          0          0%              0      0%           0         0%            5       6%
                        Farms                  253           245      97%             0         0%          0          0%              0      0%           3         1%            5       2%
                        Land in Farms      344,667       341,040      99%             0         0%          0          0%              0      0%       1,676         0%        1,951       1%

      TX                Population          18,126        16,597     92%            260         1%         53          0%         44          0%              8      0%        1,164       6%
      Young County      Borrowers               14            13     93%              0         0%          0          0%          0          0%              1      7%            0       0%
                        Farms                  675           675    100%              0         0%          0          0%          0          0%              0      0%            0       0%
                        Land in Farms      563,183       563,183    100%              0         0%          0          0%          0          0%              0      0%            0       0%

      TX                Population           9,279         1,726      19%                1      0%              8      0%              3      0%          22         0%        7,519     81%
      Zapata County     Borrowers               12             0       0%                0      0%              0      0%              0      0%           0         0%           12    100%
                        Farms                  333           (15)     -5%                0      0%              0      0%              0      0%          89        27%          259     78%
                        Land in Farms      484,907        97,933      20%                0      0%              0      0%              0      0%      89,443        18%      297,531     61%

      TX                Population          12,162           954       8%           284         2%          3          0%              0      0%          46         0%       10,875      89%
      Zavala County     Borrowers               14            12      86%             0         0%          1          7%              0      0%           0         0%            1       7%
                        Farms                  247           218      88%             0         0%          5          2%              0      0%           7         3%           17       7%
                        Land in Farms      723,018       695,945      96%             0         0%      1,900          0%              0      0%      11,070         2%       14,103       2%

      TX                Population       16,986,510    10,291,680     61% 1,976,360            12%     52,803          0%     303,825         2%      21,937         0%     4,339,905     26%
      STATE             Borrowers             8,151         7,447     91%       175             2%         49          1%          14         0%          47         1%           419      5%
                        Farms               180,644       168,900     93%     2,802             2%        330          0%          77         0%       2,465         1%         6,070      3%
                        Land in Farms   129,728,731   125,614,210     97%   237,964             0%     36,512          0%      19,435         0%     535,515         0%     3,285,095      3%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                              Page 1554
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ANDERSON, TEXAS                                        ANDREWS, TEXAS                                        ANGELINA, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        21                         11                         12                             9                         14                          8
                              Loans                            31                         17                         34                        25                             25                      17
                              Principal and Interest   1,759,441                    382,699                  4,111,101                 1,467,008                   1,776,237                    490,203

WHITE                         Borrowers                        14         67%                  9     82%             11        92%                  8     89%                 14   100%                   8   100%
                              Loans                            22         71%             15         88%             33        97%             24         96%                 25   100%               17      100%
                              Principal and Interest   1,385,251          79%       281,346          74%     4,096,996       100%      1,461,265        100%       1,776,237       100%         490,203       100%

AFRICAN AMERICAN              Borrowers                            7      33%                  2     18%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                9      29%                  2     12%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    374,190           21%       101,353          26%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      8%                  1     11%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      3%                  1      4%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        14,105          0%         5,743           0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1555
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              ARANSAS, TEXAS                                         ARCHER, TEXAS                                     ARMSTRONG, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                           1                         6                          2                         17                          2
                              Loans                                4                           4                         6                          2                         23                          2
                              Principal and Interest    124,656                      60,213                   285,609                      1,326                   2,013,590                     11,782

WHITE                         Borrowers                            1     100%                  1   100%                  6   100%                   2   100%                  17   100%                   2   100%
                              Loans                                4     100%                  4   100%                  6   100%                   2   100%                  23   100%                   2   100%
                              Principal and Interest    124,656          100%        60,213        100%       285,609        100%          1,326        100%       2,013,590       100%          11,782       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1556
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ATASCOSA, TEXAS                                              AUSTIN, TEXAS                                        BAILEY, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        17                              7                     11                             9                         137                      64
                              Loans                            49                         30                         26                        22                             655                     309
                              Principal and Interest   2,773,481                    438,634                  1,486,106                   402,564                  33,078,428                   9,227,124

WHITE                         Borrowers                            9      53%                  5     71%             10        91%                  9   100%                  126     92%              58        91%
                              Loans                            22         45%             14         47%             25        96%             22       100%                  612     93%             293        95%
                              Principal and Interest    905,314           33%        63,868          15%     1,438,272         97%       402,564        100%      30,327,670          92%      8,837,923         96%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1      9%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      4%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        47,835          3%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            2      12%                  1     14%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                            10         20%                  9     30%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest    707,566           26%       242,759          55%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            1       6%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                1       2%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest    190,814            7%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            5      29%                  1     14%                 0      0%                  0      0%                  11      8%                  6      9%
                              Loans                            16         33%                  7     23%                 0      0%                  0      0%                  43      7%              16         5%
                              Prinicpal and Interest    969,787           35%       132,007          30%                 0      0%                  0      0%      2,750,759           8%        389,201          4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1557
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BANDERA, TEXAS                                         BASTROP, TEXAS                                            BAYLOR, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            2                           2                         5                          4                         23                      10
                              Loans                                3                           3                         9                          7                         31                      12
                              Principal and Interest    203,896                     105,467                   558,718                    134,608                   1,609,044                    248,522

WHITE                         Borrowers                            2     100%                  2   100%                  5   100%                   4   100%                  22     96%              10      100%
                              Loans                                3     100%                  3   100%                  9   100%                   7   100%                  30     97%              12      100%
                              Principal and Interest    203,896          100%       105,467        100%       558,718        100%        134,608        100%       1,542,319         96%        248,522       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1      4%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  1      3%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          66,725         4%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1558
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                       BEE, TEXAS                                        BELL, TEXAS                                          BEXAR, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        28                         20                         25                        17                              7                          5
                              Loans                            71                         56                         55                        38                             20                      18
                              Principal and Interest   4,428,532                    888,530                  2,852,128                   860,828                   1,945,100                    936,721

WHITE                         Borrowers                        21         75%             15         75%             25      100%              17       100%                   7   100%                   5   100%
                              Loans                            52         73%             45         80%             55      100%              38       100%                  20   100%               18      100%
                              Principal and Interest   3,444,469          78%       716,998          81%     2,852,128       100%        860,828        100%       1,945,100       100%         936,721       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            7      25%                  5     25%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                            19         27%             11         20%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    984,063           22%       171,532          19%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1559
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               BORDEN, TEXAS                                         BOSQUE, TEXAS                                            BOWIE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        24                         10                         17                             9                         39                      19
                              Loans                            89                         30                         28                        12                             79                      35
                              Principal and Interest   3,893,148                    513,825                  1,428,716                   260,698                   6,027,394                  1,890,730

WHITE                         Borrowers                        24        100%             10       100%              16        94%                  9   100%                  37     95%              17        89%
                              Loans                            89        100%             30       100%              27        96%             12       100%                  74     94%              31        89%
                              Principal and Interest   3,893,148         100%       513,825        100%      1,356,861         95%       260,698        100%       5,858,409         97%      1,878,002         99%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  2      5%                  2     11%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  5      6%                  4     11%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        168,985          3%         12,727          1%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      6%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      4%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        71,855          5%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1560
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BRAZORIA, TEXAS                                         BRAZOS, TEXAS                                      BREWSTER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        51                         35                             5                          3                         1                          0
                              Loans                           126                        101                         11                             9                         1                          0
                              Principal and Interest   8,077,285                  3,701,780                  1,468,174                   659,567                       12,216                            0

WHITE                         Borrowers                        47         92%             32         91%                 4     80%                  2     67%                 1   100%                   0      0%
                              Loans                           118         94%             94         93%             10        91%                  8     89%                 1   100%                   0      0%
                              Principal and Interest   8,056,414         100%     3,690,626        100%      1,461,770       100%        655,708          99%          12,216     100%                   0      0%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1     20%                  1     33%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      9%                  1     11%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         6,404          0%         3,859           1%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            4       8%                  3      9%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                8       6%                  7      7%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest      20,871           0%        11,154           0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1561
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               BRISCOE, TEXAS                                         BROOKS, TEXAS                                            BROWN, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         63                         28                             4                          2                         26                      13
                              Loans                            246                        145                             6                          3                         42                      19
                              Principal and Interest   12,192,507                  4,873,297                   488,413                    273,674                   2,325,920                    306,874

WHITE                         Borrowers                         62         98%             27         96%                 1     25%                  0      0%                 25     96%              12        92%
                              Loans                            241         98%            141         97%                 1     17%                  0      0%                 41     98%              18        95%
                              Principal and Interest   11,971,436          98%     4,838,897          99%        74,699         15%                  0      0%      2,069,955         89%        294,935         96%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       2%                  1      4%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 5       2%                  4      3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     221,070            2%        34,400           1%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0       0%                  0      0%                 3     75%                  2   100%                   1      4%                  1      8%
                              Loans                                 0       0%                  0      0%                 5     83%                  3   100%                   1      2%                  1      5%
                              Prinicpal and Interest                0       0%                  0      0%      413,714          85%       273,674        100%         255,965         11%         11,939          4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1562
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            BURLESON, TEXAS                                          BURNET, TEXAS                                      CALDWELL, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        10                              5                         6                          2                         18                      10
                              Loans                            20                         12                         12                             6                         30                      17
                              Principal and Interest   1,882,168                    728,752                  1,167,946                   412,504                   2,452,821                    437,795

WHITE                         Borrowers                            8      80%                  4     80%                 4     67%                  1     50%                 17     94%                  9     90%
                              Loans                            16         80%                  9     75%                 9     75%                  5     83%                 27     90%              14        82%
                              Principal and Interest   1,652,846          88%       572,405          79%     1,126,619         96%       409,096          99%      2,429,885         99%        428,169         98%

AFRICAN AMERICAN              Borrowers                            1      10%                  1     20%                 0      0%                  0      0%                  1      6%                  1     10%
                              Loans                                3      15%                  3     25%                 0      0%                  0      0%                  3     10%                  3     18%
                              Principal and Interest    205,903           11%       156,346          21%                 0      0%                  0      0%          22,936         1%           9,626         2%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 1     17%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      8%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         4,608          0%                  0                          0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            1      10%                  0      0%                 1     17%                  1     50%                  0      0%                  0      0%
                              Loans                                1       5%                  0      0%                 2     17%                  1     17%                  0      0%                  0      0%
                              Principal and Interest      23,419           1%                  0      0%        36,720          3%         3,408           1%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1563
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CALHOUN, TEXAS                                       CALLAHAN, TEXAS                                        CAMERON, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        13                              8                     16                             4                          98                      57
                              Loans                            32                         19                         23                             5                         180                     122
                              Principal and Interest   1,187,808                    308,237                  1,023,276                    29,189                  13,424,136                   4,690,384

WHITE                         Borrowers                        12         92%                  8   100%              15        94%                  4   100%                   53     54%              30        53%
                              Loans                            31         97%             19       100%              22        96%                  5   100%                  105     58%              72        59%
                              Principal and Interest   1,097,752          92%       308,237        100%       911,002          89%        29,189        100%       9,301,196          69%      3,653,336         78%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   4      4%                  4      7%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   9      5%                  9      7%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%      1,114,416           8%        566,912         12%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  1      2%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  1      1%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        145,392           1%           6,112         0%

OTHER                         Borrowers                            1       8%                  0      0%                 1      6%                  0      0%                   1      1%                  1      2%
                              Loans                                1       3%                  0      0%                 1      4%                  0      0%                   1      1%                  1      1%
                              Principal and Interest      90,056           8%                  0      0%      112,273          11%                  0      0%          66,869          0%         28,043          1%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  39     40%              21        37%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  64     36%              39        32%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%      2,796,263          21%        435,981          9%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1564
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   CAMP, TEXAS                                       CARSON, TEXAS                                             CASS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        12                              3                     13                             4                         40                          7
                              Loans                            15                              3                     30                        16                             55                          8
                              Principal and Interest    916,877                      38,211                  3,317,317                   787,854                   1,084,768                     17,171

WHITE                         Borrowers                        11         92%                  3   100%              12        92%                  4   100%                  36     90%                  6     86%
                              Loans                            14         93%                  3   100%              29        97%             16       100%                  48     87%                  6     75%
                              Principal and Interest    915,372          100%        38,211        100%      3,253,894         98%       787,854        100%         968,826         89%         16,171         94%

AFRICAN AMERICAN              Borrowers                            1       8%                  0      0%                 0      0%                  0      0%                  3      8%                  0      0%
                              Loans                                1       7%                  0      0%                 0      0%                  0      0%                  5      9%                  0      0%
                              Principal and Interest       1,506           0%                  0                         0      0%                  0      0%        114,942         11%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      8%                  0      0%                  1      3%                  1     14%
                              Loans                                0       0%                  0      0%                 1      3%                  0      0%                  2      4%                  2     25%
                              Principal and Interest               0       0%                  0      0%        63,423          2%                  0      0%           1,000         0%           1,000         6%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1565
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                CASTRO, TEXAS                                      CHAMBERS, TEXAS                                       CHEROKEE, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        126                         81                         26                        21                             24                      11
                              Loans                            458                        352                        107                        99                             40                      16
                              Principal and Interest   27,159,222                  9,446,259                  9,486,601                 5,684,444                   2,935,129                    403,853

WHITE                         Borrowers                        117         93%             73         90%             20        77%             15         71%                 23     96%              10        91%
                              Loans                            434         95%            331         94%             94        88%             87         88%                 39     98%              15        94%
                              Principal and Interest   26,643,109          98%     9,262,881          98%     9,057,491         95%     5,460,471          96%      2,923,275       100%         398,773         99%

AFRICAN AMERICAN              Borrowers                             2       2%                  1      1%                 6     23%                  6     29%                  1      4%                  1      9%
                              Loans                             12          3%                  9      3%             13        12%             12         12%                  1      3%                  1      6%
                              Principal and Interest     351,849            1%       115,555           1%      429,111           5%       223,973           4%          11,854         0%           5,080         1%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             7       6%                  7      9%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                             12          3%             12          3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest     164,264            1%        67,824           1%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1566
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CHILDRESS, TEXAS                                             CLAY, TEXAS                                     COCHRAN, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        39                         11                             9                          6                          81                      38
                              Loans                           122                         40                         26                        19                             256                     125
                              Principal and Interest   5,924,922                    882,793                  1,596,148                   407,367                  11,049,538                   1,998,065

WHITE                         Borrowers                        39        100%             11       100%                  8     89%                  6   100%                   78     96%              38      100%
                              Loans                           122        100%             40       100%              24        92%             19       100%                  248     97%             125      100%
                              Principal and Interest   5,924,922         100%       882,793        100%      1,447,773         91%       407,367        100%      10,653,392          96%      1,998,065       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   2      1%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          33,537          0%                  0

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1     11%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2      8%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      148,374           9%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   2      2%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   6      2%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%        362,609           3%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1567
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   COKE, TEXAS                                     COLEMAN, TEXAS                                             COLLIN, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        23                         13                         15                        12                              7                          3
                              Loans                            38                         15                         31                        25                             18                      12
                              Principal and Interest   1,086,143                     71,684                  1,055,698                   251,892                   6,820,828                  2,256,658

WHITE                         Borrowers                        23        100%             13       100%              15      100%              12       100%                   7   100%                   3   100%
                              Loans                            38        100%             15       100%              31      100%              25       100%                  18   100%               12      100%
                              Principal and Interest   1,086,143         100%        71,684        100%      1,055,698       100%        251,892        100%       6,820,828       100%       2,256,658       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1568
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       COLLINGSWORTH, TEXAS                                       COLORADO, TEXAS                                             COMAL, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        78                         27                             6                          4                         1                          0
                              Loans                           198                         58                         13                        10                             1                          0
                              Principal and Interest   8,094,034                    554,998                   756,107                    415,677                     101,425                             0

WHITE                         Borrowers                        77         99%             27       100%                  6   100%                   4   100%                  1   100%                   0      0%
                              Loans                           193         97%             58       100%              13      100%              10       100%                  1   100%                   0      0%
                              Principal and Interest   7,880,874          97%       554,998        100%       756,107        100%        415,677        100%         101,425      100%                   0      0%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1       1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                5       3%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest    213,159            3%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1569
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            COMANCHE, TEXAS                                          CONCHO, TEXAS                                             COOKE, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        118                         69                         27                        12                             14                          5
                              Loans                            414                        263                         63                        32                             25                      15
                              Principal and Interest   17,675,480                  3,688,345                  3,830,704                   635,755                   1,804,625                    547,908

WHITE                         Borrowers                        114         97%             68         99%             27      100%              12       100%                  14   100%                   5   100%
                              Loans                            408         99%            261         99%             63      100%              32       100%                  25   100%               15      100%
                              Principal and Interest   17,192,585          97%     3,681,036        100%      3,830,704       100%        635,755        100%       1,804,625       100%         547,908       100%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       1%                  1      1%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 2       0%                  2      1%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       28,986           0%         7,310           0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             1       1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 1       0%                  0                         0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     130,985            1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             2       2%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 3       1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest     322,923            2%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1570
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             CORYELL, TEXAS                                           COTTLE, TEXAS                                            CROSBY, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        40                         20                          74                        28                              83                      37
                              Loans                            89                         56                         212                        75                             283                     119
                              Principal and Interest   4,745,866                  1,461,888                  11,696,296                 1,070,851                  16,575,302                   4,642,795

WHITE                         Borrowers                        38         95%             19         95%              66        89%             24         86%                  81     98%              37      100%
                              Loans                            85         96%             55         98%             188        89%             62         83%                 279     99%             119      100%
                              Principal and Interest   4,640,102          98%     1,458,832        100%      10,502,627         90%       975,292          91%     16,415,185          99%      4,642,795       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  2      3%                  1      4%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  8      4%                  5      7%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%       332,327           3%        15,705           1%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1       3%                  1      5%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                2       2%                  1      2%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest      51,344           1%         3,056           0%                  0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            1       3%                  0      0%                  1      1%                  0      0%                   0      0%                  0      0%
                              Loans                                2       2%                  0      0%                  1      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest      54,420           1%                  0      0%         59,472          1%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  5      7%                  3     11%                   2      2%                  0      0%
                              Loans                                0       0%                  0      0%              15         7%                  8     11%                   4      1%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%       801,870           7%        79,855           7%        160,117           1%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1571
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CULBERSON, TEXAS                                         DALLAM, TEXAS                                             DALLAS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            6                           6                     45                        19                              7                          4
                              Loans                            57                         55                         99                        44                             16                      10
                              Principal and Interest   3,251,414                  1,734,143                  9,354,755                 1,930,193                     850,594                     95,047
WHITE                         Borrowers                            5      83%                  5     83%             45      100%              19       100%                   7   100%                   4   100%
                              Loans                            52         91%             50         91%             99      100%              44       100%                  16   100%               10      100%
                              Principal and Interest   3,116,845          96%     1,627,768          94%     9,354,755       100%      1,930,193        100%         850,594       100%          95,047       100%
AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
HISPANIC                      Borrowers                            1      17%                  1     17%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                5       9%                  5      9%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    134,568            4%       106,375           6%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1572
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               DAWSON, TEXAS                                          DE WITT, TEXAS                                     DEAF SMITH, TEXAS
                                                        Portfolio        Percent    Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        202                          87                         16                        11                              60                      28
                              Loans                            764                         380                         35                        27                             165                      87
                              Principal and Interest   44,113,988                  14,117,149                  2,198,322                   950,595                  13,919,244                   2,570,224

WHITE                         Borrowers                        195         97%              83         95%             14        88%                  9     82%                  59     98%              27        96%
                              Loans                            735         96%             368         97%             31        89%             23         85%                 163     99%              85        98%
                              Principal and Interest   42,623,453          97% 13,849,235              98%     2,168,124         99%       944,957          99%     13,808,941          99%      2,544,409         99%

AFRICAN AMERICAN              Borrowers                             0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       0%                   1      1%                 1      6%                  1      9%                   0      0%                  0      0%
                              Loans                                 3       0%                   3      1%                 1      3%                  1      4%                   0      0%                  0      0%
                              Principal and Interest     381,994            1%        161,314           1%        27,612          1%         3,740           0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             6       3%                   3      3%                 1      6%                  1      9%                   1      2%                  1      4%
                              Loans                             26          3%                   9      2%                 3      9%                  3     11%                   2      1%                  2      2%
                              Prinicpal and Interest    1,108,542           3%        106,601           1%         2,586          0%         1,897           0%        110,303           1%         25,815          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1573
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   DELTA, TEXAS                                      DENTON, TEXAS                                        DICKENS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        35                         14                         18                        12                              54                      21
                              Loans                            87                         32                         52                        38                             270                     157
                              Principal and Interest   4,567,313                    773,560                  1,853,159                   584,579                  11,607,714                   3,997,652
WHITE                         Borrowers                        34         97%             14       100%              18      100%              12       100%                   50     93%              18        86%
                              Loans                            86         99%             32       100%              52      100%              38       100%                  214     79%             104        66%
                              Principal and Interest   4,490,074          98%       773,560        100%      1,853,159       100%        584,579        100%       9,033,242          78%      3,102,059         78%
AFRICAN AMERICAN              Borrowers                            1       3%                  0      0%                 0      0%                  0      0%                   2      4%                  2     10%
                              Loans                                1       1%                  0      0%                 0      0%                  0      0%                  28     10%              28        18%
                              Principal and Interest      77,239           2%                  0      0%                 0      0%                  0      0%        419,860           4%        211,761          5%
NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      2%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   3      1%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        411,045           4%                  0      0%
ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      2%                  1      5%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  25      9%              25        16%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%      1,743,567          15%        683,833         17%
OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1574
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               DIMMIT, TEXAS                                         DONLEY, TEXAS                                            DUVAL, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                           2                     58                        24                             18                          8
                              Loans                                4                           2                    173                        63                             56                      42
                              Principal and Interest    611,433                     116,974                  7,419,713                   749,895                  10,414,413                  5,355,540

WHITE                         Borrowers                            2      67%                  2   100%              55        95%             24       100%                   2     11%                  2     25%
                              Loans                                2      50%                  2   100%             170        98%             63       100%                  16     29%              16        38%
                              Principal and Interest    210,800           34%       116,974        100%      7,272,617         98%       749,895        100%       7,999,358         77%      5,048,076         94%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1      6%                  1     13%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  2      4%                  2      5%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          28,361         0%           2,516         0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      2%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      123,421           2%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            1      33%                  0      0%                 2      3%                  0      0%                 15     83%                  5     63%
                              Loans                                2      50%                  0      0%                 2      1%                  0      0%                 38     68%              24        57%
                              Prinicpal and Interest    400,633           66%                  0      0%        23,674          0%                  0      0%      2,386,694         23%        304,947          6%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1575
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            EASTLAND, TEXAS                                        EDWARDS, TEXAS                                             EL PASO, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        43                         21                             1                          1                         18                      12
                              Loans                           101                         44                             1                          1                         65                      42
                              Principal and Interest   3,826,158                    277,827                     17,413                   141,913                   3,797,119                  1,716,358

WHITE                         Borrowers                        42         98%             21       100%                  1   100%                   1   100%                   5     28%                  3     25%
                              Loans                            98         97%             44       100%                  1   100%                   1   100%                  14     22%              11        26%
                              Principal and Interest   3,605,335          94%       277,827        100%         17,413       100%        141,913        100%       1,727,709         46%      1,268,423         74%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            1       2%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                3       3%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    220,823            6%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 13     72%                  9     75%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 51     78%              31        74%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%      2,069,410         54%        447,935         26%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1576
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   ELLIS, TEXAS                                          ERATH, TEXAS                                          FALLS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        38                         24                         43                        20                             159                      92
                              Loans                           120                         83                        111                        73                             605                     419
                              Principal and Interest   7,724,601                  1,617,825                  9,076,955                 1,570,058                  55,453,871                  23,444,915

WHITE                         Borrowers                        35         92%             22         92%             42        98%             20       100%                  144     91%              82        89%
                              Loans                           107         89%             71         86%            110        99%             73       100%                  566     94%             392        94%
                              Principal and Interest   7,434,250          96%     1,458,348          90%     9,032,870       100%      1,570,058        100%      53,068,573          96%     22,560,293         96%

AFRICAN AMERICAN              Borrowers                            2       5%                  1      4%                 0      0%                  0      0%                  14      9%                  9     10%
                              Loans                                7       6%                  6      7%                 0      0%                  0      0%                  38      6%              26         6%
                              Principal and Interest    140,800            2%        52,689           3%                 0      0%                  0      0%      2,339,568           4%        878,819          4%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            1       3%                  1      4%                 1      2%                  0      0%                   1      1%                  1      1%
                              Loans                                6       5%                  6      7%                 1      1%                  0      0%                   1      0%                  1      0%
                              Prinicpal and Interest    149,552            2%       106,788           7%        44,084          0%                  0                  45,730          0%           5,803         0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1577
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   FANNIN, TEXAS                                    FAYETTE, TEXAS                                            FISHER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        41                         13                             3                          3                          98                      25
                              Loans                            94                         34                             7                          7                         274                      47
                              Principal and Interest   5,170,222                  1,509,203                   233,569                     54,954                  12,641,949                     291,472

WHITE                         Borrowers                        41        100%             13       100%                  3   100%                   3   100%                   89     91%              24        96%
                              Loans                            94        100%             34       100%                  7   100%                   7   100%                  248     91%              45        96%
                              Principal and Interest   5,170,222         100%     1,509,203        100%       233,569        100%         54,954        100%      11,939,018          94%        275,707         95%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   9      9%                  1      4%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  26      9%                  2      4%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%        702,931           6%         15,765          5%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1578
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    FLOYD, TEXAS                                          FOARD, TEXAS                                   FORT BEND, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        126                         38                         46                        32                              7                          2
                              Loans                            484                        138                        145                        90                             11                          2
                              Principal and Interest   22,976,262                  3,263,289                  8,122,701                 2,712,020                     409,962                     26,216

WHITE                         Borrowers                        121         96%             37         97%             44        96%             30         94%                  7   100%                   2   100%
                              Loans                            468         97%            136         99%            138        95%             84         93%                 11   100%                   2   100%
                              Principal and Interest   22,290,942          97%     3,253,766        100%      8,007,288         99%     2,688,879          99%        409,962       100%          26,216       100%

AFRICAN AMERICAN              Borrowers                             1       1%                  1      3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 3       1%                  2      1%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       94,663           0%         9,523           0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       1%                  0      0%                 1      2%                  1      3%                  0      0%                  0      0%
                              Loans                                 4       1%                  0      0%                 5      3%                  4      4%                  0      0%                  0      0%
                              Principal and Interest       31,108           0%                  0      0%      100,083           1%        21,884           1%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             3       2%                  0      0%                 1      2%                  1      3%                  0      0%                  0      0%
                              Loans                                 9       2%                  0      0%                 2      1%                  2      2%                  0      0%                  0      0%
                              Prinicpal and Interest     559,549            2%                  0      0%        15,329          0%         1,257           0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1579
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             FRANKLIN, TEXAS                                     FREESTONE, TEXAS                                               FRIO, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        26                         10                         33                        27                              30                      21
                              Loans                            53                         17                         75                        66                             181                     154
                              Principal and Interest   3,459,123                    189,277                  2,033,265                   725,519                   9,420,644                   4,272,589

WHITE                         Borrowers                        26        100%             10       100%              17        52%             14         52%                  17     57%              11        52%
                              Loans                            53        100%             17       100%              51        68%             46         70%                  76     42%              60        39%
                              Principal and Interest   3,459,123         100%       189,277        100%      1,551,910         76%       589,976          81%      5,509,034          58%      2,367,882         55%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%             14        42%             12         44%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%             22        29%             19         29%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      332,048          16%       107,135          15%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      3%                  1      5%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  1      1%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%           4,235          0%           3,941         0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 2      6%                  1      4%                  12     40%                  9     43%
                              Loans                                0       0%                  0      0%                 2      3%                  1      2%                 104     57%              93        60%
                              Prinicpal and Interest               0       0%                  0      0%      149,307           7%        28,408           4%      3,907,375          41%      1,900,766         44%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1580
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    GAINES, TEXAS                                 GALVESTON, TEXAS                                             GARZA, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                         94                         39                             5                          4                          36                          6
                              Loans                            277                        131                         11                             9                         119                      10
                              Principal and Interest   14,105,019                  3,496,539                   875,615                    452,622                   3,543,855                      90,396

WHITE                         Borrowers                         91         97%             38         97%                 5   100%                   4   100%                   33     92%                  6   100%
                              Loans                            270         97%            130         99%             11      100%                   9   100%                  103     87%              10      100%
                              Principal and Interest   13,952,838          99%     3,480,844        100%       875,615        100%        452,622        100%       3,126,416          88%         90,396       100%

AFRICAN AMERICAN              Borrowers                             1       1%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 3       1%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest       71,671           1%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             1       1%                  1      3%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 1       0%                  1      1%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest       32,661           0%        15,695           0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             1       1%                  0      0%                 0      0%                  0      0%                   3      8%                  0      0%
                              Loans                                 3       1%                  0      0%                 0      0%                  0      0%                  16     13%                  0      0%
                              Prinicpal and Interest       47,849           0%                  0      0%                 0      0%                  0      0%        417,439          12%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1581
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GILLESPIE, TEXAS                                     GLASSCOCK, TEXAS                                             GOLIAD, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        28                         15                         30                        12                              6                          3
                              Loans                            60                         32                         98                        38                              7                          4
                              Principal and Interest   2,829,521                    611,009                  5,397,323                   940,605                     311,816                     61,466

WHITE                         Borrowers                        26         93%             14         93%             30      100%              12       100%                   4     67%                  3   100%
                              Loans                            57         95%             31         97%             98      100%              38       100%                   5     71%                  4   100%
                              Principal and Interest   2,649,309          94%       605,195          99%     5,397,323       100%        940,605        100%         228,286         73%         61,466       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            2       7%                  1      7%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                3       5%                  1      3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    180,212            6%         5,814           1%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1     17%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  1     14%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          73,523        24%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1     17%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  1     14%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%          10,007         3%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1582
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             GONZALES, TEXAS                                              GRAY, TEXAS                                      GRAYSON, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         69                         51                         11                             3                         10                          8
                              Loans                            156                        129                         40                        23                             23                      19
                              Principal and Interest   20,297,647                  8,431,910                  1,923,744                   682,062                   1,545,959                    506,117

WHITE                         Borrowers                         63         91%             46         90%             11      100%                   3   100%                  10   100%                   8   100%
                              Loans                            138         88%            113         88%             40      100%              23       100%                  23   100%               19      100%
                              Principal and Interest   18,795,863          93%     7,548,558          90%     1,923,744       100%        682,062        100%       1,545,959       100%         506,117       100%

AFRICAN AMERICAN              Borrowers                             2       3%                  1      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 7       4%                  5      4%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     511,099            3%       330,742           4%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       1%                  1      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 3       2%                  3      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     173,832            1%       133,162           2%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             3       4%                  3      6%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 8       5%                  8      6%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest     816,852            4%       419,448           5%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1583
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   GREGG, TEXAS                                      GRIMES, TEXAS                                     GUADALUPE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                           3                         9                          7                         20                      15
                              Loans                            11                              9                     26                        10                             34                      21
                              Principal and Interest    551,756                     137,327                   845,207                     40,528                   2,180,230                    383,606

WHITE                         Borrowers                            3      75%                  2     67%                 8     89%                  6     86%                 16     80%              13        87%
                              Loans                                8      73%                  6     67%             25        96%                  9     90%                 29     85%              19        90%
                              Principal and Interest    508,316           92%       133,177          97%      727,755          86%        28,203          70%      2,129,464         98%        381,038         99%

AFRICAN AMERICAN              Borrowers                            1      25%                  1     33%                 0      0%                  0      0%                  4     20%                  2     13%
                              Loans                                3      27%                  3     33%                 0      0%                  0      0%                  5     15%                  2     10%
                              Principal and Interest      43,440           8%         4,150           3%                 0      0%                  0      0%          50,766         2%           2,568         1%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1     11%                  1     14%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      4%                  1     10%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      117,452          14%        12,325          30%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1584
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    HALE, TEXAS                                             HALL, TEXAS                                     HAMILTON, TEXAS
                                                        Portfolio        Percent    Delinquent       Percent    Portfolio       Percent    Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        194                          86                         112                         49                              56                      24
                              Loans                            747                         389                         575                        313                             157                      87
                              Principal and Interest   54,858,094                  18,118,455                  29,615,506                 10,370,971                  10,236,660                   2,431,704

WHITE                         Borrowers                        186         96%              85         99%             112      100%               49       100%                   53     95%              22        92%
                              Loans                            719         96%             388       100%              575      100%              313       100%                  150     96%              81        93%
                              Principal and Interest   52,958,215          97% 17,938,938              99%     29,615,506       100% 10,370,971             100%       9,861,479          96%      2,250,323         93%

AFRICAN AMERICAN              Borrowers                             2       1%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%
                              Loans                             10          1%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest     686,622            1%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                   0      0%                  0      0%                   0      0%                   2      4%                  2      8%
                              Loans                                 0       0%                   0      0%                  0      0%                   0      0%                   6      4%                  6      7%
                              Principal and Interest                0       0%                   0      0%                  0      0%                   0      0%        353,379           3%        181,381          7%

ASIAN                         Borrowers                             0       0%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                  0      0%                   0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0       0%                   0      0%                  0      0%                   0      0%                   1      2%                  0      0%
                              Loans                                 0       0%                   0      0%                  0      0%                   0      0%                   1      1%                  0      0%
                              Principal and Interest                0       0%                   0      0%                  0      0%                   0      0%          21,802          0%                  0      0%

HISPANIC                      Borrowers                             6       3%                   1      1%                  0      0%                   0      0%                   0      0%                  0      0%
                              Loans                             18          2%                   1      0%                  0      0%                   0      0%                   0      0%                  0      0%
                              Prinicpal and Interest    1,213,257           2%        179,517           1%                  0      0%                   0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1585
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            HANSFORD, TEXAS                                      HARDEMAN, TEXAS                                              HARDIN, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        20                         14                         47                        18                              1                          1
                              Loans                            40                         31                        166                        72                              4                          4
                              Principal and Interest   3,251,128                    939,143                  9,288,599                 1,781,045                       72,380                    59,436

WHITE                         Borrowers                        20        100%             14       100%              46        98%             17         94%                  1   100%                   1   100%
                              Loans                            40        100%             31       100%             156        94%             62         86%                  4   100%                   4   100%
                              Principal and Interest   3,251,128         100%       939,143        100%      9,013,287         97%     1,633,519          92%          72,380      100%          59,436       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1      2%                  1      6%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%             10         6%             10         14%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      275,312           3%       147,526           8%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1586
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HARRIS, TEXAS                                   HARRISON, TEXAS                                        HARTLEY, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        15                         13                         12                             7                          34                      15
                              Loans                            61                         56                         15                             9                         101                      64
                              Principal and Interest   3,306,357                  1,243,092                   462,760                    137,017                  10,103,370                   3,079,399

WHITE                         Borrowers                        15        100%             13       100%              10        83%                  6     86%                  34   100%               15      100%
                              Loans                            61        100%             56       100%              13        87%                  8     89%                 101   100%               64      100%
                              Principal and Interest   3,306,357         100%     1,243,092        100%       457,342          99%       136,947        100%      10,103,370        100%       3,079,399       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 2     17%                  1     14%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2     13%                  1     11%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         5,418          1%             70          0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1587
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               HASKELL, TEXAS                                             HAYS, TEXAS                                     HEMPHILL, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        117                         48                             6                          4                          8                          1
                              Loans                            327                        111                         13                             6                         21                      13
                              Principal and Interest   12,303,047                  2,086,729                   704,788                     38,571                   1,122,266                    139,265

WHITE                         Borrowers                        116         99%             48       100%                  6   100%                   4   100%                   8   100%                   1   100%
                              Loans                            325         99%            111       100%              13      100%                   6   100%                  21   100%               13      100%
                              Principal and Interest   12,220,024          99%     2,086,729        100%       704,788        100%         38,571        100%       1,122,266       100%         139,265       100%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             1       1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 2       1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       83,023           1%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1588
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HENDERSON, TEXAS                                         HIDALGO, TEXAS                                              HILL, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        15                         12                         51                        27                              63                      21
                              Loans                            39                         33                        101                        72                             108                      35
                              Principal and Interest   3,071,179                    765,859                  9,660,520                 3,138,004                   5,119,407                     580,041

WHITE                         Borrowers                        14         93%             11         92%             27        53%             17         63%                  62     98%              20        95%
                              Loans                            37         95%             31         94%             48        48%             36         50%                 106     98%              33        94%
                              Principal and Interest   2,628,335          86%       737,439          96%     6,376,844         66%     2,517,683          80%      5,062,609          99%        571,272         98%

AFRICAN AMERICAN              Borrowers                            1       7%                  1      8%                 1      2%                  0      0%                   0      0%                  0      0%
                              Loans                                2       5%                  2      6%                 1      1%                  0      0%                   0      0%                  0      0%
                              Principal and Interest    442,844           14%        28,420           4%        96,705          1%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 2      4%                  2      7%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 7      7%                  7     10%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      517,860           5%       225,667           7%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%             21        41%                  8     30%                   1      2%                  1      5%
                              Loans                                0       0%                  0      0%             45        45%             29         40%                   2      2%                  2      6%
                              Prinicpal and Interest               0       0%                  0      0%     2,669,111         28%       394,653          13%          56,798          1%           8,769         2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1589
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HOCKLEY, TEXAS                                              HOOD, TEXAS                                      HOPKINS, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        155                         42                             6                          3                          92                      47
                              Loans                            553                        191                         20                        16                             190                      94
                              Principal and Interest   32,878,277                  7,687,013                  1,193,284                   477,691                  12,837,688                   1,466,343

WHITE                         Borrowers                        150         97%             41         98%                 5     83%                  3   100%                   87     95%              45        96%
                              Loans                            534         97%            190         99%             19        95%             16       100%                  181     95%              89        95%
                              Principal and Interest   31,366,934          95%     7,686,992        100%      1,099,041         92%       477,691        100%      12,316,788          96%      1,257,039         86%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   4      4%                  1      2%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   8      4%                  4      4%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%        332,740           3%        162,194         11%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 1     17%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 1      5%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%        94,243          8%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             5       3%                  1      2%                 0      0%                  0      0%                   1      1%                  1      2%
                              Loans                             19          3%                  1      1%                 0      0%                  0      0%                   1      1%                  1      1%
                              Prinicpal and Interest    1,511,343           5%             21          0%                 0      0%                  0      0%        188,160           1%         47,110          3%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1590
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              HOUSTON, TEXAS                                         HOWARD, TEXAS                                        HUDSPETH, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                         48                         36                         35                        15                              40                      30
                              Loans                            135                        106                        105                        50                             188                     162
                              Principal and Interest   12,268,430                  3,423,648                  4,802,597                 1,020,445                  15,575,342                   8,251,835

WHITE                         Borrowers                         31         65%             22         61%             35      100%              15       100%                   25     63%              18        60%
                              Loans                             96         71%             72         68%            105      100%              50       100%                  100     53%              83        51%
                              Principal and Interest   10,027,568          82%     3,043,944          89%     4,802,597       100%      1,020,445        100%       9,289,719          60%      4,770,728         58%

AFRICAN AMERICAN              Borrowers                         16         33%             13         36%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                             36         27%             31         29%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest    1,808,260          15%       326,046          10%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   1      3%                  1      3%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   9      5%                  9      6%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%        416,969           3%        319,464          4%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                             1       2%                  1      3%                 0      0%                  0      0%                  14     35%              11        37%
                              Loans                                 3       2%                  3      3%                 0      0%                  0      0%                  79     42%              70        43%
                              Prinicpal and Interest     432,602            4%        53,658           2%                 0      0%                  0      0%      5,868,653          38%      3,161,643         38%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1591
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   HUNT, TEXAS                                  HUTCHINSON, TEXAS                                             JACK, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        25                              7                         5                          2                         3                          2
                              Loans                            86                         51                         11                             7                         4                          2
                              Principal and Interest   7,234,164                  2,985,381                   809,237                    166,890                   1,882,210                 1,053,801

WHITE                         Borrowers                        22         88%                  6     86%                 5   100%                   2   100%                  3   100%                   2   100%
                              Loans                            68         79%             36         71%             11      100%                   7   100%                  4   100%                   2   100%
                              Principal and Interest   5,719,546          79%     2,190,535          73%      809,237        100%        166,890        100%       1,882,210      100%       1,053,801       100%

AFRICAN AMERICAN              Borrowers                            1       4%                  1     14%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                            15         17%             15         29%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest   1,096,095          15%       794,846          27%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            1       4%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                1       1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest    367,615            5%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            1       4%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                2       2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest      50,908           1%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1592
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              JACKSON, TEXAS                                             JASPER, TEXAS                                  JEFF DAVIS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        43                         34                         22                        13                             1                          0
                              Loans                           101                         83                         30                        19                             1                          0
                              Principal and Interest   8,873,694                  3,767,264                  1,359,835                   319,707                       31,186                            0

WHITE                         Borrowers                        43        100%             34       100%              21        95%             12         92%                 1   100%                   0      0%
                              Loans                           101        100%             83       100%              28        93%             17         89%                 1   100%                   0      0%
                              Principal and Interest   8,873,694         100%     3,767,264        100%      1,305,383         96%       285,426          89%          31,186     100%                   0      0%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1      5%                  1      8%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2      7%                  2     11%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%        54,452          4%        34,281          11%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1593
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             JEFFERSON, TEXAS                                       JIM HOGG, TEXAS                                      JIM WELLS, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         36                         32                             8                          3                         27                      18
                              Loans                            130                        115                         15                        10                             72                      44
                              Principal and Interest   14,478,799                  9,743,194                   697,291                    122,774                   2,735,057                    552,569

WHITE                         Borrowers                         32         89%             28         88%                 3     38%                  1     33%                 14     52%              10        56%
                              Loans                            115         88%            100         87%                 9     60%                  7     70%                 27     38%              14        32%
                              Principal and Interest   12,780,716          88%     8,710,031          89%      423,383          61%        88,764          72%      1,822,121         67%        271,354         49%

AFRICAN AMERICAN              Borrowers                             3       8%                  3      9%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 9       7%                  9      8%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     934,437            6%       703,127           7%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1       3%                  1      3%                 1     13%                  1     33%                  2      7%                  2     11%
                              Loans                                 6       5%                  6      5%                 1      7%                  1     10%                 14     19%              14        32%
                              Principal and Interest     763,646            5%       330,037           3%      183,074          26%        32,151          26%        149,732          5%         41,220          7%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  1      4%                  1      6%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  7     10%                  7     16%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%        249,630          9%        184,245         33%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0       0%                  0      0%                 4     50%                  1     33%                 10     37%                  5     28%
                              Loans                                 0       0%                  0      0%                 5     33%                  2     20%                 24     33%                  9     20%
                              Prinicpal and Interest                0       0%                  0      0%        90,834         13%         1,860           2%        513,574         19%         55,750         10%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1594
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              JOHNSON, TEXAS                                              JONES, TEXAS                                         KARNES, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        28                         13                         105                        47                             27                      21
                              Loans                            79                         37                         285                       108                             86                      58
                              Principal and Interest   3,825,566                    688,825                  13,816,781                 1,622,924                   5,639,291                  1,299,681

WHITE                         Borrowers                        28        100%             13       100%               97        92%             44         94%                 27   100%               21      100%
                              Loans                            79        100%             37       100%              264        93%            105         97%                 86   100%               58      100%
                              Principal and Interest   3,825,566         100%       688,825        100%      13,027,098         94%     1,598,468          98%      5,639,291       100%       1,299,681       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  2      2%                  1      2%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  4      1%                  1      1%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%       127,235           1%        13,248           1%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  2      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         56,134          0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  2      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         59,815          0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  4      4%                  2      4%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%              13         5%                  2      2%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%       546,499           4%        11,208           1%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1595
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             KAUFMAN, TEXAS                                        KENDALL, TEXAS                                             KENT, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        21                         11                             6                          4                         24                          6
                              Loans                            54                         28                         14                        12                             61                      15
                              Principal and Interest   2,467,114                    478,270                  1,712,065                   431,489                   2,731,666                    328,251

WHITE                         Borrowers                        18         86%                  9     82%                 6   100%                   4   100%                  23     96%                  5     83%
                              Loans                            45         83%             20         71%             14      100%              12       100%                  60     98%              14        93%
                              Principal and Interest   2,051,704          83%       333,287          70%     1,712,065       100%        431,489        100%       2,602,718         95%        251,888         77%

AFRICAN AMERICAN              Borrowers                            3      14%                  2     18%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                9      17%                  8     29%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    415,410           17%       144,983          30%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1      4%                  1     17%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  1      2%                  1      7%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%        128,949          5%         76,363         23%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1596
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   KERR, TEXAS                                       KIMBLE, TEXAS                                             KING, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                           2                         2                          0                         14                          5
                              Loans                                8                           5                         6                          0                         33                          5
                              Principal and Interest    765,975                     215,193                   381,182                               0              1,500,144                     49,520

WHITE                         Borrowers                            3      75%                  1     50%                 2   100%                   0      0%                 14   100%                   5   100%
                              Loans                                4      50%                  1     20%                 6   100%                   0      0%                 33   100%                   5   100%
                              Principal and Interest    372,499           49%       153,112          71%      381,182        100%                   0      0%      1,500,144       100%          49,520       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      25%                  1     50%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                4      50%                  4     80%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    393,476           51%        62,082          29%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1597
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               KINNEY, TEXAS                                       KLEBERG, TEXAS                                              KNOX, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                           3                         6                          4                          80                      36
                              Loans                            19                         12                         10                             6                         196                      98
                              Principal and Interest    948,909                     442,162                   850,704                    219,477                  10,012,274                   2,478,373

WHITE                         Borrowers                            4     100%                  3   100%                  5     83%                  3     75%                  77     96%              35        97%
                              Loans                            19        100%             12       100%                  8     80%                  5     83%                 191     97%              95        97%
                              Principal and Interest    948,909          100%       442,162        100%       840,462          99%       218,294          99%      9,745,537          97%      2,460,583         99%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   2      3%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   2      1%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        146,382           1%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1     17%                  1     25%                   1      1%                  1      3%
                              Loans                                0       0%                  0      0%                 2     20%                  1     17%                   3      2%                  3      3%
                              Prinicpal and Interest               0       0%                  0      0%        10,242          1%         1,182           1%        120,355           1%         17,790          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1598
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             LA SALLE, TEXAS                                             LAMAR, TEXAS                                          LAMB, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                            5                           4                     91                        28                             241                     169
                              Loans                                6                           5                    181                        60                       1,155                         944
                              Principal and Interest    756,850                     306,276                  9,285,272                 1,032,763                  73,179,982                  36,329,256

WHITE                         Borrowers                            2      40%                  1     25%             86        95%             25         89%                 231     96%             164        97%
                              Loans                                3      50%                  2     40%            174        96%             55         92%           1,111         96%             922        98%
                              Principal and Interest    521,988           69%       242,838          79%     8,961,023         97%       956,132          93%     70,621,465          97%     35,494,546         98%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 5      5%                  3     11%                   5      2%                  2      1%
                              Loans                                0       0%                  0      0%                 7      4%                  5      8%                  23      2%                  9      1%
                              Principal and Interest               0       0%                  0      0%      324,249           3%        76,631           7%      1,150,384           2%        278,641          1%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   2      1%                  1      1%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  16      1%              10         1%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        466,453           1%         84,790          0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            3      60%                  3     75%                 0      0%                  0      0%                   3      1%                  2      1%
                              Loans                                3      50%                  3     60%                 0      0%                  0      0%                   5      0%                  3      0%
                              Prinicpal and Interest    234,861           31%        63,438          21%                 0      0%                  0      0%        941,680           1%        471,279          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1599
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            LAMPASAS, TEXAS                                          LAVACA, TEXAS                                             LEE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        11                              7                         9                          5                          9                          4
                              Loans                            25                         17                         17                             9                         15                      10
                              Principal and Interest   1,079,896                     82,292                  1,225,485                   269,668                     977,934                    304,745

WHITE                         Borrowers                        10         91%                  7   100%                  8     89%                  4     80%                  9   100%                   4   100%
                              Loans                            24         96%             17       100%              15        88%                  7     78%                 15   100%               10      100%
                              Principal and Interest    818,839           76%        82,292        100%       858,609          70%        91,816          34%        977,934       100%         304,745       100%

AFRICAN AMERICAN              Borrowers                            1       9%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                1       4%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    261,057           24%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1     11%                  1     20%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2     12%                  2     22%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      366,877          30%       177,852          66%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1600
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LEON, TEXAS                                      LIBERTY, TEXAS                                      LIMESTONE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        22                         15                         24                        19                              95                      66
                              Loans                            69                         57                         75                        66                             319                     242
                              Principal and Interest   3,999,449                  1,766,466                  3,100,294                 1,860,156                  23,298,403                   6,586,722

WHITE                         Borrowers                        19         86%             12         80%             21        88%             16         84%                  81     85%              57        86%
                              Loans                            64         93%             52         91%             61        81%             52         79%                 282     88%             216        89%
                              Principal and Interest   3,816,131          95%     1,746,365          99%     2,745,308         89%     1,594,671          86%     22,066,537          95%      6,426,586         98%

AFRICAN AMERICAN              Borrowers                            3      14%                  3     20%                 3     13%                  3     16%                   7      7%                  5      8%
                              Loans                                5       7%                  5      9%             14        19%             14         21%                  20      6%              15         6%
                              Principal and Interest    183,318            5%        20,100           1%      354,986          11%       265,485          14%        505,454           2%         76,063          1%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   6      6%                  3      5%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  15      5%                  9      4%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        669,127           3%         64,858          1%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  1      2%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   2      1%                  2      1%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%          57,285          0%         19,216          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1601
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             LIPSCOMB, TEXAS                                       LIVE OAK, TEXAS                                            LLANO, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        18                              9                     57                        32                             4                          2
                              Loans                            56                         37                        114                        67                             4                          2
                              Principal and Interest   3,133,105                  1,383,193                  7,962,185                 1,362,743                     187,008                      4,845

WHITE                         Borrowers                        18        100%                  9   100%              50        88%             27         84%                 4   100%                   2   100%
                              Loans                            56        100%             37       100%              99        87%             57         85%                 4   100%                   2   100%
                              Principal and Interest   3,133,105         100%     1,383,193        100%      7,024,885         88%     1,268,700          93%        187,008      100%            4,845      100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 7     12%                  5     16%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%             15        13%             10         15%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      937,300          12%        94,042           7%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1602
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              LUBBOCK, TEXAS                                               LYNN, TEXAS                                      MADISON, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        132                         35                          97                        26                             3                          2
                              Loans                            392                        114                         280                        63                             6                          3
                              Principal and Interest   19,015,564                  3,554,130                  10,476,819                 1,035,806                     258,245                    15,292

WHITE                         Borrowers                        127         96%             34         97%              95        98%             25         96%                 1     33%                  0      0%
                              Loans                            375         96%            111         97%             274        98%             60         95%                 2     33%                  0      0%
                              Principal and Interest   18,609,886          98%     3,445,551          97%     10,393,712         99%     1,015,570          98%          18,084        7%                  0      0%

AFRICAN AMERICAN              Borrowers                             1       1%                  0      0%                  0      0%                  0      0%                 1     33%                  1     50%
                              Loans                                 9       2%                  0      0%                  0      0%                  0      0%                 2     33%                  2     67%
                              Principal and Interest       78,082           0%                  0      0%                  0      0%                  0      0%          77,267       30%           6,703        44%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                  0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                  0      0%                  0      0%                 1     33%                  1     50%
                              Loans                                 0       0%                  0      0%                  0      0%                  0      0%                 2     33%                  1     33%
                              Principal and Interest                0       0%                  0      0%                  0      0%                  0      0%        162,894        63%           8,589        56%

HISPANIC                      Borrowers                             4       3%                  1      3%                  2      2%                  1      4%                 0      0%                  0      0%
                              Loans                                 8       2%                  3      3%                  6      2%                  3      5%                 0      0%                  0      0%
                              Prinicpal and Interest     327,597            2%       108,579           3%         83,108          1%        20,235           2%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1603
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               MARION, TEXAS                                          MARTIN, TEXAS                                            MASON, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            2                           0                      69                        30                              7                          2
                              Loans                                3                           0                     238                       138                             17                          4
                              Principal and Interest      10,921                               0             13,738,853                 4,648,740                     978,011                     74,862

WHITE                         Borrowers                            2     100%                  0      0%              62        90%             28         93%                  7   100%                   2   100%
                              Loans                                3     100%                  0      0%             223        94%            131         95%                 17   100%                   4   100%
                              Principal and Interest      10,921         100%                  0      0%     12,951,139         94%     4,351,675          94%        978,011       100%          74,862       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  1      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%          9,389          0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  2      3%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  5      2%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%       260,727           2%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  4      6%                  2      7%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  9      4%                  7      5%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%       517,598           4%       297,064           6%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1604
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          MATAGORDA, TEXAS                                      MCCULLOCH, TEXAS                                        MCLENNAN, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        19                         13                         16                             9                         14                          6
                              Loans                            31                         24                         47                        29                             28                      12
                              Principal and Interest   2,693,176                    612,041                  2,564,990                   868,724                   1,673,155                    323,715

WHITE                         Borrowers                        19        100%             13       100%              16      100%                   9   100%                  13     93%                  5     83%
                              Loans                            31        100%             24       100%              47      100%              29       100%                  27     96%              11        92%
                              Principal and Interest   2,693,176         100%       612,041        100%      2,564,990       100%        868,724        100%       1,624,238         97%        320,478         99%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1      7%                  1     17%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  1      4%                  1      8%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          48,917         3%           3,237         1%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1605
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MCMULLEN, TEXAS                                           MEDINA, TEXAS                                            MENARD, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            5                           4                         8                          4                         10                          3
                              Loans                                5                           4                     21                        13                             18                          8
                              Principal and Interest    253,432                      57,423                  1,519,563                   216,676                     957,083                    148,539

WHITE                         Borrowers                            5     100%                  4   100%                  6     75%                  4   100%                   8     80%                  2     67%
                              Loans                                5     100%                  4   100%              19        90%             13       100%                  16     89%                  7     88%
                              Principal and Interest    253,432          100%        57,423        100%      1,483,396         98%       216,676        100%         894,440         93%        144,833         98%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1     13%                  0      0%                  1     10%                  0      0%
                              Loans                                0       0%                  0      0%                 1      5%                  0      0%                  1      6%                  0      0%
                              Principal and Interest               0       0%                  0      0%        34,307          2%                  0      0%          23,229         2%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1     13%                  0      0%                  1     10%                  1     33%
                              Loans                                0       0%                  0      0%                 1      5%                  0      0%                  1      6%                  1     13%
                              Prinicpal and Interest               0       0%                  0      0%         1,860          0%                  0      0%          39,414         4%           3,706         2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1606
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MIDLAND, TEXAS                                              MILAM, TEXAS                                         MILLS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        12                              5                     42                        22                             24                      11
                              Loans                            34                         17                        136                        93                             55                      30
                              Principal and Interest   1,323,233                    195,388                  7,553,541                 1,948,640                   3,283,838                    680,380

WHITE                         Borrowers                        10         83%                  3     60%             37        88%             19         86%                 23     96%              10        91%
                              Loans                            23         68%                  7     41%            122        90%             81         87%                 51     93%              27        90%
                              Principal and Interest   1,028,363          78%       116,196          59%     7,071,907         94%     1,648,818          85%      3,021,244         92%        668,378         98%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 3      7%                  3     14%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%             12         9%             12         13%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      432,427           6%       299,822          15%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 1      2%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        35,253          0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      2%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        13,954          0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            2      17%                  2     40%                 0      0%                  0      0%                  1      4%                  1      9%
                              Loans                            11         32%             10         59%                 0      0%                  0      0%                  4      7%                  3     10%
                              Prinicpal and Interest    294,870           22%        79,192          41%                 0      0%                  0      0%        262,594          8%         12,003          2%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1607
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             MITCHELL, TEXAS                                      MONTAGUE, TEXAS                                    MONTGOMERY, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                         91                         30                         11                             6                         3                          1
                              Loans                            303                         75                         15                             8                         3                          1
                              Principal and Interest   12,281,444                    967,466                   877,588                     38,562                     245,586                      5,637

WHITE                         Borrowers                         76         84%             25         83%             11      100%                   6   100%                  3   100%                   1   100%
                              Loans                            252         83%             57         76%             15      100%                   8   100%                  3   100%                   1   100%
                              Principal and Interest   10,617,308          86%       740,160          77%      877,588        100%         38,562        100%         245,586      100%            5,637      100%

AFRICAN AMERICAN              Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             1       1%                  1      3%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 7       2%                  6      8%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest     565,856            5%       171,366          18%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                         14         15%                  4     13%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                             44         15%             12         16%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest    1,098,280           9%        55,939           6%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1608
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   MOORE, TEXAS                                      MORRIS, TEXAS                                            MOTLEY, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                            7                           6                         6                          2                          32                      11
                              Loans                            17                         13                             7                          2                         128                      68
                              Principal and Interest   1,179,066                    292,478                   465,747                     38,820                   4,143,891                     951,218

WHITE                         Borrowers                            6      86%                  5     83%                 6   100%                   2   100%                   31     97%              10        91%
                              Loans                            15         88%             11         85%                 7   100%                   2   100%                  123     96%              63        93%
                              Principal and Interest    838,217           71%       222,351          76%      465,747        100%         38,820        100%       4,043,063          98%        917,232         96%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            1      14%                  1     17%                 0      0%                  0      0%                   1      3%                  1      9%
                              Loans                                2      12%                  2     15%                 0      0%                  0      0%                   5      4%                  5      7%
                              Prinicpal and Interest    340,848           29%        70,127          24%                 0      0%                  0      0%        100,827           2%         33,986          4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1609
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         NACOGDOCHES, TEXAS                                         NAVARRO, TEXAS                                         NEWTON, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        169                         97                         45                        18                              9                          5
                              Loans                            462                        292                        122                        66                             16                      11
                              Principal and Interest   32,485,056                  6,180,490                  6,606,525                 1,367,097                     478,681                    107,855

WHITE                         Borrowers                        165         98%             95         98%             43        96%             16         89%                  8     89%                  4     80%
                              Loans                            452         98%            287         98%            112        92%             57         86%                 14     88%                  9     82%
                              Principal and Interest   31,487,285          97%     6,123,017          99%     6,057,206         92%     1,233,078          90%        464,110         97%        106,637         99%

AFRICAN AMERICAN              Borrowers                             4       2%                  2      2%                 2      4%                  2     11%                  1     11%                  1     20%
                              Loans                             10          2%                  5      2%             10         8%                  9     14%                  2     13%                  2     18%
                              Principal and Interest     997,771            3%        57,472           1%      549,319           8%       134,020          10%          14,571         3%           1,218         1%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1610
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    NOLAN, TEXAS                                      NUECES, TEXAS                                      OCHILTREE, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        118                         48                         23                        13                             17                      11
                              Loans                            486                        213                         44                        21                             45                      32
                              Principal and Interest   23,819,436                  3,861,262                  3,219,614                   638,939                   3,939,419                    914,288

WHITE                         Borrowers                        111         94%             42         88%             22        96%             12         92%                 17   100%               11      100%
                              Loans                            444         91%            178         84%             42        95%             19         90%                 45   100%               32      100%
                              Principal and Interest   20,980,261          88%     2,845,614          74%     3,066,050         95%       608,382          95%      3,939,419       100%         914,288       100%

AFRICAN AMERICAN              Borrowers                             1       1%                  1      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 7       1%                  7      3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     416,265            2%       144,264           4%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             2       2%                  2      4%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                             12          2%             12          6%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     609,167            3%       188,719           5%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             4       3%                  3      6%                 1      4%                  1      8%                  0      0%                  0      0%
                              Loans                             23          5%             16          8%                 2      5%                  2     10%                  0      0%                  0      0%
                              Prinicpal and Interest    1,813,742           8%       682,666          18%      153,564           5%        30,557           5%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1611
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              OLDHAM, TEXAS                                          ORANGE, TEXAS                                     PALO PINTO, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        10                              5                     11                             9                         3                          2
                              Loans                            17                              9                     48                        39                             6                          5
                              Principal and Interest   2,296,314                    324,854                  2,068,116                   996,783                     504,571                   355,021

WHITE                         Borrowers                            9      90%                  5   100%              10        91%                  8     89%                 3   100%                   2   100%
                              Loans                            15         88%                  9   100%              47        98%             38         97%                 6   100%                   5   100%
                              Principal and Interest   2,200,473          96%       324,854        100%      1,966,921         95%       916,765          92%        504,571      100%         355,021       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1      9%                  1     11%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      2%                  1      3%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%      101,196           5%        80,018           8%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            1      10%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                2      12%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest      95,841           4%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1612
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               PANOLA, TEXAS                                         PARKER, TEXAS                                            PARMER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                        22                         10                         17                        12                              98                      51
                              Loans                            38                         16                         55                        39                             301                     183
                              Principal and Interest   3,620,624                    627,691                  1,648,130                   268,482                  21,045,945                   6,397,368

WHITE                         Borrowers                        22        100%             10       100%              16        94%             11         92%                  94     96%              49        96%
                              Loans                            38        100%             16       100%              54        98%             38         97%                 288     96%             178        97%
                              Principal and Interest   3,620,624         100%       627,691        100%      1,637,958         99%       266,975          99%     20,009,102          95%      6,350,800         99%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1      6%                  1      8%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      2%                  1      3%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        10,172          1%         1,507           1%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   1      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        192,367           1%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   3      3%                  2      4%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  12      4%                  5      3%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%        844,476           4%         46,568          1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1613
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   PECOS, TEXAS                                          POLK, TEXAS                                          POTTER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        18                              6                         7                          3                          5                          3
                              Loans                            52                         18                         17                             8                         14                          7
                              Principal and Interest   4,113,953                    630,782                   559,724                     69,869                     877,721                    156,794

WHITE                         Borrowers                        14         78%                  5     83%                 6     86%                  3   100%                   5   100%                   3   100%
                              Loans                            44         85%             17         94%             16        94%                  8   100%                  14   100%                   7   100%
                              Principal and Interest   3,550,440          86%       623,090          99%      547,328          98%        69,869        100%         877,721       100%         156,794       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1     14%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      6%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        12,395          2%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            1       6%                  1     17%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                1       2%                  1      6%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest      19,429           0%         7,692           1%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            3      17%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                7      13%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    544,084           13%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1614
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              PRESIDIO, TEXAS                                            RAINS, TEXAS                                     RANDALL, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            8                           3                     18                        11                             31                      18
                              Loans                            21                         12                         37                        27                             63                      42
                              Principal and Interest   2,735,500                    709,681                  2,270,125                   705,064                   3,672,001                    729,906

WHITE                         Borrowers                            0       0%                  0      0%             16        89%             10         91%                 30     97%              17        94%
                              Loans                                0       0%                  0      0%             33        89%             24         89%                 54     86%              34        81%
                              Principal and Interest               0       0%                  0      0%     1,542,616         68%       534,245          76%      3,335,452         91%        729,881       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 2     11%                  1      9%                  1      3%                  1      6%
                              Loans                                0       0%                  0      0%                 4     11%                  3     11%                  9     14%                  8     19%
                              Principal and Interest               0       0%                  0      0%      727,509          32%       170,819          24%        336,549          9%              25         0%

NATIVE AMERICAN               Borrowers                            1      13%                  1     33%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                5      24%                  5     42%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    999,839           37%       532,871          75%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            7      88%                  2     67%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                            16         76%                  7     58%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest   1,735,661          63%       176,810          25%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1615
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               REAGAN, TEXAS                                             REAL, TEXAS                                    RED RIVER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        16                              7                         1                          1                         37                      20
                              Loans                            49                         12                             3                          3                         97                      58
                              Principal and Interest   2,814,622                    121,040                   983,470                    635,590                   4,902,101                  1,495,949

WHITE                         Borrowers                        12         75%                  6     86%                 1   100%                   1   100%                  34     92%              19        95%
                              Loans                            38         78%             10         83%                 3   100%                   3   100%                  90     93%              56        97%
                              Principal and Interest   2,113,559          75%       118,749          98%      983,470        100%        635,590        100%       4,876,315         99%      1,493,934       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  2      5%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  4      4%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%           7,893         0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            4      25%                  1     14%                 0      0%                  0      0%                  1      3%                  1      5%
                              Loans                            11         22%                  2     17%                 0      0%                  0      0%                  3      3%                  2      3%
                              Prinicpal and Interest    701,062           25%         2,291           2%                 0      0%                  0      0%          17,893         0%           2,015         0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1616
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                REEVES, TEXAS                                         REFUGIO, TEXAS                                        ROBERTS, TEXAS
                                                        Portfolio        Percent    Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         67                          56                         10                             6                          4                          3
                              Loans                            286                         248                         18                        11                             26                      20
                              Principal and Interest   42,245,491                  21,767,545                   876,024                    133,700                   3,477,990                    268,534

WHITE                         Borrowers                         53         79%              48         86%             10      100%                   6   100%                   4   100%                   3   100%
                              Loans                            243         85%             222         90%             18      100%              11       100%                  26   100%               20      100%
                              Principal and Interest   39,410,792          93% 21,088,141              97%      876,024        100%        133,700        100%       3,477,990       100%         268,534       100%

AFRICAN AMERICAN              Borrowers                             0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             1       1%                   1      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 6       2%                   6      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     318,348            1%        166,467           1%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             1       1%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 1       0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       32,712           0%                   0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                         12         18%                   7     13%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                             36         13%              20          8%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    2,483,639           6%        512,937           2%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1617
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ROBERTSON, TEXAS                                      ROCKWALL, TEXAS                                          RUNNELS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        44                         27                         17                        13                             35                      11
                              Loans                           130                         93                         44                        39                             77                      44
                              Principal and Interest   8,912,371                  2,993,537                  2,289,557                   544,898                   3,093,515                    551,965
WHITE                         Borrowers                        40         91%             25         93%             15        88%             11         85%                 34     97%              11      100%
                              Loans                           115         88%             81         87%             37        84%             32         82%                 76     99%              44      100%
                              Principal and Interest   8,401,726          94%     2,806,782          94%     1,939,334         85%       426,564          78%      3,035,909         98%        551,965       100%
AFRICAN AMERICAN              Borrowers                            2       5%                  1      4%                 2     12%                  2     15%                  0      0%                  0      0%
                              Loans                                7       5%                  6      6%                 7     16%                  7     18%                  0      0%                  0      0%
                              Principal and Interest      53,612           1%        26,400           1%      350,223          15%       118,334          22%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            1       2%                  0      0%                 0      0%                  0      0%                  1      3%                  0      0%
                              Loans                                2       2%                  0      0%                 0      0%                  0      0%                  1      1%                  0      0%
                              Principal and Interest      50,854           1%                  0      0%                 0      0%                  0      0%          57,606         2%                  0      0%
HISPANIC                      Borrowers                            1       2%                  1      4%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                6       5%                  6      6%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    406,179            5%       160,355           5%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1618
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   RUSK, TEXAS                                           SABINE, TEXAS                             SAN AUGUSTINE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        13                              7                         2                          1                         16                          8
                              Loans                            23                         12                             2                          1                         23                      10
                              Principal and Interest   2,208,418                    219,828                     23,670                    10,324                   1,589,242                     92,800

WHITE                         Borrowers                        10         77%                  5     71%                 1     50%                  0      0%                 16   100%                   8   100%
                              Loans                            16         70%                  8     67%                 1     50%                  0      0%                 23   100%               10      100%
                              Principal and Interest   1,673,335          76%       131,896          60%        10,415         44%                  0      0%      1,589,242       100%          92,800       100%

AFRICAN AMERICAN              Borrowers                            3      23%                  2     29%                 1     50%                  1   100%                   0      0%                  0      0%
                              Loans                                7      30%                  4     33%                 1     50%                  1   100%                   0      0%                  0      0%
                              Principal and Interest    535,083           24%        87,932          40%        13,255         56%        10,324        100%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1619
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SAN JACINTO, TEXAS                                   SAN PATRICIO, TEXAS                                        SAN SABA, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                           0                     33                        19                             27                      11
                              Loans                                1                           0                     98                        55                             56                      25
                              Principal and Interest       2,052                               0             6,022,949                 1,562,220                   2,419,178                    212,928

WHITE                         Borrowers                            1     100%                  0      0%             30        91%             17         89%                 27   100%               11      100%
                              Loans                                1     100%                  0      0%             87        89%             49         89%                 56   100%               25      100%
                              Principal and Interest       2,052         100%                  0      0%     5,613,686         93%     1,508,197          97%      2,419,178       100%         212,928       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 1      3%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2      2%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        69,036          1%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 2      6%                  2     11%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 9      9%                  6     11%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      340,226           6%        54,022           3%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1620
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          SCHLEICHER, TEXAS                                          SCURRY, TEXAS                                  SHACKELFORD, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        12                              3                     19                             5                          6                          2
                              Loans                            24                              5                     45                             7                         10                          4
                              Principal and Interest   1,647,888                     55,707                  1,192,829                    14,282                     341,559                     56,077

WHITE                         Borrowers                        12        100%                  3   100%              18        95%                  4     80%                  6   100%                   2   100%
                              Loans                            24        100%                  5   100%              42        93%                  4     57%                 10   100%                   4   100%
                              Principal and Interest   1,647,888         100%        55,707        100%      1,177,230         99%         7,352          51%        341,559       100%          56,077       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 1      5%                  1     20%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 3      7%                  3     43%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        15,598          1%         6,930          49%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1621
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                SHELBY, TEXAS                                       SHERMAN, TEXAS                                             SMITH, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                         90                         32                         17                             9                         10                          7
                              Loans                            164                         63                         49                        37                             18                      11
                              Principal and Interest   12,356,744                  1,298,722                  6,339,726                 1,789,562                   1,021,466                    476,396

WHITE                         Borrowers                         85         94%             30         94%             12        71%                  7     78%                  7     70%                  6     86%
                              Loans                            153         93%             58         92%             31        63%             22         59%                 14     78%              10        91%
                              Principal and Interest   11,928,604          97%     1,248,284          96%     5,398,678         85%     1,596,167          89%        905,226         89%        438,606         92%

AFRICAN AMERICAN              Borrowers                             4       4%                  2      6%                 0      0%                  0      0%                  3     30%                  1     14%
                              Loans                             10          6%                  5      8%                 0      0%                  0      0%                  4     22%                  1      9%
                              Principal and Interest     406,439            3%        50,438           4%                 0      0%                  0      0%        116,240         11%         37,790          8%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 1      6%                  1     11%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 2      4%                  2      5%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%      196,240           3%        11,075           1%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             0       0%                  0      0%                 1      6%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 1      2%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%        87,513          1%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                             1       1%                  0      0%                 3     18%                  1     11%                  0      0%                  0      0%
                              Loans                                 1       1%                  0      0%             15        31%             13         35%                  0      0%                  0      0%
                              Prinicpal and Interest       21,700           0%                  0      0%      657,295          10%       182,320          10%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1622
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           SOMERVELL, TEXAS                                              STARR, TEXAS                                    STEPHENS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            2                           1                     37                        29                             3                          1
                              Loans                                9                           8                     57                        40                             4                          2
                              Principal and Interest    303,933                      23,754                  3,859,403                   829,992                       58,288                   14,804

WHITE                         Borrowers                            2     100%                  1   100%                  4     11%                  4     14%                 3   100%                   1   100%
                              Loans                                9     100%                  8   100%              10        18%                  7     18%                 4   100%                   2   100%
                              Principal and Interest    303,933          100%        23,754        100%      1,805,758         47%       517,782          62%          58,288     100%          14,804       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 2      5%                  2      7%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 4      7%                  3      8%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        22,771          1%         7,027           1%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 1      3%                  1      3%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      2%                  1      3%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         5,184          0%            703          0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%             30        81%             22         76%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%             42        74%             29         73%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%     2,025,690         52%       304,480          37%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1623
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             STERLING, TEXAS                                    STONEWALL, TEXAS                                              SUTTON, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            1                           1                     30                        13                              4                          3
                              Loans                                2                           2                     84                        18                             11                          7
                              Principal and Interest      76,894                     15,854                  2,762,433                   253,374                     739,216                     29,564

WHITE                         Borrowers                            1     100%                  1   100%              29        97%             13       100%                   4   100%                   3   100%
                              Loans                                2     100%                  2   100%              78        93%             18       100%                  11   100%                   7   100%
                              Principal and Interest      76,894         100%        15,854        100%      2,519,114         91%       253,374        100%         739,216       100%          29,564       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1      3%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 6      7%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      243,319           9%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1624
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               SWISHER, TEXAS                                       TARRANT, TEXAS                                             TAYLOR, TEXAS
                                                        Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        129                         54                             1                          1                         31                      17
                              Loans                            357                        166                             1                          1                         95                      64
                              Principal and Interest   19,263,970                  4,519,226                   233,701                     11,633                   3,103,492                    493,780

WHITE                         Borrowers                        115         89%             48         89%                 1   100%                   1   100%                  31   100%               17      100%
                              Loans                            329         92%            155         93%                 1   100%                   1   100%                  95   100%               64      100%
                              Principal and Interest   18,263,042          95%     4,422,031          98%      233,701        100%         11,633        100%       3,103,492       100%         493,780       100%

AFRICAN AMERICAN              Borrowers                             1       1%                  1      2%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 6       2%                  6      4%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest     242,124            1%        62,593           1%                 0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                             0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                             3       2%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                 6       2%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest       55,328           0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                         10          8%                  5      9%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                             16          4%                  5      3%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest     703,476            4%        34,602           1%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1625
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              TERRELL, TEXAS                                              TERRY, TEXAS                             THROCKMORTON, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            3                           1                     105                        38                             10                          0
                              Loans                                6                           3                     317                       120                             26                          0
                              Principal and Interest    510,670                     129,754                  16,642,110                 2,291,941                     591,599                              0

WHITE                         Borrowers                            3     100%                  1   100%              102        97%             36         95%                  9     90%                  0      0%
                              Loans                                6     100%                  3   100%              312        98%            117         98%                 24     92%                  0      0%
                              Principal and Interest    510,670          100%       129,754        100%      16,490,872         99%     2,265,730          99%        564,357         95%                  0      0%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  1     10%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  2      8%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%          27,242         5%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  3      3%                  2      5%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  5      2%                  3      3%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%       151,237           1%        26,211           1%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1626
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   TITUS, TEXAS                                  TOM GREEN, TEXAS                                             TRAVIS, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        12                              7                     21                             6                          7                          6
                              Loans                            18                         11                         41                             9                         17                      16
                              Principal and Interest   1,073,549                    106,514                  1,776,263                    69,386                     440,457                    185,079

WHITE                         Borrowers                        11         92%                  6     86%             20        95%                  5     83%                  6     86%                  5     83%
                              Loans                            17         94%             10         91%             40        98%                  8     89%                 13     76%              12        75%
                              Principal and Interest   1,004,502          94%       103,781          97%     1,737,379         98%        60,910          88%        331,135         75%        141,669         77%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  1     14%                  1     17%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  4     24%                  4     25%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%        109,322         25%         43,410         23%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            1       8%                  1     14%                 1      5%                  1     17%                  0      0%                  0      0%
                              Loans                                1       6%                  1      9%                 1      2%                  1     11%                  0      0%                  0      0%
                              Prinicpal and Interest      69,047           6%         2,733           3%        38,883          2%         8,476          12%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1627
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               TRINITY, TEXAS                                            TYLER, TEXAS                                         UPSHUR, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            8                           6                     10                             5                          9                          4
                              Loans                            30                         22                         13                             6                         14                          6
                              Principal and Interest   1,780,797                    367,482                   294,884                     56,649                     712,568                    115,674

WHITE                         Borrowers                            8     100%                  6   100%                  9     90%                  4     80%                  9   100%                   4   100%
                              Loans                            30        100%             22       100%              12        92%                  5     83%                 14   100%                   6   100%
                              Principal and Interest   1,780,797         100%       367,482        100%       291,795          99%        56,087          99%        712,568       100%         115,674       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1     10%                  1     20%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 1      8%                  1     17%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         3,088          1%            562          1%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1628
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   UPTON, TEXAS                                      UVALDE, TEXAS                                      VAL VERDE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                            7                           2                     28                        14                             4                          3
                              Loans                            27                              6                     68                        29                             7                          3
                              Principal and Interest   2,640,474                    349,989                  5,712,611                 1,069,876                     626,968                   259,231

WHITE                         Borrowers                            6      86%                  2   100%              28      100%              14       100%                  4   100%                   3   100%
                              Loans                            21         78%                  6   100%              68      100%              29       100%                  7   100%                   3   100%
                              Principal and Interest   1,936,728          73%       349,989        100%      5,712,611       100%      1,069,876        100%         626,968      100%         259,231       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            1      14%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                6      22%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Prinicpal and Interest    703,746           27%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1629
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            VAN ZANDT, TEXAS                                       VICTORIA, TEXAS                                        WALKER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        47                         32                         28                        14                             5                          5
                              Loans                            98                         74                         56                        30                             8                          8
                              Principal and Interest   6,302,319                  1,983,666                  3,021,983                 1,090,423                   1,642,291                   678,835

WHITE                         Borrowers                        43         91%             31         97%             25        89%             12         86%                 5   100%                   5   100%
                              Loans                            92         94%             71         96%             47        84%             27         90%                 8   100%                   8   100%
                              Principal and Interest   6,048,659          96%     1,965,282          99%     2,568,635         85%     1,034,670          95%      1,642,291      100%         678,835       100%

AFRICAN AMERICAN              Borrowers                            2       4%                  1      3%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                4       4%                  3      4%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest    135,167            2%        18,384           1%                 0      0%                  0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            2       4%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Loans                                2       2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%
                              Principal and Interest    118,493            2%                  0      0%                 0      0%                  0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 3     11%                  2     14%                 0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 9     16%                  3     10%                 0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      453,348          15%        55,753           5%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1630
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              WALLER, TEXAS                                              WARD, TEXAS                                  WASHINGTON, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            6                           5                         2                          2                          6                          4
                              Loans                            14                         12                             3                          3                         13                          8
                              Principal and Interest    550,398                     188,485                   155,652                     30,436                   1,198,611                    329,054

WHITE                         Borrowers                            5      83%                  5   100%                  1     50%                  1     50%                  5     83%                  3     75%
                              Loans                            12         86%             12       100%                  1     33%                  1     33%                 11     85%                  7     88%
                              Principal and Interest    536,595           97%       188,485        100%         40,185         26%         2,600           9%      1,166,832         97%        329,044       100%

AFRICAN AMERICAN              Borrowers                            1      17%                  0      0%                 0      0%                  0      0%                  1     17%                  1     25%
                              Loans                                2      14%                  0      0%                 0      0%                  0      0%                  2     15%                  1     13%
                              Principal and Interest      13,803           3%                  0      0%                 0      0%                  0      0%          31,780         3%              10         0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                 1     50%                  1     50%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2     67%                  2     67%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      115,468          74%        27,836          91%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1631
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   WEBB, TEXAS                                     WHARTON, TEXAS                                        WHEELER, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent   Portfolio         Percent   Delinquent       Percent
TOTAL                         Borrowers                            5                           5                     57                        32                              39                      18
                              Loans                            13                         13                        121                        84                             126                      87
                              Principal and Interest    342,479                     199,897                  9,444,478                 3,514,091                  12,892,380                   6,381,353

WHITE                         Borrowers                            1      20%                  1     20%             55        96%             31         97%                  38     97%              18      100%
                              Loans                                3      23%                  3     23%            118        98%             82         98%                 125     99%              87      100%
                              Principal and Interest    184,609           54%       137,352          69%     9,108,685         96%     3,509,574        100%      12,833,096        100%       6,381,353       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 1      2%                  1      3%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 2      2%                  2      2%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%        46,528          0%         4,517           0%                   0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   1      3%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   1      1%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%          59,283          0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%                   0      0%                  0      0%

HISPANIC                      Borrowers                            4      80%                  4     80%                 1      2%                  0      0%                   0      0%                  0      0%
                              Loans                            10         77%             10         77%                 1      1%                  0      0%                   0      0%                  0      0%
                              Prinicpal and Interest    157,870           46%        62,545          31%      289,265           3%                  0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1632
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              WICHITA, TEXAS                                      WILBARGER, TEXAS                                         WILLACY, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                            4                           2                     122                        49                             23                      11
                              Loans                            38                         31                         428                       207                             31                      17
                              Principal and Interest   1,689,250                    588,806                  25,184,269                 3,324,553                     856,697                    161,828

WHITE                         Borrowers                            4     100%                  2   100%              121        99%             49       100%                  10     43%                  4     36%
                              Loans                            38        100%             31       100%              427      100%             207       100%                  15     48%                  7     41%
                              Principal and Interest   1,689,250         100%       588,806        100%      25,124,655       100%      3,324,553        100%         660,353         77%        137,962         85%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  1      1%                  0      0%                 13     57%                  7     64%
                              Loans                                0       0%                  0      0%                  1      0%                  0      0%                 16     52%              10        59%
                              Prinicpal and Interest               0       0%                  0      0%         59,614          0%                  0      0%        196,344         23%         23,866         15%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1633
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          WILLIAMSON, TEXAS                                           WILSON, TEXAS                                             WISE, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        16                              9                     126                        86                             15                          7
                              Loans                            26                         17                         433                       299                             35                      21
                              Principal and Interest   1,108,610                    280,681                  29,890,016                 8,559,312                   2,370,756                    841,679

WHITE                         Borrowers                        16        100%                  9   100%              118        94%             79         92%                 15   100%                   7   100%
                              Loans                            26        100%             17       100%              397        92%            272         91%                 35   100%               21      100%
                              Principal and Interest   1,108,610         100%       280,681        100%      27,696,934         93%     8,073,543          94%      2,370,756       100%         841,679       100%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  1      1%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  3      1%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%         74,032          0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  2      2%                  2      2%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%              11         3%                  7      2%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%       588,152           2%        89,940           1%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  5      4%                  5      6%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%              22         5%             20          7%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%      1,530,897          5%       395,829           5%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1634
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   WOOD, TEXAS                                       YOAKUM, TEXAS                                             YOUNG, TEXAS
                                                       Portfolio        Percent   Delinquent       Percent    Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                        11                              7                      88                        20                             14                          7
                              Loans                            26                         16                         276                        65                             27                      11
                              Principal and Interest   1,358,266                    318,463                  16,237,228                 2,155,100                   2,042,269                    377,283

WHITE                         Borrowers                        10         91%                  6     86%              83        94%             19         95%                 13     93%                  7   100%
                              Loans                            24         92%             14         88%             263        95%             63         97%                 26     96%              11      100%
                              Principal and Interest   1,226,220          90%       287,462          90%     15,512,793         96%     2,079,322          96%      1,895,559         93%        377,283       100%

AFRICAN AMERICAN              Borrowers                            1       9%                  1     14%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                2       8%                  2     13%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest    132,047           10%        31,001          10%                  0      0%                  0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%                  0      0%                  0      0%

OTHER                         Borrowers                            0       0%                  0      0%                  0      0%                  0      0%                  1      7%                  0      0%
                              Loans                                0       0%                  0      0%                  0      0%                  0      0%                  1      4%                  0      0%
                              Principal and Interest               0       0%                  0      0%                  0      0%                  0      0%        146,710          7%                  0      0%

HISPANIC                      Borrowers                            0       0%                  0      0%                  5      6%                  1      5%                  0      0%                  0      0%
                              Loans                                0       0%                  0      0%              13         5%                  2      3%                  0      0%                  0      0%
                              Prinicpal and Interest               0       0%                  0      0%       724,435           4%        75,778           4%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1635
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               ZAPATA, TEXAS                                         ZAVALA, TEXAS                                           STATE OF TEXAS
                                                       Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent       Percent      Portfolio         Percent    Delinquent       Percent
TOTAL                         Borrowers                        12                              7                     14                             9                      8,151                        4,011
                              Loans                            17                         11                         26                        14                         24,321                      13,273
                              Principal and Interest    888,758                     125,471                  3,422,376                 1,157,441                  1,496,394,708                  425,620,532

WHITE                         Borrowers                            0       0%                  0      0%             12        86%                  8     89%              7,447         91%            3,615        90%
                              Loans                                0       0%                  0      0%             21        81%             11         79%             22,381         92%          12,063         91%
                              Principal and Interest               0       0%                  0      0%     3,140,824         92%     1,127,672          97%     1,397,487,076          93%     400,671,174         94%

AFRICAN AMERICAN              Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                    175      2%              115         3%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                    486      2%              353         3%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%       21,099,649            1%       6,666,554          2%

NATIVE AMERICAN               Borrowers                            0       0%                  0      0%                 1      7%                  1     11%                     49      1%               33         1%
                              Loans                                0       0%                  0      0%                 4     15%                  3     21%                    154      1%              111         1%
                              Principal and Interest               0       0%                  0      0%      228,110           7%        29,769           3%         8,922,885           1%       2,793,446          1%

ASIAN                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                     14      0%               13         0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                     84      0%               77         1%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%         4,734,676           0%       1,817,306          0%

OTHER                         Borrowers                            0       0%                  0      0%                 0      0%                  0      0%                     47      1%                   8      0%
                              Loans                                0       0%                  0      0%                 0      0%                  0      0%                     65      0%                   9      0%
                              Principal and Interest               0       0%                  0      0%                 0      0%                  0      0%         3,859,697           0%          82,495          0%

HISPANIC                      Borrowers                        12        100%                  7   100%                  1      7%                  0      0%                    419      5%              227         6%
                              Loans                            17        100%             11       100%                  1      4%                  0      0%              1,151          5%              660         5%
                              Prinicpal and Interest    888,758          100%       125,471        100%         53,442          2%                  0      0%       60,290,715            4%      13,589,556          3%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1636
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  TX BELLVILLE             Approved   No. of Applications                1        1      100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                      14                        0                    0                0                0
                                      Completion to Approval                     22                        0                    0                0                0
                                      Approval to Loan Closing                   22                        0                    0                0                0

                           Rejected   No. of Applications                5        3      60%               2   40%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      16                        0                    0                0               0
                                      Completion to Rejected                    119                        0                    0                0               0

                           Withdrawn No. of Applications                 3           2   67%               0   0%               0   0%           0   0%          1     33%
                                     Receipt to Completion                           0                     0                    0                0               0
                                     Completion to Withdrawn                         0                     0                    0                0               0

  TX   CASTRO              Approved   No. of Applications            25          24      96%           1       4%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      48                   41                        0                0               0
                                      Completion to Approval                     41                   57                        0                0               0
                                      Approval to Loan Closing                   25                   21                        0                0               0

                           Rejected   No. of Applications                7        7      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      50                        0                    0                0               0
                                      Completion to Rejected                     25                        0                    0                0               0

                           Withdrawn No. of Applications                 4           4   100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                           8                     0                    0                0               0
                                     Completion to Withdrawn                         1                     0                    0                0               0

  TX   CHILDRESS           Approved   No. of Applications            61          61      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      15                        0                    0                0               0
                                      Completion to Approval                     43                        0                    0                0               0
                                      Approval to Loan Closing                   25                        0                    0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      45                        0                    0                0               0
                                      Completion to Rejected                     63                        0                    0                0               0

                           Withdrawn No. of Applications             15          15      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       19                        0                    0                0               0
                                     Completion to Withdrawn                     48                        0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1637
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State  Servicing Office   Decision           Average Days       Total       White           American            American            Asian            Hispanic
  TX CORYELL               Approved   No. of Applications                1        1   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      28                     0                   0                0                0
                                      Completion to Approval                     82                     0                   0                0                0
                                      Approval to Loan Closing                   28                     0                   0                0                0

                           Rejected   No. of Applications                6        6   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      47                     0                   0                0               0
                                      Completion to Rejected                     27                     0                   0                0               0

                           Withdrawn No. of Applications                 4        4   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       11                     0                   0                0               0
                                     Completion to Withdrawn                      0                     0                   0                0               0

  TX   COTTLE              Approved   No. of Applications            38          34   89%           1       3%          2       5%           0   0%          1      3%
                                      Receipt to Completion                      19                27                  11                    0              15
                                      Completion to Approval                     30                36                  36                    0              24
                                      Approval to Loan Closing                   33                13                  21                    0              22

                           Rejected   No. of Applications            10           6   60%               0   0%              0   0%           0   0%          4     40%
                                      Receipt to Completion                      17                     0                   0                0              22
                                      Completion to Rejected                     32                     0                   0                0              44

                           Withdrawn No. of Applications             31          29   94%           1       3%          1       3%           0   0%          0      0%
                                     Receipt to Completion                       12                27                  11                    0               0
                                     Completion to Withdrawn                     29                49                  57                    0               0

  TX   DALLAM              Approved   No. of Applications            11          11   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      41                     0                   0                0               0
                                      Completion to Approval                     48                     0                   0                0               0
                                      Approval to Loan Closing                   33                     0                   0                0               0

                           Rejected   No. of Applications                6        6   100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      32                     0                   0                0               0
                                      Completion to Rejected                     23                     0                   0                0               0

                           Withdrawn No. of Applications             11          11   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       23                     0                   0                0               0
                                     Completion to Withdrawn                     32                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1638
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  TX DAWSON                Approved   No. of Applications             60        56   93%               0   0%              0   0%           0   0%           4     7%
                                      Receipt to Completion                     33                     0                   0                0              13
                                      Completion to Approval                    43                     0                   0                0              23
                                      Approval to Loan Closing                  20                     0                   0                0              13

                           Rejected   No. of Applications            15        14    93%               0   0%              0   0%           0   0%          1      7%
                                      Receipt to Completion                    31                      0                   0                0              48
                                      Completion to Rejected                   38                      0                   0                0               7

                           Withdrawn No. of Applications             14        13    93%               0   0%              0   0%           0   0%          1      7%
                                     Receipt to Completion                     23                      0                   0                0              14
                                     Completion to Withdrawn                   36                      0                   0                0               8

  TX   DEAF SMITH          Approved   No. of Applications            14        14    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    40                      0                   0                0               0
                                      Completion to Approval                   41                      0                   0                0               0
                                      Approval to Loan Closing                 42                      0                   0                0               0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    41                      0                   0                0               0
                                      Completion to Rejected                   46                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     14                      0                   0                0               0
                                     Completion to Withdrawn                    7                      0                   0                0               0

  TX   DONLEY              Approved   No. of Applications            22        22    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    40                      0                   0                0               0
                                      Completion to Approval                   39                      0                   0                0               0
                                      Approval to Loan Closing                  8                      0                   0                0               0

                           Rejected   No. of Applications             4         4    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   122                      0                   0                0               0
                                      Completion to Rejected                   35                      0                   0                0               0

                           Withdrawn No. of Applications             12        12    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     26                      0                   0                0               0
                                     Completion to Withdrawn                   49                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1639
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African              Native
 State   Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  TX ELLIS                  Approved   No. of Applications                7        6      86%           1       14%              0   0%           0   0%           0     0%
                                       Receipt to Completion                      30                   22                        0                0                0
                                       Completion to Approval                     11                   21                        0                0                0
                                       Approval to Loan Closing                   14                   30                        0                0                0

                            Rejected   No. of Applications                4        4      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      24                        0                    0                0               0
                                       Completion to Rejected                     13                        0                    0                0               0

                            Withdrawn No. of Applications             10          10      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                       11                        0                    0                0               0
                                      Completion to Withdrawn                      7                        0                    0                0               0

  TX   ERATH                Approved   No. of Applications            23          23      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      38                        0                    0                0               0
                                       Completion to Approval                     70                        0                    0                0               0
                                       Approval to Loan Closing                   22                        0                    0                0               0

                            Rejected   No. of Applications                6        6      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      25                        0                    0                0               0
                                       Completion to Rejected                     79                        0                    0                0               0

                            Withdrawn No. of Applications                 4           4   100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                           5                     0                    0                0               0
                                      Completion to Withdrawn                         9                     0                    0                0               0

  TX   FALLS                Approved   No. of Applications            30          27      90%           3       10%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      47                  202                        0                0               0
                                       Completion to Approval                     12                    4                        0                0               0
                                       Approval to Loan Closing                   23                    0                        0                0               0

                            Rejected   No. of Applications                4        4      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                       9                        0                    0                0               0
                                       Completion to Rejected                     14                        0                    0                0               0

                            Withdrawn No. of Applications             14          14      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                       58                        0                    0                0               0
                                      Completion to Withdrawn                     20                        0                    0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1640
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TX FANNIN                Approved   No. of Applications             49        48   98%               0   0%               0   0%           0   0%           1     2%
                                      Receipt to Completion                     35                     0                    0                0              48
                                      Completion to Approval                    26                     0                    0                0                4
                                      Approval to Loan Closing                  22                     0                    0                0              17

                           Rejected   No. of Applications             5         5    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    17                      0                    0                0               0
                                      Completion to Rejected                    2                      0                    0                0               0

                           Withdrawn No. of Applications             21        16    76%               5   24%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     25                      0                    0                0               0
                                     Completion to Withdrawn                   23                      0                    0                0               0

  TX   FISHER              Approved   No. of Applications            77        68    88%               0   0%               0   0%           0   0%          9     12%
                                      Receipt to Completion                    13                      0                    0                0               9
                                      Completion to Approval                   47                      0                    0                0              38
                                      Approval to Loan Closing                 23                      0                    0                0              16

                           Rejected   No. of Applications             6         6    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    11                      0                    0                0               0
                                      Completion to Rejected                   24                      0                    0                0               0

                           Withdrawn No. of Applications             31        29    94%               0   0%               0   0%           0   0%          2      6%
                                     Receipt to Completion                     11                      0                    0                0              22
                                     Completion to Withdrawn                   46                      0                    0                0             371

  TX   FLOYD               Approved   No. of Applications           155       147    95%               0   0%               0   0%           0   0%          8      5%
                                      Receipt to Completion                    17                      0                    0                0              20
                                      Completion to Approval                   75                      0                    0                0              71
                                      Approval to Loan Closing                 16                      0                    0                0              15

                           Rejected   No. of Applications             4         4    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    19                      0                    0                0               0
                                      Completion to Rejected                   66                      0                    0                0               0

                           Withdrawn No. of Applications             51        46    90%               0   0%           3       6%           0   0%          2      4%
                                     Receipt to Completion                     18                      0               14                    0              15
                                     Completion to Withdrawn                   78                      0               59                    0              51




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1641
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  TX GAINES                Approved   No. of Applications           103        91   88%           2       2%              0   0%           0   0%         10    10%
                                      Receipt to Completion                    16                55                       0                0              18
                                      Completion to Approval                   44                 5                       0                0              59
                                      Approval to Loan Closing                 16                14                       0                0              12

                           Rejected   No. of Applications            26       24    92%               0   0%              0   0%           0   0%         2      8%
                                      Receipt to Completion                   22                      0                   0                0             23
                                      Completion to Rejected                  34                      0                   0                0             49

                           Withdrawn No. of Applications             12       11    92%               0   0%              0   0%           0   0%         1      8%
                                     Receipt to Completion                    18                      0                   0                0             39
                                     Completion to Withdrawn                  39                      0                   0                0             53

  TX   GONZALES            Approved   No. of Applications            13       13    100%              0   0%              0   0%           0   0%         0      0%
                                      Receipt to Completion                   49                      0                   0                0              0
                                      Completion to Approval                  94                      0                   0                0              0
                                      Approval to Loan Closing                14                      0                   0                0              0

                           Rejected   No. of Applications            1         1    100%              0   0%              0   0%           0   0%         0      0%
                                      Receipt to Completion                    0                      0                   0                0              0
                                      Completion to Rejected                  62                      0                   0                0              0

                           Withdrawn No. of Applications             3         3    100%              0   0%              0   0%           0   0%         0      0%
                                     Receipt to Completion                    54                      0                   0                0              0
                                     Completion to Withdrawn                  94                      0                   0                0              0

  TX   GUADALUPE           Approved   No. of Applications            48       42    88%           1       2%              0   0%        1      2%         4      8%
                                      Receipt to Completion                   80                 31                       0           138                57
                                      Completion to Approval                  55                235                       0           133                 6
                                      Approval to Loan Closing                15                 44                       0            13                14

                           Rejected   No. of Applications            22       20    91%           1       5%              0   0%           0   0%         1      5%
                                      Receipt to Completion                   89                 55                       0                0             71
                                      Completion to Rejected                  41                 22                       0                0              0

                           Withdrawn No. of Applications             12        9    75%               1   8%              0   0%        1      8%         1      8%
                                     Receipt to Completion                    16                      0                   0           140                 0
                                     Completion to Withdrawn                   2                      0                   0           168                 0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                               Page 1642
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African              Native
 State  Servicing Office   Decision           Average Days       Total    White            American             American            Asian            Hispanic
  TX HALE                  Approved   No. of Applications           123      108    88%           4       3%               0   0%           0   0%         11     9%
                                      Receipt to Completion                    21                33                        0                0              14
                                      Completion to Approval                   53                61                        0                0              43
                                      Approval to Loan Closing                 18                17                        0                0              10

                           Rejected   No. of Applications            7         3    43%           2       29%              0   0%           0   0%         2     29%
                                      Receipt to Completion                   48                 43                        0                0             28
                                      Completion to Rejected                  98                120                        0                0             49

                           Withdrawn No. of Applications             32       32    100%              0   0%               0   0%           0   0%         0      0%
                                     Receipt to Completion                    20                      0                    0                0              0
                                     Completion to Withdrawn                  49                      0                    0                0              0

  TX   HALL                Approved   No. of Applications            41       41    100%              0   0%               0   0%           0   0%         0      0%
                                      Receipt to Completion                   18                      0                    0                0              0
                                      Completion to Approval                  35                      0                    0                0              0
                                      Approval to Loan Closing                17                      0                    0                0              0

                           Rejected   No. of Applications            12       12    100%              0   0%               0   0%           0   0%         0      0%
                                      Receipt to Completion                   12                      0                    0                0              0
                                      Completion to Rejected                  17                      0                    0                0              0

                           Withdrawn No. of Applications             48       48    100%              0   0%               0   0%           0   0%         0      0%
                                     Receipt to Completion                    18                      0                    0                0              0
                                     Completion to Withdrawn                  40                      0                    0                0              0

  TX   HAMILTON COUNTY     Approved   No. of Applications            4         4    100%              0   0%               0   0%           0   0%         0      0%
                                      Receipt to Completion                    9                      0                    0                0              0
                                      Completion to Approval                  40                      0                    0                0              0
                                      Approval to Loan Closing                 0                      0                    0                0              0

                           Rejected   No. of Applications            0         0     0%               0   0%               0   0%           0   0%         0      0%
                                      Receipt to Completion                    0                      0                    0                0              0
                                      Completion to Rejected                   0                      0                    0                0              0

                           Withdrawn No. of Applications             0         0     0%               0   0%               0   0%           0   0%         0      0%
                                     Receipt to Completion                     0                      0                    0                0              0
                                     Completion to Withdrawn                   0                      0                    0                0              0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1643
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TX HASKELL               Approved   No. of Applications             21        21   100%              0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                      3                     0                    0                0                0
                                      Completion to Approval                    32                     0                    0                0                0
                                      Approval to Loan Closing                  14                     0                    0                0                0

                           Rejected   No. of Applications             4         4    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    12                      0                    0                0               0
                                      Completion to Rejected                   45                      0                    0                0               0

                           Withdrawn No. of Applications             26        26    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      3                      0                    0                0               0
                                     Completion to Withdrawn                   26                      0                    0                0               0

  TX   HOCKLEY             Approved   No. of Applications            65        57    88%               0   0%               0   0%           0   0%          8     12%
                                      Receipt to Completion                    21                      0                    0                0              41
                                      Completion to Approval                   64                      0                    0                0              82
                                      Approval to Loan Closing                 21                      0                    0                0              19

                           Rejected   No. of Applications             8         5    63%               0   0%               0   0%           0   0%          3     38%
                                      Receipt to Completion                    20                      0                    0                0              39
                                      Completion to Rejected                   42                      0                    0                0             140

                           Withdrawn No. of Applications             79        73    92%               0   0%               0   0%           0   0%          6      8%
                                     Receipt to Completion                     18                      0                    0                0              30
                                     Completion to Withdrawn                   51                      0                    0                0              70

  TX   HOPKINS             Approved   No. of Applications            23        20    87%               3   13%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                      6                    0                0               0
                                      Completion to Approval                   15                      4                    0                0               0
                                      Approval to Loan Closing                 12                      8                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              7         6    86%               1   14%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      5                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1644
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  TX JIM WELLS              Approved   No. of Applications             57        41   72%               0   0%              0   0%        2      4%         14     25%
                                       Receipt to Completion                      4                     0                   0             0                   5
                                       Completion to Approval                    51                     0                   0            64                 58
                                       Approval to Loan Closing                  24                     0                   0            68                 38

                            Rejected   No. of Applications             7         3    43%               0   0%              0   0%           0   0%          4     57%
                                       Receipt to Completion                     0                      0                   0                0               7
                                       Completion to Rejected                   28                      0                   0                0              24

                            Withdrawn No. of Applications              4         1    25%               0   0%              0   0%           0   0%          3     75%
                                      Receipt to Completion                      0                      0                   0                0               4
                                      Completion to Withdrawn                   80                      0                   0                0              18

  TX   JONES                Approved   No. of Applications            42        40    95%           1       2%              0   0%           0   0%          1      2%
                                       Receipt to Completion                    20                  7                       0                0               7
                                       Completion to Approval                   21                 19                       0                0               5
                                       Approval to Loan Closing                 25                 13                       0                0              14

                            Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                    17                      0                   0                0               0
                                       Completion to Rejected                   18                      0                   0                0               0

                            Withdrawn No. of Applications             27        25    93%               0   0%              0   0%        1      4%          1      4%
                                      Receipt to Completion                     12                      0                   0            13                 31
                                      Completion to Withdrawn                   23                      0                   0            10                 18

  TX   KNOX                 Approved   No. of Applications             7         7    100%              0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     6                      0                   0                0               0
                                       Completion to Approval                   36                      0                   0                0               0
                                       Approval to Loan Closing                 14                      0                   0                0               0

                            Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     0                      0                   0                0               0
                                       Completion to Rejected                    0                      0                   0                0               0

                            Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      4                      0                   0                0               0
                                      Completion to Withdrawn                   25                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1645
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TX LAMB                  Approved   No. of Applications             40        37   93%           2       5%               0   0%        1      3%           0     0%
                                      Receipt to Completion                     20                43                        0            16                   0
                                      Completion to Approval                    48                76                        0            15                   0
                                      Approval to Loan Closing                  21                22                        0            19                   0

                           Rejected   No. of Applications            12        10    83%           2       17%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    36                 35                        0                0               0
                                      Completion to Rejected                   27                 74                        0                0               0

                           Withdrawn No. of Applications             19        19    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                     16                      0                    0                0               0
                                     Completion to Withdrawn                   47                      0                    0                0               0

  TX   LIBERTY             Approved   No. of Applications             7         7    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    32                      0                    0                0               0
                                      Completion to Approval                    5                      0                    0                0               0
                                      Approval to Loan Closing                 26                      0                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

  TX   LUBBOCK             Approved   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                   113                      0                    0                0               0
                                      Completion to Approval                   14                      0                    0                0               0
                                      Approval to Loan Closing                 41                      0                    0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     9                      0                    0                0               0
                                      Completion to Rejected                   28                      0                    0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1646
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African              Native
 State  Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  TX MARTIN                Approved   No. of Applications             47        46   98%               0   0%               0   0%           0   0%           1     2%
                                      Receipt to Completion                     23                     0                    0                0              18
                                      Completion to Approval                    54                     0                    0                0              98
                                      Approval to Loan Closing                  26                     0                    0                0              16

                           Rejected   No. of Applications             8         8    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                    28                      0                    0                0               0
                                      Completion to Rejected                   43                      0                    0                0               0

                           Withdrawn No. of Applications             11        11    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      7                      0                    0                0               0
                                     Completion to Withdrawn                   74                      0                    0                0               0

  TX   NACOGDOCHES         Approved   No. of Applications             8         5    63%           3       38%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    26                 79                        0                0               0
                                      Completion to Approval                   30                  1                        0                0               0
                                      Approval to Loan Closing                 24                 59                        0                0               0

                           Rejected   No. of Applications             1         0     0%               0   0%               0   0%           0   0%          1    100%
                                      Receipt to Completion                     0                      0                    0                0              31
                                      Completion to Rejected                    0                      0                    0                0               4

                           Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0

  TX   NOLAN               Approved   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Approval                   14                      0                    0                0               0
                                      Approval to Loan Closing                 28                      0                    0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                    0                0               0
                                      Completion to Rejected                    0                      0                    0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                      2                      0                    0                0               0
                                     Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1647
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  TX OCHILTREE             Approved   No. of Applications                0           0    0%               0   0%               0   0%           0   0%           0     0%
                                      Receipt to Completion                          0                     0                    0                0                0
                                      Completion to Approval                         0                     0                    0                0                0
                                      Approval to Loan Closing                       0                     0                    0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                    0                0               0
                                      Completion to Rejected                         0                     0                    0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                        5                        0                    0                0               0
                                     Completion to Withdrawn                     18                        0                    0                0               0

  TX   PARKER              Approved   No. of Applications            13          11      85%           2       15%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      27                   20                        0                0               0
                                      Completion to Approval                     47                    4                        0                0               0
                                      Approval to Loan Closing                   17                   18                        0                0               0

                           Rejected   No. of Applications                2           2   100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                    0                0               0
                                      Completion to Rejected                         0                     0                    0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       17                        0                    0                0               0
                                     Completion to Withdrawn                     26                        0                    0                0               0

  TX   PARMER              Approved   No. of Applications            41          36      88%               0   0%               0   0%        1      2%          4     10%
                                      Receipt to Completion                      23                        0                    0            24                 40
                                      Completion to Approval                     65                        0                    0           102                 46
                                      Approval to Loan Closing                   29                        0                    0            33                 24

                           Rejected   No. of Applications                4        4      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      40                        0                    0                0               0
                                      Completion to Rejected                    106                        0                    0                0               0

                           Withdrawn No. of Applications                 8        7      88%               0   0%               0   0%           0   0%          1     13%
                                     Receipt to Completion                       15                        0                    0                0              48
                                     Completion to Withdrawn                    149                        0                    0                0              22




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1648
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African              Native
 State  Servicing Office   Decision           Average Days       Total     White              American             American             Asian            Hispanic
  TX PECOS                 Approved   No. of Applications             22        9      41%               0   0%               0   0%         1      5%         12     55%
                                      Receipt to Completion                    13                        0                    0             35                   9
                                      Completion to Approval                    2                        0                    0             49                   0
                                      Approval to Loan Closing                  6                        0                    0              0                   2

                           Rejected   No. of Applications             7         5      71%               0   0%               0   0%            0   0%          2     29%
                                      Receipt to Completion                    65                        0                    0                 0              50
                                      Completion to Rejected                   53                        0                    0                 0             148

                           Withdrawn No. of Applications              5            2   40%               0   0%               0   0%            0   0%          3     60%
                                     Receipt to Completion                         0                     0                    0                 0              20
                                     Completion to Withdrawn                       0                     0                    0                 0              33

  TX   ROBERTSON           Approved   No. of Applications             3         2      67%               0   0%           1       33%           0   0%          0      0%
                                      Receipt to Completion                    51                        0               53                     0               0
                                      Completion to Approval                   18                        0               10                     0               0
                                      Approval to Loan Closing                 20                        0               35                     0               0

                           Rejected   No. of Applications            14        11      79%           3       21%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    38                   46                        0                 0               0
                                      Completion to Rejected                   31                   13                        0                 0               0

                           Withdrawn No. of Applications              9         5      56%           4       44%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     13                   15                        0                 0               0
                                     Completion to Withdrawn                    5                    0                        0                 0               0

  TX   SAN SABA            Approved   No. of Applications            24        24      100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    60                        0                    0                 0               0
                                      Completion to Approval                   39                        0                    0                 0               0
                                      Approval to Loan Closing                 25                        0                    0                 0               0

                           Rejected   No. of Applications             2            2   100%              0   0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                        0                     0                    0                 0               0
                                      Completion to Rejected                       0                     0                    0                 0               0

                           Withdrawn No. of Applications             12        12      100%              0   0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                     47                        0                    0                 0               0
                                     Completion to Withdrawn                   50                        0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1649
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  TX SHELBY                Approved   No. of Applications                7        6      86%           1       14%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      71                  193                        0                0                0
                                      Completion to Approval                     91                    1                        0                0                0
                                      Approval to Loan Closing                   36                   28                        0                0                0

                           Rejected   No. of Applications                2        2      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      17                        0                    0                0               0
                                      Completion to Rejected                     11                        0                    0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       15                        0                    0                0               0
                                     Completion to Withdrawn                    107                        0                    0                0               0

  TX   SMITH               Approved   No. of Applications                6        5      83%           1       17%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      68                   21                        0                0               0
                                      Completion to Approval                     62                   26                        0                0               0
                                      Approval to Loan Closing                   25                    0                        0                0               0

                           Rejected   No. of Applications                6        5      83%               0   0%               0   0%           0   0%          1     17%
                                      Receipt to Completion                      29                        0                    0                0              18
                                      Completion to Rejected                      1                        0                    0                0              23

                           Withdrawn No. of Applications             12           6      50%           6       50%              0   0%           0   0%          0      0%
                                     Receipt to Completion                        5                   31                        0                0               0
                                     Completion to Withdrawn                     13                   40                        0                0               0

  TX   SWISHER             Approved   No. of Applications           111         101      91%           3       3%               0   0%           0   0%          7      6%
                                      Receipt to Completion                      24                   33                        0                0              20
                                      Completion to Approval                     17                   34                        0                0              10
                                      Approval to Loan Closing                   25                   14                        0                0              37

                           Rejected   No. of Applications                1           1   100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                    0                0               0
                                      Completion to Rejected                         0                     0                    0                0               0

                           Withdrawn No. of Applications                 9        9      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       31                        0                    0                0               0
                                     Completion to Withdrawn                     17                        0                    0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1650
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State   Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
  TX TITUS                  Approved   No. of Applications             20        20   100%              0   0%              0   0%            0   0%           0     0%
                                       Receipt to Completion                     59                     0                   0                 0                0
                                       Completion to Approval                    14                     0                   0                 0                0
                                       Approval to Loan Closing                  15                     0                   0                 0                0

                            Rejected   No. of Applications            19        15    79%               0   0%              2   11%           0   0%          2     11%
                                       Receipt to Completion                    37                      0                   0                 0              95
                                       Completion to Rejected                   24                      0                   0                 0              38

                            Withdrawn No. of Applications             13        12    92%               1   8%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      8                      0                   0                 0               0
                                      Completion to Withdrawn                    2                      0                   0                 0               0

  TX   TOM GREEN            Approved   No. of Applications            61        54    89%           2       3%              0   0%            0   0%          5      8%
                                       Receipt to Completion                    35                 44                       0                 0              36
                                       Completion to Approval                   70                 60                       0                 0              36
                                       Approval to Loan Closing                 21                 28                       0                 0              17

                            Rejected   No. of Applications             7         2    29%               0   0%              0   0%            0   0%          5     71%
                                       Receipt to Completion                    28                      0                   0                 0              15
                                       Completion to Rejected                   34                      0                   0                 0             145

                            Withdrawn No. of Applications             32        30    94%               0   0%              0   0%            0   0%          2      6%
                                      Receipt to Completion                     29                      0                   0                 0              31
                                      Completion to Withdrawn                   41                      0                   0                 0              13

  TX   UVALDE               Approved   No. of Applications            14        13    93%               0   0%              0   0%            0   0%          1      7%
                                       Receipt to Completion                     3                      0                   0                 0               0
                                       Completion to Approval                   23                      0                   0                 0               0
                                       Approval to Loan Closing                 28                      0                   0                 0              30

                            Rejected   No. of Applications             5         2    40%               0   0%          3       60%           0   0%          0      0%
                                       Receipt to Completion                     5                      0              12                     0               0
                                       Completion to Rejected                   41                      0              73                     0               0

                            Withdrawn No. of Applications             11         9    82%               0   0%              0   0%            0   0%          2     18%
                                      Receipt to Completion                     13                      0                   0                 0               0
                                      Completion to Withdrawn                   21                      0                   0                 0               7




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1651
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African              Native
 State  Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  TX WHARTON               Approved   No. of Applications                3        2      67%               0   0%               0   0%           0   0%           1    33%
                                      Receipt to Completion                      11                        0                    0                0              32
                                      Completion to Approval                     23                        0                    0                0              31
                                      Approval to Loan Closing                   28                        0                    0                0              27

                           Rejected   No. of Applications                3           0    0%           1       33%              0   0%           0   0%          2     67%
                                      Receipt to Completion                          0                30                        0                0              11
                                      Completion to Rejected                         0                 0                        0                0              24

                           Withdrawn No. of Applications             22          22      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       21                        0                    0                0               0
                                     Completion to Withdrawn                     23                        0                    0                0               0

  TX   WILBARGER           Approved   No. of Applications                7        7      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                      24                        0                    0                0               0
                                      Completion to Approval                     34                        0                    0                0               0
                                      Approval to Loan Closing                   35                        0                    0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                     133                        0                    0                0               0
                                      Completion to Rejected                      0                        0                    0                0               0

                           Withdrawn No. of Applications             15          15      100%              0   0%               0   0%           0   0%          0      0%
                                     Receipt to Completion                       54                        0                    0                0               0
                                     Completion to Withdrawn                     43                        0                    0                0               0

  TX   WILLACY             Approved   No. of Applications            72          34      47%               0   0%               0   0%           0   0%         38     53%
                                      Receipt to Completion                      40                        0                    0                0              32
                                      Completion to Approval                     69                        0                    0                0              43
                                      Approval to Loan Closing                   42                        0                    0                0              28

                           Rejected   No. of Applications            27          18      67%               0   0%               0   0%           0   0%          9     33%
                                      Receipt to Completion                      45                        0                    0                0              28
                                      Completion to Rejected                     62                        0                    0                0              45

                           Withdrawn No. of Applications             31          12      39%               0   0%               0   0%        1      3%         18     58%
                                     Receipt to Completion                       22                        0                    0             0                 22
                                     Completion to Withdrawn                     73                        0                    0            62                 27




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1652
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African           Native
 State  Servicing Office   Decision           Average Days       Total    White           American          American         Asian            Hispanic
  TX STATE                 Approved   No. of Applications          1629     1449    89%           31   2%           3   0%        6      0%        140     9%
                                      Receipt to Completion                    26                 57               25            36                 23
                                      Completion to Approval                   46                 34               27            71                 41
                                      Approval to Loan Closing                 21                 20               26            34                 21

                           Rejected   No. of Applications           301      246    82%          11    4%           5   2%           0   0%        39     13%
                                      Receipt to Completion                   36                 34                 7                0             29
                                      Completion to Rejected                  37                 41                44                0             63

                           Withdrawn No. of Applications            706      636    90%          19    3%           4   1%        3      0%        44      6%
                                     Receipt to Completion                    19                 14                13            51                21
                                     Completion to Withdrawn                  40                 15                59            80                46




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                         Page 1653
                            Demographics         1655
                        FSA’s Loan Portfolio     1659
                        FSA’s Application data   1669




USDA/OIG-A/50801-4-Hq                                   1654
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                  Asian                  Other                 Hispanic
                                            Total        Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        UT                 Population         4,765         4,584    96%                5      0%         36          1%         19          0%              1      0%        120       3%
        Beaver County      Borrowers             62            59    95%                0      0%          0          0%          1          2%              2      3%          0       0%
                           Farms                215           215   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    192,288       192,288   100%                0      0%          0          0%          0          0%              0      0%          0       0%

        UT                 Population         36,485       34,085    93%            16         0%        368          1%        398          1%              8      0%      1,610       4%
        Box Elder County   Borrowers              77           75    97%             0         0%          0          0%          2          3%              0      0%          0       0%
                           Farms               1,085        1,052    97%             0         0%          0          0%         25          2%              0      0%          8       1%
                           Land in Farms   1,449,976    1,446,264   100%             0         0%          0          0%      3,262          0%              0      0%        450       0%

        UT                 Population        70,183        65,737    94%           213         0%        525          1%      1,893          3%         35          0%      1,780       3%
        Cache County       Borrowers             58            58   100%             0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms              1,189         1,186   100%             0         0%          0          0%          3          0%          0          0%          0       0%
                           Land in Farms    267,924       267,924   100%             0         0%          0          0%          0          0%          0          0%          0       0%

        UT                 Population        20,228        17,670    87%            54         0%        123          1%        110          1%         24          0%      2,247       11%
        Carbon County      Borrowers             10            10   100%             0         0%          0          0%          0          0%          0          0%          0        0%
                           Farms                182           178    98%             0         0%          0          0%          0          0%          0          0%          4        2%
                           Land in Farms    291,860       291,860   100%             0         0%          0          0%          0          0%          0          0%          0        0%

        UT                 Population           690           665    96%                0      0%              6      1%              4      1%              0      0%         15       2%
        Daggett County     Borrowers             14            14   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                 29            29   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms     21,958        21,958   100%                0      0%              0      0%              0      0%              0      0%          0       0%

        UT                 Population       187,941       174,198     93%        2,282         1%        995          1%      3,112          2%         79          0%      7,275       4%
        Davis County       Borrowers              2             1     50%            0         0%          0          0%          1         50%          0          0%          0       0%
                           Farms                582           559     96%            0         0%          0          0%         16          3%          0          0%          7       1%
                           Land in Farms     50,357        49,206     98%            0         0%          0          0%      1,012          2%          0          0%        139       0%

        UT                 Population        12,645        11,630     92%               8      0%        623          5%         31          0%              3      0%        350       3%
        Duchesne County    Borrowers            197           194     98%               1      1%          1          1%          0          0%              1      1%          0       0%
                           Farms                733           722     98%               0      0%          7          1%          0          0%              0      0%          4       1%
                           Land in Farms    399,011       389,774     98%               0      0%      9,237          2%          0          0%              0      0%          0       0%

        UT                 Population        10,332        10,035    97%                4      0%         39          0%         33          0%              2      0%        219       2%
        Emery County       Borrowers             55            54    98%                0      0%          1          2%          0          0%              0      0%          0       0%
                           Farms                420           420   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    240,535       240,535   100%                0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 1655
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                  Asian                  Other                 Hispanic
                                          Total        Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        UT                Population        3,980         3,868    97%                1      0%         68          2%              8      0%              0      0%         35       1%
        Garfield County   Borrowers            73            73   100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Farms               249           249   100%                0      0%          0          0%              0      0%              0      0%          0       0%
                          Land in Farms   137,530       137,530   100%                0      0%          0          0%              0      0%              0      0%          0       0%

        UT                Population        6,620         6,108    92%                6      0%        192          3%         22          0%              1      0%        291       4%
        Grand County      Borrowers             6             6   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Farms                88            88   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms    63,116        63,116   100%                0      0%          0          0%          0          0%              0      0%          0       0%

        UT                Population       20,789        19,669    95%            40         0%        612          3%         85          0%              1      0%        382       2%
        Iron County       Borrowers            33            31    94%             0         0%          0          0%          0          0%              1      3%          1       3%
                          Farms               365           365   100%             0         0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms   434,183       434,183   100%             0         0%          0          0%          0          0%              0      0%          0       0%

        UT                Population        5,817         5,644    97%                2      0%         81          1%         10          0%              7      0%         73       1%
        Juab County       Borrowers            20            20   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Farms               203           203   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms   332,686       332,686   100%                0      0%          0          0%          0          0%              0      0%          0       0%

        UT                Population        5,169         4,962    96%                5      0%         77          1%         24          0%              0      0%        101       2%
        Kane County       Borrowers            13            13   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Farms               136           136   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                          Land in Farms   209,819       209,819   100%                0      0%          0          0%          0          0%              0      0%          0       0%

        UT                Population       11,333        10,647    94%                2      0%        178          2%        104          1%              0      0%        402       4%
        Millard County    Borrowers            89            88    99%                0      0%          0          0%          0          0%              0      0%          1       1%
                          Farms               612           607    99%                0      0%          0          0%          0          0%              0      0%          5       1%
                          Land in Farms   484,156       482,986   100%                0      0%          0          0%          0          0%              0      0%      1,170       0%

        UT                Population        5,528         5,421    98%                7      0%              7      0%         15          0%              0      0%         78       1%
        Morgan County     Borrowers             6             6   100%                0      0%              0      0%          0          0%              0      0%          0       0%
                          Farms               258           258   100%                0      0%              0      0%          0          0%              0      0%          0       0%
                          Land in Farms   234,576       234,576   100%                0      0%              0      0%          0          0%              0      0%          0       0%

        UT                Population        1,277         1,252    98%                0      0%              9      1%              1      0%              0      0%         15       1%
        Piute County      Borrowers            64            64   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                          Farms               109           109   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                          Land in Farms    58,522        58,522   100%                0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 1656
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                  Asian                  Other                 Hispanic
                                            Total        Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
        UT                 Population         1,725         1,696    98%                1      0%              1      0%              6      0%              0      0%         21       1%
        Rich County        Borrowers             20            20   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                143           143   100%                0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    493,073       493,073   100%                0      0%              0      0%              0      0%              0      0%          0       0%

        UT                 Population       725,956       651,565    90%         5,205         1%      5,458          1%     19,586          3%        495          0%     43,647       6%
        Salt Lake County   Borrowers              1             1   100%             0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms                686           665    97%             0         0%          0          0%         10          1%          3          0%          8       1%
                           Land in Farms    107,663       107,448   100%             0         0%          0          0%          0          0%          0          0%        215       0%

        UT                 Population        12,621         5,347     42%           10         0%      6,782         54%         36          0%              6      0%        440       3%
        San Juan County    Borrowers             55            52     95%            0         0%          1          2%          0          0%              0      0%          2       4%
                           Farms                206           201     98%            0         0%          5          2%          0          0%              0      0%          0       0%
                           Land in Farms    324,921       320,926     99%            0         0%      3,995          1%          0          0%              0      0%          0       0%

        UT                 Population        16,259        15,329    94%            11         0%        109          1%        245          2%              5      0%        560       3%
        Sanpete County     Borrowers             97            97   100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms                696           696   100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    447,463       447,463   100%             0         0%          0          0%          0          0%              0      0%          0       0%

        UT                 Population        15,431        14,798    96%                5      0%        312          2%         26          0%              1      0%        289       2%
        Sevier County      Borrowers             76            73    96%                0      0%          0          0%          0          0%              1      1%          2       3%
                           Farms                406           406   100%                0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    158,189       158,189   100%                0      0%          0          0%          0          0%              0      0%          0       0%

        UT                 Population        15,518        15,035    97%            18         0%         62          0%         77          0%              0      0%        326       2%
        Summit County      Borrowers             26            26   100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms                419           419   100%             0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    373,582       373,582   100%             0         0%          0          0%          0          0%              0      0%          0       0%

        UT                 Population        26,601        22,865    86%           224         1%        354          1%        184          1%         14          0%      2,960       11%
        Tooele County      Borrowers              6             6   100%             0         0%          0          0%          0          0%          0          0%          0        0%
                           Farms                300           293    98%             0         0%          0          0%          0          0%          3          1%          4        1%
                           Land in Farms    437,238       436,208   100%             0         0%          0          0%          0          0%        505          0%        525        0%

        UT                 Population         22,211       19,178    86%                9      0%      2,238         10%         80          0%         15          0%        691       3%
        Uintah County      Borrowers             134          127    95%                0      0%          1          1%          2          1%          0          0%          4       3%
                           Farms                 716          689    96%                0      0%         21          3%          0          0%          0          0%          6       1%
                           Land in Farms   1,294,703    1,289,194   100%                0      0%          0          0%          0          0%          0          0%      5,509       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                               Page 1657
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American              Asian                  Other                 Hispanic
                                             Total        Number     Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        UT                  Population       263,590       249,056    94%           359         0%      1,758      1%      3,864          1%         65          0%      8,488       3%
        Utah County         Borrowers             11            11   100%             0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms              1,696         1,692   100%             0         0%          0      0%          4          0%          0          0%          0       0%
                            Land in Farms    450,315       450,315   100%             0         0%          0      0%          0          0%          0          0%          0       0%

        UT                  Population        10,089         9,752    97%                3      0%         62      1%         18          0%              1      0%        253       3%
        Wasatch County      Borrowers             29            29   100%                0      0%          0      0%          0          0%              0      0%          0       0%
                            Farms                274           274   100%                0      0%          0      0%          0          0%              0      0%          0       0%
                            Land in Farms    139,347       139,347   100%                0      0%          0      0%          0          0%              0      0%          0       0%

        UT                  Population        48,560        46,665    96%            63         0%        678      1%        276          1%         16          0%        862       2%
        Washington County   Borrowers             16            16   100%             0         0%          0      0%          0          0%          0          0%          0       0%
                            Farms                389           389   100%             0         0%          0      0%          0          0%          0          0%          0       0%
                            Land in Farms    167,374       167,374   100%             0         0%          0      0%          0          0%          0          0%          0       0%

        UT                  Population         2,177         2,109    97%                1      0%         40      2%              2      0%              0      0%         25       1%
        Wayne County        Borrowers             49            49   100%                0      0%          0      0%              0      0%              0      0%          0       0%
                            Farms                189           189   100%                0      0%          0      0%              0      0%              0      0%          0       0%
                            Land in Farms    105,576       105,576   100%                0      0%          0      0%              0      0%              0      0%          0       0%

        UT                  Population       158,330       141,684     89%        2,314         1%        955      1%      2,221          1%        114          0%     11,042       7%
        Weber County        Borrowers             13            12     92%            0         0%          0      0%          1          8%          0          0%          0       0%
                            Farms                945           928     98%            0         0%          0      0%          5          1%          3          0%          9       1%
                            Land in Farms    256,522       253,503     99%            0         0%          0      0%        143          0%         48          0%      2,828       1%

        UT                  Population      1,722,850    1,571,254    91%        10,868         1%     22,748      1%     32,490          2%        893          0%     84,597       5%
        STATE               Borrowers           1,312        1,285    98%             1         0%          4      0%          7          1%          5          0%         10       1%
                            Farms              13,520       13,360    99%             0         0%         33      0%         63          0%          9          0%         55       0%
                            Land in Farms   9,624,463    9,595,425   100%             0         0%     13,232      0%      4,417          0%        553          0%     10,836       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                           Page 1658
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                    BEAVER, UTAH                               BOX ELDER, UTAH                                        CACHE, UTAH
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        62                        24                     77                       24                      58                       13
                              Loans                           130                        39                    146                       50                     101                       26
                              Principal and Interest   11,114,369                 1,128,593              9,527,719                  840,714               4,902,634                  113,466
WHITE                         Borrowers                        59        95%             24    100%             75        97%            23      96%             58       100%            13     100%
                              Loans                           127        98%             39    100%            144        99%            49      98%            101       100%            26     100%
                              Principal and Interest   11,091,105       100%      1,128,593    100%      9,093,886        95%       798,909      95%      4,902,634       100%       113,466     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                         1          2%              0      0%            2           3%             1       4%                 0      0%              0      0%
                              Loans                             1          1%              0      0%            2           1%             1       2%                 0      0%              0      0%
                              Principal and Interest        1,256          0%              0      0%      433,833           5%        41,805       5%                 0      0%              0      0%
OTHER                         Borrowers                         2          3%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             2          2%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       22,007          0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1659
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                               CARBON, UTAH                                    DAGGETT, UTAH                                         DAVIS, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      10                          3                    14                          1                     2                           0
                              Loans                          14                          4                    16                          1                     2                           0
                              Principal and Interest    526,038                      4,085               525,608                        187               121,167                           0
WHITE                         Borrowers                      10        100%              3    100%            14        100%              1    100%              1        50%               0      0%
                              Loans                          14        100%              4    100%            16        100%              1    100%              1        50%               0      0%
                              Principal and Interest    526,038        100%          4,085    100%       525,608        100%            187    100%          5,275         4%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%            1         50%               0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%            1         50%               0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      115,892         96%               0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1660
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DUCHESNE, UTAH                                         EMERY, UTAH                                 GARFIELD, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      197                       27                      55                         5                     73                       24
                              Loans                          248                       37                     107                         8                    175                       60
                              Principal and Interest   7,751,964                  221,782               3,954,339                    16,235              9,961,734                  490,277
WHITE                         Borrowers                      194         98%           27     100%             54        98%              5    100%             73       100%            24     100%
                              Loans                          243         98%           37     100%            104        97%              8    100%            175       100%            60     100%
                              Principal and Interest   6,605,640         85%      221,782     100%      3,846,057        97%         16,235    100%      9,961,734       100%       490,277     100%
AFRICAN AMERICAN              Borrowers                        1          1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       2,975          0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       1           1%              0      0%            1           2%              0      0%                 0      0%              0      0%
                              Loans                           3           1%              0      0%            3           3%              0      0%                 0      0%              0      0%
                              Principal and Interest    188,919           2%              0      0%      108,282           3%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                       1           1%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           1           0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    954,429          12%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1661
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              GRAND,W, UTAH                                             IRON, UTAH                                    JUAB, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       6                          3                     33                          6                     20                         3
                              Loans                          13                          9                     61                         17                     29                         3
                              Principal and Interest    690,684                     14,399              4,186,194                     80,345              2,181,331                    13,528

WHITE                         Borrowers                       6        100%              3    100%             31         94%              6    100%             20       100%              3    100%
                              Loans                          13        100%              9    100%             56         92%             17    100%             29       100%              3    100%
                              Principal and Interest    690,684        100%         14,399    100%      3,944,620         94%         80,345    100%      2,181,331       100%         13,528    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%             1           3%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             1           2%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%        17,296           0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 1       3%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 4       7%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%      224,278            5%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1662
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   KANE, UTAH                                    MILLARD, UTAH                                    MORGAN, UTAH
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                         4                      89                       22                      6                          1
                              Loans                           38                         8                     155                       41                     11                          2
                              Principal and Interest   1,967,376                    42,085              11,860,656                  494,918                962,244                      7,272

WHITE                         Borrowers                       13       100%              4    100%              88        99%            22     100%             6        100%              1    100%
                              Loans                           38       100%              8    100%             152        98%            41     100%            11        100%              2    100%
                              Principal and Interest   1,967,376       100%         42,085    100%      11,622,413        98%       494,918     100%       962,244        100%          7,272    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  1      1%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  3      2%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%       238,242           2%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1663
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   PIUTE, UTAH                                          RICH, UTAH                              SALT LAKE, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       64                       24                     20                           1                      1                          0
                              Loans                          120                       32                     31                           1                      2                          0
                              Principal and Interest   7,043,047                  229,110                995,610                         673                 58,552                          0
WHITE                         Borrowers                       64       100%            24     100%            20         100%              1    100%              1       100%               0      0%
                              Loans                          120       100%            32     100%            31         100%              1    100%              2       100%               0      0%
                              Principal and Interest   7,043,047       100%       229,110     100%       995,610         100%            673    100%         58,552       100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0       0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                       Page 1664
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              SAN JUAN, UTAH                                     SANPETE, UTAH                                         SEVIER, UTAH
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       55                        22                      97                       19                       76                       24
                              Loans                           93                        30                     245                       47                      160                       54
                              Principal and Interest   4,090,070                    74,966              11,792,014                  387,290               10,824,229                  357,510

WHITE                         Borrowers                       52         95%            19      86%             97       100%            19     100%              73        96%            23      96%
                              Loans                           89         96%            26      87%            245       100%            47     100%             155        97%            53      98%
                              Principal and Interest   3,746,421         92%        49,648      66%     11,792,014       100%       387,290     100%      10,224,081        94%       348,292      97%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            1      2%              1      5%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                            1          1%             1       3%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest       9,455          0%         1,851       2%                  0      0%              0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%              1          1%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%              1          1%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%         90,621          1%              0      0%

HISPANIC                      Borrowers                            2      4%              2      9%                  0      0%              0      0%                  2      3%              1      4%
                              Loans                                3      3%              3     10%                  0      0%              0      0%                  4      3%              1      2%
                              Prinicpal and Interest    334,195           8%        23,467      31%                  0      0%              0      0%       509,527           5%         9,218       3%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                        Page 1665
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   SUMMIT, UTAH                                     TOOELE, UTAH                                     UINTAH, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                         5                     6                          1                    134                        16
                              Loans                           36                         9                     9                          3                    236                        21
                              Principal and Interest   1,684,921                    57,928               786,940                     44,175              7,916,256                    37,558
WHITE                         Borrowers                       26       100%              5    100%             6        100%              1    100%            127        95%             14     88%
                              Loans                           36       100%              9    100%             9        100%              3    100%            217        92%             18     86%
                              Principal and Interest   1,684,921       100%         57,928    100%       786,940        100%         44,175    100%      6,410,355        81%         36,088     96%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%            1           1%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%            4           2%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      315,529           4%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%            2           1%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%            6           3%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      711,524           9%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%            4           3%             2     13%
                              Loans                                0      0%              0      0%                 0      0%              0      0%            9           4%             3     14%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%      478,848           6%         1,470      4%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1666
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   UTAH, UTAH                                  WASATCH, UTAH                                WASHINGTON, UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      11                          1                     29                         2                     16                         7
                              Loans                          16                          1                     33                         3                     35                        13
                              Principal and Interest    588,129                        734              1,189,412                     4,555              1,370,744                    84,233

WHITE                         Borrowers                      11        100%              1    100%             29       100%              2    100%             16       100%              7    100%
                              Loans                          16        100%              1    100%             33       100%              3    100%             35       100%             13    100%
                              Principal and Interest    588,129        100%            734    100%      1,189,412       100%          4,555    100%      1,370,744       100%         84,233    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1667
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   WAYNE, UTAH                                      WEBER, UTAH                                    STATE OF UTAH
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent     Portfolio   Percent   Delinquent   Percent
TOTAL                         Borrowers                       49                       16                      13                        7                     1,312                   305
                              Loans                           87                       28                      17                        7                     2,366                   554
                              Principal and Interest   8,021,072                  378,032               1,805,557                  141,102               128,400,610             5,265,752
WHITE                         Borrowers                       49       100%            16     100%             12        92%             6      86%            1,285    98%            297     97%
                              Loans                           87       100%            28     100%             16        94%             6      86%            2,315    98%            544     98%
                              Principal and Interest   8,021,072       100%       378,032     100%      1,761,799        98%       137,707      98%      123,599,742    96%      5,184,546     98%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%               1      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               1      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%           2,975      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%              4       0%             1       0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             11       0%             1       0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%        622,185       0%         1,851       0%
ASIAN                         Borrowers                            0      0%              0      0%             1          8%             1     14%                7      1%             2       1%
                              Loans                                0      0%              0      0%             1          6%             1     14%               11      0%             2       0%
                              Principal and Interest               0      0%              0      0%        43,758          2%         3,395      2%        1,306,263      1%        45,200       1%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%               5      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               5      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       1,084,353      1%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%              10      1%             5       2%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              23      1%             7       1%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%       1,785,090      1%        34,155       1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1668
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  UT BEAVER                Approved   No. of Applications                2        2      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                       0                        0                   0                0                0
                                      Completion to Approval                      4                        0                   0                0                0
                                      Approval to Loan Closing                   14                        0                   0                0                0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       0                        0                   0                0               0
                                      Completion to Rejected                     28                        0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         3                     0                   0                0               0

 UT    BOX ELDER           Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      27                        0                   0                0               0
                                      Completion to Approval                     51                        0                   0                0               0
                                      Approval to Loan Closing                   17                        0                   0                0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                0               0
                                      Completion to Rejected                     18                        0                   0                0               0

                           Withdrawn No. of Applications                 5           5   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 UT    CACHE               Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       6                        0                   0                0               0
                                      Completion to Approval                      9                        0                   0                0               0
                                      Approval to Loan Closing                   20                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1669
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  UT DUCHESNE              Approved   No. of Applications             23        23   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     12                     0                   0                0                0
                                      Completion to Approval                    17                     0                   0                0                0
                                      Approval to Loan Closing                   5                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 UT    GARFIELD            Approved   No. of Applications            10        10    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     8                      0                   0                0               0
                                      Completion to Approval                   14                      0                   0                0               0
                                      Approval to Loan Closing                 25                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 UT    IRON                Approved   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     5                      0                   0                0               0
                                      Completion to Approval                    4                      0                   0                0               0
                                      Approval to Loan Closing                 10                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      3                      0                   0                0               0
                                     Completion to Withdrawn                   10                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1670
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  UT JUAB                  Approved   No. of Applications                1           1   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                          0                     0                   0                0                0
                                      Completion to Approval                         0                     0                   0                0                0
                                      Approval to Loan Closing                       0                     0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 UT    SALT LAKE           Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     112                        0                   0                0               0
                                      Completion to Approval                     16                        0                   0                0               0
                                      Approval to Loan Closing                   33                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

 UT    SAN JUAN - GRAND    Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      40                        0                   0                0               0
                                      Completion to Approval                      0                        0                   0                0               0
                                      Approval to Loan Closing                   16                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1671
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  UT SAN PETE              Approved   No. of Applications             12        12   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     12                     0                   0                0                0
                                      Completion to Approval                    18                     0                   0                0                0
                                      Approval to Loan Closing                  12                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 UT    SEVIER              Approved   No. of Applications            33        33    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    34                      0                   0                0               0
                                      Completion to Approval                   15                      0                   0                0               0
                                      Approval to Loan Closing                 50                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     29                      0                   0                0               0
                                     Completion to Withdrawn                   49                      0                   0                0               0

 UT    UINTAH              Approved   No. of Applications            59        55    93%               0   0%          1       2%        3      5%          0      0%
                                      Receipt to Completion                     7                      0               7                 9                  0
                                      Completion to Approval                    4                      0              22                 0                  0
                                      Approval to Loan Closing                 14                      0               0                13                  0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1672
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  UT UTAH                  Approved   No. of Applications             10        10   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      3                     0                   0                0                0
                                      Completion to Approval                     4                     0                   0                0                0
                                      Approval to Loan Closing                  33                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 UT    WASHINGTON          Approved   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     6                      0                   0                0               0
                                      Completion to Approval                   40                      0                   0                0               0
                                      Approval to Loan Closing                  6                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

 UT    WAYNE               Approved   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    15                      0                   0                0               0
                                      Completion to Approval                   30                      0                   0                0               0
                                      Approval to Loan Closing                 29                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1673
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State  Servicing Office   Decision           Average Days       Total    White            American            American            Asian            Hispanic
  UT STATE                 Approved   No. of Applications           184      180    98%               0   0%          1       1%        3      2%           0     0%
                                      Receipt to Completion                    14                     0               7                 9                   0
                                      Completion to Approval                   13                     0              22                 0                   0
                                      Approval to Loan Closing                 21                     0               0                13                   0

                           Rejected   No. of Applications            3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                   14                      0                   0                0               0
                                      Completion to Rejected                  21                      0                   0                0               0

                           Withdrawn No. of Applications             17       17    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     8                      0                   0                0               0
                                     Completion to Withdrawn                  14                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                Page 1674
                            Demographics         1676
                        FSA’s Loan Portfolio     1678
                        FSA’s Application data   1683




USDA/OIG-A/50801-4-Hq                                   1675
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American           Asian              Other                 Hispanic
                                             Total       Number     Percent    Number    Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         VT                  Population       32,953       32,336     98%          126      0%         76      0%        191      1%         16          0%        208       1%
         Addison County      Borrowers            93           91     98%            0      0%          2      2%          0      0%          0          0%          0       0%
                             Farms               683          679     99%            0      0%          0      0%          0      0%          0          0%          4       1%
                             Land in Farms   209,677      208,465     99%            0      0%          0      0%          0      0%          0          0%      1,212       1%

         VT                  Population       35,845       35,276    98%           114      0%         51      0%        179      0%              5      0%        220       1%
         Bennington County   Borrowers             2            1    50%             0      0%          0      0%          0      0%              1     50%          0       0%
                             Farms               154          154   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    33,682       33,682   100%             0      0%          0      0%          0      0%              0      0%          0       0%

         VT                  Population       27,846       27,535    99%            52      0%         95      0%         68      0%              6      0%         90       0%
         Caledonia County    Borrowers            28           27    96%             0      0%          1      4%          0      0%              0      0%          0       0%
                             Farms               430          430   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    96,704       96,704   100%             0      0%          0      0%          0      0%              0      0%          0       0%

         VT                  Population      131,761      127,989    97%           783      1%        281      0%      1,442      1%         87          0%      1,179       1%
         Chittenden County   Borrowers            14           14   100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               405          405   100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    82,849       82,849   100%             0      0%          0      0%          0      0%          0          0%          0       0%

         VT                  Population        6,405        6,331    99%            13      0%         18      0%         11      0%              2      0%         30       0%
         Essex County        Borrowers            10           10   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms                74           74   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    17,710       17,710   100%             0      0%          0      0%          0      0%              0      0%          0       0%

         VT                  Population       39,980       39,097     98%           58      0%        583      1%         96      0%         10          0%        136       0%
         Franklin County     Borrowers            98           89     91%            0      0%          9      9%          0      0%          0          0%          0       0%
                             Farms               728          723     99%            0      0%          0      0%          0      0%          0          0%          5       1%
                             Land in Farms   203,503      202,210     99%            0      0%          0      0%          0      0%          0          0%      1,293       1%

         VT                  Population        5,318        5,249    99%            15      0%         23      0%         10      0%              1      0%         20       0%
         Grand Isle County   Borrowers            19           19   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Farms               108          108   100%             0      0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    24,848       24,848   100%             0      0%          0      0%          0      0%              0      0%          0       0%

         VT                  Population       19,735       19,493    99%            27      0%         45      0%         68      0%         13          0%         89       0%
         Lamoille County     Borrowers            20           20   100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Farms               227          227   100%             0      0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    41,348       41,348   100%             0      0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1676
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American            Asian              Other                 Hispanic
                                               Total       Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         VT                  Population         26,149       25,855    99%            45       0%         65      0%         68      0%         13          0%        103       0%
         Orange County       Borrowers              26           25    96%             0       0%          1      4%          0      0%          0          0%          0       0%
                             Farms                 480          480   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms      93,364       93,364   100%             0       0%          0      0%          0      0%          0          0%          0       0%

         VT                  Population        24,053        23,802    99%            48       0%         56      0%         50      0%              5      0%         92       0%
         Orleans County      Borrowers             58            58   100%             0       0%          0      0%          0      0%              0      0%          0       0%
                             Farms                549           549   100%             0       0%          0      0%          0      0%              0      0%          0       0%
                             Land in Farms    149,503       149,503   100%             0       0%          0      0%          0      0%              0      0%          0       0%

         VT                  Population        62,142        61,428    99%           145       0%         68      0%        210      0%         18          0%        273       0%
         Rutland County      Borrowers             18            18   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Farms                493           493   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms    132,674       132,674   100%             0       0%          0      0%          0      0%          0          0%          0       0%

         VT                  Population         54,928       53,758    98%           165       0%        100      0%        231      0%         11          0%        663       1%
         Washington County   Borrowers              14           14   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Farms                 330          325    98%             0       0%          0      0%          0      0%          0          0%          5       2%
                             Land in Farms      58,891       58,330    99%             0       0%          0      0%          0      0%          0          0%        561       1%

         VT                  Population         41,588       40,788    98%           150       0%         68      0%        259      1%         20          0%        303       1%
         Windham County      Borrowers               7            7   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Farms                 270          270   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms      43,987       43,987   100%             0       0%          0      0%          0      0%          0          0%          0       0%

         VT                  Population         54,055       53,247    99%           127       0%        122      0%        276      1%         28          0%        255       0%
         Windsor County      Borrowers              10           10   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Farms                 505          505   100%             0       0%          0      0%          0      0%          0          0%          0       0%
                             Land in Farms      89,785       89,785   100%             0       0%          0      0%          0      0%          0          0%          0       0%

         VT                  Population        562,758      552,184    98%          1,868      0%      1,651      0%      3,159      1%        235          0%      3,661       1%
         STATE               Borrowers             417          403    97%              0      0%         13      3%          0      0%          1          0%          0       0%
                             Farms               5,436        5,422   100%              0      0%          0      0%          0      0%          0          0%         14       0%
                             Land in Farms   1,278,525    1,275,459   100%              0      0%          0      0%          0      0%          0          0%      3,066       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1677
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ADDISON, VERMONT                              BENNINGTON, VERMONT                               CALEDONIA, VERMONT
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        93                        26                     2                          1                     28                        7
                              Loans                           339                       100                     3                          2                    112                       38
                              Principal and Interest   18,374,836                 1,144,465               138,307                     30,587              3,882,693                  230,413
WHITE                         Borrowers                        91         98%        26        100%              1         50%             1    100%             27         96%            7     100%
                              Loans                           335         99%       100        100%              2         67%             2    100%            108         96%           38     100%
                              Principal and Interest   17,960,317         98% 1,144,465        100%         68,474         50%        30,587    100%      3,766,140         97%      230,413     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                        2           2%              0      0%                 0      0%              0      0%            1           4%              0      0%
                              Loans                            4           1%              0      0%                 0      0%              0      0%            4           4%              0      0%
                              Principal and Interest     414,519           2%              0      0%                 0      0%              0      0%      116,553           3%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%             1         50%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             1         33%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%        69,833         50%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1678
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CHITTENDEN, VERMONT                                  ESSEX, N, VERMONT                             FRANKLIN, PT, VERMONT
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                        6                      10                          0                     98                        19
                              Loans                           33                       10                      29                          0                    249                        49
                              Principal and Interest   1,647,034                   31,724               1,269,136                          0             17,414,561                 1,213,780
WHITE                         Borrowers                       14       100%             6     100%             10       100%               0      0%             89         91%        17          89%
                              Loans                           33       100%            10     100%             29       100%               0      0%            226         91%        45          92%
                              Principal and Interest   1,647,034       100%        31,724     100%      1,269,136       100%               0      0%     15,493,686         89% 1,149,185          95%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%              9          9%            2       11%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             23          9%            4        8%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      1,920,875         11%       64,595        5%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1679
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GRAND ISLE, PT, VERMONT                             LAMOILLE, VERMONT                                  ORANGE, VERMONT
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                         7                      20                       10                      26                        5
                              Loans                           52                        23                      56                       23                      74                       11
                              Principal and Interest   3,199,470                   242,928               2,860,341                  180,687               3,364,996                   93,226
WHITE                         Borrowers                       19        100%             7     100%             20       100%            10     100%             25         96%            5     100%
                              Loans                           52        100%            23     100%             56       100%            23     100%             72         97%           11     100%
                              Principal and Interest   3,199,470        100%       242,928     100%      2,860,341       100%       180,687     100%      3,148,052         94%       93,226     100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%            1           4%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%            2           3%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%      216,944           6%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1680
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          ORLEANS, VERMONT                                 RUTLAND, VERMONT                              WASHINGTON, VERMONT
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       58                        3                      18                        3                      14                        1
                              Loans                          175                       15                      55                        9                      40                        2
                              Principal and Interest   4,879,271                  175,848               1,898,148                  108,172               1,708,996                  110,656

WHITE                         Borrowers                       58       100%             3     100%             18       100%             3     100%             14       100%             1     100%
                              Loans                          175       100%            15     100%             55       100%             9     100%             40       100%             2     100%
                              Principal and Interest   4,879,271       100%       175,848     100%      1,898,148       100%       108,172     100%      1,708,996       100%       110,656     100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1681
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         WINDHAM, VERMONT                                  WINDSOR, VERMONT                                  STATE OF VERMONT
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       7                          2                     10                        4                      417                        94
                              Loans                          19                          4                     26                       14                    1,262                       300
                              Principal and Interest    652,386                      5,076              1,592,097                  193,003               62,882,272                 3,760,565

WHITE                         Borrowers                       7        100%              2    100%             10       100%             4     100%             403         97%        92          98%
                              Loans                          19        100%              4    100%             26       100%            14     100%           1,228         97%       296          99%
                              Principal and Interest    652,386        100%          5,076    100%      1,592,097       100%       193,003     100%      60,143,548         96% 3,695,970          98%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%              13         3%              2      2%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             33          3%            4        1%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%      2,668,891          4%       64,595        2%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%              1          0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              1          0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         69,833          0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1682
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
  VT ADDISON               Approved   No. of Applications                2        1      50%               0   0%          1       50%           0   0%           0     0%
                                      Receipt to Completion                      33                        0              35                     0                0
                                      Completion to Approval                     63                        0              72                     0                0
                                      Approval to Loan Closing                    0                        0               0                     0                0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      41                        0                   0                 0               0
                                      Completion to Rejected                      0                        0                   0                 0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0

  VT   FRANKLIN            Approved   No. of Applications            10              5   50%               0   0%          5       50%           0   0%          0      0%
                                      Receipt to Completion                          2                     0              12                     0               0
                                      Completion to Approval                         0                     0              32                     0               0
                                      Approval to Loan Closing                       4                     0              28                     0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      12                        0                   0                 0               0
                                      Completion to Rejected                      8                        0                   0                 0               0

                           Withdrawn No. of Applications                 6        6      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                       10                        0                   0                 0               0
                                     Completion to Withdrawn                     13                        0                   0                 0               0

  VT   ORLEANS             Approved   No. of Applications            10          10      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      21                        0                   0                 0               0
                                      Completion to Approval                      2                        0                   0                 0               0
                                      Approval to Loan Closing                   58                        0                   0                 0               0

                           Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                      Receipt to Completion                      18                        0                   0                 0               0
                                      Completion to Rejected                     11                        0                   0                 0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                 0               0
                                     Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1683
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African              Native
 State  Servicing Office   Decision           Average Days       Total     White          American             American             Asian            Hispanic
  VT WINDSOR               Approved   No. of Applications             10        6   60%          3       30%              0   0%            0   0%           1    10%
                                      Receipt to Completion                    26               57                        0                 0              57
                                      Completion to Approval                   10               25                        0                 0                0
                                      Approval to Loan Closing                 47               42                        0                 0              34

                           Rejected   No. of Applications             2         1   50%          1       50%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    69               18                        0                 0               0
                                      Completion to Rejected                    0                0                        0                 0               0

                           Withdrawn No. of Applications             13         9   69%              3   23%              1   8%            0   0%          0      0%
                                     Receipt to Completion                     29                    3                    0                 0               0
                                     Completion to Withdrawn                   20                    0                    0                 0               0

  VT   STATE               Approved   No. of Applications            32        22   69%          3       9%           6       19%           0   0%          1      3%
                                      Receipt to Completion                    19               57                   16                     0              57
                                      Completion to Approval                    7               25                   39                     0               0
                                      Approval to Loan Closing                 40               42                   23                     0              34

                           Rejected   No. of Applications             5         4   80%          1       20%              0   0%            0   0%          0      0%
                                      Receipt to Completion                    35               18                        0                 0               0
                                      Completion to Rejected                    5                0                        0                 0               0

                           Withdrawn No. of Applications             21        17   81%              3   14%              1   5%            0   0%          0      0%
                                     Receipt to Completion                     19                    3                    0                 0               0
                                     Completion to Withdrawn                   15                    0                    0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1684
                            Demographics         1686
                        FSA’s Loan Portfolio     1704
                        FSA’s Application data   1736




USDA/OIG-A/50801-4-Hq                                   1685
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian                 Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
     VA                    Population       31,703        20,315      64%        10,834     34%         35      0%         63          0%              4      0%        452       1%
     Accomack County       Borrowers            19            14      74%             5     26%          0      0%          0          0%              0      0%          0       0%
                           Farms               279           263      94%            16      6%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    91,568        88,413      97%         3,155      3%          0      0%          0          0%              0      0%          0       0%

     VA                    Population       68,040        58,700     86%          6,799     10%         72      0%      1,623          2%         60          0%        786       1%
     Albemarle County      Borrowers             3             3    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               757           746     99%              8      1%          0      0%          0          0%          0          0%          3       0%
                           Land in Farms   188,567       187,810    100%              0      0%          0      0%          0          0%          0          0%        757       0%

     VA                    Population       13,176        12,741     97%           328       2%         13      0%         40          0%              0      0%         54       0%
     Alleghany County      Borrowers             1             1    100%             0       0%          0      0%          0          0%              0      0%          0       0%
                           Farms               150           150    100%             0       0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    25,810        25,810    100%             0       0%          0      0%          0          0%              0      0%          0       0%

     VA                    Population        8,787         5,905     67%          2,809     32%         14      0%         13          0%              1      0%         45       1%
     Amelia County         Borrowers            23            19     83%              4     17%          0      0%          0          0%              0      0%          0       0%
                           Farms               292           267     91%             25      9%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    70,411        70,411    100%              0      0%          0      0%          0          0%              0      0%          0       0%

     VA                    Population       28,578        22,421     78%          5,720     20%        128      0%         72          0%              6      0%        231       1%
     Amherst County        Borrowers             5             4     80%              1     20%          0      0%          0          0%              0      0%          0       0%
                           Farms               418           405     97%             13      3%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    90,296        90,296    100%              0      0%          0      0%          0          0%              0      0%          0       0%

     VA                    Population       12,298         9,439      77%         2,810     23%         11      0%              6      0%              2      0%         30       0%
     Appomattox County     Borrowers             9             8      89%             1     11%          0      0%              0      0%              0      0%          0       0%
                           Farms               351           341      97%            10      3%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    78,691        77,632      99%         1,059      1%          0      0%              0      0%              0      0%          0       0%

     VA                    Population      170,936       118,728     69%         17,225     10%        465      0%     11,161          7%        268          0%     23,089       14%
     Arlington County      Borrowers             0             0      0%              0      0%          0      0%          0          0%          0          0%          0        0%
                           Farms                 2             2    100%              0      0%          0      0%          0          0%          0          0%          0        0%
                           Land in Farms         0             0      0%              0      0%          0      0%          0          0%          0          0%          0        0%

     VA                    Population       54,677        52,259     96%          1,998      4%         46      0%        130          0%              5      0%        239       0%
     Augusta County        Borrowers            55            55    100%              0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms             1,514         1,507    100%              7      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   287,442       287,442    100%              0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1686
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                 Asian                 Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
     VA                    Population        4,799         4,515     94%           247       5%              2      0%              8      0%              4      0%         23       0%
     Bath County           Borrowers             1             1    100%             0       0%              0      0%              0      0%              0      0%          0       0%
                           Farms               119           119    100%             0       0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    47,010        47,010    100%             0       0%              0      0%              0      0%              0      0%          0       0%

     VA                    Population       45,656        41,721      91%         3,584      8%         59          0%        114          0%              1      0%        177       0%
     Bedford County        Borrowers            28            27      96%             1      4%          0          0%          0          0%              0      0%          0       0%
                           Farms             1,227         1,206      98%            21      2%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms   200,507       196,074      98%         4,433      2%          0          0%          0          0%              0      0%          0       0%

     VA                    Population        6,514         6,250     96%           229       4%              3      0%              8      0%              0      0%         24       0%
     Bland County          Borrowers             2             2    100%             0       0%              0      0%              0      0%              0      0%          0       0%
                           Farms               339           336     99%             3       1%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    81,768        81,382    100%           386       0%              0      0%              0      0%              0      0%          0       0%

     VA                    Population       24,992        23,647     95%          1,114      4%         15          0%         71          0%              2      0%        143       1%
     Botetourt County      Borrowers             2             2    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               512           512    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    96,833        96,833    100%              0      0%          0          0%          0          0%              0      0%          0       0%

     VA                    Population       15,987         6,594      41%         9,321     58%              9      0%         12          0%              4      0%         47       0%
     Brunswick County      Borrowers            46            37      80%             9     20%              0      0%          0          0%              0      0%          0       0%
                           Farms               338           292      86%            46     14%              0      0%          0          0%              0      0%          0       0%
                           Land in Farms    84,677        80,724      95%         3,953      5%              0      0%          0          0%              0      0%          0       0%

     VA                    Population       31,333        30,954     99%            55       0%         26          0%         37          0%              4     0%         257       1%
     Buchanan County       Borrowers             1             0      0%             0       0%          0          0%          0          0%              1   100%           0       0%
                           Farms               102           102    100%             0       0%          0          0%          0          0%              0     0%           0       0%
                           Land in Farms     8,627         8,627    100%             0       0%          0          0%          0          0%              0     0%           0       0%

     VA                    Population       12,873         7,551      59%         5,237     41%         17          0%         27          0%              3      0%         38       0%
     Buckingham County     Borrowers            13            12      92%             1      8%          0          0%          0          0%              0      0%          0       0%
                           Farms               335           323      96%            12      4%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    66,034        64,366      97%         1,668      3%          0          0%          0          0%              0      0%          0       0%

     VA                    Population       47,572        40,290      85%         6,857     14%         40          0%        162          0%              7      0%        216       0%
     Campbell County       Borrowers            25            22      88%             3     12%          0          0%          0          0%              0      0%          0       0%
                           Farms               612           581      95%            26      4%          0          0%          0          0%              0      0%          5       1%
                           Land in Farms   134,474       131,065      97%         2,569      2%          0          0%          0          0%              0      0%        840       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1687
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                   Asian                 Other                 Hispanic
                                           Total         Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
     VA                    Population       19,217        11,631     61%          7,230       38%        202          1%         48          0%              6      0%        100          1%
     Caroline County       Borrowers             7             6     86%              0        0%          0          0%          0          0%              1     14%          0          0%
                           Farms               181           173     96%              8        4%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    51,604        51,604    100%              0        0%          0          0%          0          0%              0      0%          0          0%

     VA                    Population       26,594        26,286     99%           109         0%         22          0%         26          0%              0      0%        151          1%
     Carroll County        Borrowers            29            29    100%             0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               884           875     99%             3         0%          0          0%          0          0%              0      0%          6          1%
                           Land in Farms   113,165       111,288     98%           700         1%          0          0%          0          0%              0      0%      1,177          1%

     VA                    Population        6,282         1,794     29%          3,962       63%        487          8%         10          0%              5      0%         24          0%
     Charles City County   Borrowers             5             4     80%              1       20%          0          0%          0          0%              0      0%          0          0%
                           Farms                66            63     95%              3        5%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    28,827        28,713    100%            114        0%          0          0%          0          0%              0      0%          0          0%

     VA                    Population       11,688         7,372     63%          4,258       36%         18          0%              4      0%              3      0%         33          0%
     Charlotte County      Borrowers            16            14     88%              2       13%          0          0%              0      0%              0      0%          0          0%
                           Farms               451           411     91%             40        9%          0          0%              0      0%              0      0%          0          0%
                           Land in Farms   112,944       112,944    100%              0        0%          0          0%              0      0%              0      0%          0          0%

     VA                    Population      209,274       175,516     84%         27,024       13%        464          0%      3,668          2%         91          0%      2,511          1%
     Chesterfield County   Borrowers             6             6    100%              0        0%          0          0%          0          0%          0          0%          0          0%
                           Farms               145           136     94%              9        6%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    17,392        17,392    100%              0        0%          0          0%          0          0%          0          0%          0          0%

     VA                    Population       12,101        10,916     90%          1,052        9%         14          0%         30          0%              7      0%         82          1%
     Clarke County         Borrowers            18            17     94%              1        6%          0          0%          0          0%              0      0%          0          0%
                           Farms               319           312     98%              3        1%          0          0%          0          0%              0      0%          4          1%
                           Land in Farms    68,326        67,993    100%            213        0%          0          0%          0          0%              0      0%        120          0%

     VA                    Population        4,372         4,350     99%                8      0%              5      0%              4      0%              0      0%              5      0%
     Craig County          Borrowers             2             2    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms               170           170    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    45,451        45,451    100%                0      0%              0      0%              0      0%              0      0%              0      0%

     VA                    Population       27,791        22,452     81%          4,764       17%         86          0%        289          1%              8      0%        192          1%
     Culpeper County       Borrowers            12            12    100%              0        0%          0          0%          0          0%              0      0%          0          0%
                           Farms               471           449     95%             19        4%          0          0%          0          0%              0      0%          3          1%
                           Land in Farms   115,295       113,600     99%          1,447        1%          0          0%          0          0%              0      0%        248          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1688
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                 Asian                 Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
     VA                    Population        7,825         4,738      61%         3,023     39%              8      0%              9      0%              2      0%         45       1%
     Cumberland County     Borrowers            14            13      93%             1      7%              0      0%              0      0%              0      0%          0       0%
                           Farms               237           222      94%            15      6%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    61,669        60,239      98%         1,430      2%              0      0%              0      0%              0      0%          0       0%

     VA                    Population       17,620        17,467     99%            68       0%         13          0%         14          0%              0      0%         58       0%
     Dickenson County      Borrowers             1             1    100%             0       0%          0          0%          0          0%              0      0%          0       0%
                           Farms               104           104    100%             0       0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms         0             0      0%             0       0%          0          0%          0          0%              0      0%          0       0%

     VA                    Population       20,960        13,293      63%         7,454     36%         28          0%         60          0%              3      0%        122       1%
     Dinwiddie County      Borrowers            24            15      63%             9     38%          0          0%          0          0%              0      0%          0       0%
                           Farms               344           311      90%            33     10%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    85,954        81,555      95%         4,399      5%          0          0%          0          0%              0      0%          0       0%

     VA                    Population        8,689         5,311     61%          3,259     38%         46          1%         40          0%              3      0%         30       0%
     Essex County          Borrowers             9             9    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               120           112     93%              8      7%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    56,280        56,280    100%              0      0%          0          0%          0          0%              0      0%          0       0%

     VA                    Population      818,584       633,935     77%         61,964      8%      1,838          0%     68,140          8%        833          0%     51,874       6%
     Fairfax County        Borrowers             1             1    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               151           151    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    15,714        15,714    100%              0      0%          0          0%          0          0%          0          0%          0       0%

     VA                    Population       48,741        42,291     87%          5,425     11%        109          0%        289          1%         25          0%        602       1%
     Fauquier County       Borrowers            13            13    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                           Farms               925           904     98%             17      2%          0          0%          0          0%          0          0%          4       0%
                           Land in Farms   235,533       233,079     99%          2,328      1%          0          0%          0          0%          0          0%        126       0%

     VA                    Population       12,005        11,616     97%            292      2%         16          0%         21          0%              1      0%         59       0%
     Floyd County          Borrowers             7             7    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               761           743     98%             15      2%          0          0%          0          0%              0      0%          3       0%
                           Land in Farms   116,509       114,288     98%          1,751      2%          0          0%          0          0%              0      0%        470       0%

     VA                    Population       12,429         9,475     76%          2,841     23%         21          0%         18          0%              5      0%         69       1%
     Fluvanna County       Borrowers             4             4    100%              0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               263           257     98%              6      2%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    58,326        58,326    100%              0      0%          0          0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1689
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                 Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population       39,549        35,057      89%         4,225     11%         39          0%         61      0%         30          0%        137       0%
     Franklin County       Borrowers            34            26      76%             8     24%          0          0%          0      0%          0          0%          0       0%
                           Farms               935           891      95%            44      5%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms   166,477       162,038      97%         4,439      3%          0          0%          0      0%          0          0%          0       0%

     VA                    Population       45,723        44,312     97%           830       2%         62          0%        215      0%         13          0%        291       1%
     Frederick County      Borrowers            15            15    100%             0       0%          0          0%          0      0%          0          0%          0       0%
                           Farms               536           536    100%             0       0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms    98,142        98,142    100%             0       0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population       16,366        15,994     98%           283       2%              8      0%         24      0%              0      0%         57       0%
     Giles County          Borrowers             1             1    100%             0       0%              0      0%          0      0%              0      0%          0       0%
                           Farms               332           332    100%             0       0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms    73,097        73,097    100%             0       0%              0      0%          0      0%              0      0%          0       0%

     VA                    Population       30,131        26,239      87%         3,343     11%         67          0%        190      1%              5      0%        287       1%
     Gloucester County     Borrowers             8             4      50%             4     50%          0          0%          0      0%              0      0%          0       0%
                           Farms               111           107      96%             4      4%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    24,478        24,040      98%           438      2%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       14,163         9,880     70%          4,200     30%         16          0%         32      0%              2      0%         33       0%
     Goochland County      Borrowers             5             5    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               232           221     95%             11      5%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    51,442        50,697     99%            745      1%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       16,278        15,687     96%           486       3%         12          0%         18      0%              0      0%         75       0%
     Grayson County        Borrowers            27            27    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                           Farms               871           871    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   136,320       136,320    100%             0       0%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       10,297         9,536     93%           664       6%         13          0%         26      0%              5      0%         53       1%
     Greene County         Borrowers             4             4    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                           Farms               207           204     99%             3       1%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    37,044        36,671     99%           373       1%          0          0%          0      0%              0      0%          0       0%

     VA                    Population        8,853         3,884     44%          4,870     55%         11          0%         23      0%              1      0%         64       1%
     Greensville County    Borrowers            13            11     85%              2     15%          0          0%          0      0%              0      0%          0       0%
                           Farms               156           116     74%             40     26%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    51,374        51,374    100%              0      0%          0          0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1690
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                   Asian                 Other                 Hispanic
                                             Total         Number     Percent    Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
     VA                      Population       29,033        17,440      60%        11,333       39%         71          0%         23          0%              2      0%        164          1%
     Halifax County          Borrowers            43            24      56%            19       44%          0          0%          0          0%              0      0%          0          0%
                             Farms             1,042           862      83%           175       17%          0          0%          0          0%              0      0%          5          0%
                             Land in Farms   232,852       214,848      92%        17,482        8%          0          0%          0          0%              0      0%        522          0%

     VA                      Population       63,306        56,191     89%          6,385       10%        143          0%        255          0%         11          0%        321          1%
     Hanover County          Borrowers            16            13     81%              3       19%          0          0%          0          0%          0          0%          0          0%
                             Farms               547           528     97%             19        3%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms    96,282        96,282    100%              0        0%          0          0%          0          0%          0          0%          0          0%

     VA                      Population      217,881       167,062     77%         43,648       20%        617          0%      4,289          2%         94          0%      2,171          1%
     Henrico County          Borrowers             4             4    100%              0        0%          0          0%          0          0%          0          0%          0          0%
                             Farms               148           144     97%              4        3%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms    24,201        23,767     98%            434        2%          0          0%          0          0%          0          0%          0          0%

     VA                      Population       56,942        43,396     76%         13,119       23%         60          0%        103          0%         11          0%        253          0%
     Henry County            Borrowers            16            15     94%              1        6%          0          0%          0          0%          0          0%          0          0%
                             Farms               287           278     97%              9        3%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms    48,968        48,968    100%              0        0%          0          0%          0          0%          0          0%          0          0%

     VA                      Population        2,635         2,625    100%                3      0%              0      0%              2      0%              0      0%              5      0%
     Highland County         Borrowers             6             6    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                             Farms               298           298    100%                0      0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    96,910        96,910    100%                0      0%              0      0%              0      0%              0      0%              0      0%

     VA                      Population       25,053        16,883      67%         7,876       31%         47          0%         67          0%              8      0%        172          1%
     Isle of Wight County    Borrowers            24            17      71%             7       29%          0          0%          0          0%              0      0%          0          0%
                             Farms               212           194      92%            18        8%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    86,247        83,273      97%         2,974        3%          0          0%          0          0%              0      0%          0          0%

     VA                      Population       34,859        27,526     79%          6,430       18%         68          0%        440          1%         13          0%        382          1%
     James City County       Borrowers             5             3     60%              2       40%          0          0%          0          0%          0          0%          0          0%
                             Farms                61            57     93%              4        7%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms     9,559         9,559    100%              0        0%          0          0%          0          0%          0          0%          0          0%

     VA                      Population        6,289         3,552      56%         2,632       42%         65          1%         10          0%              2      0%         28          0%
     King and Queen County   Borrowers            11            10      91%             1        9%          0          0%          0          0%              0      0%          0          0%
                             Farms               135           113      84%            22       16%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    52,508        48,635      93%         3,873        7%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                             Page 1691
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                 Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population       13,527        10,490     78%          2,724     20%         37          0%        117      1%              3      0%        156       1%
     King George County    Borrowers             4             4    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               128           124     97%              4      3%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    37,777        37,333     99%            444      1%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       10,913         7,307     67%          3,295     30%        217          2%         24      0%              4      0%         66       1%
     King William County   Borrowers             8             8    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                           Farms               126           119     94%              7      6%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms    59,326        58,318     98%          1,008      2%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       10,896         7,554      69%         3,248     30%              6      0%         12      0%              1      0%         75       1%
     Lancaster County      Borrowers             6             4      67%             2     33%              0      0%          0      0%              0      0%          0       0%
                           Farms                71            68      96%             3      4%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms    19,657        19,193      98%           464      2%              0      0%          0      0%              0      0%          0       0%

     VA                    Population       24,496        24,240     99%            91       0%         26          0%         20      0%              0      0%        119       0%
     Lee County            Borrowers            47            47    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                           Farms             1,287         1,287    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms   129,296       129,296    100%             0       0%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       86,129        75,557     88%          6,126      7%        167          0%      2,053      2%         70          0%      2,156       3%
     Loudoun County        Borrowers            11            11    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms               942           934     99%              5      1%          0          0%          0      0%          0          0%          3       0%
                           Land in Farms   195,476       194,719    100%            673      0%          0          0%          0      0%          0          0%         84       0%

     VA                    Population       20,325        14,899      73%         5,205     26%         64          0%         35      0%         14          0%        108       1%
     Louisa County         Borrowers            13            10      77%             3     23%          0          0%          0      0%          0          0%          0       0%
                           Farms               384           364      95%            14      4%          0          0%          0      0%          0          0%          6       2%
                           Land in Farms    81,427        79,346      97%         1,655      2%          0          0%          0      0%          0          0%        426       1%

     VA                    Population       11,419         7,040     62%          4,266     37%         11          0%         19      0%              0      0%         83       1%
     Lunenburg County      Borrowers            33            24     73%              9     27%          0          0%          0      0%              0      0%          0       0%
                           Farms               362           317     88%             42     12%          0          0%          0      0%              0      0%          3       1%
                           Land in Farms    85,600        85,600    100%              0      0%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       11,949        10,156      85%         1,697     14%         29          0%         22      0%         10          0%         35       0%
     Madison County        Borrowers             9             7      78%             2     22%          0          0%          0      0%          0          0%          0       0%
                           Farms               439           420      96%            15      3%          0          0%          0      0%          0          0%          4       1%
                           Land in Farms   100,602        98,693      98%         1,211      1%          0          0%          0      0%          0          0%        698       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1692
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                 Asian                 Other                 Hispanic
                                             Total         Number     Percent    Number     Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
     VA                      Population        8,348          7,112    85%          1,159     14%         11          0%         15          0%              2      0%         49       1%
     Mathews County          Borrowers             7              6    86%              1     14%          0          0%          0          0%              0      0%          0       0%
                             Farms                61             61   100%              0      0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms     6,152          6,152   100%              0      0%          0          0%          0          0%              0      0%          0       0%

     VA                      Population       29,241        17,873      61%        11,192     38%         20          0%         47          0%              1      0%        108       0%
     Mecklenburg County      Borrowers            65            50      77%            15     23%          0          0%          0          0%              0      0%          0       0%
                             Farms               645           585      91%            60      9%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   167,858       157,168      94%        10,690      6%          0          0%          0          0%              0      0%          0       0%

     VA                      Population        8,653         6,475      75%         2,112     24%              6      0%              9      0%              3      0%         48       1%
     Middlesex County        Borrowers            11             9      82%             2     18%              0      0%              0      0%              0      0%          0       0%
                             Farms                81            73      90%             8     10%              0      0%              0      0%              0      0%          0       0%
                             Land in Farms    21,507        20,518      95%           989      5%              0      0%              0      0%              0      0%          0       0%

     VA                      Population       73,913        67,431     91%          2,800      4%         63          0%      2,788          4%         38          0%        793       1%
     Montgomery County       Borrowers             7             7    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Farms               537           532     99%              5      1%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms    98,914        98,914    100%              0      0%          0          0%          0          0%          0          0%          0       0%

     VA                      Population       12,778        10,219     80%          2,395     19%         14          0%         24          0%              8      0%        118       1%
     Nelson County           Borrowers             6             4     67%              2     33%          0          0%          0          0%              0      0%          0       0%
                             Farms               358           348     97%             10      3%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    72,681        72,681    100%              0      0%          0          0%          0          0%              0      0%          0       0%

     VA                      Population       10,445         8,039     77%          2,140     20%        136          1%         32          0%         20          0%         78       1%
     New Kent County         Borrowers             1             1    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Farms                67            67    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                             Land in Farms    18,367        18,367    100%              0      0%          0          0%          0          0%          0          0%          0       0%

     VA                      Population       13,061         6,747     52%          6,025     46%         16          0%         16          0%              1      0%        256       2%
     Northampton County      Borrowers            11             9     82%              2     18%          0          0%          0          0%              0      0%          0       0%
                             Farms               162           148     91%             14      9%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    52,469        52,469    100%              0      0%          0          0%          0          0%              0      0%          0       0%

     VA                      Population       10,524         7,361      70%         3,082     29%              9      0%         19          0%              2      0%         51       0%
     Northumberland County   Borrowers             3             2      67%             1     33%              0      0%          0          0%              0      0%          0       0%
                             Farms               128           118      92%            10      8%              0      0%          0          0%              0      0%          0       0%
                             Land in Farms    41,290        37,190      90%         4,100     10%              0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1693
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American             Asian             Other                 Hispanic
                                            Total         Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
     VA                     Population       14,993         8,709      58%         6,124     41%         32      0%         45      0%              0      0%         83       1%
     Nottoway County        Borrowers             7             6      86%             1     14%          0      0%          0      0%              0      0%          0       0%
                            Farms               324           302      93%            22      7%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    63,991        62,642      98%         1,349      2%          0      0%          0      0%              0      0%          0       0%

     VA                     Population       21,421        18,138      85%         3,059     14%         30      0%         43      0%              9      0%        142       1%
     Orange County          Borrowers            11            10      91%             1      9%          0      0%          0      0%              0      0%          0       0%
                            Farms               419           401      96%            14      3%          0      0%          0      0%              0      0%          4       1%
                            Land in Farms   107,700       106,103      99%         1,244      1%          0      0%          0      0%              0      0%        353       0%

     VA                     Population       21,690        21,055     97%           439       2%         21      0%         67      0%              2      0%        106       0%
     Page County            Borrowers             4             4    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                            Farms               521           518     99%             0       0%          0      0%          0      0%              0      0%          3       1%
                            Land in Farms    64,856        64,470     99%             0       0%          0      0%          0      0%              0      0%        386       1%

     VA                     Population       17,473        16,069     92%          1,248      7%         13      0%         19      0%              1      0%        123       1%
     Patrick County         Borrowers            27            25     93%              2      7%          0      0%          0      0%              0      0%          0       0%
                            Farms               556           546     98%             10      2%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    79,449        79,449    100%              0      0%          0      0%          0      0%              0      0%          0       0%

     VA                     Population       55,655        40,443      73%        14,867     27%         43      0%         62      0%              1      0%        239       0%
     Pittsylvania County    Borrowers           108            82      76%            26     24%          0      0%          0      0%              0      0%          0       0%
                            Farms             1,389         1,298      93%            82      6%          0      0%          0      0%              0      0%          9       1%
                            Land in Farms   297,064       282,113      95%        10,913      4%          0      0%          0      0%              0      0%      4,038       1%

     VA                     Population       15,328        11,938     78%          3,273     21%         29      0%         26      0%              3      0%         59       0%
     Powhatan County        Borrowers             2             2    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               195           185     95%             10      5%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    43,180        42,726     99%            454      1%          0      0%          0      0%              0      0%          0       0%

     VA                     Population       17,320        10,856      63%         6,235     36%         29      0%         77      0%              9      0%        114       1%
     Prince Edward County   Borrowers             6             3      50%             2     33%          1     17%          0      0%              0      0%          0       0%
                            Farms               304           268      88%            33     11%          0      0%          0      0%              0      0%          3       1%
                            Land in Farms    68,584        65,126      95%         3,458      5%          0      0%          0      0%              0      0%          0       0%

     VA                     Population       27,394        17,808      65%         7,832     29%         94      0%        569      2%         31          0%      1,060       4%
     Prince George County   Borrowers             5             3      60%             2     40%          0      0%          0      0%          0          0%          0       0%
                            Farms               149           129      87%            20     13%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    48,889        46,041      94%         2,848      6%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 1694
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                 Asian             Other                 Hispanic
                                             Total         Number     Percent    Number     Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
     VA                      Population      215,686       174,082     81%         24,677     11%        659          0%      6,381      3%        225          0%      9,662       4%
     Prince William County   Borrowers             3             3    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               259           259    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    32,973        32,973    100%              0      0%          0          0%          0      0%          0          0%          0       0%

     VA                      Population       34,496        32,228     93%          1,991      6%         40          0%         78      0%              5      0%        154       0%
     Pulaski County          Borrowers            13            13    100%              0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms               363           360     99%              0      0%          0          0%          0      0%              0      0%          3       1%
                             Land in Farms    71,803        71,591    100%              0      0%          0          0%          0      0%              0      0%        212       0%

     VA                      Population        6,622         6,041      91%           491      7%         10          0%         13      0%              0      0%         67       1%
     Rappahannock County     Borrowers             0             0       0%             0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms               312           302      97%            10      3%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms    78,977        77,704      98%         1,273      2%          0          0%          0      0%              0      0%          0       0%

     VA                      Population        7,273         5,004     69%          2,186     30%              8      0%         23      0%              0      0%         52       1%
     Richmond County         Borrowers             5             5    100%              0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms               129           129    100%              0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms    38,940        38,940    100%              0      0%              0      0%          0      0%              0      0%          0       0%

     VA                      Population       79,332        76,181     96%          2,012      3%         69          0%        620      1%         10          0%        440       1%
     Roanoke County          Borrowers             2             2    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms               272           272    100%              0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms    24,924        24,924    100%              0      0%          0          0%          0      0%          0          0%          0       0%

     VA                      Population       18,350        17,639     96%           569       3%         33          0%         46      0%              7      0%         56       0%
     Rockbridge County       Borrowers            14            14    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                             Farms               643           643    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms   141,766       141,766    100%             0       0%          0          0%          0      0%              0      0%          0       0%

     VA                      Population       57,482        55,881     97%           864       2%         49          0%        135      0%              7      0%        546       1%
     Rockingham County       Borrowers            18            16     89%             1       6%          0          0%          0      0%              1      6%          0       0%
                             Farms             1,864         1,853     99%             4       0%          0          0%          0      0%              0      0%          7       0%
                             Land in Farms   236,074       235,170    100%            32       0%          0          0%          0      0%              0      0%        872       0%

     VA                      Population       28,667        28,248     99%           315       1%         13          0%         15      0%              0      0%         76       0%
     Russell County          Borrowers            35            35    100%             0       0%          0          0%          0      0%              0      0%          0       0%
                             Farms             1,103         1,095     99%             3       0%          0          0%          0      0%              0      0%          5       0%
                             Land in Farms   160,973       160,629    100%             0       0%          0          0%          0      0%              0      0%        344       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1695
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian                 Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
     VA                    Population       23,204        22,962     99%           143       1%         17      0%              4      0%              4      0%         74       0%
     Scott County          Borrowers            27            27    100%             0       0%          0      0%              0      0%              0      0%          0       0%
                           Farms             1,540         1,540    100%             0       0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   134,191       134,191    100%             0       0%          0      0%              0      0%              0      0%          0       0%

     VA                    Population       31,636        30,860     98%           358       1%         25      0%         98          0%              3      0%        292       1%
     Shenandoah County     Borrowers            17            17    100%             0       0%          0      0%          0          0%              0      0%          0       0%
                           Farms               832           832    100%             0       0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   125,394       125,394    100%             0       0%          0      0%          0          0%              0      0%          0       0%

     VA                    Population       32,370        31,508     97%           656       2%         34      0%         66          0%              2      0%        104       0%
     Smyth County          Borrowers            15            14     93%             1       7%          0      0%          0          0%              0      0%          0       0%
                           Farms               839           832     99%             0       0%          0      0%          0          0%              0      0%          7       1%
                           Land in Farms   119,973       119,577    100%             0       0%          0      0%          0          0%              0      0%        396       0%

     VA                    Population       17,550         9,605      55%         7,845     45%         15      0%         16          0%              2      0%         67       0%
     Southampton County    Borrowers            44            24      55%            19     43%          0      0%          0          0%              1      2%          0       0%
                           Farms               329           299      91%            30      9%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms   178,469       173,159      97%         5,310      3%          0      0%          0          0%              0      0%          0       0%

     VA                    Population       57,403        49,606     86%          6,153     11%        192      0%        586          1%         23          0%        843       1%
     Spotsylvania County   Borrowers             4             4    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               256           247     96%              9      4%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    52,904        52,904    100%              0      0%          0      0%          0          0%          0          0%          0       0%

     VA                    Population       61,236        54,761     89%          4,241      7%        218      0%        713          1%         51          0%      1,252       2%
     Stafford County       Borrowers             2             2    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Farms               166           166    100%              0      0%          0      0%          0          0%          0          0%          0       0%
                           Land in Farms    20,107        20,107    100%              0      0%          0      0%          0          0%          0          0%          0       0%

     VA                    Population        6,145         2,704      44%         3,410     55%         10      0%              2      0%              0      0%         19       0%
     Surry County          Borrowers            16             9      56%             7     44%          0      0%              0      0%              0      0%          0       0%
                           Farms               110            83      75%            27     25%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    52,770        47,178      89%         5,592     11%          0      0%              0      0%              0      0%          0       0%

     VA                    Population       10,248         4,244      41%         5,951     58%         11      0%         16          0%              3      0%         23       0%
     Sussex County         Borrowers            13            10      77%             3     23%          0      0%          0          0%              0      0%          0       0%
                           Farms               160           147      92%            13      8%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    82,736        76,276      92%         6,460      8%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1696
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population       45,960        44,349     96%          1,184      3%         46      0%        244      1%              3      0%        134       0%
     Tazewell County       Borrowers            11            11    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               494           494    100%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   138,531       138,531    100%              0      0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       26,142        24,492     94%          1,286      5%         45      0%         68      0%              3      0%        248       1%
     Warren County         Borrowers             0             0      0%              0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms               207           203     98%              4      2%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    38,967        38,967    100%              0      0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       45,887        44,967     98%           681       1%         28      0%         72      0%              1      0%        138       0%
     Washington County     Borrowers            28            28    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms             1,986         1,979    100%             0       0%          0      0%          0      0%              0      0%          7       0%
                           Land in Farms   190,062       188,667     99%             0       0%          0      0%          0      0%              0      0%      1,395       1%

     VA                    Population       15,480        10,187     66%          5,093     33%         30      0%         66      0%              4      0%        100       1%
     Westmoreland County   Borrowers             5             1     20%              4     80%          0      0%          0      0%              0      0%          0       0%
                           Farms               159           135     85%             21     13%          0      0%          0      0%              0      0%          3       2%
                           Land in Farms    56,289        56,043    100%              0      0%          0      0%          0      0%              0      0%        246       0%

     VA                    Population       39,573        38,596     98%           706       2%         34      0%        115      0%              9      0%        113       0%
     Wise County           Borrowers             0             0      0%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               122           122    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms    13,247        13,247    100%             0       0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       25,466        24,430     96%           880       3%         34      0%         61      0%              1      0%         60       0%
     Wythe County          Borrowers            40            40    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms               725           725    100%             0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms   131,366       131,366    100%             0       0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       42,422        34,061      80%         6,560     15%        100      0%        951      2%         27          0%        723       2%
     York County           Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                55            48      87%             7     13%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms     2,358         2,248      95%           110      5%          0      0%          0      0%          0          0%          0       0%

     VA                    Population      151,976       106,310     70%         41,443     27%        423      0%      1,809      1%         78          0%      1,913       1%
     Chesapeake city       Borrowers             3             2     67%              1     33%          0      0%          0      0%          0          0%          0       0%
                           Farms               189           180     95%              5      3%          0      0%          0      0%          0          0%          4       2%
                           Land in Farms    54,290        54,257    100%              0      0%          0      0%          0      0%          0          0%         33       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 1697
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                 Asian                 Other                 Hispanic
                                            Total         Number     Percent    Number     Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
     VA                     Population       52,141        28,367      54%        23,141     44%        107          0%        186          0%         21          0%        319       1%
     Suffolk city           Borrowers            25            19      76%             6     24%          0          0%          0          0%          0          0%          0       0%
                            Farms               268           240      90%            28     10%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms    83,047        79,283      95%         3,764      5%          0          0%          0          0%          0          0%          0       0%

     VA                     Population      393,069       309,712     79%         53,720     14%      1,275          0%     15,920          4%        305          0%     12,137       3%
     Virginia Beach city    Borrowers             2             2    100%              0      0%          0          0%          0          0%          0          0%          0       0%
                            Farms               156           146     94%             10      6%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms    43,332        43,332    100%              0      0%          0          0%          0          0%          0          0%          0       0%

     VA                     Population      111,183        71,486      64%        23,957     22%        299          0%      4,503          4%        160          0%     10,778       10%
     Alexandria city        Borrowers             0             0       0%             0      0%          0          0%          0          0%          0          0%          0        0%
                            Farms                 0             0       0%             0      0%          0          0%          0          0%          0          0%          0        0%
                            Land in Farms         0             0       0%             0      0%          0          0%          0          0%          0          0%          0        0%

     VA                     Population        6,073          4,653     77%         1,327     22%              7      0%         33          1%              0      0%         53       1%
     Bedford city           Borrowers             0              0      0%             0      0%              0      0%          0          0%              0      0%          0       0%
                            Farms                 0              0      0%             0      0%              0      0%          0          0%              0      0%          0       0%
                            Land in Farms         0              0      0%             0      0%              0      0%          0          0%              0      0%          0       0%

     VA                     Population       18,426        17,194      93%         1,058      6%         13          0%         91          0%              6      0%         64       0%
     Bristol city           Borrowers             0             0       0%             0      0%          0          0%          0          0%              0      0%          0       0%
                            Farms                 0             0       0%             0      0%          0          0%          0          0%              0      0%          0       0%
                            Land in Farms         0             0       0%             0      0%          0          0%          0          0%              0      0%          0       0%

     VA                     Population        6,406          6,086     95%          280       4%              5      0%         21          0%              2      0%         12       0%
     Buena Vista city       Borrowers             0              0      0%            0       0%              0      0%          0          0%              0      0%          0       0%
                            Farms                 0              0      0%            0       0%              0      0%          0          0%              0      0%          0       0%
                            Land in Farms         0              0      0%            0       0%              0      0%          0          0%              0      0%          0       0%

     VA                     Population       40,341        30,345      75%         8,520     21%         38          0%        927          2%         35          0%        476       1%
     Charlottesville city   Borrowers             0             0       0%             0      0%          0          0%          0          0%          0          0%          0       0%
                            Farms                 0             0       0%             0      0%          0          0%          0          0%          0          0%          0       0%
                            Land in Farms         0             0       0%             0      0%          0          0%          0          0%          0          0%          0       0%

     VA                     Population        4,679          3,950     84%          693      15%              2      0%              7      0%              2      0%         25       1%
     Clifton Forge city     Borrowers             0              0      0%            0       0%              0      0%              0      0%              0      0%          0       0%
                            Farms                 0              0      0%            0       0%              0      0%              0      0%              0      0%          0       0%
                            Land in Farms         0              0      0%            0       0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1698
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American                 Asian             Other                 Hispanic
                                             Total         Number     Percent    Number     Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
     VA                      Population       16,064        15,398      96%          128       1%         32          0%        342      2%              3      0%        161       1%
     Colonial Heights city   Borrowers             0             0       0%            0       0%          0          0%          0      0%              0      0%          0       0%
                             Farms                 0             0       0%            0       0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms         0             0       0%            0       0%          0          0%          0      0%              0      0%          0       0%

     VA                      Population        6,991          5,936     85%          969      14%              6      0%         46      1%              7      0%         27       0%
     Covington city          Borrowers             0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                             Farms                 0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms         0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%

     VA                      Population       53,056        33,106      62%        19,345     36%         66          0%        251      0%         12          0%        276       1%
     Danville city           Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                      Population        5,306          2,825     53%         2,387     45%         11          0%         24      0%              0      0%         59       1%
     Emporia city            Borrowers             0              0      0%             0      0%          0          0%          0      0%              0      0%          0       0%
                             Farms                 0              0      0%             0      0%          0          0%          0      0%              0      0%          0       0%
                             Land in Farms         0              0      0%             0      0%          0          0%          0      0%              0      0%          0       0%

     VA                      Population       19,622        16,100      82%          936       5%         41          0%      1,372      7%         14          0%      1,159       6%
     Fairfax city            Borrowers             0             0       0%            0       0%          0          0%          0      0%          0          0%          0       0%
                             Farms                 0             0       0%            0       0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms         0             0       0%            0       0%          0          0%          0      0%          0          0%          0       0%

     VA                      Population        9,578          8,189     85%          284       3%         39          0%        449      5%         13          0%        604       6%
     Falls Church city       Borrowers             0              0      0%            0       0%          0          0%          0      0%          0          0%          0       0%
                             Farms                 0              0      0%            0       0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms         0              0      0%            0       0%          0          0%          0      0%          0          0%          0       0%

     VA                      Population        7,864          3,630     46%         4,192     53%              6      0%         20      0%              1      0%         15       0%
     Franklin city           Borrowers             0              0      0%             0      0%              0      0%          0      0%              0      0%          0       0%
                             Farms                 0              0      0%             0      0%              0      0%          0      0%              0      0%          0       0%
                             Land in Farms         0              0      0%             0      0%              0      0%          0      0%              0      0%          0       0%

     VA                      Population       19,027        14,245      75%         4,081     21%         27          0%        200      1%         11          0%        463       2%
     Fredericksburg city     Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                             Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                             Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1699
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                 Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number       Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population        6,670          6,192     93%          387       6%              8      0%         15      0%              3      0%         65       1%
     Galax city            Borrowers             0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                           Farms                 0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%

     VA                    Population      133,793        76,909      57%        51,519     39%        376          0%      2,260      2%         93          0%      2,636       2%
     Hampton city          Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population       30,707        27,691      90%         2,005      7%         35          0%        461      2%         34          0%        481       2%
     Harrisonburg city     Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population       23,101        16,456      71%         5,863     25%         63          0%        281      1%         21          0%        417       2%
     Hopewell city         Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population        6,959          5,982     86%          809      12%         21          0%         85      1%              0      0%         62       1%
     Lexington city        Borrowers             0              0      0%            0       0%          0          0%          0      0%              0      0%          0       0%
                           Farms                 0              0      0%            0       0%          0          0%          0      0%              0      0%          0       0%
                           Land in Farms         0              0      0%            0       0%          0          0%          0      0%              0      0%          0       0%

     VA                    Population       66,049        47,591      72%        17,371     26%        100          0%        488      1%         23          0%        476       1%
     Lynchburg city        Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population       27,957        22,545      81%         2,841     10%         87          0%        854      3%         29          0%      1,601       6%
     Manassas city         Borrowers             0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0          0%          0      0%          0          0%          0       0%

     VA                    Population        6,734          5,760     86%          481       7%              7      0%        167      2%              5      0%        314       5%
     Manassas Park city    Borrowers             0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                           Farms                 0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0              0      0%            0       0%              0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1700
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population       16,162        10,119      63%         5,929     37%         20      0%         32      0%              3      0%         59       0%
     Martinsville city     Borrowers             0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population      170,045       104,424     61%         56,450     33%        523      0%      3,811      2%        127          0%      4,710       3%
     Newport News city     Borrowers             1             1    100%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0      0%              0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0      0%              0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population      261,229       145,136      56%       100,966     39%      1,070      0%      6,177      2%        269          0%      7,611       3%
     Norfolk city          Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population        4,247          3,900     92%          268       6%         13      0%         35      1%              0      0%         31       1%
     Norton city           Borrowers             0              0      0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0              0      0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0              0      0%            0       0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       38,386        10,051      26%        27,502     72%         80      0%        261      1%         20          0%        472       1%
     Petersburg city       Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       11,005        10,643      97%           82       1%         24      0%        159      1%              1      0%         96       1%
     Poquoson city         Borrowers             0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population      103,907        52,579      51%        48,876     47%        286      0%        760      1%         42          0%      1,364       1%
     Portsmouth city       Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       15,940        14,521      91%          952       6%         15      0%        269      2%              8      0%        175       1%
     Radford city          Borrowers             0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0             0       0%            0       0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 1701
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American             Asian             Other                 Hispanic
                                           Total         Number     Percent    Number     Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
     VA                    Population      203,056        87,222      43%       111,644     55%        441      0%      1,741      1%        110          0%      1,898       1%
     Richmond city         Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       96,397        71,524      74%        23,275     24%        159      0%        704      1%         70          0%        665       1%
     Roanoke city          Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       23,756        22,396      94%         1,051      4%         27      0%        161      1%         10          0%        111       0%
     Salem city            Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population        6,997          4,356     62%         2,549     36%         11      0%         34      0%              2      0%         45       1%
     South Boston city     Borrowers             0              0      0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0              0      0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0              0      0%             0      0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       24,461        21,077      86%         3,072     13%         31      0%        101      0%         11          0%        169       1%
     Staunton city         Borrowers             0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       18,549        16,586      89%         1,738      9%         30      0%         44      0%              1      0%        150       1%
     Waynesboro city       Borrowers             0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%

     VA                    Population       11,530          9,272     80%         1,739     15%         23      0%        330      3%         15          0%        151       1%
     Williamsburg city     Borrowers             0              0      0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Farms                 0              0      0%             0      0%          0      0%          0      0%          0          0%          0       0%
                           Land in Farms         0              0      0%             0      0%          0      0%          0      0%          0          0%          0       0%

     VA                    Population       21,947        19,297      88%         2,190     10%         26      0%        208      1%              7      0%        219       1%
     Winchester city       Borrowers             0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Farms                 0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%
                           Land in Farms         0             0       0%             0      0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                Page 1702
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American             Asian              Other             Hispanic
                                             Total         Number     Percent    Number     Percent   Number   Percent   Number    Percent   Number   Percent   Number    Percent
     VA                     Population      6,187,358     4,701,650     76%     1,153,133     19%     14,347      0%     154,183      2%      3,757      0%     160,288      3%
     STATE                  Borrowers           1,388         1,182     85%           201     14%          1      0%           0      0%          4      0%           0      0%
                            Farms              42,222        40,840     97%         1,278      3%          0      0%           0      0%          0      0%         104      0%
                            Land in Farms   8,288,180     8,150,033     98%       124,404      2%          0      0%           0      0%          0      0%      13,743      0%

     District of Columbia   Population       606,900       166,131      27%       395,213     65%      1,252      0%      10,734      2%        860      0%      32,710      5%
                            Borrowers              0             0       0%             0      0%          0      0%           0      0%          0      0%           0      0%
                            Farms                  0             0       0%             0      0%          0      0%           0      0%          0      0%           0      0%
                            Land in Farms          0             0       0%             0      0%          0      0%           0      0%          0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                             Page 1703
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ACCOMACK, VIRGINIA                                ALBEMARLE, VIRGINIA                                ALLEGHANY, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       19                        10                      3                              0                    1                          1
                              Loans                           74                        60                     12                              0                    2                          2
                              Principal and Interest   6,001,175                 1,777,112                853,823                              0              165,586                     82,996
WHITE                         Borrowers                       14         74%             5      50%             3       100%                   0      0%            1        100%              1    100%
                              Loans                           48         65%            35      58%            12       100%                   0      0%            2        100%              2    100%
                              Principal and Interest   4,848,683         81%     1,443,928      81%       853,823       100%                   0      0%      165,586        100%         82,996    100%
AFRICAN AMERICAN              Borrowers                        5         26%            5       50%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                           26         35%           25       42%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest   1,152,493         19%      333,184       19%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1704
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            AMELIA, VIRGINIA                                  AMHERST, VIRGINIA                              APPOMATTOX, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                       23                        8                       5                           1                        9                         3
                              Loans                           62                       15                       9                           3                       32                        14
                              Principal and Interest   2,399,484                  102,263                 488,977                      30,425                1,108,607                   210,292

WHITE                         Borrowers                        19        83%              6     75%                 4     80%                  0      0%                  8     89%              3   100%
                              Loans                            49        79%             11     73%                 6     67%                  0      0%                 31     97%             14   100%
                              Principal and Interest   2,252,398         94%        69,457      68%       254,997         52%                  0      0%     1,079,409          97%      210,292     100%

AFRICAN AMERICAN              Borrowers                       4          17%             2      25%             1         20%               1      100%              1          11%              0      0%
                              Loans                          13          21%             4      27%             3         33%               3      100%              1           3%              0      0%
                              Principal and Interest    147,086           6%        32,806      32%       233,980         48%          30,425      100%         29,198           3%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0       0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1705
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           AUGUSTA, VIRGINIA                                        BATH, VIRGINIA                               BEDFORD, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       55                        8                        1                             0                    28                       10
                              Loans                          102                       18                        1                             0                    66                       28
                              Principal and Interest   6,628,281                  813,124                   34,280                             0             2,590,637                  146,777
WHITE                         Borrowers                       55       100%             8     100%               1      100%                   0      0%            27         96%           10     100%
                              Loans                          102       100%            18     100%               1      100%                   0      0%            65         98%           28     100%
                              Principal and Interest   6,628,281       100%       813,124     100%          34,280      100%                   0      0%     2,565,534         99%      146,777     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%             1          4%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%             1          2%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%        25,103          1%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1706
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             BLAND, VIRGINIA                               BOTETOURT, VIRGINIA                                BRUNSWICK, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       2                          1                      2                              0                    46                        15
                              Loans                           4                          3                      4                              0                   141                        75
                              Principal and Interest    129,232                      9,410                467,447                              0             8,240,230                 2,826,323
WHITE                         Borrowers                       2        100%              1    100%              2       100%                   0      0%            37         80%            12      80%
                              Loans                           4        100%              3    100%              4       100%                   0      0%           114         81%            63      84%
                              Principal and Interest    129,232        100%          9,410    100%        467,447       100%                   0      0%     7,340,321         89%     2,733,023      97%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            9          20%             3      20%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%           27          19%            12      16%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      899,909          11%        93,299       3%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1707
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         BUCHANAN, VIRGINIA                              BUCKINGHAM, VIRGINIA                                   CAMPBELL, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent        Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       1                           0                    13                          9                         25                       17
                              Loans                           3                           0                    48                         38                         75                       35
                              Principal and Interest    185,405                           0             2,562,801                    719,345                  4,399,097                  653,136
WHITE                         Borrowers                            0      0%              0      0%            12        92%               8         89%             22         88%           14       82%
                              Loans                                0      0%              0      0%            46        96%              37         97%             68         91%           28       80%
                              Principal and Interest               0      0%              0      0%     2,556,573       100%         719,319        100%      4,185,018         95%      579,763       89%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%               1        8%                   1     11%            3          12%             3      18%
                              Loans                                0      0%              0      0%               2        4%                   1      3%            7           9%             7      20%
                              Principal and Interest               0      0%              0      0%           6,228        0%                  26      0%      214,079           5%        73,373      11%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
OTHER                         Borrowers                       1        100%               0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Loans                           3        100%               0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Principal and Interest    185,405        100%               0      0%                 0      0%                  0       0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0       0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1708
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          CAROLINE, VIRGINIA                                  CARROLL, VIRGINIA                              CHARLES CITY, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        7                        4                      29                           6                       5                         3
                              Loans                           27                       14                      59                          12                      13                         9
                              Principal and Interest   1,217,306                  189,449               2,164,738                      23,833                 444,395                   189,010
WHITE                         Borrowers                        6        86%             3       75%            29       100%                6      100%             4          80%             2      67%
                              Loans                           26        96%            13       93%            59       100%               12      100%             5          38%             2      22%
                              Principal and Interest   1,215,164       100%       188,052       99%     2,164,738       100%           23,833      100%       202,812          46%         4,701       2%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            1          20%            1       33%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            8          62%            7       78%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      241,584          54%      184,309       98%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1         14%             1      25%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            1          4%             1       7%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest       2,142          0%         1,397       1%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1709
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        CHARLOTTE, VIRGINIA                               CHESAPEAKE, VIRGINIA                               CHESTERFIELD, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio        Percent   Delinquent   Percent
TOTAL                         Borrowers                        16                         4                         3                          2                          6                      1
                              Loans                            28                        12                         9                          8                         10                      1
                              Principal and Interest   1,340,791                    88,036                635,998                    156,714                  511,849                       1,806

WHITE                         Borrowers                       14        88%              4    100%              2         67%              2       100%             6         100%              1    100%
                              Loans                           26        93%             12    100%              8         89%              8       100%            10         100%              1    100%
                              Principal and Interest   1,336,813       100%         88,036    100%        625,384         98%        156,714       100%       511,849         100%          1,806    100%

AFRICAN AMERICAN              Borrowers                        2         13%              0      0%              1        33%                  0      0%                  0      0%              0      0%
                              Loans                            2          7%              0      0%              1        11%                  0      0%                  0      0%              0      0%
                              Principal and Interest       3,979          0%              0      0%         10,614         2%                  0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1710
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CLARKE, VIRGINIA                                        CRAIG, VIRGINIA                              CULPEPER, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       18                        7                        2                           2                       12                        5
                              Loans                           48                       18                        6                           3                       39                       26
                              Principal and Interest   4,212,539                  455,105                   12,042                         171                3,448,047                  569,866

WHITE                         Borrowers                       17         94%            6       86%              2       100%                2      100%             12       100%             5     100%
                              Loans                           47         98%           17       94%              6       100%                3      100%             39       100%            26     100%
                              Principal and Interest   4,085,641         97%      436,047       96%         12,042       100%              171      100%      3,448,047       100%       569,866     100%

AFRICAN AMERICAN              Borrowers                       1           6%             1      14%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                           1           2%             1       6%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest    126,898           3%        19,058       4%                  0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1711
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CUMBERLAND, VIRGINIA                                 DICKENSON, VIRGINIA                                DINWIDDIE, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       14                        9                         1                            0                    24                        10
                              Loans                           47                       27                         1                            0                   123                        95
                              Principal and Interest   1,814,277                  518,877                     9,610                            0             7,015,752                 3,791,310
WHITE                         Borrowers                       13         93%            8      89%                1     100%                   0      0%            15         63%             5      50%
                              Loans                           44         94%           26      96%                1     100%                   0      0%            68         55%            47      49%
                              Principal and Interest   1,723,800         95%      518,877     100%            9,610     100%                   0      0%     5,481,311         78%     2,787,781      74%
AFRICAN AMERICAN              Borrowers                        1          7%              1     11%                 0      0%                  0      0%             9         38%             5      50%
                              Loans                            3          6%              1      4%                 0      0%                  0      0%            55         45%            48      51%
                              Principal and Interest      90,477          5%              0      0%                 0      0%                  0      0%     1,534,441         22%     1,003,529      26%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1712
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              ESSEX, VIRGINIA                                  FAIRFAX, VIRGINIA                                FAUQUIER, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        9                          2                     1                              0                    13                        8
                              Loans                           17                          2                     1                              0                    29                       21
                              Principal and Interest   1,495,271                         54               117,609                              0             3,525,230                  844,659
WHITE                         Borrowers                        9       100%               2   100%              1       100%                   0      0%            13       100%             8     100%
                              Loans                           17       100%               2   100%              1       100%                   0      0%            29       100%            21     100%
                              Principal and Interest   1,495,271       100%              54   100%        117,609       100%                   0      0%     3,525,230       100%       844,659     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1713
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             FLOYD, VIRGINIA                                 FLUVANNA, VIRGINIA                                 FRANKLIN, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       7                          3                      4                          1                        34                        19
                              Loans                          10                          5                      7                          1                        81                        41
                              Principal and Interest    398,389                     23,126                755,407                    153,523                 5,835,585                 1,394,707
WHITE                         Borrowers                       7        100%              3    100%              4       100%               1       100%             26         76%            15      79%
                              Loans                          10        100%              5    100%              7       100%               1       100%             51         63%            31      76%
                              Principal and Interest    398,389        100%         23,126    100%        755,407       100%         153,523       100%      4,852,607         83%     1,362,347      98%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            8          24%             4      21%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%           30          37%            10      24%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      982,978          17%        32,360       2%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1714
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         FREDERICK, VIRGINIA                                        GILES, VIRGINIA                          GLOUCESTER, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       15                         6                      1                              0                     8                        5
                              Loans                           36                        11                      1                              0                    27                       19
                              Principal and Interest   2,607,755                    98,616                394,207                              0             1,450,722                  532,199
WHITE                         Borrowers                       15       100%              6    100%              1       100%                   0      0%            4          50%            2       40%
                              Loans                           36       100%             11    100%              1       100%                   0      0%            8          30%            4       21%
                              Principal and Interest   2,607,755       100%         98,616    100%        394,207       100%                   0      0%      703,200          48%      150,871       28%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            4          50%            3       60%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%           19          70%           15       79%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      747,522          52%      381,328       72%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1715
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        GOOCHLAND, VIRGINIA                                   GRAYSON, VIRGINIA                                   GREENE, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                         2                     27                          7                        4                          2
                              Loans                           19                         3                     49                         15                       10                          7
                              Principal and Interest   1,245,555                     8,771              2,161,013                    200,632                  516,838                     54,259

WHITE                         Borrowers                        5       100%              2    100%             27       100%               7       100%             4        100%              2    100%
                              Loans                           19       100%              3    100%             49       100%              15       100%            10        100%              7    100%
                              Principal and Interest   1,245,555       100%          8,771    100%      2,161,013       100%         200,632       100%       516,838        100%         54,259    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1716
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GREENSVILLE, VIRGINIA                                  HALIFAX, VIRGINIA                                   HANOVER, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio        Percent   Delinquent        Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                       11                      43                          18                         16                         7
                              Loans                           45                       32                      85                          40                         49                        27
                              Principal and Interest   1,840,307                  526,744               4,790,894                     579,826                  7,169,050                 1,978,968
WHITE                         Borrowers                       11         85%            9       82%            24          56%             10          56%            13         81%             6      86%
                              Loans                           30         67%           20       63%            51          60%             29          73%            46         94%            26      96%
                              Principal and Interest   1,389,868         76%      363,776       69%     3,579,275          75%        551,802          95%     7,091,605         99%     1,950,991      99%
AFRICAN AMERICAN              Borrowers                         2        15%              2     18%                 19     44%                   8     44%                 3     19%              1     14%
                              Loans                            15        33%             12     38%                 34     40%                  11     28%                 3      6%              1      4%
                              Principal and Interest    450,439          24%      162,968       31%     1,211,619          25%          28,024          5%        77,445          1%        27,977       1%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0       0%                  0       0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1717
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           HENRICO, VIRGINIA                                    HENRY, VIRGINIA                                 HIGHLAND, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                         4                      16                              1                    6                           0
                              Loans                          14                        14                      31                              1                    8                           0
                              Principal and Interest    659,679                   317,276                 593,489                              2              283,759                           0
WHITE                         Borrowers                       4        100%             4     100%             15         94%                  1   100%             6        100%               0      0%
                              Loans                          14        100%            14     100%             29         94%                  1   100%             8        100%               0      0%
                              Principal and Interest    659,679        100%       317,276     100%        370,270         62%                  2   100%       283,759        100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%             1          6%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%             2          6%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%       223,219         38%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1718
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ISLE OF WIGHT, VIRGINIA                             JAMES CITY, VIRGINIA                              KING AND QUEEN, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       24                       11                       5                           3                        11                        4
                              Loans                           72                       44                       9                           3                        21                        8
                              Principal and Interest   3,729,150                  772,404                 214,149                      37,090                 1,847,349                  288,881

WHITE                         Borrowers                       17         71%            6       55%              3        60%               1        33%             10         91%            4     100%
                              Loans                           38         53%           19       43%              3        33%               1        33%             20         95%            8     100%
                              Principal and Interest   2,775,726         74%      422,001       55%         96,364        45%          30,000        81%      1,835,925         99%      288,881     100%

AFRICAN AMERICAN              Borrowers                       7          29%            5       45%             2         40%               2        67%              1          9%              0      0%
                              Loans                          34          47%           25       57%             6         67%               2        67%              1          5%              0      0%
                              Principal and Interest    953,423          26%      350,403       45%       117,784         55%           7,090        19%         11,424          1%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1719
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       KING GEORGE, VIRGINIA                            KING WILLIAM, VIRGINIA                                LANCASTER, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                          1                      8                           2                       6                         3
                              Loans                           7                          2                     14                           2                      17                        12
                              Principal and Interest    167,042                      5,929              1,135,662                       8,754                 927,306                   436,679
WHITE                         Borrowers                       4        100%              1    100%              8       100%                2      100%             4          67%            2       67%
                              Loans                           7        100%              2    100%             14       100%                2      100%             9          53%            7       58%
                              Principal and Interest    167,042        100%          5,929    100%      1,135,662       100%            8,754      100%       497,553          54%      141,161       32%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            2          33%            1       33%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%            8          47%            5       42%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      429,753          46%      295,519       68%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1720
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                                   LEE, VIRGINIA                             LOUDOUN, VIRGINIA                                     LOUISA, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       47                       12                      11                          5                        13                         5
                              Loans                           73                       14                      34                         23                        25                         7
                              Principal and Interest   1,563,817                  140,741               4,781,587                  1,683,813                 1,482,416                    19,677
WHITE                         Borrowers                       47       100%            12     100%             11       100%               5       100%             10         77%             3      60%
                              Loans                           73       100%            14     100%             34       100%              23       100%             15         60%             4      57%
                              Principal and Interest   1,563,817       100%       140,741     100%      4,781,587       100%       1,683,813       100%      1,316,885         89%        14,205      72%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            3          23%             2      40%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%           10          40%             3      43%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      165,531          11%         5,472      28%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1721
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LUNENBURG, VIRGINIA                                   MADISON, VIRGINIA                                 MATHEWS, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       33                         8                      9                          6                        7                         3
                              Loans                           85                        36                     29                         16                       20                        11
                              Principal and Interest   4,870,610                 1,462,352              2,371,088                    485,743                  786,781                   249,319
WHITE                         Borrowers                       24         73%             5      63%             7         78%              4         67%            6          86%            2       67%
                              Loans                           65         76%            27      75%            23         79%             11         69%           19          95%           10       91%
                              Principal and Interest   4,219,045         87%     1,304,653      89%     2,161,388         91%        460,993         95%      771,455          98%      246,327       99%
AFRICAN AMERICAN              Borrowers                       9          27%            3       38%             2         22%               2        33%             1         14%             1      33%
                              Loans                          20          24%            9       25%             6         21%               5        31%             1          5%             1       9%
                              Principal and Interest    651,565          13%      157,699       11%       209,700          9%          24,750         5%        15,325          2%         2,992       1%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1722
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MECKLENBURG, VIRGINIA                                MIDDLESEX, VIRGINIA                              MONTGOMERY, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       65                       21                      11                           5                       7                          1
                              Loans                          165                       62                      22                          10                      12                          1
                              Principal and Interest   6,534,999                  634,631                 411,280                      21,218                 794,945                      4,922
WHITE                         Borrowers                       50         77%           13       62%             9         82%               4        80%            7        100%              1    100%
                              Loans                          119         72%           36       58%            20         91%               9        90%           12        100%              1    100%
                              Principal and Interest   5,300,472         81%      535,514       84%       402,085         98%          20,837        98%      794,945        100%          4,922    100%
AFRICAN AMERICAN              Borrowers                       15         23%             8      38%               2       18%               1        20%                 0      0%              0      0%
                              Loans                           46         28%            26      42%               2        9%               1        10%                 0      0%              0      0%
                              Principal and Interest   1,234,527         19%        99,117      16%           9,196        2%             381         2%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1723
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            NELSON, VIRGINIA                                 NEW KENT, VIRGINIA                              NEWPORT NEWS, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       6                          1                       1                             0                     1                         1
                              Loans                           8                          1                       1                             0                     1                         1
                              Principal and Interest    407,660                     10,392                  39,891                             0                 9,460                     2,098
WHITE                         Borrowers                       4          67%              0      0%              1      100%                   0      0%             1       100%              1    100%
                              Loans                           6          75%              0      0%              1      100%                   0      0%             1       100%              1    100%
                              Principal and Interest    369,809          91%              0      0%         39,891      100%                   0      0%         9,460       100%          2,098    100%
AFRICAN AMERICAN              Borrowers                        2         33%             1    100%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                            2         25%             1    100%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest      37,851          9%        10,392    100%                  0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1724
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       NORTHAMPTON, VIRGINIA                            NORTHUMBERLAND, VIRGINIA                                NOTTOWAY, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       11                         4                       3                          1                         7                        2
                              Loans                           20                         7                      15                         13                        25                        8
                              Principal and Interest   2,193,908                    92,780               3,856,277                  1,937,089                 1,869,448                  131,169
WHITE                         Borrowers                        9         82%             4    100%                2        67%                  0      0%             6         86%            2     100%
                              Loans                           18         90%             7    100%                2        13%                  0      0%            24         96%            8     100%
                              Principal and Interest   2,135,875         97%        92,780    100%           21,403         1%                  0      0%     1,852,468         99%      131,169     100%
AFRICAN AMERICAN              Borrowers                        2         18%              0      0%              1         33%              1       100%              1         14%              0      0%
                              Loans                            2         10%              0      0%             13         87%             13       100%              1          4%              0      0%
                              Principal and Interest      58,033          3%              0      0%      3,834,874         99%      1,937,089       100%         16,980          1%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1725
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            ORANGE, VIRGINIA                                        PAGE, VIRGINIA                               PATRICK, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      11                          3                      4                           2                       27                       14
                              Loans                          19                          6                      5                           2                       62                       36
                              Principal and Interest    981,645                     62,255                541,441                      10,129                2,752,326                  414,313
WHITE                         Borrowers                      10         91%              3    100%              4       100%                2      100%             25         93%           13      93%
                              Loans                          17         89%              6    100%              5       100%                2      100%             59         95%           35      97%
                              Principal and Interest    979,567        100%         62,255    100%        541,441       100%           10,129      100%      2,698,326         98%      413,847     100%
AFRICAN AMERICAN              Borrowers                            1      9%              0      0%                 0      0%                  0      0%                 2      7%              1      7%
                              Loans                                2     11%              0      0%                 0      0%                  0      0%                 3      5%              1      3%
                              Principal and Interest       2,078          0%              0      0%                 0      0%                  0      0%        54,000          2%           466       0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1726
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        PITTSYLVANIA, VIRGINIA                               POWHATAN, VIRGINIA                                PRINCE EDWARD, VIRGINIA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent        Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       108                       19                       2                               1                     6                          3
                              Loans                           315                       44                       4                               1                    13                          5
                              Principal and Interest   10,907,596                  135,109                 389,832                              48               416,633                     17,764
WHITE                         Borrowers                        82         76%            11      58%             2       100%                    1   100%               3         50%             3    100%
                              Loans                           242         77%            24      55%             4       100%                    1   100%               6         46%             5    100%
                              Principal and Interest    9,659,505         89%        74,006      55%       389,832       100%                   48   100%          85,190         20%        17,764    100%
AFRICAN AMERICAN              Borrowers                        26         24%             8      42%                 0      0%                  0       0%              2         33%              0      0%
                              Loans                            73         23%            20      45%                 0      0%                  0       0%              4         31%              0      0%
                              Principal and Interest    1,248,091         11%        61,104      45%                 0      0%                  0       0%         32,659          8%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                   0      0%             1          17%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                   0      0%             3          23%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                   0      0%       298,784          72%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0       0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1727
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PRINCE GEORGE, VIRGINIA                           PRINCE WILLIAM, VIRGINIA                                  PULASKI, VIRGINIA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                          2                      3                          1                        13                        6
                              Loans                            8                          4                     13                          4                        28                       12
                              Principal and Interest     326,893                     31,201                651,399                    101,485                 2,179,015                  458,770
WHITE                         Borrowers                        3          60%             1      50%             3       100%               1       100%             13       100%             6     100%
                              Loans                            4          50%             1      25%            13       100%               4       100%             28       100%            12     100%
                              Principal and Interest     166,650          51%        28,551      92%       651,399       100%         101,485       100%      2,179,015       100%       458,770     100%
AFRICAN AMERICAN              Borrowers                        2          40%             1      50%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            4          50%             3      75%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest     160,242          49%         2,650       8%                 0      0%                  0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1728
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         RICHMOND, VIRGINIA                                  ROANOKE, VIRGINIA                               ROCKBRIDGE, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                        2                        2                             0                   14                          7
                              Loans                           16                        9                        4                             0                   23                          9
                              Principal and Interest   1,160,185                  166,959                   73,155                             0              987,925                     40,674

WHITE                         Borrowers                        5       100%             2     100%               2      100%                   0      0%           14        100%              7    100%
                              Loans                           16       100%             9     100%               4      100%                   0      0%           23        100%              9    100%
                              Principal and Interest   1,160,185       100%       166,959     100%          73,155      100%                   0      0%      987,925        100%         40,674    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1729
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       ROCKINGHAM, VIRGINIA                                   RUSSELL, VIRGINIA                                     SCOTT, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       18                        4                      35                         15                        27                         8
                              Loans                           39                        9                      66                         27                        43                        14
                              Principal and Interest   3,863,797                  353,026               1,967,916                    137,880                 1,021,669                    72,888

WHITE                         Borrowers                       16         89%            3       75%            35       100%              15       100%             27       100%              8    100%
                              Loans                           35         90%            6       67%            66       100%              27       100%             43       100%             14    100%
                              Principal and Interest   3,319,499         86%      138,866       39%     1,967,916       100%         137,880       100%      1,021,669       100%         72,888    100%

AFRICAN AMERICAN              Borrowers                            1      6%              1     25%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                3      8%              3     33%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest    519,914          13%      214,160       61%                 0      0%                  0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                        1          6%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                            1          3%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest      24,384          1%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1730
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SHENANDOAH, VIRGINIA                                     SMYTH, VIRGINIA                              SOUTHAMPTON, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       17                         5                     15                           4                       44                        24
                              Loans                           37                         9                     35                           6                      149                        76
                              Principal and Interest   1,825,182                    44,255              1,466,351                      45,044                7,011,127                 1,486,337
WHITE                         Borrowers                       17       100%              5    100%             14        93%                3       75%             24         55%           11       46%
                              Loans                           37       100%              9    100%             33        94%                5       83%             53         36%           22       29%
                              Principal and Interest   1,825,182       100%         44,255    100%      1,460,564       100%           44,935      100%      3,821,030         54%      750,039       50%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%               1        7%               1        25%            19         43%           13       54%
                              Loans                                0      0%              0      0%               2        6%               1        17%            94         63%           54       71%
                              Principal and Interest               0      0%              0      0%           5,787        0%             110         0%     3,188,790         45%      736,297       50%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%             1          2%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%             2          1%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%         1,308          0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1731
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       SPOTSYLVANIA, VIRGINIA                                STAFFORD, VIRGINIA                                  SUFFOLK, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                           0                     2                          1                        25                        8
                              Loans                          13                           0                    10                          7                        62                       29
                              Principal and Interest    753,006                           0             1,345,718                    234,773                 3,170,943                  417,956
WHITE                         Borrowers                       4        100%               0      0%             2       100%               1       100%             19         76%             5      63%
                              Loans                          13        100%               0      0%            10       100%               7       100%             40         65%            12      41%
                              Principal and Interest    753,006        100%               0      0%     1,345,718       100%         234,773       100%      2,470,124         78%        92,540      22%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%                  0      0%            6          24%            3       38%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%           22          35%           17       59%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%      700,819          22%      325,416       78%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1732
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             SURRY, VIRGINIA                                    SUSSEX, VIRGINIA                               TAZEWELL, VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                        7                      13                          8                       11                          5
                              Loans                           47                       19                      45                         27                       16                          9
                              Principal and Interest   2,239,233                  518,965               1,941,679                    633,272                  642,729                     38,951

WHITE                         Borrowers                        9         56%             2      29%            10         77%              5         63%           11        100%              5    100%
                              Loans                           26         55%             4      21%            40         89%             22         81%           16        100%              9    100%
                              Principal and Interest   1,061,781         47%        15,976       3%     1,883,880         97%        623,517         98%      642,729        100%         38,951    100%

AFRICAN AMERICAN              Borrowers                        7         44%            5       71%              3        23%               3        38%                 0      0%              0      0%
                              Loans                           21         45%           15       79%              5        11%               5        19%                 0      0%              0      0%
                              Principal and Interest   1,177,452         53%      502,989       97%         57,800         3%           9,755         2%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%                  0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1733
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       VIRGINIA BEACH , VIRGINIA                          WASHINGTON, VIRGINIA                                WESTMORELAND, VIRGINIA
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                         2                          0                    28                          8                         5                         2
                              Loans                             2                          0                    48                         15                        11                         5
                              Principal and Interest       98,821                          0             2,616,718                    132,546                   366,625                   172,775

WHITE                         Borrowers                         2       100%               0      0%            28       100%               8       100%               1         20%              0      0%
                              Loans                             2       100%               0      0%            48       100%              15       100%               1          9%              0      0%
                              Principal and Interest       98,821       100%               0      0%     2,616,718       100%         132,546       100%          32,939          9%              0      0%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%                  0      0%             4          80%            2     100%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%            10          91%            5     100%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%       333,686          91%      172,775     100%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

OTHER                         Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Loans                                 0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%                  0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1734
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             WYTHE, VIRGINIA                                   STATE OF VIRGINIA
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       40                       13                     1,388                       503
                              Loans                           87                       36                     3,459                     1,456
                              Principal and Interest   4,332,749                  679,985               190,950,298                34,901,783
WHITE                         Borrowers                       40       100%            13     100%            1,182        85%            396         79%
                              Loans                           87       100%            36     100%            2,801        81%          1,082         74%
                              Principal and Interest   4,332,749       100%       679,985     100%      166,801,702        87%     27,581,095         79%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%             201        14%            106         21%
                              Loans                                0      0%              0      0%             648        19%            373         26%
                              Principal and Interest               0      0%              0      0%      23,636,575        12%      7,319,292         21%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%              1          0%                  0      0%
                              Loans                                0      0%              0      0%              3          0%                  0      0%
                              Principal and Interest               0      0%              0      0%        298,784          0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%              4          0%               1         0%
                              Loans                                0      0%              0      0%              7          0%               1         0%
                              Principal and Interest               0      0%              0      0%        213,239          0%           1,397         0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                          Page 1735
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                  African              Native
 State   Servicing Office   Decision           Average Days       Total       White              American             American            Asian            Hispanic
  VA ABINGDON               Approved   No. of Applications                8           8   100%              0   0%               0   0%           0   0%           0     0%
                                       Receipt to Completion                          6                     0                    0                0                0
                                       Completion to Approval                         3                     0                    0                0                0
                                       Approval to Loan Closing                       7                     0                    0                0                0

                            Rejected   No. of Applications                2        2      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      14                        0                    0                0               0
                                       Completion to Rejected                     44                        0                    0                0               0

                            Withdrawn No. of Applications                 1           1   100%              0   0%               0   0%           0   0%          0      0%
                                      Receipt to Completion                           0                     0                    0                0               0
                                      Completion to Withdrawn                         0                     0                    0                0               0

  VA   BUCKINGHAM           Approved   No. of Applications            29          26      90%           3       10%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      48                   21                        0                0               0
                                       Completion to Approval                     13                   13                        0                0               0
                                       Approval to Loan Closing                   30                   15                        0                0               0

                            Rejected   No. of Applications                3        3      100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      14                        0                    0                0               0
                                       Completion to Rejected                     60                        0                    0                0               0

                            Withdrawn No. of Applications             10           6      60%           4       40%              0   0%           0   0%          0      0%
                                      Receipt to Completion                        0                   83                        0                0               0
                                      Completion to Withdrawn                     28                   41                        0                0               0

  VA   COURTLAND            Approved   No. of Applications            49          43      88%           6       12%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      54                   39                        0                0               0
                                       Completion to Approval                     17                   42                        0                0               0
                                       Approval to Loan Closing                   36                   34                        0                0               0

                            Rejected   No. of Applications            16          13      81%           3       19%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      34                   32                        0                0               0
                                       Completion to Rejected                     18                   16                        0                0               0

                            Withdrawn No. of Applications                 9        5      56%           4       44%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       19                   22                        0                0               0
                                      Completion to Withdrawn                     45                    7                        0                0               0




Source: APPL Database
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1736
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African              Native
 State    Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  VA FRANKLIN                Approved   No. of Applications             17        16   94%           1       6%               0   0%           0   0%           0     0%
       (ROCKY MOUNT)                    Receipt to Completion                     91               168                        0                0                0
                                        Completion to Approval                    67                 5                        0                0                0
                                        Approval to Loan Closing                  20                13                        0                0                0

                             Rejected   No. of Applications             1         1    100%              0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                     0                      0                    0                0               0
                                        Completion to Rejected                    0                      0                    0                0               0

                             Withdrawn No. of Applications              6         5    83%           1       17%              0   0%           0   0%          0      0%
                                       Receipt to Completion                      0                 50                        0                0               0
                                       Completion to Withdrawn                    0                  0                        0                0               0

  VA   LUNENBURG             Approved   No. of Applications            20        16    80%           4       20%              0   0%           0   0%          0      0%
       (KENBRIDGE)                      Receipt to Completion                    17                 62                        0                0               0
                                        Completion to Approval                   33                 17                        0                0               0
                                        Approval to Loan Closing                 37                 57                        0                0               0

                             Rejected   No. of Applications             8         3    38%           5       63%              0   0%           0   0%          0      0%
                                        Receipt to Completion                    13                  4                        0                0               0
                                        Completion to Rejected                    1                 18                        0                0               0

                             Withdrawn No. of Applications              9         6    67%               3   33%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     25                      0                    0                0               0
                                       Completion to Withdrawn                   10                      0                    0                0               0

  VA   MARION                Approved   No. of Applications             4         4    100%              0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                    47                      0                    0                0               0
                                        Completion to Approval                   11                      0                    0                0               0
                                        Approval to Loan Closing                 73                      0                    0                0               0

                             Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                     0                      0                    0                0               0
                                        Completion to Rejected                    0                      0                    0                0               0

                             Withdrawn No. of Applications              1         1    100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      0                      0                    0                0               0
                                       Completion to Withdrawn                    0                      0                    0                0               0




Source: APPL Database
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1737
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                               African              Native
 State    Servicing Office   Decision           Average Days       Total     White            American             American            Asian            Hispanic
  VA PITTSYLVANIA            Approved   No. of Applications             19        18   95%           1       5%               0   0%           0   0%           0     0%
       (CHATHAM)                        Receipt to Completion                     42                 4                        0                0                0
                                        Completion to Approval                    12                23                        0                0                0
                                        Approval to Loan Closing                  37                21                        0                0                0

                             Rejected   No. of Applications             0         0     0%               0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                     0                      0                    0                0               0
                                        Completion to Rejected                    0                      0                    0                0               0

                             Withdrawn No. of Applications              0         0     0%               0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                      0                      0                    0                0               0
                                       Completion to Withdrawn                    0                      0                    0                0               0

  VA   VERONA                Approved   No. of Applications            37        37    100%              0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                    46                      0                    0                0               0
                                        Completion to Approval                   15                      0                    0                0               0
                                        Approval to Loan Closing                 66                      0                    0                0               0

                             Rejected   No. of Applications             2         2    100%              0   0%               0   0%           0   0%          0      0%
                                        Receipt to Completion                    15                      0                    0                0               0
                                        Completion to Rejected                   12                      0                    0                0               0

                             Withdrawn No. of Applications             16        16    100%              0   0%               0   0%           0   0%          0      0%
                                       Receipt to Completion                     16                      0                    0                0               0
                                       Completion to Withdrawn                   13                      0                    0                0               0

  VA   STATE                 Approved   No. of Applications           183       168    92%          15       8%               0   0%           0   0%          0      0%
                                        Receipt to Completion                    48                 48                        0                0               0
                                        Completion to Approval                   21                 26                        0                0               0
                                        Approval to Loan Closing                 40                 34                        0                0               0

                             Rejected   No. of Applications            32        24    75%           8       25%              0   0%           0   0%          0      0%
                                        Receipt to Completion                    24                 15                        0                0               0
                                        Completion to Rejected                   22                 17                        0                0               0

                             Withdrawn No. of Applications             52        40    77%          12       23%              0   0%           0   0%          0      0%
                                       Receipt to Completion                     13                 39                        0                0               0
                                       Completion to Withdrawn                   17                 16                        0                0               0




Source: APPL Database
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1738
                            Demographics         1740
                        FSA’s Loan Portfolio     1745
                        FSA’s Application data   1758




USDA/OIG-A/50801-4-Hq                                   1739
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American              Asian              Other                 Hispanic
                                          Total        Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        WA                Population       13,603         8,933    66%            29         0%         64      0%         90      1%         20          0%      4,467       33%
        Adams County      Borrowers             0             0     0%             0         0%          0      0%          0      0%          0          0%          0        0%
                          Farms               602           580    96%             0         0%          0      0%          0      0%         10          2%         12        2%
                          Land in Farms   996,742       993,439   100%             0         0%          0      0%          0      0%      1,136          0%      2,167        0%

        WA                Population       17,605        16,939    96%            37         0%        242      1%        103      1%              6      0%        278       2%
        Asotin County     Borrowers             1             1   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Farms               142           142   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms   274,546       274,546   100%             0         0%          0      0%          0      0%              0      0%          0       0%

        WA                Population      112,560        99,778    89%         1,054         1%        792      1%      2,196      2%        116          0%      8,624        8%
        Benton County     Borrowers            20            17    85%             0         0%          0      0%          1      5%          0          0%          2       10%
                          Farms             1,128         1,091    97%             0         0%          5      0%          4      0%         10          1%         18        2%
                          Land in Farms   640,370       640,202   100%             0         0%         56      0%          0      0%        112          0%          0        0%

        WA                Population       52,250        46,533    89%            75         0%        449      1%        369      1%         38          0%      4,786       9%
        Chelan County     Borrowers            65            65   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms             1,240         1,226    99%             0         0%          4      0%          0      0%          0          0%         10       1%
                          Land in Farms   112,085       111,346    99%             0         0%         72      0%          0      0%          0          0%        667       1%

        WA                Population       56,464        51,838     92%          302         1%      2,573      5%        587      1%         14          0%      1,150       2%
        Clallam County    Borrowers             2             1     50%            0         0%          0      0%          0      0%          1         50%          0       0%
                          Farms               328           316     96%            0         0%          4      1%          0      0%          0          0%          8       2%
                          Land in Farms    24,253        22,878     94%            0         0%         69      0%          0      0%          0          0%      1,306       5%

        WA                Population      238,053       221,552     93%        2,873         1%      2,129      1%      5,478      2%        149          0%      5,872       2%
        Clark County      Borrowers            14            13     93%            0         0%          0      0%          1      7%          0          0%          0       0%
                          Farms             1,257         1,237     98%            0         0%          4      0%          4      0%          0          0%         12       1%
                          Land in Farms    82,967        82,275     99%            0         0%        277      0%        184      0%          0          0%        231       0%

        WA                Population        4,024         3,515    87%                1      0%         26      1%         16      0%              3      0%        463       12%
        Columbia County   Borrowers             3             3   100%                0      0%          0      0%          0      0%              0      0%          0        0%
                          Farms               191           191   100%                0      0%          0      0%          0      0%              0      0%          0        0%
                          Land in Farms   304,928       304,928   100%                0      0%          0      0%          0      0%              0      0%          0        0%

        WA                Population       82,119        77,738    95%           282         0%      1,286      2%      1,095      1%         46          0%      1,672       2%
        Cowlitz County    Borrowers             4             4   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms               365           362    99%             0         0%          3      1%          0      0%          0          0%          0       0%
                          Land in Farms    35,678        35,678   100%             0         0%          0      0%          0      0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1740
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                White             African American Native American              Asian                  Other                 Hispanic
                                               Total        Number      Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
        WA                    Population        26,205        23,075     88%            41         0%        213      1%        147          1%          8          0%      2,721       10%
        Douglas County        Borrowers             39            34     87%             0         0%          0      0%          1          3%          0          0%          4       10%
                              Farms                888           873     98%             0         0%          0      0%          3          0%          4          0%          8        1%
                              Land in Farms    918,033       917,949    100%             0         0%          0      0%          0          0%         84          0%          0        0%

        WA                    Population         6,295         5,044     80%            20         0%      1,121     18%         23          0%              2      0%         85       1%
        Ferry County          Borrowers              4             2     50%             0         0%          2     50%          0          0%              0      0%          0       0%
                              Farms                193           174     90%             0         0%         19     10%          0          0%              0      0%          0       0%
                              Land in Farms    748,088       748,088    100%             0         0%          0      0%          0          0%              0      0%          0       0%

        WA                    Population        37,473        23,784      63%        1,251         3%        217      1%        805          2%        100          0%     11,316       30%
        Franklin County       Borrowers             78            70      90%            0         0%          1      1%          4          5%          1          1%          2        3%
                              Farms                857           809      94%            0         0%          3      0%          9          1%         10          1%         26        3%
                              Land in Farms    670,149       661,599      99%            0         0%          0      0%      2,745          0%          0          0%      5,805        1%

        WA                    Population         2,248         2,207     98%                0      0%         12      1%              7      0%              0      0%         22       1%
        Garfield County       Borrowers              9             9    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                              Farms                186           186    100%                0      0%          0      0%              0      0%              0      0%          0       0%
                              Land in Farms    325,472       325,472    100%                0      0%          0      0%              0      0%              0      0%          0       0%

        WA                    Population         54,758        43,580     80%          569         1%        529      1%        604          1%         49          0%      9,427       17%
        Grant County          Borrowers             123           114     93%            0         0%          1      1%          3          2%          0          0%          5        4%
                              Farms               1,696         1,619     95%            0         0%          8      0%         29          2%         12          1%         28        2%
                              Land in Farms   1,086,045     1,067,485     98%            0         0%          0      0%     11,715          1%      1,370          0%      5,475        1%

        WA                    Population        64,175        59,576     93%           116         0%      2,609      4%        682          1%         19          0%      1,173       2%
        Grays Harbor County   Borrowers             19            18     95%             0         0%          0      0%          0          0%          1          5%          0       0%
                              Farms                385           381     99%             0         0%          4      1%          0          0%          0          0%          0       0%
                              Land in Farms     44,742        44,742    100%             0         0%          0      0%          0          0%          0          0%          0       0%

        WA                    Population        60,195        53,871     89%         1,424         2%        461      1%      2,404          4%         29          0%      2,006       3%
        Island County         Borrowers              1             1    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                              Farms                278           278    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                              Land in Farms     19,526        19,526    100%             0         0%          0      0%          0          0%          0          0%          0       0%

        WA                    Population        20,146        19,070     95%            78         0%        557      3%        188          1%         12          0%        241       1%
        Jefferson County      Borrowers              0             0      0%             0         0%          0      0%          0          0%          0          0%          0       0%
                              Farms                116           116    100%             0         0%          0      0%          0          0%          0          0%          0       0%
                              Land in Farms      9,603         9,603    100%             0         0%          0      0%          0          0%          0          0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                             THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1741
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American           Asian               Other                 Hispanic
                                            Total        Number      Percent    Number    Percent   Number   Percent   Number    Percent   Number       Percent   Number   Percent
        WA                 Population      1,507,319     1,255,190    83%        74,669      5%     15,950      1%     115,643      8%      1,530          0%     44,337       3%
        King County        Borrowers              12            12   100%             0      0%          0      0%           0      0%          0          0%          0       0%
                           Farms               1,221         1,175    96%             3      0%          4      0%          33      3%          0          0%          6       0%
                           Land in Farms      42,290        41,540    98%             0      0%         24      0%         613      1%          0          0%        113       0%

        WA                 Population       189,731       167,850      88%        4,973      3%      2,991     2%        7,598      4%        150          0%      6,169       3%
        Kitsap County      Borrowers              1             0       0%            0      0%          1   100%            0      0%          0          0%          0       0%
                           Farms                366           351      96%            0      0%          0     0%            5      1%          3          1%          7       2%
                           Land in Farms     10,302        10,111      98%            0      0%          0     0%           87      1%         22          0%         82       1%

        WA                 Population        26,725        25,222     94%           147      1%        205      1%        460       2%              7      0%        684       3%
        Kittitas County    Borrowers             72            72    100%             0      0%          0      0%          0       0%              0      0%          0       0%
                           Farms                758           752     99%             3      0%          3      0%          0       0%              0      0%          0       0%
                           Land in Farms    355,360       355,321    100%            39      0%          0      0%          0       0%              0      0%          0       0%

        WA                 Population        16,616        14,955     90%            24      0%        570      3%        123       1%         16          0%        928       6%
        Klickitat County   Borrowers             24            23     96%             0      0%          0      0%          0       0%          0          0%          1       4%
                           Farms                508           497     98%             3      1%          0      0%          0       0%          3          1%          5       1%
                           Land in Farms    689,639       689,355    100%             0      0%          0      0%          0       0%          0          0%        284       0%

        WA                 Population        59,358        56,834     96%           182      0%        603      1%        358       1%         15          0%      1,366       2%
        Lewis County       Borrowers             44            44    100%             0      0%          0      0%          0       0%          0          0%          0       0%
                           Farms              1,067         1,057     99%             3      0%          0      0%          0       0%          0          0%          7       1%
                           Land in Farms    112,263       111,542     99%            69      0%          0      0%          0       0%          0          0%        652       1%

        WA                 Population          8,864         8,603    97%            12      0%        132      1%         32       0%              2      0%         83       1%
        Lincoln County     Borrowers              13            11    85%             0      0%          1      8%          0       0%              1      8%          0       0%
                           Farms                 708           701    99%             0      0%          3      0%          0       0%              0      0%          4       1%
                           Land in Farms   1,465,788     1,459,472   100%             0      0%          0      0%          0       0%              0      0%      6,316       0%

        WA                 Population        38,341        35,299     92%           308      1%      1,395      4%        437       1%         19          0%        883       2%
        Mason County       Borrowers              1             1    100%             0      0%          0      0%          0       0%          0          0%          0       0%
                           Farms                145           145    100%             0      0%          0      0%          0       0%          0          0%          0       0%
                           Land in Farms     10,965        10,965    100%             0      0%          0      0%          0       0%          0          0%          0       0%

        WA                 Population         33,350        26,892     81%           47      0%      3,438     10%         161      0%         33          0%      2,779       8%
        Okanogan County    Borrowers             126           114     90%            0      0%          1      1%           1      1%          1          1%          9       7%
                           Farms               1,344         1,292     96%            0      0%         22      2%           6      0%          8          1%         16       1%
                           Land in Farms   1,291,118     1,276,737     99%            0      0%          0      0%       1,490      0%        474          0%     12,417       1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1742
DEMOGRAPHICS OF STATES AND COUNTIES
                                                              White             African American Native American              Asian              Other                 Hispanic
                                              Total        Number     Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
        WA                    Population       18,882        17,431    92%            55         0%        489      3%        470      2%              4      0%        433       2%
        Pacific County        Borrowers            16            15    94%             0         0%          0      0%          1      6%              0      0%          0       0%
                              Farms               248           245    99%             0         0%          3      1%          0      0%              0      0%          0       0%
                              Land in Farms    32,637        32,594   100%             0         0%         43      0%          0      0%              0      0%          0       0%

        WA                    Population        8,915         8,564    96%            12         0%        194      2%         25      0%              0      0%        120       1%
        Pend Oreille County   Borrowers             6             6   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               205           205   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    55,360        55,360   100%             0         0%          0      0%          0      0%              0      0%          0       0%

        WA                    Population      586,203       488,396    83%        41,105         7%      7,725      1%     27,769      5%        646          0%     20,562       4%
        Pierce County         Borrowers             7             7   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,059         1,014    96%             0         0%          0      0%         32      3%          4          0%          9       1%
                              Land in Farms    58,750        56,641    96%             0         0%          0      0%      1,829      3%         32          0%        248       0%

        WA                    Population       10,035         9,728    97%            23         0%         77      1%         81      1%              5      0%        121       1%
        San Juan County       Borrowers             0             0     0%             0         0%          0      0%          0      0%              0      0%          0       0%
                              Farms               155           155   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms    20,529        20,529   100%             0         0%          0      0%          0      0%              0      0%          0       0%

        WA                    Population       79,555        72,420    91%           264         0%      1,656      2%        754      1%        126          0%      4,335       5%
        Skagit County         Borrowers            13            12    92%             0         0%          0      0%          0      0%          1          8%          0       0%
                              Farms               754           741    98%             0         0%          0      0%          7      1%          3          0%          3       0%
                              Land in Farms    92,074        92,074   100%             0         0%          0      0%          0      0%          0          0%          0       0%

        WA                    Population        8,289         7,868    95%                4      0%        195      2%         49      1%              1      0%        172       2%
        Skamania County       Borrowers             0             0     0%                0      0%          0      0%          0      0%              0      0%          0       0%
                              Farms                60            60   100%                0      0%          0      0%          0      0%              0      0%          0       0%
                              Land in Farms     4,043         4,043   100%                0      0%          0      0%          0      0%              0      0%          0       0%

        WA                    Population      465,642       428,056    92%         4,640         1%      6,071      1%     15,908      3%        311          0%     10,656       2%
        Snohomish County      Borrowers            20            20   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,255         1,225    98%             0         0%          7      1%          9      1%          4          0%         10       1%
                              Land in Farms    74,153        73,546    99%             0         0%        138      0%        157      0%         39          0%        273       0%

        WA                    Population      361,364       337,561    93%         4,972         1%      5,216      1%      6,352      2%        269          0%      6,994       2%
        Spokane County        Borrowers            23            23   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                              Farms             1,708         1,674    98%             3         0%          8      0%          9      1%          3          0%         11       1%
                              Land in Farms   625,769       624,626   100%             0         0%        353      0%        356      0%          0          0%        434       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                            THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                   Page 1743
DEMOGRAPHICS OF STATES AND COUNTIES
                                                                 White             African American Native American              Asian               Other                 Hispanic
                                                Total         Number     Percent    Number       Percent   Number   Percent   Number    Percent   Number       Percent   Number    Percent
        WA                   Population         30,948         28,475     92%            65         0%      1,738      6%        170       1%         17          0%        483       2%
        Stevens County       Borrowers              34             33     97%             0         0%          1      3%          0       0%          0          0%          0       0%
                             Farms               1,054          1,037     98%             0         0%         14      1%          0       0%          0          0%          3       0%
                             Land in Farms     546,303        546,303    100%             0         0%          0      0%          0       0%          0          0%          0       0%

        WA                   Population        161,238        145,367      90%        2,761         2%      2,314      1%       5,799      4%        124          0%       4,873       3%
        Thurston County      Borrowers               5              4      80%            0         0%          0      0%           0      0%          0          0%           1      20%
                             Farms                 811            795      98%            0         0%          5      1%           0      0%          0          0%          11       1%
                             Land in Farms      59,890         59,257      99%            0         0%        152      0%           0      0%          0          0%         481       1%

        WA                   Population           3,327         3,185     96%                3      0%         52      2%         15       0%              1      0%         71       2%
        Wahkiakum County     Borrowers               12            12    100%                0      0%          0      0%          0       0%              0      0%          0       0%
                             Farms                  110           110    100%                0      0%          0      0%          0       0%              0      0%          0       0%
                             Land in Farms       12,611        12,611    100%                0      0%          0      0%          0       0%              0      0%          0       0%

        WA                   Population         48,439         42,064     87%           697         1%        332      1%        599       1%         44          0%       4,703      10%
        Walla Walla County   Borrowers              22             21     95%             0         0%          1      5%          0       0%          0          0%           0       0%
                             Farms                 745            732     98%             0         0%          0      0%         10       1%          0          0%           3       0%
                             Land in Farms     710,546        710,546    100%             0         0%          0      0%          0       0%          0          0%           0       0%

        WA                   Population        127,780        117,213      92%          623         0%      3,839      3%       2,319      2%         68          0%       3,718      3%
        Whatcom County       Borrowers              98             95      97%            0         0%          0      0%           0      0%          1          1%           2      2%
                             Farms               1,367          1,326      97%            0         0%          3      0%          12      1%         10          1%          16      1%
                             Land in Farms     118,136        116,615      99%            0         0%        195      0%         783      1%          0          0%         543      0%

        WA                   Population          38,775         35,269     91%          477         1%        240      1%       2,085      5%         21          0%         683      2%
        Whitman County       Borrowers               13             12     92%            0         0%          0      0%           0      0%          1          8%           0      0%
                             Farms                1,113          1,106     99%            0         0%          0      0%           0      0%          0          0%           7      1%
                             Land in Farms    1,404,289      1,396,710     99%            0         0%          0      0%           0      0%          0          0%       7,579      1%

        WA                   Population         188,823        132,147     70%        1,785         1%      7,695      4%       1,667      1%        415          0%      45,114      24%
        Yakima County        Borrowers              109             98     90%            0         0%          2      2%           3      3%          1          1%           5       5%
                             Farms                3,651          3,345     92%            5         0%         46      1%          30      1%         96          3%         129       4%
                             Land in Farms    1,639,965      1,606,875     98%           49         0%          0      0%       3,468      0%      4,500          0%      25,073       2%

        WA                   Population       4,866,692      4,221,622     87%      146,000         3%     76,397      2%     203,668      4%      4,435          0%     214,570      4%
        STATE                Borrowers            1,053            987     94%            0         0%         11      1%          15      1%          9          1%          31      3%
                             Farms               30,264         29,321     97%           20         0%        172      1%         202      1%        180          1%         369      1%
                             Land in Farms   15,726,007     15,623,129     99%          157         0%      1,379      0%      23,427      0%      7,769          0%      70,146      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                              THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                      Page 1744
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ASOTIN, WASHINGTON                              BENTON, WASHINGTON                                 CHELAN, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       1                           0                    20                       10                       65                        12
                              Loans                           1                           0                    45                       15                      200                        31
                              Principal and Interest     35,923                           0             5,477,801                  656,092               13,348,401                   589,651

WHITE                         Borrowers                       1        100%               0      0%            17         85%            8       80%             65       100%             12        100%
                              Loans                           1        100%               0      0%            39         87%           13       87%            200       100%             31        100%
                              Principal and Interest     35,923        100%               0      0%     4,561,272         83%      470,949       72%     13,348,401       100%        589,651        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%            1           5%            1       10%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%            1           2%            1        7%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%      552,603          10%      185,143       28%                  0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 2     10%              1     10%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%                 5     11%              1      7%                  0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%      363,927           7%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1745
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CLALLAM, WASHINGTON                                CLARK, WASHINGTON                              COLUMBIA, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       2                          1                     14                        4                       3                          1
                              Loans                           2                          1                     26                       13                       6                          2
                              Principal and Interest    118,398                      5,461              2,582,494                  246,179                 470,451                      5,538

WHITE                         Borrowers                       1          50%             1    100%             13         93%            4     100%              3       100%               1       100%
                              Loans                           1          50%             1    100%             25         96%           13     100%              6       100%               2       100%
                              Principal and Interest     48,022          41%         5,461    100%      2,559,552         99%      246,179     100%        470,451       100%           5,538       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%             1          7%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1          4%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        22,942          1%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                       1          50%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                           1          50%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest     70,376          59%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1746
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       COWLITZ, N, WASHINGTON                            DOUGLAS, WASHINGTON                                 FERRY, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       4                          3                      39                        17                      4                         3
                              Loans                           8                          3                     151                        75                     15                        13
                              Principal and Interest    904,233                      8,760              12,395,629                 2,779,005              1,024,760                   246,742

WHITE                         Borrowers                       4        100%              3    100%              34         87%            16     94%              2         50%             2          67%
                              Loans                           8        100%              3    100%             140         93%            74     99%              9         60%             9          69%
                              Principal and Interest    904,233        100%          8,760    100%      10,884,966         88%     2,778,995    100%        467,987         46%        32,446          13%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  0      0%              0      0%                 2     50%                  1     33%
                              Loans                                0      0%              0      0%                  0      0%              0      0%             6         40%             4          31%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%       556,773         54%       214,297          87%

ASIAN                         Borrowers                            0      0%              0      0%             1           3%              1      6%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             4           3%              1      1%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%       591,405           5%             10      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  4     10%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  7      5%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%       919,258           7%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1747
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       FRANKLIN, WASHINGTON                             FRANKLIN, NW, WASHINGTON                           GARFIELD, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       39                       15                       39                        10                       9                              0
                              Loans                           73                       22                       93                        16                      18                              0
                              Principal and Interest   7,905,638                  433,594                9,437,952                   291,150               1,615,646                              0

WHITE                         Borrowers                       37         95%           15     100%              33          85%            8       80%             9       100%                   0      0%
                              Loans                           71         97%           22     100%              80          86%            9       56%            18       100%                   0      0%
                              Principal and Interest   7,621,082         96%      433,594     100%       7,731,945          82%      167,254       57%     1,615,646       100%                   0      0%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      3%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Loans                                1      1%              0      0%                   0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    273,275           3%              0      0%                   0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                       1           3%              0      0%              3           8%             1      10%                 0      0%                  0      0%
                              Loans                           1           1%              0      0%              7           8%             3      19%                 0      0%                  0      0%
                              Principal and Interest     11,281           0%              0      0%      1,001,707          11%        75,666      26%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%              1           3%             1      10%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%              4           4%             4      25%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        370,625           4%        48,230      17%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%              2           5%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%              2           2%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%        333,674           4%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1748
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        GRANT, PT, WASHINGTON                             GRANT, S, WASHINGTON                            GRAYS HARBOR, WASHINGTON
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        94                          0                    29                       10                       19                          9
                              Loans                           187                          0                    54                       16                       41                         14
                              Principal and Interest   18,351,669                          0             5,061,553                  262,406                4,838,737                    163,975
WHITE                         Borrowers                        87         93%              0      0%            27         93%           10     100%              18          95%             9        100%
                              Loans                           174         93%              0      0%            51         94%           16     100%              39          95%            14        100%
                              Principal and Interest   17,093,311         93%              0      0%     4,980,334         98%      262,406     100%       3,217,843          67%       163,975        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
NATIVE AMERICAN               Borrowers                        1           1%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                            4           2%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest     380,566           2%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
ASIAN                         Borrowers                        3           3%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Loans                            6           3%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
                              Principal and Interest     506,580           3%              0      0%                 0      0%              0      0%                   0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%              1           5%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%              2           5%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%      1,620,894          33%                  0      0%
HISPANIC                      Borrowers                        3           3%              0      0%             2          7%              0      0%                   0      0%                  0      0%
                              Loans                            3           2%              0      0%             3          6%              0      0%                   0      0%                  0      0%
                              Prinicpal and Interest     371,212           2%              0      0%        81,219          2%              0      0%                   0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1749
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         ISLAND, WASHINGTON                               KING,N, WASHINGTON                                KING,S, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        1                          0                     6                         3                      6                         2
                              Loans                            1                          0                     9                         5                      9                         3
                              Principal and Interest       9,960                          0             1,439,363                    62,277              1,361,847                    48,881

WHITE                         Borrowers                        1       100%               0      0%             6       100%              3    100%              6       100%              2        100%
                              Loans                            1       100%               0      0%             9       100%              5    100%              9       100%              3        100%
                              Principal and Interest       9,960       100%               0      0%     1,439,363       100%         62,277    100%      1,361,847       100%         48,881        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1750
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         KITSAP, WASHINGTON                              KITTITAS, WASHINGTON                             KLICKITAT, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       1                           0                     72                        25                     24                         5
                              Loans                           1                           0                    171                        69                     46                         8
                              Principal and Interest    764,346                           0             16,792,454                 1,270,085              4,458,967                    90,722

WHITE                         Borrowers                            0      0%              0      0%             72       100%             25    100%             23         96%             5        100%
                              Loans                                0      0%              0      0%            171       100%             69    100%             43         93%             8        100%
                              Principal and Interest               0      0%              0      0%     16,792,454       100%      1,270,085    100%      4,389,168         98%        90,722        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1   100%               0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                           1        100%               0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    764,346        100%               0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 1      4%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 3      7%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%        69,799          2%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1751
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          LEWIS, WASHINGTON                              LINCOLN, WASHINGTON                             MASON,W, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       44                         16                     13                         1                         1                          1
                              Loans                          114                         45                     24                         1                         2                          2
                              Principal and Interest   9,181,419                 1,097,549              1,364,168                     1,264                150,899                      7,623

WHITE                         Borrowers                       44       100%             16    100%             11         85%              0      0%             1       100%               1       100%
                              Loans                          114       100%             45    100%             15         63%              0      0%             2       100%               2       100%
                              Principal and Interest   9,181,419       100%      1,097,549    100%      1,170,550         86%              0      0%       150,899       100%           7,623       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%            1           8%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%            6          25%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%      114,671           8%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%             1          8%             1    100%                  0      0%                  0      0%
                              Loans                                0      0%              0      0%             3         13%             1    100%                  0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        78,947          6%         1,264    100%                  0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1752
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       OKANOGAN, WASHINGTON                               PACIFIC, WASHINGTON                             PEND OREILLE, WASHINGTON
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       126                        46                     16                         5                       6                          1
                              Loans                           373                       146                     39                         7                       7                          1
                              Principal and Interest   20,578,621                 2,149,327              2,690,945                    23,678                 328,137                      2,186

WHITE                         Borrowers                       114         90%            42      91%            15        94%              5    100%               6       100%               1       100%
                              Loans                           349         94%           137      94%            35        90%              7    100%               7       100%               1       100%
                              Principal and Interest   18,617,811         90%     2,014,278      94%     2,677,722       100%         23,678    100%         328,137       100%           2,186       100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                  0      0%                  0      0%

NATIVE AMERICAN               Borrowers                        1           1%             1       2%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            2           1%             2       1%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest     206,663           1%        17,374       1%                 0      0%              0      0%                  0      0%                  0      0%

ASIAN                         Borrowers                        1           1%              0      0%             1          6%              0      0%                  0      0%                  0      0%
                              Loans                            1           0%              0      0%             4         10%              0      0%                  0      0%                  0      0%
                              Principal and Interest     110,551           1%              0      0%        13,223          0%              0      0%                  0      0%                  0      0%

OTHER                         Borrowers                        1           1%             1       2%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            2           1%             2       1%                 0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest      61,993           0%         5,138       0%                 0      0%              0      0%                  0      0%                  0      0%

HISPANIC                      Borrowers                         9          7%            2        4%                 0      0%              0      0%                  0      0%                  0      0%
                              Loans                            19          5%            5        3%                 0      0%              0      0%                  0      0%                  0      0%
                              Prinicpal and Interest    1,581,603          8%      112,537        5%                 0      0%              0      0%                  0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1753
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PIERCE,SE, WASHINGTON                             SKAGIT, WASHINGTON                              SNOHOMISH, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        7                        2                      13                        3                      20                         8
                              Loans                           14                        7                      27                        8                      36                         9
                              Principal and Interest   1,629,983                  668,683               3,804,716                  315,618               3,981,098                    89,732

WHITE                         Borrowers                        7       100%             2     100%             12         92%            3     100%             20       100%              8        100%
                              Loans                           14       100%             7     100%             26         96%            8     100%             36       100%              9        100%
                              Principal and Interest   1,629,983       100%       668,683     100%      3,770,710         99%      315,618     100%      3,981,098       100%         89,732        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%             1          8%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1          4%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        34,006          1%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1754
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SPOKANE, WASHINGTON                              STEVENS, WASHINGTON                             THURSTON, WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       23                         5                     34                        15                      5                         2
                              Loans                           36                         5                    102                        37                      9                         4
                              Principal and Interest   2,672,465                    35,786              7,679,965                 1,089,656                730,456                    17,114

WHITE                         Borrowers                       23       100%              5    100%             33         97%            14      93%             4         80%              1         50%
                              Loans                           36       100%              5    100%             99         97%            36      97%             7         78%              2         50%
                              Principal and Interest   2,672,465       100%         35,786    100%      7,505,243         98%     1,074,266      99%       578,732         79%          5,576         33%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 1      3%              1      7%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%            3           3%             1       3%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%      174,722           2%        15,390       1%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 1     20%                  1     50%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 2     22%                  2     50%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%       151,723         21%        11,538          67%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                 Page 1755
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WAHKIAKUM, WASHINGTON                             WALLA WALLA, WASHINGTON                             WHATCOM, WASHINGTON
                                                        Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       12                          3                      22                        10                       98                        20
                              Loans                           34                          4                      65                        26                      263                        63
                              Principal and Interest   1,371,017                        500               5,249,816                   217,716               21,627,389                   698,928
WHITE                         Borrowers                       12        100%              3    100%              21          95%            9       90%             95         97%            19          95%
                              Loans                           34        100%              4    100%              60          92%           21       81%            259         98%            61          97%
                              Principal and Interest   1,371,017        100%            500    100%       4,590,639          87%      201,775       93%     19,446,811         90%       662,821          95%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%              1           5%             1      10%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%              5           8%             5      19%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%        659,177          13%        15,941       7%                  0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%                  0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                   0      0%              0      0%              1          1%             1           5%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%              2          1%             2           3%
                              Principal and Interest                0      0%              0      0%                   0      0%              0      0%      1,891,499          9%        36,106           5%
HISPANIC                      Borrowers                             0      0%              0      0%                   0      0%              0      0%                  2      2%                  0      0%
                              Loans                                 0      0%              0      0%                   0      0%              0      0%              2          1%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                   0      0%              0      0%        289,079          1%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1756
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WHITMAN, WASHINGTON                                YAKIMA, WASHINGTON                                 STATE OF WASHINGTON
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent     Portfolio        Percent   Delinquent       Percent
TOTAL                         Borrowers                       13                         1                     109                        37                    1,053                         306
                              Loans                           20                         3                     208                        70                    2,530                         744
                              Principal and Interest   1,991,018                    23,342              26,725,291                 1,682,457              220,153,625                  15,281,677

WHITE                         Borrowers                       12         92%             1    100%              98         90%            34      92%             987          94%            288         94%
                              Loans                           18         90%             3    100%             192         92%            66      94%           2,398          95%            706         95%
                              Principal and Interest   1,934,069         97%        23,342    100%      17,969,989         67%     1,648,317      98%     197,111,054          90%     14,508,903         95%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                    0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                    0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                    0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  2      2%              2      5%                   11      1%                  6      2%
                              Loans                                0      0%              0      0%             2           1%             2       3%              30           1%            14           2%
                              Principal and Interest               0      0%              0      0%       117,470           0%        20,929       1%       3,247,663           1%       283,931           2%

ASIAN                         Borrowers                            0      0%              0      0%             3           3%             1       3%              15           1%             4           1%
                              Loans                                0      0%              0      0%             4           2%             2       3%              29           1%             7           1%
                              Principal and Interest               0      0%              0      0%       645,856           2%        13,211       1%       3,456,148           2%       274,030           2%

OTHER                         Borrowers                       1           8%              0      0%              1          1%              0      0%               9           1%             4           1%
                              Loans                           2          10%              0      0%              3          1%              0      0%              20           1%             9           1%
                              Principal and Interest     56,949           3%              0      0%      7,489,536         28%              0      0%      11,674,825           5%        90,738           1%

HISPANIC                      Borrowers                            0      0%              0      0%                  5      5%              0      0%                   31      3%                  4      1%
                              Loans                                0      0%              0      0%                  7      3%              0      0%                   53      2%                  8      1%
                              Prinicpal and Interest               0      0%              0      0%       502,438           2%              0      0%       4,663,932           2%       124,075           1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1757
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American            Asian             Hispanic
 WA CHELAN                Approved   No. of Applications             21        17   81%               0   0%              0   0%        3      14%           1     5%
                                     Receipt to Completion                     22                     0                   0            28                  23
                                     Completion to Approval                    42                     0                   0            39                  31
                                     Approval to Loan Closing                  11                     0                   0             9                  11

                          Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                     0                      0                   0                0                0
                                     Completion to Rejected                    0                      0                   0                0                0

                          Withdrawn No. of Applications              6         4    67%               0   0%              0   0%           0   0%           2     33%
                                    Receipt to Completion                     13                      0                   0                0               11
                                    Completion to Withdrawn                   25                      0                   0                0               30

 WA    FRANKLIN           Approved   No. of Applications            18        18    100%              0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                    42                      0                   0                0                0
                                     Completion to Approval                   11                      0                   0                0                0
                                     Approval to Loan Closing                 11                      0                   0                0                0

                          Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                     0                      0                   0                0                0
                                     Completion to Rejected                    0                      0                   0                0                0

                          Withdrawn No. of Applications              7         6    86%               0   0%              0   0%        1      14%          0      0%
                                    Receipt to Completion                      0                      0                   0            64                   0
                                    Completion to Withdrawn                    0                      0                   0            90                   0

 WA    GRANT              Approved   No. of Applications            21        20    95%               0   0%              0   0%           0   0%           1      5%
                                     Receipt to Completion                    75                      0                   0                0                9
                                     Completion to Approval                    6                      0                   0                0                6
                                     Approval to Loan Closing                 23                      0                   0                0                1

                          Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%           0      0%
                                     Receipt to Completion                     0                      0                   0                0                0
                                     Completion to Rejected                    0                      0                   0                0                0

                          Withdrawn No. of Applications              8         7    88%               0   0%              0   0%           0   0%           1     13%
                                    Receipt to Completion                     12                      0                   0                0                0
                                    Completion to Withdrawn                    7                      0                   0                0                0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1758
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
 State Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
 WA LEWIS                 Approved   No. of Applications                0           0    0%               0   0%              0   0%            0   0%           0     0%
                                     Receipt to Completion                          0                     0                   0                 0                0
                                     Completion to Approval                         0                     0                   0                 0                0
                                     Approval to Loan Closing                       0                     0                   0                 0                0

                          Rejected   No. of Applications                3        2      67%               0   0%              0   0%            0   0%          1     33%
                                     Receipt to Completion                       0                        0                   0                 0             175
                                     Completion to Rejected                     25                        0                   0                 0              42

                          Withdrawn No. of Applications                 5           5   100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                 0               0
                                    Completion to Withdrawn                         0                     0                   0                 0               0

 WA    OKANOGAN           Approved   No. of Applications            19          10      53%               0   0%          1       5%         1      5%          7     37%
                                     Receipt to Completion                      14                        0              75                 31                 46
                                     Completion to Approval                      6                        0              14                  3                  8
                                     Approval to Loan Closing                   15                        0              17                 18                 53

                          Rejected   No. of Applications                2           2   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                          0                     0                   0                 0               0
                                     Completion to Rejected                         0                     0                   0                 0               0

                          Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                 0               0
                                    Completion to Withdrawn                         0                     0                   0                 0               0

 WA    SPOKANE            Approved   No. of Applications                3        2      67%               0   0%              1   33%           0   0%          0      0%
                                     Receipt to Completion                      40                        0                   3                 0               0
                                     Completion to Approval                      3                        0                   4                 0               0
                                     Approval to Loan Closing                    7                        0                   7                 0               0

                          Rejected   No. of Applications                2        2      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      56                        0                   0                 0               0
                                     Completion to Rejected                    100                        0                   0                 0               0

                          Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                 0               0
                                    Completion to Withdrawn                         0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1759
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American             Asian            Hispanic
 WA WHATCOM               Approved   No. of Applications             13        13   100%              0   0%              0   0%            0   0%           0     0%
                                     Receipt to Completion                     28                     0                   0                 0                0
                                     Completion to Approval                    12                     0                   0                 0                0
                                     Approval to Loan Closing                  21                     0                   0                 0                0

                          Rejected   No. of Applications             2         2    100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     7                      0                   0                 0               0
                                     Completion to Rejected                   25                      0                   0                 0               0

                          Withdrawn No. of Applications              5         5    100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                      0                      0                   0                 0               0
                                    Completion to Withdrawn                    0                      0                   0                 0               0

 WA    YAKIMA             Approved   No. of Applications            25        19    76%               0   0%              0   0%            0   0%          6     24%
                                     Receipt to Completion                    42                      0                   0                 0              49
                                     Completion to Approval                   40                      0                   0                 0             162
                                     Approval to Loan Closing                 11                      0                   0                 0              20

                          Rejected   No. of Applications            10         8    80%               0   0%              0   0%            0   0%          2     20%
                                     Receipt to Completion                    26                      0                   0                 0              38
                                     Completion to Rejected                   39                      0                   0                 0              21

                          Withdrawn No. of Applications             28        14    50%               0   0%          4       14%           0   0%         10     36%
                                    Receipt to Completion                     32                      0              21                     0               3
                                    Completion to Withdrawn                   13                      0             140                     0              13

 WA    STATE              Approved   No. of Applications           120        99    83%               0   0%          2       2%         4      3%         15     13%
                                     Receipt to Completion                    41                      0              39                 29                 43
                                     Completion to Approval                   20                      0               9                 30                 71
                                     Approval to Loan Closing                 15                      0              12                 11                 34

                          Rejected   No. of Applications            22        19    86%               0   0%              0   0%            0   0%          3     14%
                                     Receipt to Completion                    18                      0                   0                 0              84
                                     Completion to Rejected                   32                      0                   0                 0              28

                          Withdrawn No. of Applications             64        46    72%               0   0%          4       6%         1      2%         13     20%
                                    Receipt to Completion                     13                      0              21                 64                  4
                                    Completion to Withdrawn                    7                      0             140                 90                 15




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                  Page 1760
                            Demographics         1762
                        FSA’s Loan Portfolio     1769
                        FSA’s Application data   1787




USDA/OIG-A/50801-4-Hq                                   1761
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         WV                Population       15,699       15,257     97%            147         1%        160          1%         35          0%         11          0%         89       1%
         Barbour County    Borrowers            18           18    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               430          430    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    76,080       76,080    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         WV                Population       59,253       56,274     95%          2,191         4%         85          0%        276          0%         28          0%        399       1%
         Berkeley County   Borrowers            33           32     97%              0         0%          0          0%          0          0%          1          3%          0       0%
                           Farms               473          473    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    73,430       73,430    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         WV                Population       25,870       25,552     99%            214         1%         29          0%         19          0%              8      0%         48       0%
         Boone County      Borrowers             1            1    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms                36           36    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms     2,531        2,531    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         WV                Population       12,998       12,872     99%             46         0%         17          0%         23          0%              3      0%         37       0%
         Braxton County    Borrowers            15           15    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Farms               292          292    100%              0         0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    73,407       73,407    100%              0         0%          0          0%          0          0%              0      0%          0       0%

         WV                Population       26,992       26,605     99%            201         1%         29          0%         60          0%         12          0%         85       0%
         Brooke County     Borrowers             5            5    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms                80           80    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    12,175       12,175    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         WV                Population       96,827       91,760     95%          3,961         4%        108          0%        519          1%         37          0%        442       0%
         Cabell County     Borrowers             6            6    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Farms               327          327    100%              0         0%          0          0%          0          0%          0          0%          0       0%
                           Land in Farms    35,587       35,587    100%              0         0%          0          0%          0          0%          0          0%          0       0%

         WV                Population        7,885        7,818     99%                 2      0%         14          0%         30          0%              3      0%         18       0%
         Calhoun County    Borrowers            29           29    100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Farms               162          162    100%                 0      0%          0          0%          0          0%              0      0%          0       0%
                           Land in Farms    34,919       34,919    100%                 0      0%          0          0%          0          0%              0      0%          0       0%

         WV                Population        9,983        9,955    100%                 1      0%              7      0%              6      0%              0      0%         14       0%
         Clay County       Borrowers             8            8    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                           Farms                91           91    100%                 0      0%              0      0%              0      0%              0      0%          0       0%
                           Land in Farms    14,868       14,868    100%                 0      0%              0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1762
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number   Percent
         WV                  Population        6,994         6,941    99%                 2      0%         31          0%              8      0%              0      0%         12       0%
         Doddridge County    Borrowers            24            24   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                             Farms               261           261   100%                 0      0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms    59,184        59,184   100%                 0      0%          0          0%              0      0%              0      0%          0       0%

         WV                  Population       47,952        44,491    93%          3,009         6%         56          0%        137          0%              7      0%        252       1%
         Fayette County      Borrowers            18            18   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               170           170   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms    20,455        20,455   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         WV                  Population        7,669         7,573    99%             32         0%              8      0%         31          0%              1      0%         24       0%
         Gilmer County       Borrowers            19            19   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                             Farms               220           220   100%              0         0%              0      0%          0          0%              0      0%          0       0%
                             Land in Farms    52,748        52,748   100%              0         0%              0      0%          0          0%              0      0%          0       0%

         WV                  Population       10,428        10,240    98%            106         1%         22          0%         19          0%              6      0%         35       0%
         Grant County        Borrowers            28            28   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               355           355   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   106,325       106,325   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         WV                  Population       34,693        33,187    96%          1,265         4%         42          0%         58          0%              4      0%        137       0%
         Greenbrier County   Borrowers            87            86    99%              1         1%          0          0%          0          0%              0      0%          0       0%
                             Farms               705           702   100%              3         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms   179,736       179,442   100%            294         0%          0          0%          0          0%              0      0%          0       0%

         WV                  Population       16,498        16,249    98%            109         1%         30          0%         16          0%              1      0%         93       1%
         Hampshire County    Borrowers            14            14   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms               547           543    99%              0         0%          0          0%          0          0%              0      0%          4       1%
                             Land in Farms   135,577       134,805    99%              0         0%          0          0%          0          0%              0      0%        772       1%

         WV                  Population       35,233        33,975    96%            899         3%         40          0%        112          0%              8      0%        199       1%
         Hancock County      Borrowers             0             0     0%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Farms                75            75   100%              0         0%          0          0%          0          0%              0      0%          0       0%
                             Land in Farms     7,710         7,710   100%              0         0%          0          0%          0          0%              0      0%          0       0%

         WV                  Population       10,977        10,694    97%            209         2%         13          0%              5      0%              1      0%         55       1%
         Hardy County        Borrowers            36            35    97%              0         0%          0          0%              0      0%              1      3%          0       0%
                             Farms               486           486   100%              0         0%          0          0%              0      0%              0      0%          0       0%
                             Land in Farms   141,742       141,742   100%              0         0%          0          0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                Page 1763
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American               Asian              Other                 Hispanic
                                            Total        Number     Percent     Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
         WV                 Population       69,371        67,318    97%            965         1%         87      0%        170      0%         14          0%        817       1%
         Harrison County    Borrowers            86            85    99%              0         0%          0      0%          0      0%          1          1%          0       0%
                            Farms               537           532    99%              0         0%          0      0%          0      0%          0          0%          5       1%
                            Land in Farms    88,571        88,282   100%              0         0%          0      0%          0      0%          0          0%        289       0%

         WV                 Population       25,938        25,765    99%             15         0%         36      0%         57      0%              0      0%         65       0%
         Jackson County     Borrowers            34            34   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms               630           625    99%              0         0%          0      0%          0      0%              0      0%          5       1%
                            Land in Farms   101,214       100,954   100%              0         0%          0      0%          0      0%              0      0%        260       0%

         WV                 Population       35,926        32,656    91%          2,632         7%         54      0%        137      0%         19          0%        428       1%
         Jefferson County   Borrowers            47            46    98%              1         2%          0      0%          0      0%          0          0%          0       0%
                            Farms               334           334   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    74,268        74,268   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         WV                 Population      207,619       191,383    92%         13,737         7%        233      0%      1,267      1%        102          0%        897       0%
         Kanawha County     Borrowers             0             0     0%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Farms               158           158   100%              0         0%          0      0%          0      0%          0          0%          0       0%
                            Land in Farms    19,956        19,956   100%              0         0%          0      0%          0      0%          0          0%          0       0%

         WV                 Population       17,223        17,038    99%             48         0%         24      0%         43      0%              3      0%         67       0%
         Lewis County       Borrowers            18            17    94%              0         0%          1      6%          0      0%              0      0%          0       0%
                            Farms               336           336   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    81,096        81,096   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         WV                 Population       21,382        21,296   100%                 6      0%         16      0%         16      0%              0      0%         48       0%
         Lincoln County     Borrowers            22            22   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Farms               267           267   100%                 0      0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms    30,015        30,015   100%                 0      0%          0      0%          0      0%              0      0%          0       0%

         WV                 Population       43,032        41,167    96%          1,355         3%         46      0%        177      0%              6      0%        281       1%
         Logan County       Borrowers             0             0     0%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms                19            19   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     3,113         3,113   100%              0         0%          0      0%          0      0%              0      0%          0       0%

         WV                 Population       35,233        30,258    86%          4,732        13%         33      0%         26      0%              2      0%        182       1%
         McDowell County    Borrowers             1             1   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Farms                 9             9   100%              0         0%          0      0%          0      0%              0      0%          0       0%
                            Land in Farms     1,088         1,088   100%              0         0%          0      0%          0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1764
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American            Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number    Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
         WV                  Population       57,249        54,804    96%          1,849      3%        121      0%        148          0%         16          0%        311       1%
         Marion County       Borrowers            19            19   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               331           331   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    40,837        40,837   100%              0      0%          0      0%          0          0%          0          0%          0       0%

         WV                  Population       37,356        36,800    99%            203      1%         32      0%         82          0%         10          0%        229       1%
         Marshall County     Borrowers            50            47    94%              0      0%          2      4%          1          2%          0          0%          0       0%
                             Farms               413           413   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    64,332        64,332   100%              0      0%          0      0%          0          0%          0          0%          0       0%

         WV                  Population       25,178        24,901    99%            112      0%         26      0%         80          0%              6      0%         53       0%
         Mason County        Borrowers            40            40   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               709           709   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms   117,168       117,168   100%              0      0%          0      0%          0          0%              0      0%          0       0%

         WV                  Population       64,980        60,198    93%          4,121      6%         81      0%        298          0%         13          0%        269       0%
         Mercer County       Borrowers            10            10   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Farms               495           495   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    56,555        56,555   100%              0      0%          0      0%          0          0%          0          0%          0       0%

         WV                  Population       26,697        25,795    97%            721      3%         12      0%         61          0%              7      0%        101       0%
         Mineral County      Borrowers             7             7   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms               316           316   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms    74,760        74,760   100%              0      0%          0      0%          0          0%              0      0%          0       0%

         WV                  Population       33,739        32,706    97%            822      2%         21      0%         62          0%              4      0%        124       0%
         Mingo County        Borrowers             1             1   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Farms                 9             9   100%              0      0%          0      0%          0          0%              0      0%          0       0%
                             Land in Farms       258           258   100%              0      0%          0      0%          0          0%              0      0%          0       0%

         WV                  Population       75,509        71,325    94%          1,811      2%        118      0%      1,573          2%         45          0%        637       1%
         Monongalia County   Borrowers            23            22    96%              0      0%          0      0%          0          0%          0          0%          1       4%
                             Farms               404           404   100%              0      0%          0      0%          0          0%          0          0%          0       0%
                             Land in Farms    54,622        54,622   100%              0      0%          0      0%          0          0%          0          0%          0       0%

         WV                  Population       12,406        12,173    98%            159      1%         25      0%              8      0%              0      0%         41       0%
         Monroe County       Borrowers            64            63    98%              1      2%          0      0%              0      0%              0      0%          0       0%
                             Farms               606           606   100%              0      0%          0      0%              0      0%              0      0%          0       0%
                             Land in Farms   148,842       148,842   100%              0      0%          0      0%              0      0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1765
DEMOGRAPHICS OF STATES AND COUNTIES
                                                             White             African American Native American                   Asian                  Other                 Hispanic
                                             Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         WV                  Population       12,128        11,944    98%             91         1%         21          0%         18          0%              4      0%         50          0%
         Morgan County       Borrowers             2             2   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               134           134   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    21,871        21,871   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV                  Population       26,775        26,629    99%                 4      0%         32          0%         51          0%              2      0%         57          0%
         Nicholas County     Borrowers            13            13   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                             Farms               282           282   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    33,085        33,085   100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         WV                  Population       50,871        48,665    96%          1,683         3%         31          0%        329          1%         17          0%        146          0%
         Ohio County         Borrowers            11            11   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Farms               127           127   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                             Land in Farms    21,164        21,164   100%              0         0%          0          0%          0          0%          0          0%          0          0%

         WV                  Population        8,054         7,849    97%            165         2%              1      0%         12          0%              0      0%         27          0%
         Pendleton County    Borrowers            32            30    94%              2         6%              0      0%          0          0%              0      0%          0          0%
                             Farms               562           559    99%              3         1%              0      0%          0          0%              0      0%          0          0%
                             Land in Farms   178,160       177,821   100%            339         0%              0      0%          0          0%              0      0%          0          0%

         WV                  Population        7,546         7,505    99%             17         0%              7      0%              2      0%              6      0%              9      0%
         Pleasants County    Borrowers             5             4    80%              0         0%              0      0%              0      0%              1     20%              0      0%
                             Farms               111           111   100%              0         0%              0      0%              0      0%              0      0%              0      0%
                             Land in Farms    15,650        15,650   100%              0         0%              0      0%              0      0%              0      0%              0      0%

         WV                  Population        9,008         8,892    99%             69         1%         13          0%              3      0%              0      0%         31          0%
         Pocahontas County   Borrowers            18            18   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Farms               355           355   100%              0         0%          0          0%              0      0%              0      0%          0          0%
                             Land in Farms   115,487       115,487   100%              0         0%          0          0%              0      0%              0      0%          0          0%

         WV                  Population       29,037        28,829    99%             73         0%         26          0%         29          0%              3      0%         77          0%
         Preston County      Borrowers            49            49   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               799           795    99%              0         0%          0          0%          0          0%              0      0%          4          1%
                             Land in Farms   138,688       138,125   100%              0         0%          0          0%          0          0%              0      0%        563          0%

         WV                  Population       42,835        42,373    99%            126         0%         50          0%        140          0%              1      0%        145          0%
         Putnam County       Borrowers            26            26   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Farms               443           443   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                             Land in Farms    55,827        55,827   100%              0         0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1766
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         WV                Population       76,819        70,117    91%          5,862         8%         93          0%        403          1%         24          0%        320          0%
         Raleigh County    Borrowers             8             8   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Farms               237           237   100%              0         0%          0          0%          0          0%          0          0%          0          0%
                           Land in Farms    32,633        32,633   100%              0         0%          0          0%          0          0%          0          0%          0          0%

         WV                Population       27,803        27,328    98%            222         1%         33          0%         73          0%              3      0%        144          1%
         Randolph County   Borrowers            17            17   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               362           362   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms   104,194       104,194   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV                Population       10,233        10,205   100%                 7      0%              4      0%              9      0%              1      0%              7      0%
         Ritchie County    Borrowers            35            35   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Farms               308           308   100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                           Land in Farms    70,960        70,960   100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         WV                Population       15,120        15,027    99%                 4      0%         23          0%         28          0%              1      0%         37          0%
         Roane County      Borrowers            45            38    84%                 0      0%          6         13%          0          0%              1      2%          0          0%
                           Farms               437           437   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    82,154        82,154   100%                 0      0%          0          0%          0          0%              0      0%          0          0%

         WV                Population       14,204        13,228    93%            698         5%         33          0%         31          0%              3      0%        211          1%
         Summers County    Borrowers             6             6   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               325           325   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    57,717        57,717   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV                Population       15,144        14,939    99%             95         1%         18          0%         27          0%              1      0%         64          0%
         Taylor County     Borrowers             9             9   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Farms               256           256   100%              0         0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    41,830        41,830   100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV                Population        7,728         7,688    99%                 4      0%              6      0%         13          0%              1      0%         16          0%
         Tucker County     Borrowers             4             4   100%                 0      0%              0      0%          0          0%              0      0%          0          0%
                           Farms               169           169   100%                 0      0%              0      0%          0          0%              0      0%          0          0%
                           Land in Farms    32,093        32,093   100%                 0      0%              0      0%          0          0%              0      0%          0          0%

         WV                Population        9,796         9,740    99%                 4      0%         16          0%         14          0%              0      0%         22          0%
         Tyler County      Borrowers            19            18    95%                 0      0%          1          5%          0          0%              0      0%          0          0%
                           Farms               238           238   100%                 0      0%          0          0%          0          0%              0      0%          0          0%
                           Land in Farms    47,366        47,366   100%                 0      0%          0          0%          0          0%              0      0%          0          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1767
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American                   Asian                  Other                 Hispanic
                                           Total        Number     Percent     Number       Percent   Number       Percent   Number       Percent   Number       Percent   Number       Percent
         WV               Population        22,867       22,540     99%            118         1%         41          0%         56          0%              0      0%        112          0%
         Upshur County    Borrowers             17           17    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Farms                407          407    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms     58,678       58,678    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV               Population        41,636       41,382     99%             19         0%         73          0%         47          0%              1      0%        114          0%
         Wayne County     Borrowers             12           12    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Farms                172          172    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms     28,622       28,622    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV               Population        10,729       10,676    100%                 3      0%              8      0%              8      0%              5      0%         29          0%
         Webster County   Borrowers              2            2    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                          Farms                 93           93    100%                 0      0%              0      0%              0      0%              0      0%          0          0%
                          Land in Farms      9,335        9,335    100%                 0      0%              0      0%              0      0%              0      0%          0          0%

         WV               Population        19,258       19,154     99%             16         0%         12          0%         39          0%              0      0%         37          0%
         Wetzel County    Borrowers             10           10    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Farms                199          199    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms     37,130       37,130    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV               Population         5,192        5,181    100%                 4      0%              0      0%              4      0%              0      0%              3      0%
         Wirt County      Borrowers             14           14    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                          Farms                195          195    100%                 0      0%              0      0%              0      0%              0      0%              0      0%
                          Land in Farms     35,836       35,836    100%                 0      0%              0      0%              0      0%              0      0%              0      0%

         WV               Population        86,915       85,378     98%            786         1%        127          0%        332          0%         38          0%        254          0%
         Wood County      Borrowers             15           15    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                          Farms                468          468    100%              0         0%          0          0%          0          0%          0          0%          0          0%
                          Land in Farms     59,846       59,846    100%              0         0%          0          0%          0          0%          0          0%          0          0%

         WV               Population        28,990       28,601     99%            234         1%         39          0%         25          0%              3      0%         88          0%
         Wyoming County   Borrowers              1            1    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Farms                 58           58    100%              0         0%          0          0%          0          0%              0      0%          0          0%
                          Land in Farms      5,693        5,693    100%              0         0%          0          0%          0          0%              0      0%          0          0%

         WV               Population      1,793,477    1,718,896    96%         55,986         3%      2,363          0%      7,252          0%        491          0%      8,489          0%
         STATE            Borrowers           1,133        1,111    98%              5         0%         10          1%          1          0%          5          0%          1          0%
                          Farms              17,020       16,996   100%              6         0%          0          0%          0          0%          0          0%         18          0%
                          Land in Farms   3,267,188    3,264,671   100%            633         0%          0          0%          0          0%          0          0%      1,884          0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1768
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BARBOUR, WEST VIRGINIA                               BERKELEY, WEST VIRGINIA                           BOONE, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      18                          3                          33                       14                       1                         1
                              Loans                          29                          4                          80                       31                       2                         1
                              Principal and Interest    919,410                     36,947                   4,418,803                  636,034                   4,199                     3,040
WHITE                         Borrowers                      18        100%              3        100%              32        97%            13      93%              1       100%              1    100%
                              Loans                          29        100%              4        100%              79        99%            30      97%              2       100%              1    100%
                              Principal and Interest    919,410        100%         36,947        100%       4,412,916       100%       633,857     100%          4,199       100%          3,040    100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%               1         3%             1       7%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%               1         1%             1       3%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%           5,887         0%         2,177       0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1769
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       BRAXTON, WEST VIRGINIA                               BROOKE, WEST VIRGINIA                            CABELL, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      15                          5                         5                           0                    6                          1
                              Loans                          21                          9                        13                           0                   12                          2
                              Principal and Interest    569,264                     42,983                   406,783                           0              388,909                      6,999

WHITE                         Borrowers                      15        100%              5        100%             5        100%               0      0%            6        100%              1    100%
                              Loans                          21        100%              9        100%            13        100%               0      0%           12        100%              2    100%
                              Principal and Interest    569,264        100%         42,983        100%       406,783        100%               0      0%      388,909        100%          6,999    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1770
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       CALHOUN, WEST VIRGINIA                                CLAY, WEST VIRGINIA                             DODDRIDGE, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      29                          8                         8                          2                      24                         2
                              Loans                          38                         10                        14                          4                      55                         3
                              Principal and Interest    962,286                     18,636                   199,402                      3,943               1,616,488                    33,527
WHITE                         Borrowers                      29        100%              8        100%             8        100%              2    100%              24        100%             2     100%
                              Loans                          38        100%             10        100%            14        100%              4    100%              55        100%             3     100%
                              Principal and Interest    962,286        100%         18,636        100%       199,402        100%          3,943    100%       1,616,488        100%        33,527     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1771
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       FAYETTE, WEST VIRGINIA                               GILMER, WEST VIRGINIA                             GRANT, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      18                          5                         19                       11                      28                        6
                              Loans                          28                          8                         30                       16                      77                       15
                              Principal and Interest    967,719                     40,205                  1,110,540                  227,076               3,512,894                   31,238

WHITE                         Borrowers                      18        100%              5        100%             19       100%            11     100%             28       100%             6     100%
                              Loans                          28        100%              8        100%             30       100%            16     100%             77       100%            15     100%
                              Principal and Interest    967,719        100%         40,205        100%      1,110,540       100%       227,076     100%      3,512,894       100%        31,238     100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1772
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       GREENBRIER, WEST VIRGINIA HAMPSHIRE, WEST VIRGINIA                                                      HARDY, WEST VIRGINIA
                                                         Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        87                        29                          14                        4                      36                        7
                              Loans                           195                        42                          26                        7                      73                       19
                              Principal and Interest    8,151,175                   201,986                   2,790,431                  777,511               4,396,657                   71,262

WHITE                         Borrowers                        86         99%            29         100%             14       100%             4     100%             35        97%             7     100%
                              Loans                           194         99%            42         100%             26       100%             7     100%             71        97%            19     100%
                              Principal and Interest    8,114,849        100%       201,986         100%      2,790,431       100%       777,511     100%      4,264,604        97%        71,262     100%

AFRICAN AMERICAN              Borrowers                         1           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                             1           1%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest       36,326           0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                              0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                              0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                              0      0%                  0      0%                 0      0%              0      0%            1           3%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%            2           3%              0      0%
                              Principal and Interest                 0      0%                  0      0%                 0      0%              0      0%      132,054           3%              0      0%

HISPANIC                      Borrowers                              0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                  0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1773
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       HARRISON, WEST VIRGINIA                               JACKSON, WEST VIRGINIA                           JEFFERSON, WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        86                        9                          34                         2                      47                       11
                              Loans                           241                       17                          68                         2                     102                       37
                              Principal and Interest   10,269,671                  305,393                   1,610,259                       535               8,000,700                  736,920
WHITE                         Borrowers                        85        99%             9         100%             34       100%              2    100%              46        98%            11     100%
                              Loans                           240       100%            17         100%             68       100%              2    100%             101        99%            37     100%
                              Principal and Interest   10,189,119        99%       305,393         100%      1,610,259       100%            535    100%       7,928,819        99%       736,920     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%             1           2%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%             1           1%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%        71,881           1%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                        1           1%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            1           0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest      80,553           1%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1774
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LEWIS, WEST VIRGINIA                                LINCOLN, WEST VIRGINIA                           MARION, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       18                         2                        22                          4                     19                        7
                              Loans                           40                         3                        33                          5                     29                       12
                              Principal and Interest   1,815,265                    30,556                   540,205                      9,954              1,829,080                  640,985
WHITE                         Borrowers                       17        94%              1          50%           22        100%              4    100%             19       100%             7     100%
                              Loans                           36        90%              1          33%           33        100%              5    100%             29       100%            12     100%
                              Principal and Interest   1,609,003        89%         24,954          82%      540,205        100%          9,954    100%      1,829,080       100%       640,985     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       1          6%              1          50%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                           4         10%              2          67%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    206,262         11%          5,602          18%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1775
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MARSHALL, WEST VIRGINIA                               MASON, WEST VIRGINIA                             MCDOWELL, WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       50                        19                          40                       11                       1                           0
                              Loans                          134                        46                         114                       29                       1                           0
                              Principal and Interest   5,254,071                   357,333                   3,855,159                  343,724                  78,334                           0
WHITE                         Borrowers                       47         94%            18           95%            40       100%            11     100%              1        100%               0      0%
                              Loans                          124         93%            42           91%           114       100%            29     100%              1        100%               0      0%
                              Principal and Interest   4,711,783         90%       337,253           94%     3,855,159       100%       343,724     100%         78,334        100%               0      0%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
NATIVE AMERICAN               Borrowers                        2          4%              1           5%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                            9          7%              4           9%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest     534,565         10%         20,080           6%                 0      0%              0      0%                  0      0%              0      0%
ASIAN                         Borrowers                         1          2%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                             1          1%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest        7,723          0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                  0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1776
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MERCER, WEST VIRGINIA                                MINERAL, WEST VIRGINIA                           MINGO, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      10                          3                         7                           0                    1                           0
                              Loans                          18                          3                        15                           0                    1                           0
                              Principal and Interest    961,626                     30,117                   741,756                           0               32,948                           0
WHITE                         Borrowers                      10        100%              3        100%             7        100%               0      0%            1        100%               0      0%
                              Loans                          18        100%              3        100%            15        100%               0      0%            1        100%               0      0%
                              Principal and Interest    961,626        100%         30,117        100%       741,756        100%               0      0%       32,948        100%               0      0%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1777
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       MONONGALIA, WEST VIRGINIA                      MONROE, WEST VIRGINIA                       MORGAN, WEST VIRGINIA
                                                       Portfolio       Percent Delinquent Percent   Portfolio       Percent Delinquent Percent   Portfolio       Percent Delinquent Percent
TOTAL                         Borrowers                         23                     11                    64                     14                     2                      0
                              Loans                             36                     16                   129                     22                     2                      0
                              Principal and Interest     1,788,938                215,080             5,947,059                371,076               166,838                      0

WHITE                         Borrowers                         22      96%           11   100%              63      98%           13    93%               2     100%            0     0%
                              Loans                             35      97%           16   100%             125      97%           21    95%               2     100%            0     0%
                              Principal and Interest     1,664,507      93%      215,080   100%       5,907,250      99%      369,560   100%         166,838     100%            0     0%

AFRICAN AMERICAN              Borrowers                            0     0%            0     0%                1       2%           1     7%                 0      0%           0     0%
                              Loans                                0     0%            0     0%                4       3%           1     5%                 0      0%           0     0%
                              Principal and Interest               0     0%            0     0%           39,809       1%       1,516     0%                 0      0%           0     0%

NATIVE AMERICAN               Borrowers                            0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Loans                                0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Principal and Interest               0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%

ASIAN                         Borrowers                            0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Loans                                0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Principal and Interest               0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%

OTHER                         Borrowers                            0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Loans                                0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Principal and Interest               0     0%            0     0%                 0      0%           0     0%                 0      0%           0     0%

HISPANIC                      Borrowers                            1     4%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Loans                                1     3%            0     0%                 0      0%           0     0%                 0      0%           0     0%
                              Prinicpal and Interest       124,432       7%            0     0%                 0      0%           0     0%                 0      0%           0     0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                  THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                     Page 1778
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       NICHOLAS, WEST VIRGINIA                                 OHIO, WEST VIRGINIA                            PENDLETON, WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent     Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       13                          2                        11                          4                      32                         6
                              Loans                           19                          2                        35                          6                      56                        11
                              Principal and Interest     281,028                      6,037                   749,227                      6,562               4,490,384                    59,070
WHITE                         Borrowers                       13        100%              2        100%            11        100%              4    100%              30         94%             6     100%
                              Loans                           19        100%              2        100%            35        100%              6    100%              53         95%            11     100%
                              Principal and Interest     281,028        100%          6,037        100%       749,227        100%          6,562    100%       4,331,133         96%        59,070     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%              2           6%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%              3           5%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%        159,251           4%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                   0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                            Page 1779
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       PLEASANTS, WEST VIRGINIA POCAHONTAS, WEST VIRGINIA                                                     PRESTON, WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        5                         1                         18                          2                     49                       17
                              Loans                           11                         6                         29                          2                    142                       68
                              Principal and Interest     435,407                   121,430                    821,697                      3,640              6,363,131                  940,713
WHITE                         Borrowers                        4         80%             1         100%            18        100%              2    100%             49       100%            17     100%
                              Loans                           10         91%             6         100%            29        100%              2    100%            142       100%            68     100%
                              Principal and Interest     398,578         92%       121,430         100%       821,697        100%          3,640    100%      6,363,131       100%       940,713     100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1         20%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                            1          9%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest      36,829          8%                   0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1780
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       RALEIGH, WEST VIRGINIA                               RANDOLPH, WEST VIRGINIA                           RITCHIE, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       8                          2                         17                          2                     35                       13
                              Loans                          11                          2                         25                          2                     63                       20
                              Principal and Interest     99,660                     18,320                    588,660                      5,528              2,225,108                  342,130
WHITE                         Borrowers                       8        100%              2        100%             17        100%              2    100%             35       100%            13     100%
                              Loans                          11        100%              2        100%             25        100%              2    100%             63       100%            20     100%
                              Principal and Interest     99,660        100%         18,320        100%        588,660        100%          5,528    100%      2,225,108       100%       342,130     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1781
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        ROANE, WEST VIRGINIA                                SUMMERS, WEST VIRGINIA                            TAYLOR, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       45                        19                          6                          2                      9                        4
                              Loans                           79                        27                          8                          2                     28                       15
                              Principal and Interest   2,352,222                    51,426                    452,098                     24,428              1,023,906                  278,037
WHITE                         Borrowers                       38        84%             17          89%             6        100%              2    100%              9       100%             4     100%
                              Loans                           70        89%             25          93%             8        100%              2    100%             28       100%            15     100%
                              Principal and Interest   1,404,099        60%         46,567          91%       452,098        100%         24,428    100%      1,023,906       100%       278,037     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                       6         13%              2          11%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           8         10%              2           7%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    343,346         15%          4,859           9%                  0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                       1          2%                   0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                           1          1%                   0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    604,777         26%                   0      0%                  0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                  0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                           Page 1782
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       TUCKER, WEST VIRGINIA                                TYLER, WEST VIRGINIA                             UPSHUR, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       4                               0                   19                          7                     17                        1
                              Loans                           5                               0                   27                          7                     26                        4
                              Principal and Interest    221,985                               0              801,191                     23,979              1,161,994                   53,430
WHITE                         Borrowers                       4        100%                   0      0%           18          95%             7    100%             17       100%             1     100%
                              Loans                           5        100%                   0      0%           26          96%             7    100%             26       100%             4     100%
                              Principal and Interest    221,985        100%                   0      0%      750,233          94%        23,979    100%      1,161,994       100%        53,430     100%
AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%                  0      0%             1          5%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%             1          4%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%        50,958          6%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1783
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WAYNE, WEST VIRGINIA                                 WEBSTER, WEST VIRGINIA                           WETZEL, WEST VIRGINIA
                                                       Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                      12                          4                          2                          0                   10                          2
                              Loans                          21                          4                          3                          0                   12                          3
                              Principal and Interest    362,610                      4,116                     46,924                          0              334,453                      9,385

WHITE                         Borrowers                      12        100%              4        100%              2       100%               0      0%           10        100%              2    100%
                              Loans                          21        100%              4        100%              3       100%               0      0%           12        100%              3    100%
                              Principal and Interest    362,610        100%          4,116        100%         46,924       100%               0      0%      334,453        100%          9,385    100%

AFRICAN AMERICAN              Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                            0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1784
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WINFIELD, WEST VIRGINIA                                WIRT, WEST VIRGINIA                              WOOD, WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       26                         13                        14                           0                    15                        3
                              Loans                           42                         22                        22                           0                    26                        7
                              Principal and Interest     830,750                     60,660                   431,673                           0             1,020,839                  104,022

WHITE                         Borrowers                       26        100%             13        100%            14        100%               0      0%            15       100%             3     100%
                              Loans                           42        100%             22        100%            22        100%               0      0%            26       100%             7     100%
                              Principal and Interest     830,750        100%         60,660        100%       431,673        100%               0      0%     1,020,839       100%       104,022     100%

AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                          Page 1785
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WYOMING, WEST VIRGINIA                                STATE OF WEST VIRGINIA
                                                        Portfolio       Percent   Delinquent       Percent    Portfolio    Percent   Delinquent   Percent
TOTAL                         Borrowers                        1                           1                      1,133                    296
                              Loans                            1                           1                      2,347                    574
                              Principal and Interest      10,287                         317                 98,412,103              7,286,290
WHITE                         Borrowers                        1        100%               1       100%           1,111      98%           290     98%
                              Loans                            1        100%               1       100%           2,308      98%           564     98%
                              Principal and Interest      10,287        100%             317       100%      95,977,453      98%     7,252,056    100%
AFRICAN AMERICAN              Borrowers                             0      0%                  0      0%             5        0%             1       0%
                              Loans                                 0      0%                  0      0%             9        0%             1       0%
                              Principal and Interest                0      0%                  0      0%       307,267        0%         1,516       0%
NATIVE AMERICAN               Borrowers                             0      0%                  0      0%             10       1%             4       1%
                              Loans                                 0      0%                  0      0%             22       1%             8       1%
                              Principal and Interest                0      0%                  0      0%      1,135,131       1%        30,541       0%
ASIAN                         Borrowers                             0      0%                  0      0%               1      0%              0      0%
                              Loans                                 0      0%                  0      0%               1      0%              0      0%
                              Principal and Interest                0      0%                  0      0%           7,723      0%              0      0%
OTHER                         Borrowers                             0      0%                  0      0%             5        0%             1       0%
                              Loans                                 0      0%                  0      0%             6        0%             1       0%
                              Principal and Interest                0      0%                  0      0%       860,100        1%         2,177       0%
HISPANIC                      Borrowers                             0      0%                  0      0%             1        0%              0      0%
                              Loans                                 0      0%                  0      0%             1        0%              0      0%
                              Prinicpal and Interest                0      0%                  0      0%       124,432        0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                       Page 1786
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
 WV BERKELEY              Approved   No. of Applications             37        37   100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                     26                     0                   0                0                0
                                     Completion to Approval                    24                     0                   0                0                0
                                     Approval to Loan Closing                   5                     0                   0                0                0

                          Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Rejected                    0                      0                   0                0               0

                          Withdrawn No. of Applications             12        12    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                     17                      0                   0                0               0
                                    Completion to Withdrawn                    5                      0                   0                0               0

 WV    GRANT              Approved   No. of Applications            63        63    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    14                      0                   0                0               0
                                     Completion to Approval                   11                      0                   0                0               0
                                     Approval to Loan Closing                 26                      0                   0                0               0

                          Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     5                      0                   0                0               0
                                     Completion to Rejected                   73                      0                   0                0               0

                          Withdrawn No. of Applications              2         2    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                      4                      0                   0                0               0
                                    Completion to Withdrawn                   32                      0                   0                0               0

 WV    GREENBRIER         Approved   No. of Applications            35        35    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     9                      0                   0                0               0
                                     Completion to Approval                    3                      0                   0                0               0
                                     Approval to Loan Closing                 17                      0                   0                0               0

                          Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Rejected                    0                      0                   0                0               0

                          Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                      0                      0                   0                0               0
                                    Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1787
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
 WV HARRISON              Approved   No. of Applications             46        46   100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                      5                     0                   0                0                0
                                     Completion to Approval                     5                     0                   0                0                0
                                     Approval to Loan Closing                  13                     0                   0                0                0

                          Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    10                      0                   0                0               0
                                     Completion to Rejected                    1                      0                   0                0               0

                          Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                      0                      0                   0                0               0
                                    Completion to Withdrawn                    0                      0                   0                0               0

 WV    MARSHALL           Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     6                      0                   0                0               0
                                     Completion to Approval                    7                      0                   0                0               0
                                     Approval to Loan Closing                 25                      0                   0                0               0

                          Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     0                      0                   0                0               0
                                     Completion to Rejected                    0                      0                   0                0               0

                          Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                      0                      0                   0                0               0
                                    Completion to Withdrawn                    0                      0                   0                0               0

 WV    MASON              Approved   No. of Applications            35        35    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    28                      0                   0                0               0
                                     Completion to Approval                   27                      0                   0                0               0
                                     Approval to Loan Closing                 43                      0                   0                0               0

                          Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    24                      0                   0                0               0
                                     Completion to Rejected                   16                      0                   0                0               0

                          Withdrawn No. of Applications             24        24    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                     14                      0                   0                0               0
                                    Completion to Withdrawn                   21                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1788
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
 State Servicing Office   Decision           Average Days       Total       White              American            American             Asian            Hispanic
 WV MONONGALIA            Approved   No. of Applications                5        5      100%              0   0%              0   0%            0   0%           0     0%
                                     Receipt to Completion                      13                        0                   0                 0                0
                                     Completion to Approval                     10                        0                   0                 0                0
                                     Approval to Loan Closing                   24                        0                   0                 0                0

                          Rejected   No. of Applications                0           0    0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                          0                     0                   0                 0               0
                                     Completion to Rejected                         0                     0                   0                 0               0

                          Withdrawn No. of Applications                 0           0    0%               0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                 0               0
                                    Completion to Withdrawn                         0                     0                   0                 0               0

 WV    MONROE             Approved   No. of Applications            35          35      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      15                        0                   0                 0               0
                                     Completion to Approval                      7                        0                   0                 0               0
                                     Approval to Loan Closing                   51                        0                   0                 0               0

                          Rejected   No. of Applications                2           2   100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                          1                     0                   0                 0               0
                                     Completion to Rejected                         8                     0                   0                 0               0

                          Withdrawn No. of Applications                 6           6   100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                 0               0
                                    Completion to Withdrawn                         0                     0                   0                 0               0

 WV    ROANE              Approved   No. of Applications            23          21      91%               0   0%          1       4%            0   0%          1      4%
                                     Receipt to Completion                      12                        0              31                     0               7
                                     Completion to Approval                     17                        0             110                     0               0
                                     Approval to Loan Closing                   25                        0              35                     0              16

                          Rejected   No. of Applications                1        1      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                      13                        0                   0                 0               0
                                     Completion to Rejected                     28                        0                   0                 0               0

                          Withdrawn No. of Applications                 9        8      89%               0   0%          1       11%           0   0%          0      0%
                                    Receipt to Completion                        7                        0               0                     0               0
                                    Completion to Withdrawn                     38                        0              38                     0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                      Page 1789
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
 WV WOOD                  Approved   No. of Applications             26        26   100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                     25                     0                   0                0                0
                                     Completion to Approval                     7                     0                   0                0                0
                                     Approval to Loan Closing                  33                     0                   0                0                0

                          Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    18                      0                   0                0               0
                                     Completion to Rejected                    2                      0                   0                0               0

                          Withdrawn No. of Applications              7         7    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                      7                      0                   0                0               0
                                    Completion to Withdrawn                   33                      0                   0                0               0

 WV    STATE              Approved   No. of Applications           307       305    99%               0   0%          1       0%           0   0%          1      0%
                                     Receipt to Completion                    16                      0              31                    0               7
                                     Completion to Approval                   12                      0             110                    0               0
                                     Approval to Loan Closing                 26                      0              35                    0              16

                          Rejected   No. of Applications            17        17    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    12                      0                   0                0               0
                                     Completion to Rejected                   16                      0                   0                0               0

                          Withdrawn No. of Applications             62        61    98%               0   0%          1       2%           0   0%          0      0%
                                    Receipt to Completion                     11                      0               0                    0               0
                                    Completion to Withdrawn                   19                      0              38                    0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1790
                            Demographics         1792
                        FSA’s Loan Portfolio     1802
                        FSA’s Application data   1825




USDA/OIG-A/50801-4-Hq                                   1791
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American                Asian                Other                 Hispanic
                                          Total       Number     Percent     Number       Percent   Number    Percent   Number     Percent   Number       Percent   Number    Percent
        WI                Population       15,682       14,849    95%            353         2%         119      1%          51       0%              2      0%         308      2%
        Adams County      Borrowers            11           10    91%              0         0%           0      0%           0       0%              1      9%           0      0%
                          Farms               340          340   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms   119,354      119,354   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       16,307       14,690    90%             13         0%       1,452      9%          45       0%              1      0%         106      1%
        Ashland County    Borrowers            31           31   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Farms               198          198   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms    51,208       51,208   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       40,750       40,255    99%             36         0%         207      1%          86       0%              2      0%         164      0%
        Barron County     Borrowers           133          132    99%              0         0%           0      0%           0       0%              0      0%           1      1%
                          Farms             1,474        1,471   100%              0         0%           0      0%           0       0%              0      0%           3      0%
                          Land in Farms   350,866      350,034   100%              0         0%           0      0%           0       0%              0      0%         832      0%

        WI                Population       14,008       12,676    90%             29         0%       1,226      9%          24       0%              3      0%          50      0%
        Bayfield County   Borrowers            58           57    98%              0         0%           1      2%           0       0%              0      0%           0      0%
                          Farms               360          360   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms    97,521       97,521   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                Population      194,594      185,869    96%            992         1%       3,676      2%       2,493       1%          39         0%       1,525      1%
        Brown County      Borrowers            70           69    99%              0         0%           0      0%           0       0%           1         1%           0      0%
                          Farms             1,101        1,101   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                          Land in Farms   205,363      205,363   100%              0         0%           0      0%           0       0%           0         0%           0      0%

        WI                Population       13,584       13,487    99%                 5      0%          21      0%          29       0%              0      0%          42      0%
        Buffalo County    Borrowers            40           40   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                          Farms               982          982   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms   323,482      323,482   100%                 0      0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       13,084       12,462    95%             22         0%         531      4%          24       0%              2      0%          43      0%
        Burnett County    Borrowers            19           18    95%              0         0%           0      0%           0       0%              0      0%           1      5%
                          Farms               369          369   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms    84,091       84,091   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       34,291       33,798    99%             29         0%         144      0%         170       0%              1      0%         149      0%
        Calumet County    Borrowers            44           44   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Farms               796          796   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms   162,205      162,205   100%              0         0%           0      0%           0       0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1792
DEMOGRAPHICS OF STATES AND COUNTIES
                                                         White             African American Native American             Asian                Other                 Hispanic
                                          Total       Number     Percent     Number    Percent   Number    Percent   Number     Percent   Number       Percent   Number    Percent
        WI                Population       52,360       51,740    99%             31      0%         143      0%         268       1%              4      0%         174      0%
        Chippewa County   Borrowers            71           71   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Farms             1,571        1,565   100%              0      0%           0      0%           0       0%              0      0%           6      0%
                          Land in Farms   386,857      385,132   100%              0      0%           0      0%           0       0%              0      0%       1,725      0%

        WI                Population       31,647       31,373    99%             29      0%          90      0%          38       0%              1      0%         116      0%
        Clark County      Borrowers           111          109    98%              0      0%           1      1%           0       0%              1      1%           0      0%
                          Farms             2,010        2,004   100%              0      0%           0      0%           0       0%              0      0%           6      0%
                          Land in Farms   426,884      425,579   100%              0      0%           0      0%           0       0%              0      0%       1,305      0%

        WI                Population       45,088       44,234    98%            233      1%         134      0%         126       0%              3      0%         358      1%
        Columbia County   Borrowers            34           34   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Farms             1,443        1,443   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms   327,185      327,185   100%              0      0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       15,940       15,747    99%             46      0%          23      0%          56       0%              1      0%          67      0%
        Crawford County   Borrowers           102          102   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Farms               978          973    99%              0      0%           0      0%           0       0%              0      0%           5      1%
                          Land in Farms   248,956      248,050   100%              0      0%           0      0%           0       0%              0      0%         906      0%

        WI                Population      367,085      341,057    93%         10,303      3%       1,122      0%       8,546       2%         313         0%       5,744      2%
        Dane County       Borrowers            45           45   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                          Farms             2,639        2,636   100%              0      0%           0      0%           3       0%           0         0%           0      0%
                          Land in Farms   538,582      538,464   100%              0      0%           0      0%         118       0%           0         0%           0      0%

        WI                Population       76,559       74,131    97%          1,113      1%         209      0%         185       0%          10         0%         911      1%
        Dodge County      Borrowers            90           89    99%              0      0%           1      1%           0       0%           0         0%           0      0%
                          Farms             2,004        2,000   100%              0      0%           0      0%           0       0%           0         0%           4      0%
                          Land in Farms   414,240      413,584   100%              0      0%           0      0%           0       0%           0         0%         656      0%

        WI                Population       25,690       25,287    98%             28      0%         174      1%          47       0%              1      0%         153      1%
        Door County       Borrowers            23           23   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Farms               760          760   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms   130,051      130,051   100%              0      0%           0      0%           0       0%              0      0%           0      0%

        WI                Population       41,758       40,317    97%            169      0%         800      2%         263       1%              8      0%         201      0%
        Douglas County    Borrowers            37           34    92%              0      0%           1      3%           0       0%              1      3%           1      3%
                          Farms               260          260   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                          Land in Farms    70,547       70,547   100%              0      0%           0      0%           0       0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1793
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                  Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number    Percent
        WI                   Population       35,909       34,819    97%            172         0%          93      0%         628         2%              9      0%         188      1%
        Dunn County          Borrowers            62           62   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Farms             1,383        1,377   100%              0         0%           0      0%           0         0%              0      0%           6      0%
                             Land in Farms   366,593      364,901   100%              0         0%           0      0%           0         0%              0      0%       1,692      0%

        WI                   Population       85,183       81,939    96%            230         0%         450      1%       2,104         2%          23         0%         437      1%
        Eau Claire County    Borrowers            36           35    97%              1         3%           0      0%           0         0%           0         0%           0      0%
                             Farms               886          883   100%              0         0%           0      0%           0         0%           0         0%           3      0%
                             Land in Farms   189,905      189,905   100%              0         0%           0      0%           0         0%           0         0%           0      0%

        WI                   Population        4,590        4,556    99%                 4      0%          14     0%               4      0%              1      0%          11      0%
        Florence County      Borrowers             5            4    80%                 0      0%           1    20%               0      0%              0      0%           0      0%
                             Farms                78           78   100%                 0      0%           0     0%               0      0%              0      0%           0      0%
                             Land in Farms    21,008       21,008   100%                 0      0%           0     0%               0      0%              0      0%           0      0%

        WI                   Population       90,083       88,157    98%            251         0%         283      0%         435         0%          20         0%         937      1%
        Fond du Lac County   Borrowers           126          125    99%              0         0%           1      1%           0         0%           0         0%           0      0%
                             Farms             1,552        1,549   100%              0         0%           0      0%           0         0%           0         0%           3      0%
                             Land in Farms   351,633      351,633   100%              0         0%           0      0%           0         0%           0         0%           0      0%

        WI                   Population        8,776        7,828    89%            125         1%         776      9%          14         0%              3      0%          30      0%
        Forest County        Borrowers             1            1   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Farms               115          115   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Land in Farms    26,456       26,456   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                   Population       49,264       48,717    99%             76         0%          73      0%         231         0%              7      0%         160      0%
        Grant County         Borrowers           155          153    99%              1         1%           0      0%           0         0%              1      1%           0      0%
                             Farms             2,340        2,334   100%              0         0%           0      0%           0         0%              0      0%           6      0%
                             Land in Farms   620,951      619,065   100%              0         0%           0      0%           0         0%              0      0%       1,886      0%

        WI                   Population       30,339       30,084    99%             20         0%          48      0%          64         0%              4      0%         119      0%
        Green County         Borrowers           110          110   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Farms             1,271        1,271   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Land in Farms   293,134      293,134   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                   Population       18,651       18,291    98%             21         0%          38      0%         103         1%              6      0%         192      1%
        Green Lake County    Borrowers            18           18   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                             Farms               705          702   100%              0         0%           0      0%           0         0%              0      0%           3      0%
                             Land in Farms   163,145      161,761    99%              0         0%           0      0%           0         0%              0      0%       1,384      1%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1794
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                           Total       Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number       Percent
        WI                 Population       20,150       20,051   100%                 7      0%          20      0%          19         0%              5      0%          48         0%
        Iowa County        Borrowers           116          116   100%                 0      0%           0      0%           0         0%              0      0%           0         0%
                           Farms             1,328        1,328   100%                 0      0%           0      0%           0         0%              0      0%           0         0%
                           Land in Farms   361,918      361,918   100%                 0      0%           0      0%           0         0%              0      0%           0         0%

        WI                 Population        6,153        6,117    99%                 1      0%          25      0%              2      0%              0      0%              8      0%
        Iron County        Borrowers             8            8   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                           Farms                55           55   100%                 0      0%           0      0%              0      0%              0      0%              0      0%
                           Land in Farms    10,263       10,263   100%                 0      0%           0      0%              0      0%              0      0%              0      0%

        WI                 Population       16,588       15,704    95%             44         0%         665      4%          30         0%              0      0%         145         1%
        Jackson County     Borrowers            41           41   100%              0         0%           0      0%           0         0%              0      0%           0         0%
                           Farms               720          720   100%              0         0%           0      0%           0         0%              0      0%           0         0%
                           Land in Farms   218,145      218,145   100%              0         0%           0      0%           0         0%              0      0%           0         0%

        WI                 Population       67,783       65,969    97%            188         0%         170      0%         278         0%          18         0%       1,160         2%
        Jefferson County   Borrowers            30           30   100%              0         0%           0      0%           0         0%           0         0%           0         0%
                           Farms             1,280        1,276   100%              0         0%           0      0%           0         0%           0         0%           4         0%
                           Land in Farms   232,591      232,504   100%              0         0%           0      0%           0         0%           0         0%          87         0%

        WI                 Population       21,650       21,228    98%             28         0%         162      1%          76         0%              4      0%         152         1%
        Juneau County      Borrowers            32           32   100%              0         0%           0      0%           0         0%              0      0%           0         0%
                           Farms               675          675   100%              0         0%           0      0%           0         0%              0      0%           0         0%
                           Land in Farms   195,287      195,287   100%              0         0%           0      0%           0         0%              0      0%           0         0%

        WI                 Population      128,181      116,223    91%          5,190         4%         443      0%         652         1%          93         0%       5,580         4%
        Kenosha County     Borrowers             3            3   100%              0         0%           0      0%           0         0%           0         0%           0         0%
                           Farms               420          420   100%              0         0%           0      0%           0         0%           0         0%           0         0%
                           Land in Farms    92,761       92,761   100%              0         0%           0      0%           0         0%           0         0%           0         0%

        WI                 Population       18,878       18,730    99%             24         0%          49      0%          21         0%              0      0%          54         0%
        Kewaunee County    Borrowers            41           41   100%              0         0%           0      0%           0         0%              0      0%           0         0%
                           Farms               893          888    99%              0         0%           0      0%           0         0%              0      0%           5         1%
                           Land in Farms   170,228      169,588   100%              0         0%           0      0%           0         0%              0      0%         640         0%

        WI                 Population       97,904       93,954    96%            405         0%         332      0%       2,545         3%          28         0%         640         1%
        La Crosse County   Borrowers            24           24   100%              0         0%           0      0%           0         0%           0         0%           0         0%
                           Farms               789          789   100%              0         0%           0      0%           0         0%           0         0%           0         0%
                           Land in Farms   182,339      182,339   100%              0         0%           0      0%           0         0%           0         0%           0         0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                            Page 1795
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                           Total       Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number    Percent
        WI                 Population       16,076       15,994    99%             10         0%          19      0%          15         0%              1      0%          37      0%
        Lafayette County   Borrowers            98           98   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms             1,235        1,235   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   356,651      356,651   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population       19,505       19,222    99%             13         0%         137      1%          22         0%              7      0%         104      1%
        Langlade County    Borrowers            28           28   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms               418          418   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   120,383      120,383   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population       26,993       26,623    99%             79         0%          89      0%          78         0%              6      0%         118      0%
        Lincoln County     Borrowers            10           10   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms               399          394    99%              0         0%           0      0%           0         0%              0      0%           5      1%
                           Land in Farms    85,500       85,127   100%              0         0%           0      0%           0         0%              0      0%         373      0%

        WI                 Population       80,421       78,360    97%            113         0%         310      0%       1,044         1%          12         0%         582      1%
        Manitowoc County   Borrowers            75           75   100%              0         0%           0      0%           0         0%           0         0%           0      0%
                           Farms             1,318        1,318   100%              0         0%           0      0%           0         0%           0         0%           0      0%
                           Land in Farms   248,862      248,862   100%              0         0%           0      0%           0         0%           0         0%           0      0%

        WI                 Population      115,400      111,927    97%             87         0%         477      0%       2,429         2%          10         0%         470      0%
        Marathon County    Borrowers            88           88   100%              0         0%           0      0%           0         0%           0         0%           0      0%
                           Farms             2,804        2,796   100%              0         0%           0      0%           4         0%           0         0%           4      0%
                           Land in Farms   529,966      527,872   100%              0         0%           0      0%         881         0%           0         0%       1,213      0%

        WI                 Population       40,548       40,164    99%                 8      0%         149      0%          63         0%              8      0%         156      0%
        Marinette County   Borrowers            40           39    98%                 0      0%           0      0%           0         0%              0      0%           1      3%
                           Farms               634          634   100%                 0      0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   145,980      145,980   100%                 0      0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population       12,321       12,074    98%             31         0%          45      0%          18         0%              4      0%         149      1%
        Marquette County   Borrowers            15           15   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms               444          444   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   135,538      135,538   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population        3,890         413     11%                 0      0%       3,422    88%               0      0%              0      0%          55      1%
        Menominee County   Borrowers             0           0      0%                 0      0%           0     0%               0      0%              0      0%           0      0%
                           Farms                 1           1    100%                 0      0%           0     0%               0      0%              0      0%           0      0%
                           Land in Farms         0           0      0%                 0      0%           0     0%               0      0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1796
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                  Other                 Hispanic
                                           Total       Number     Percent     Number       Percent   Number    Percent   Number       Percent   Number       Percent   Number    Percent
        WI                 Population      959,275      698,864    73%        193,583       20%        6,291      1%      14,872         2%         994         0%      44,671      5%
        Milwaukee County   Borrowers             0            0     0%              0        0%            0      0%           0         0%           0         0%           0      0%
                           Farms                97           97   100%              0        0%            0      0%           0         0%           0         0%           0      0%
                           Land in Farms     8,763        8,763   100%              0        0%            0      0%           0         0%           0         0%           0      0%

        WI                 Population       36,633       35,836    98%            136         0%         288      1%         133         0%              6      0%         234      1%
        Monroe County      Borrowers           108          108   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms             1,549        1,546   100%              0         0%           0      0%           0         0%              0      0%           3      0%
                           Land in Farms   346,398      345,808   100%              0         0%           0      0%           0         0%              0      0%         590      0%

        WI                 Population       30,226       29,855    99%             18         0%         211      1%          33         0%              2      0%         107      0%
        Oconto County      Borrowers            95           94    99%              0         0%           0      0%           1         1%              0      0%           0      0%
                           Farms               931          931   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   208,888      208,888   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population       31,679       31,258    99%             57         0%         221      1%          51         0%              2      0%          90      0%
        Oneida County      Borrowers             0            0     0%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms                99           99   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms    31,777       31,777   100%              0         0%           0      0%           0         0%              0      0%           0      0%

        WI                 Population      140,510      135,505    96%            191         0%       1,935      1%       1,865         1%          27         0%         987      1%
        Outagamie County   Borrowers            47           47   100%              0         0%           0      0%           0         0%           0         0%           0      0%
                           Farms             1,404        1,394    99%              0         0%           0      0%           0         0%           3         0%           7      0%
                           Land in Farms   263,514      262,490   100%              0         0%           0      0%           0         0%           0         0%       1,024      0%

        WI                 Population       72,831       71,274    98%            485         1%         116      0%         432         1%              7     0%          517      1%
        Ozaukee County     Borrowers             4            3    75%              0         0%           0      0%           0         0%              1    25%            0      0%
                           Farms               448          445    99%              0         0%           0      0%           3         1%              0     0%            0      0%
                           Land in Farms    78,772       78,772   100%              0         0%           0      0%           0         0%              0     0%            0      0%

        WI                 Population        7,107        7,057    99%                 2      0%          18      0%              9      0%              1      0%          20      0%
        Pepin County       Borrowers            22           22   100%                 0      0%           0      0%              0      0%              0      0%           0      0%
                           Farms               419          419   100%                 0      0%           0      0%              0      0%              0      0%           0      0%
                           Land in Farms   113,548      113,548   100%                 0      0%           0      0%              0      0%              0      0%           0      0%

        WI                 Population       32,765       32,233    98%             79         0%          82      0%         169         1%              6      0%         196      1%
        Pierce County      Borrowers            79           79   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Farms             1,214        1,214   100%              0         0%           0      0%           0         0%              0      0%           0      0%
                           Land in Farms   272,876      272,876   100%              0         0%           0      0%           0         0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                         Page 1797
DEMOGRAPHICS OF STATES AND COUNTIES
                                                          White             African American Native American                Asian                Other                 Hispanic
                                           Total       Number     Percent     Number       Percent   Number    Percent   Number     Percent   Number       Percent   Number    Percent
        WI                 Population       34,773       34,258    99%             20         0%         313      1%          47       0%              4      0%         131      0%
        Polk County        Borrowers           103          103   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                           Farms             1,324        1,321   100%              0         0%           0      0%           0       0%              0      0%           3      0%
                           Land in Farms   282,405      282,101   100%              0         0%           0      0%           0       0%              0      0%         304      0%

        WI                 Population       61,405       59,656    97%            152         0%         236      0%         771       1%          18         0%         572      1%
        Portage County     Borrowers            52           52   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                           Farms               980          980   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                           Land in Farms   265,731      265,731   100%              0         0%           0      0%           0       0%           0         0%           0      0%

        WI                 Population       15,600       15,434    99%                 7      0%          77      0%          22       0%              1      0%          59      0%
        Price County       Borrowers            17           17   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                           Farms               385          385   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                           Land in Farms    94,596       94,596   100%                 0      0%           0      0%           0       0%              0      0%           0      0%

        WI                 Population      175,034      147,745    84%         16,693       10%          456      0%         964       1%         142         0%       9,034      5%
        Racine County      Borrowers             3            3   100%              0        0%            0      0%           0       0%           0         0%           0      0%
                           Farms               607          607   100%              0        0%            0      0%           0       0%           0         0%           0      0%
                           Land in Farms   133,197      133,197   100%              0        0%            0      0%           0       0%           0         0%           0      0%

        WI                 Population       17,521       17,375    99%             12         0%          33      0%          38       0%              4      0%          59      0%
        Richland County    Borrowers            50           50   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                           Farms             1,094        1,089   100%              0         0%           0      0%           0       0%              0      0%           5      0%
                           Land in Farms   270,930      269,480    99%              0         0%           0      0%           0       0%              0      0%       1,450      1%

        WI                 Population      139,510      129,788    93%          6,593         5%         356      0%         932       1%          87         0%       1,754      1%
        Rock County        Borrowers            47           46    98%              1         2%           0      0%           0       0%           0         0%           0      0%
                           Farms             1,398        1,398   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                           Land in Farms   343,115      343,115   100%              0         0%           0      0%           0       0%           0         0%           0      0%

        WI                 Population       15,079       14,768    98%             31         0%          81      1%         113       1%              1      0%          85      1%
        Rusk County        Borrowers            54           54   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                           Farms               644          641   100%              0         0%           0      0%           0       0%              0      0%           3      0%
                           Land in Farms   168,304      168,304   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                 Population       50,251       49,743    99%             44         0%         120      0%         148       0%              4      0%         192      0%
        St. Croix County   Borrowers           132          132   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                           Farms             1,391        1,385   100%              0         0%           0      0%           0       0%              0      0%           6      0%
                           Land in Farms   308,460      307,033   100%              0         0%           0      0%           0       0%              0      0%       1,427      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1798
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White             African American Native American                Asian                Other                 Hispanic
                                             Total       Number     Percent     Number       Percent   Number    Percent   Number     Percent   Number       Percent   Number    Percent
        WI                   Population       46,975       46,347    99%             53         0%         286      1%          79       0%              3      0%         207      0%
        Sauk County          Borrowers            44           44   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                             Farms             1,383        1,383   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                             Land in Farms   335,517      335,517   100%              0         0%           0      0%           0       0%              0      0%           0      0%

        WI                   Population       14,181       11,928    84%             18         0%       2,118    15%           15       0%              1      0%         101      1%
        Sawyer County        Borrowers            22           22   100%              0         0%           0     0%            0       0%              0      0%           0      0%
                             Farms               170          170   100%              0         0%           0     0%            0       0%              0      0%           0      0%
                             Land in Farms    47,376       47,376   100%              0         0%           0     0%            0       0%              0      0%           0      0%

        WI                   Population       37,157       35,162    95%             42         0%       1,755      5%          69       0%              0      0%         129      0%
        Shawano County       Borrowers            61           60    98%              0         0%           1      2%           0       0%              0      0%           0      0%
                             Farms             1,437        1,434   100%              0         0%           0      0%           0       0%              0      0%           3      0%
                             Land in Farms   297,984      297,362   100%              0         0%           0      0%           0       0%              0      0%         622      0%

        WI                   Population      103,877       99,447    96%            412         0%         324      0%       1,999       2%          27         0%       1,668      2%
        Sheboygan County     Borrowers            53           53   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                             Farms             1,071        1,071   100%              0         0%           0      0%           0       0%           0         0%           0      0%
                             Land in Farms   207,128      207,128   100%              0         0%           0      0%           0       0%           0         0%           0      0%

        WI                   Population       18,901       18,774    99%                 2      0%          39      0%          42       0%              2      0%          42      0%
        Taylor County        Borrowers            62           62   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                             Farms               931          931   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                             Land in Farms   231,427      231,427   100%                 0      0%           0      0%           0       0%              0      0%           0      0%

        WI                   Population       25,263       25,120    99%             12         0%          32      0%          46       0%              0      0%          53      0%
        Trempealeau County   Borrowers            83           82    99%              0         0%           1      1%           0       0%              0      0%           0      0%
                             Farms             1,424        1,419   100%              0         0%           0      0%           0       0%              0      0%           5      0%
                             Land in Farms   348,602      348,088   100%              0         0%           0      0%           0       0%              0      0%         514      0%

        WI                   Population       25,617       25,429    99%             12         0%          35      0%          42       0%              1      0%          98      0%
        Vernon County        Borrowers            97           97   100%              0         0%           0      0%           0       0%              0      0%           0      0%
                             Farms             2,061        2,055   100%              0         0%           0      0%           0       0%              0      0%           6      0%
                             Land in Farms   365,511      364,548   100%              0         0%           0      0%           0       0%              0      0%         963      0%

        WI                   Population       17,707       16,073    91%                 9      0%       1,528      9%          35       0%              1      0%          61      0%
        Vilas County         Borrowers             0            0     0%                 0      0%           0      0%           0       0%              0      0%           0      0%
                             Farms                37           37   100%                 0      0%           0      0%           0       0%              0      0%           0      0%
                             Land in Farms         0            0     0%                 0      0%           0      0%           0       0%              0      0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                       Page 1799
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American             Asian                Other                 Hispanic
                                            Total       Number     Percent     Number    Percent   Number    Percent   Number     Percent   Number       Percent   Number    Percent
        WI                  Population       75,000       71,834    96%            443      1%         193      0%         483       1%          30         0%       2,017      3%
        Walworth County     Borrowers            26           26   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Farms               868          865   100%              0      0%           0      0%           0       0%           0         0%           3      0%
                            Land in Farms   226,096      226,096   100%              0      0%           0      0%           0       0%           0         0%           0      0%

        WI                  Population       13,772       13,554    98%             25      0%         122      1%          33       0%              4      0%          34      0%
        Washburn County     Borrowers            20           20   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                            Farms               324          324   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                            Land in Farms    86,091       86,091   100%              0      0%           0      0%           0       0%              0      0%           0      0%

        WI                  Population       95,328       94,002    99%            121      0%         201      0%         322       0%          12         0%         670      1%
        Washington County   Borrowers            13           13   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Farms               849          849   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Land in Farms   147,207      147,207   100%              0      0%           0      0%           0       0%           0         0%           0      0%

        WI                  Population      304,715      294,855    97%          1,058      0%         629      0%       2,676       1%          49         0%       5,448      2%
        Waukesha County     Borrowers            11           11   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Farms               691          691   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Land in Farms   114,184      114,184   100%              0      0%           0      0%           0       0%           0         0%           0      0%

        WI                  Population       46,104       45,465    99%             22      0%         121      0%          89       0%              1      0%         406      1%
        Waupaca County      Borrowers            63           63   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                            Farms             1,190        1,187   100%              0      0%           0      0%           0       0%              0      0%           3      0%
                            Land in Farms   241,778      241,423   100%              0      0%           0      0%           0       0%              0      0%         355      0%

        WI                  Population       19,385       18,867    97%             29      0%          68      0%          41       0%              1      0%         379      2%
        Waushara County     Borrowers            20           20   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                            Farms               628          628   100%              0      0%           0      0%           0       0%              0      0%           0      0%
                            Land in Farms   167,191      167,191   100%              0      0%           0      0%           0       0%              0      0%           0      0%

        WI                  Population      140,320      136,094    97%            689      0%         668      0%       1,690       1%          35         0%       1,144      1%
        Winnebago County    Borrowers            16           16   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Farms               854          854   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Land in Farms   169,876      169,876   100%              0      0%           0      0%           0       0%           0         0%           0      0%

        WI                  Population       73,605       71,961    98%             89      0%         456      1%         698       1%          15         0%         386      1%
        Wood County         Borrowers            69           69   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Farms             1,029        1,029   100%              0      0%           0      0%           0       0%           0         0%           0      0%
                            Land in Farms   221,357      221,357   100%              0      0%           0      0%           0       0%           0         0%           0      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1800
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White             African American Native American             Asian                Other               Hispanic
                                            Total       Number     Percent     Number    Percent   Number    Percent   Number     Percent   Number     Percent   Number    Percent
        WI               Population       4,891,769 4,464,677       91%        241,697      5%      37,769      1%      52,284       1%       2,148       0%      93,194      2%
        STATE            Borrowers            3,554      3,532      99%              3      0%           8      0%           1       0%           6       0%           4      0%
                         Farms               67,959     67,836     100%              0      0%           0      0%          10       0%           3       0%         110      0%
                         Land in Farms   15,455,228 15,434,281     100%              0      0%           0      0%         999       0%           0       0%      19,948      0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                  Page 1801
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ADAMS, WISCONSIN                               ASHLAND, WISCONSIN                                 BARRON, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       11                         4                     31                        5                      133                       47
                              Loans                           27                         7                    102                       14                      424                      146
                              Principal and Interest   1,165,040                    57,048              4,884,294                  146,792               19,891,279                2,511,196

WHITE                         Borrowers                       10         91%             4    100%             31       100%             5     100%             132       99%             46         98%
                              Loans                           26         96%             7    100%            102       100%            14     100%             421       99%            145         99%
                              Principal and Interest   1,089,468         94%        57,048    100%      4,884,294       100%       146,792     100%      19,715,849       99%      2,510,008        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                        1          9%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          4%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      75,572          6%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 1      1%                  1      2%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 3      1%                  1      1%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%       175,429          1%          1,188          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1802
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        BAYFIELD, WISCONSIN                                  BROWN, WISCONSIN                                BUFFALO, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       58                       13                       70                        8                      40                          3
                              Loans                          192                       25                      142                       11                      66                          6
                              Principal and Interest   8,488,383                  219,915               13,872,697                  233,632               4,703,171                     80,903

WHITE                         Borrowers                       57         98%           13     100%              69        99%             8     100%             40       100%               3       100%
                              Loans                          190         99%           25     100%             141        99%            11     100%             66       100%               6       100%
                              Principal and Interest   8,410,602         99%      219,915     100%      13,820,800       100%       233,632     100%      4,703,171       100%          80,903       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      2%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                            2          1%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      77,781          1%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%             1           1%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1           1%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%        51,897           0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1803
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         BURNETT, WISCONSIN                               CALUMET, WISCONSIN                               CHIPPEWA, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       19                        7                      44                       14                       71                       25
                              Loans                           69                       28                     113                       28                      182                       55
                              Principal and Interest   3,121,540                  674,891               5,780,616                  137,187               10,746,237                1,139,914

WHITE                         Borrowers                       18         95%            7     100%             44       100%            14     100%              71      100%             25        100%
                              Loans                           68         99%           28     100%            113       100%            28     100%             182      100%             55        100%
                              Principal and Interest   3,085,278         99%      674,891     100%      5,780,616       100%       137,187     100%      10,746,237      100%      1,139,914        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            1      5%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                1      1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest      36,262          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1804
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            CLARK, WISCONSIN                              COLUMBIA, WISCONSIN                              CRAWFORD, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       111                        24                     34                        8                      102                       32
                              Loans                           275                        71                     86                       19                      257                       84
                              Principal and Interest   13,746,201                 1,191,766              6,624,597                  944,852               12,472,487                1,072,619

WHITE                         Borrowers                       109         98%            24    100%             34       100%             8     100%             102      100%             32        100%
                              Loans                           268         97%            71    100%             86       100%            19     100%             257      100%             84        100%
                              Principal and Interest   13,520,376         98%     1,191,766    100%      6,624,597       100%       944,852     100%      12,472,487      100%      1,072,619        100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             1      1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            5           2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest     152,700           1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                         1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                             2          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       73,125          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1805
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             DANE, WISCONSIN                                 DODGE, WISCONSIN                                    DOOR, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       45                       15                       90                       26                      23                          2
                              Loans                           67                       22                      229                       53                      48                          4
                              Principal and Interest   6,754,096                  385,010               15,076,437                  980,565               2,539,711                     46,826

WHITE                         Borrowers                       45       100%            15     100%              89        99%            26     100%             23       100%               2       100%
                              Loans                           67       100%            22     100%             228       100%            53     100%             48       100%               4       100%
                              Principal and Interest   6,754,096       100%       385,010     100%      14,880,296        99%       980,565     100%      2,539,711       100%          46,826       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                  1      1%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             1           0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%       196,141           1%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1806
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         DOUGLAS, WISCONSIN                                   DUNN, WISCONSIN                            EAU CLAIRE, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       37                       12                      62                        16                     36                        14
                              Loans                          105                       32                     119                        45                    114                        57
                              Principal and Interest   4,448,770                  126,445               8,876,415                 1,413,524              6,024,826                 1,025,090
WHITE                         Borrowers                       34         92%            10     83%             62       100%             16    100%             35        97%             13         93%
                              Loans                           99         94%            27     84%            119       100%             45    100%            108        95%             51         89%
                              Principal and Interest   4,211,074         95%        89,537     71%      8,876,415       100%      1,413,524    100%      5,663,831        94%        914,700         89%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%             1          3%             1          7%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             6          5%             6         11%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       360,995          6%       110,390         11%
NATIVE AMERICAN               Borrowers                       1           3%             1      8%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                           4           4%             4     13%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest    130,900           3%        24,926     20%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                        1          3%             1       8%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%             1       3%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      18,305          0%        11,983       9%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                        1          3%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest      88,491          2%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1807
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        FLORENCE, WISCONSIN                             FOND DU LAC, WISCONSIN                                 FOREST, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       5                          1                     126                        31                       1                          1
                              Loans                          15                          4                     425                        91                       5                          2
                              Principal and Interest    546,400                     31,772              21,152,332                 1,060,148                  49,806                         61

WHITE                         Borrowers                       4          80%             1    100%             125         99%            31    100%               1      100%                1      100%
                              Loans                          12          80%             4    100%             422         99%            91    100%               5      100%                2      100%
                              Principal and Interest    405,464          74%        31,772    100%      20,956,374         99%     1,060,148    100%          49,806      100%               61      100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1     20%              0      0%                  1      1%              0      0%                 0      0%                  0      0%
                              Loans                           3          20%              0      0%             3           1%              0      0%                 0      0%                  0      0%
                              Principal and Interest    140,936          26%              0      0%       195,958           1%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1808
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                            GRANT, WISCONSIN                                  GREEN, WISCONSIN                             GREEN LAKE, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       155                        31                     110                        34                     18                         6
                              Loans                           361                        99                     257                        81                     36                         9
                              Principal and Interest   22,009,286                 1,401,678              16,956,821                 1,059,199              2,882,082                   132,560

WHITE                         Borrowers                       153         99%            31    100%             110       100%             34    100%             18       100%              6        100%
                              Loans                           359         99%            99    100%             257       100%             81    100%             36       100%              9        100%
                              Principal and Interest   21,796,110         99%     1,401,678    100%      16,956,821       100%      1,059,199    100%      2,882,082       100%        132,560        100%

AFRICAN AMERICAN              Borrowers                         1          1%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                             1          0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest       99,130          0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                        1           1%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1           0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest     114,046           1%              0      0%                  0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1809
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              IOWA, WISCONSIN                                  IRON, WISCONSIN                               JACKSON, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       116                        25                     8                           0                    41                          7
                              Loans                           302                        81                    20                           0                    81                         11
                              Principal and Interest   18,497,181                 2,533,938               735,980                           0             4,348,744                     46,119
WHITE                         Borrowers                       116       100%             25    100%             8        100%               0      0%            41       100%               7       100%
                              Loans                           302       100%             81    100%            20        100%               0      0%            81       100%              11       100%
                              Principal and Interest   18,497,181       100%      2,533,938    100%       735,980        100%               0      0%     4,348,744       100%          46,119       100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1810
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       JEFFERSON, WISCONSIN                                JUNEAU, WISCONSIN                                KENOSHA, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       30                        8                      32                       10                       3                          1
                              Loans                           80                       16                      81                       26                       3                          1
                              Principal and Interest   4,039,163                  131,875               4,005,978                  413,458                 347,777                     18,655

WHITE                         Borrowers                       30       100%             8     100%             32       100%            10     100%              3       100%               1       100%
                              Loans                           80       100%            16     100%             81       100%            26     100%              3       100%               1       100%
                              Principal and Interest   4,039,163       100%       131,875     100%      4,005,978       100%       413,458     100%        347,777       100%          18,655       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1811
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       KEWAUNEE, WISCONSIN                               LA CROSSE, WISCONSIN                             LAFAYETTE, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        41                         7                     24                         8                      98                        27
                              Loans                           105                        16                     48                        17                     205                        52
                              Principal and Interest   7,004,997                  202,097               2,950,938                  195,975               13,130,619                  247,085
WHITE                         Borrowers                       41       100%             7     100%             24       100%             8     100%              98      100%             27        100%
                              Loans                          105       100%            16     100%             48       100%            17     100%             205      100%             52        100%
                              Principal and Interest   7,004,997       100%       202,097     100%      2,950,938       100%       195,975     100%      13,130,619      100%        247,085        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1812
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        LANGLADE, WISCONSIN                               LINCOLN, WISCONSIN                             MANITOWOC, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       28                        10                     10                        4                       75                       17
                              Loans                           56                        16                     18                        6                      220                       25
                              Principal and Interest   3,345,543                    98,139              1,197,620                  117,543               10,968,386                  153,246

WHITE                         Borrowers                       28       100%             10    100%             10       100%             4     100%              75      100%             17        100%
                              Loans                           56       100%             16    100%             18       100%             6     100%             220      100%             25        100%
                              Principal and Interest   3,345,543       100%         98,139    100%      1,197,620       100%       117,543     100%      10,968,386      100%        153,246        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1813
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        MARATHON, WISCONSIN                              MARINETTE, WISCONSIN                             MARQUETTE, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                        88                       27                      40                       14                      15                         5
                              Loans                           190                       58                     138                       51                      37                        17
                              Principal and Interest   10,127,576                  771,058               8,044,043                  599,356               2,397,580                   196,269
WHITE                         Borrowers                        88       100%            27     100%             39         98%           13       93%            15       100%              5        100%
                              Loans                           190       100%            58     100%            135         98%           48       94%            37       100%             17        100%
                              Principal and Interest   10,127,576       100%       771,058     100%      7,823,273         97%      563,658       94%     2,397,580       100%        196,269        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%            1           3%             1       7%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%            3           2%             3       6%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%      220,770           3%        35,698       6%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1814
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           MONROE, WISCONSIN                                OCONTO, WISCONSIN                              OUTAGAMIE, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       108                        30                      95                       20                      47                        16
                              Loans                           318                       106                     279                       53                     128                        42
                              Principal and Interest   16,484,618                 1,864,446              16,234,185                  708,158               7,742,279                   613,329
WHITE                         Borrowers                       108       100%             30    100%              94        99%            20     100%             47       100%             16        100%
                              Loans                           318       100%            106    100%             278       100%            53     100%            128       100%             42        100%
                              Principal and Interest   16,484,618       100%      1,864,446    100%      16,175,920       100%       708,158     100%      7,742,279       100%        613,329        100%
AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                             0      0%              0      0%             1           1%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%             1           0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%        58,265           0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1815
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                         OZAUKEE, WISCONSIN                                  PEPIN, WISCONSIN                                 PIERCE, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       4                           0                    22                         4                      79                       24
                              Loans                           7                           0                    46                         6                     188                       55
                              Principal and Interest    612,489                           0             2,201,756                    23,199              10,204,886                  579,207

WHITE                         Borrowers                       3          75%              0      0%            22       100%              4    100%              79      100%             24        100%
                              Loans                           6          86%              0      0%            46       100%              6    100%             188      100%             55        100%
                              Principal and Interest    570,147          93%              0      0%     2,201,756       100%         23,199    100%      10,204,886      100%        579,207        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                        1         25%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1         14%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      42,342          7%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1816
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                              POLK, WISCONSIN                              PORTAGE, WISCONSIN                                   PRICE, WISCONSIN
                                                        Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       103                        30                     52                       10                      17                          1
                              Loans                           229                        62                    107                       22                      39                          3
                              Principal and Interest   14,906,075                 1,158,196              7,658,398                  223,242               1,258,690                      2,366

WHITE                         Borrowers                       103       100%             30    100%             52       100%            10     100%             17       100%               1       100%
                              Loans                           229       100%             62    100%            107       100%            22     100%             39       100%               3       100%
                              Principal and Interest   14,906,075       100%      1,158,196    100%      7,658,398       100%       223,242     100%      1,258,690       100%           2,366       100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                 0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1817
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           RACINE, WISCONSIN                             RICHLAND, WISCONSIN                                    ROCK, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       3                          3                     50                       19                      47                        14
                              Loans                           4                          4                    133                       52                     102                        35
                              Principal and Interest    596,076                     18,530              6,190,635                  730,830               6,280,068                   631,251

WHITE                         Borrowers                       3        100%              3    100%             50       100%            19     100%             46        98%             14        100%
                              Loans                           4        100%              4    100%            133       100%            52     100%            100        98%             35        100%
                              Principal and Interest    596,076        100%         18,530    100%      6,190,635       100%       730,830     100%      5,977,864        95%        631,251        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%             1          2%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             2          2%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       302,204          5%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1818
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                             RUSK, WISCONSIN                                  SAUK, WISCONSIN                                SAWYER, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       54                       18                      44                        17                     22                          6
                              Loans                          152                       51                     125                        57                     75                          8
                              Principal and Interest   7,043,549                  475,385               8,264,962                 2,044,875              3,035,790                      9,941

WHITE                         Borrowers                       54       100%            18     100%             44       100%             17    100%             22       100%               6       100%
                              Loans                          152       100%            51     100%            125       100%             57    100%             75       100%               8       100%
                              Principal and Interest   7,043,549       100%       475,385     100%      8,264,962       100%      2,044,875    100%      3,035,790       100%           9,941       100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1819
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                        SHAWANO, WISCONSIN                              SHEBOYGAN, WISCONSIN                                ST CROIX, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       61                       17                      53                        7                      132                       38
                              Loans                          161                       48                     143                       24                      363                      101
                              Principal and Interest   8,083,147                  922,129               7,467,629                  538,672               16,832,040                1,698,476

WHITE                         Borrowers                       60         98%           16      94%             53       100%             7     100%             132      100%             38        100%
                              Loans                          160         99%           47      98%            143       100%            24     100%             363      100%            101        100%
                              Principal and Interest   8,015,090         99%      917,707     100%      7,467,629       100%       538,672     100%      16,832,040      100%      1,698,476        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            1      2%              1      6%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                            1          1%             1       2%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest      68,057          1%         4,422       0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1820
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          TAYLOR, WISCONSIN                             TREMPEALEAU, WISCONSIN                                VERNON, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       62                       14                       83                       16                       97                       33
                              Loans                          134                       29                      207                       36                      245                       74
                              Principal and Interest   6,606,172                  386,161               12,040,852                  643,446               11,560,727                  887,060
WHITE                         Borrowers                       62       100%            14     100%              82         99%           15       94%             97      100%             33        100%
                              Loans                          134       100%            29     100%             202         98%           31       86%            245      100%             74        100%
                              Principal and Interest   6,606,172       100%       386,161     100%      11,850,165         98%      595,126       92%     11,560,727      100%        887,060        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%             1           1%             1       6%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%             5           2%             5      14%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%       190,687           2%        48,320       8%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                  0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                    Page 1821
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WALWORTH, WISCONSIN                               WASHBURN, WISCONSIN                             WASHINGTON, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       26                         6                     20                        8                      13                         4
                              Loans                           62                        17                     74                       24                      24                         6
                              Principal and Interest   4,643,321                    81,767              3,037,027                  573,753               1,773,650                   114,841
WHITE                         Borrowers                       26       100%              6    100%             20       100%             8     100%             13       100%              4        100%
                              Loans                           62       100%             17    100%             74       100%            24     100%             24       100%              6        100%
                              Principal and Interest   4,643,321       100%         81,767    100%      3,037,027       100%       573,753     100%      1,773,650       100%        114,841        100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1822
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WAUKESHA, WISCONSIN                               WAUPACA, WISCONSIN                               WAUSHARA, WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent       Percent
TOTAL                         Borrowers                       11                        5                      63                       11                      20                         8
                              Loans                           28                       15                     169                       25                      46                        16
                              Principal and Interest   2,585,924                  128,307               9,729,225                  533,888               2,981,213                   175,092

WHITE                         Borrowers                       11       100%             5     100%             63       100%            11     100%             20       100%              8        100%
                              Loans                           28       100%            15     100%            169       100%            25     100%             46       100%             16        100%
                              Principal and Interest   2,585,924       100%       128,307     100%      9,729,225       100%       533,888     100%      2,981,213       100%        175,092        100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%                  0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                   Page 1823
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                       WINNEBAGO, WISCONSIN                                  WOOD, WISCONSIN                                  STATE OF WISCONSIN
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent     Portfolio    Percent   Delinquent       Percent
TOTAL                         Borrowers                       16                        3                      69                       16                     3,554                     947
                              Loans                           33                        9                     148                       29                     9,069                   2,395
                              Principal and Interest   2,368,457                  101,122               7,175,859                  321,491               509,555,348              37,987,566
WHITE                         Borrowers                       16       100%             3     100%             69       100%            16     100%            3,532     99%             940        99%
                              Loans                           33       100%             9     100%            148       100%            29     100%            9,020     99%           2,374        99%
                              Principal and Interest   2,368,457       100%       101,122     100%      7,175,859       100%       321,491     100%      506,685,354     99%      37,750,640        99%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%               3       0%             1           0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               9       0%             6           0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         762,329       0%       110,390           0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%               8       0%              3          0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%              24       0%             10          0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%       1,153,160       0%         77,668          0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                1      0%                  0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                1      0%                  0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%           58,265      0%                  0      0%
OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%               6       0%              1          0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               7       0%              1          0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%         375,287       0%         11,983          0%
HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%               4       0%              2          0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%               8       0%              4          0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%         520,952       0%         36,886          0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                               THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                  Page 1824
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African               Native
 State  Servicing Office   Decision           Average Days       Total     White            American              American             Asian            Hispanic
  WI ASHLAND               Approved   No. of Applications             35        34   97%               0    0%           1       3%            0   0%           0     0%
                                      Receipt to Completion                     22                     0                18                     0                0
                                      Completion to Approval                     8                     0                10                     0                0
                                      Approval to Loan Closing                  34                     0                14                     0                0

                           Rejected   No. of Applications             1         1    100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    33                      0                     0                 0               0
                                      Completion to Rejected                    1                      0                     0                 0               0

                           Withdrawn No. of Applications              8         7    88%               0    0%           1       13%           0   0%          0      0%
                                     Receipt to Completion                      5                      0                 0                     0               0
                                     Completion to Withdrawn                    0                      0                44                     0               0

  WI   BARRON              Approved   No. of Applications            31        30    97%               0    0%               0   0%            0   0%          1      3%
                                      Receipt to Completion                    37                      0                     0                 0               6
                                      Completion to Approval                   43                      0                     0                 0              57
                                      Approval to Loan Closing                 42                      0                     0                 0              19

                           Rejected   No. of Applications             3         3    100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    59                      0                     0                 0               0
                                      Completion to Rejected                   29                      0                     0                 0               0

                           Withdrawn No. of Applications              8         8    100%              0    0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                      0                      0                     0                 0               0
                                     Completion to Withdrawn                    0                      0                     0                 0               0

  WI   CHIPPEWA            Approved   No. of Applications            20        20    100%              0    0%               0   0%            0   0%          0      0%
                                      Receipt to Completion                    44                      0                     0                 0               0
                                      Completion to Approval                   14                      0                     0                 0               0
                                      Approval to Loan Closing                 25                      0                     0                 0               0

                           Rejected   No. of Applications             1         0     0%               1   100%              0   0%            0   0%          0      0%
                                      Receipt to Completion                     0                      0                     0                 0               0
                                      Completion to Rejected                    0                      0                     0                 0               0

                           Withdrawn No. of Applications              4         4    100%              0    0%               0   0%            0   0%          0      0%
                                     Receipt to Completion                     13                      0                     0                 0               0
                                     Completion to Withdrawn                   14                      0                     0                 0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 1825
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  WI COLUMBIA              Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     155                        0                   0                0                0
                                      Completion to Approval                     17                        0                   0                0                0
                                      Approval to Loan Closing                   51                        0                   0                0                0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 4           4   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

  WI   DANE                Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     129                        0                   0                0               0
                                      Completion to Approval                     20                        0                   0                0               0
                                      Approval to Loan Closing                   55                        0                   0                0               0

                           Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                          0                     0                   0                0               0
                                      Completion to Rejected                         0                     0                   0                0               0

                           Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0

  WI   DODGE               Approved   No. of Applications            30          29      97%               0   0%          1       3%           0   0%          0      0%
                                      Receipt to Completion                      18                        0              59                    0               0
                                      Completion to Approval                      4                        0              52                    0               0
                                      Approval to Loan Closing                   15                        0             346                    0               0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      24                        0                   0                0               0
                                      Completion to Rejected                     25                        0                   0                0               0

                           Withdrawn No. of Applications                 4        4      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       15                        0                   0                0               0
                                     Completion to Withdrawn                     74                        0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1826
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  WI FOND DU LAC           Approved   No. of Applications             30        30   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     28                     0                   0                0                0
                                      Completion to Approval                    10                     0                   0                0                0
                                      Approval to Loan Closing                  45                     0                   0                0                0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

  WI   GRANT               Approved   No. of Applications            19        19    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    20                      0                   0                0               0
                                      Completion to Approval                   13                      0                   0                0               0
                                      Approval to Loan Closing                 30                      0                   0                0               0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    29                      0                   0                0               0
                                      Completion to Rejected                   23                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

  WI   IOWA                Approved   No. of Applications            22        22    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    26                      0                   0                0               0
                                      Completion to Approval                   19                      0                   0                0               0
                                      Approval to Loan Closing                 38                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                   37                      0                   0                0               0

                           Withdrawn No. of Applications              1         1    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1827
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  WI LAFAYETTE             Approved   No. of Applications             48        47   98%           1       2%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     32                58                       0                0                0
                                      Completion to Approval                    27                 1                       0                0                0
                                      Approval to Loan Closing                  56                 0                       0                0                0

                           Rejected   No. of Applications             6         6    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    21                      0                   0                0               0
                                      Completion to Rejected                   42                      0                   0                0               0

                           Withdrawn No. of Applications             13        13    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     11                      0                   0                0               0
                                     Completion to Withdrawn                    6                      0                   0                0               0

  WI   MANITOWAC           Approved   No. of Applications            38        38    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    14                      0                   0                0               0
                                      Completion to Approval                   19                      0                   0                0               0
                                      Approval to Loan Closing                 41                      0                   0                0               0

                           Rejected   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     5                      0                   0                0               0
                                      Completion to Rejected                   22                      0                   0                0               0

                           Withdrawn No. of Applications             11        11    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      4                      0                   0                0               0
                                     Completion to Withdrawn                   19                      0                   0                0               0

  WI   MARATHON            Approved   No. of Applications             2         2    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Approval                    9                      0                   0                0               0
                                      Approval to Loan Closing                  6                      0                   0                0               0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     0                      0                   0                0               0
                                      Completion to Rejected                    0                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1828
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  WI MONROE                Approved   No. of Applications             19        19   100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                     13                     0                   0                0                0
                                      Completion to Approval                    21                     0                   0                0                0
                                      Approval to Loan Closing                  33                     0                   0                0                0

                           Rejected   No. of Applications             3         3    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    19                      0                   0                0               0
                                      Completion to Rejected                    7                      0                   0                0               0

                           Withdrawn No. of Applications              0         0     0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      0                      0                   0                0               0
                                     Completion to Withdrawn                    0                      0                   0                0               0

  WI   OCONTO              Approved   No. of Applications            40        40    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    18                      0                   0                0               0
                                      Completion to Approval                   19                      0                   0                0               0
                                      Approval to Loan Closing                 26                      0                   0                0               0

                           Rejected   No. of Applications             5         5    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                     1                      0                   0                0               0
                                      Completion to Rejected                    7                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     27                      0                   0                0               0
                                     Completion to Withdrawn                   57                      0                   0                0               0

  WI   POLK                Approved   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    18                      0                   0                0               0
                                      Completion to Approval                   35                      0                   0                0               0
                                      Approval to Loan Closing                 29                      0                   0                0               0

                           Rejected   No. of Applications             1         1    100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                    60                      0                   0                0               0
                                      Completion to Rejected                   87                      0                   0                0               0

                           Withdrawn No. of Applications              4         4    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                     19                      0                   0                0               0
                                     Completion to Withdrawn                   62                      0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1829
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                 African             Native
 State  Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
  WI ROCK                  Approved   No. of Applications                8        8      100%              0   0%              0   0%           0   0%           0     0%
                                      Receipt to Completion                      20                        0                   0                0                0
                                      Completion to Approval                     20                        0                   0                0                0
                                      Approval to Loan Closing                   30                        0                   0                0                0

                           Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      15                        0                   0                0               0
                                      Completion to Rejected                     14                        0                   0                0               0

                           Withdrawn No. of Applications                 1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       29                        0                   0                0               0
                                     Completion to Withdrawn                     44                        0                   0                0               0

  WI   SHAWANO             Approved   No. of Applications                5        5      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      24                        0                   0                0               0
                                      Completion to Approval                     20                        0                   0                0               0
                                      Approval to Loan Closing                   35                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      27                        0                   0                0               0
                                      Completion to Rejected                     29                        0                   0                0               0

                           Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                       25                        0                   0                0               0
                                     Completion to Withdrawn                    127                        0                   0                0               0

  WI   ST CROIX            Approved   No. of Applications            10          10      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                      20                        0                   0                0               0
                                      Completion to Approval                     21                        0                   0                0               0
                                      Approval to Loan Closing                   12                        0                   0                0               0

                           Rejected   No. of Applications                3        3      100%              0   0%              0   0%           0   0%          0      0%
                                      Receipt to Completion                       4                        0                   0                0               0
                                      Completion to Rejected                     18                        0                   0                0               0

                           Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                           0                     0                   0                0               0
                                     Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1830
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                             African             Native
 State  Servicing Office   Decision           Average Days       Total     White            American            American            Asian              Hispanic
  WI TAYLOR                Approved   No. of Applications             22        22   100%              0   0%              0   0%           0    0%            0     0%
                                      Receipt to Completion                     16                     0                   0                0                  0
                                      Completion to Approval                    32                     0                   0                0                  0
                                      Approval to Loan Closing                  37                     0                   0                0                  0

                           Rejected   No. of Applications             6         6    100%              0   0%              0   0%           0    0%           0      0%
                                      Receipt to Completion                    13                      0                   0                0                 0
                                      Completion to Rejected                   16                      0                   0                0                 0

                           Withdrawn No. of Applications              6         6    100%              0   0%              0   0%           0    0%           0      0%
                                     Receipt to Completion                      5                      0                   0                0                 0
                                     Completion to Withdrawn                   32                      0                   0                0                 0

  WI   TREMPEALEAU         Approved   No. of Applications            12        12    100%              0   0%              0   0%           0    0%           0      0%
                                      Receipt to Completion                    16                      0                   0                0                 0
                                      Completion to Approval                   25                      0                   0                0                 0
                                      Approval to Loan Closing                 18                      0                   0                0                 0

                           Rejected   No. of Applications             2         0     0%               0   0%              0   0%        2      100%          0      0%
                                      Receipt to Completion                     0                      0                   0            35                    0
                                      Completion to Rejected                    0                      0                   0            12                    0

                           Withdrawn No. of Applications              6         6    100%              0   0%              0   0%           0    0%           0      0%
                                     Receipt to Completion                      8                      0                   0                0                 0
                                     Completion to Withdrawn                    2                      0                   0                0                 0

  WI   VERNON              Approved   No. of Applications            13        13    100%              0   0%              0   0%           0    0%           0      0%
                                      Receipt to Completion                    20                      0                   0                0                 0
                                      Completion to Approval                   24                      0                   0                0                 0
                                      Approval to Loan Closing                 38                      0                   0                0                 0

                           Rejected   No. of Applications             0         0     0%               0   0%              0   0%           0    0%           0      0%
                                      Receipt to Completion                     0                      0                   0                0                 0
                                      Completion to Rejected                    0                      0                   0                0                 0

                           Withdrawn No. of Applications              3         3    100%              0   0%              0   0%           0    0%           0      0%
                                     Receipt to Completion                      0                      0                   0                0                 0
                                     Completion to Withdrawn                    0                      0                   0                0                 0




Source: APPL Database
50801-4-Hq                                           THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                   Page 1831
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                            African             Native
 State Servicing Office   Decision           Average Days       Total     White            American            American            Asian            Hispanic
  WI WOOD                 Approved   No. of Applications             23        23   100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                     41                     0                   0                0                0
                                     Completion to Approval                    26                     0                   0                0                0
                                     Approval to Loan Closing                  34                     0                   0                0                0

                          Rejected   No. of Applications             8         8    100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                    40                      0                   0                0               0
                                     Completion to Rejected                   10                      0                   0                0               0

                          Withdrawn No. of Applications              8         8    100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                     31                      0                   0                0               0
                                    Completion to Withdrawn                    7                      0                   0                0               0

  WI   STATE              Approved   No. of Applications           443       439    99%           1       0%          2       0%           0   0%          1      0%
                                     Receipt to Completion                    27                 58                  39                    0               6
                                     Completion to Approval                   20                  1                  31                    0              57
                                     Approval to Loan Closing                 35                  0                 180                    0              19

                          Rejected   No. of Applications            52        49    94%               1   2%              0   0%        2      4%          0      0%
                                     Receipt to Completion                    23                      0                   0            35                  0
                                     Completion to Rejected                   21                      0                   0            12                  0

                          Withdrawn No. of Applications             98        97    99%               0   0%          1       1%           0   0%          0      0%
                                    Receipt to Completion                     10                      0               0                    0               0
                                    Completion to Withdrawn                   17                      0              44                    0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1832
                            Demographics         1834
                        FSA’s Loan Portfolio     1837
                        FSA’s Application data   1842




USDA/OIG-A/50801-4-Hq                                   1833
DEMOGRAPHICS OF STATES AND COUNTIES
                                                           White              African American Native American              Asian                  Other                 Hispanic
                                          Total         Number      Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
      WY                Population           30,797        27,714    90%           238         1%        211      1%        619          2%         27          0%      1,988       6%
      Albany County     Borrowers                 7             6    86%             0         0%          0      0%          0          0%          1         14%          0       0%
                        Farms                   294           291    99%             0         0%          0      0%          0          0%          0          0%          3       1%
                        Land in Farms     1,868,333     1,866,703   100%             0         0%          0      0%          0          0%          0          0%      1,630       0%

      WY                Population          10,525          9,895     94%               2      0%         54      1%         21          0%              2      0%        551       5%
      Big Horn County   Borrowers               32             28     88%               0      0%          0      0%          1          3%              1      3%          2       6%
                        Farms                  516            505     98%               0      0%          0      0%          0          0%              0      0%         11       2%
                        Land in Farms      441,321        437,608     99%               0      0%          0      0%          0          0%              0      0%      3,713       1%

      WY                Population           29,370        28,074    96%            34         0%        297      1%         78          0%              5      0%        882       3%
      Campbell County   Borrowers                 8             6    75%             0         0%          0      0%          0          0%              2     25%          0       0%
                        Farms                   476           476   100%             0         0%          0      0%          0          0%              0      0%          0       0%
                        Land in Farms     2,704,163     2,704,163   100%             0         0%          0      0%          0          0%              0      0%          0       0%

      WY                Population           16,659        14,050    84%            91         1%        121      1%         68          0%         14          0%      2,315       14%
      Carbon County     Borrowers                16            14    88%             0         0%          0      0%          0          0%          0          0%          2       13%
                        Farms                   287           281    98%             0         0%          0      0%          0          0%          0          0%          6        2%
                        Land in Farms     2,720,903     2,720,903   100%             0         0%          0      0%          0          0%          0          0%          0        0%

      WY                Population           11,128        10,411    94%            15         0%         96      1%         33          0%              8      0%        565       5%
      Converse County   Borrowers                14            12    86%             0         0%          0      0%          0          0%              1      7%          1       7%
                        Farms                   305           298    98%             0         0%          0      0%          0          0%              3      1%          4       1%
                        Land in Farms     2,363,248     2,363,248   100%             0         0%          0      0%          0          0%              0      0%          0       0%

      WY                Population            5,294         5,238    99%                0      0%         27      1%              3      0%              0      0%         26       0%
      Crook County      Borrowers                24            23    96%                0      0%          0      0%              0      0%              1      4%          0       0%
                        Farms                   442           442   100%                0      0%          0      0%              0      0%              0      0%          0       0%
                        Land in Farms     1,542,262     1,542,262   100%                0      0%          0      0%              0      0%              0      0%          0       0%

      WY                Population           33,662        26,273     78%           45         0%      5,889     17%        109          0%         10          0%      1,336       4%
      Fremont County    Borrowers                84            63     75%            0         0%         19     23%          0          0%          2          2%          0       0%
                        Farms                   877           799     91%            0         0%         61      7%          0          0%          3          0%         14       2%
                        Land in Farms     2,415,873     2,396,111     99%            0         0%          0      0%          0          0%          0          0%     19,762       1%

      WY                Population           12,373        11,171    90%            24         0%         85      1%         14          0%              1      0%      1,078       9%
      Goshen County     Borrowers               101            93    92%             0         0%          1      1%          1          1%              0      0%          6       6%
                        Farms                   675           669    99%             0         0%          0      0%          0          0%              0      0%          6       1%
                        Land in Farms     1,234,542     1,228,481   100%             0         0%          0      0%          0          0%              0      0%      6,061       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                        THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1834
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White              African American Native American              Asian                  Other                 Hispanic
                                           Total         Number      Percent    Number       Percent   Number   Percent   Number       Percent   Number       Percent   Number   Percent
      WY                   Population         4,809          4,626    96%            14         0%        100      2%              2      0%              0      0%         67       1%
      Hot Springs County   Borrowers              5              5   100%             0         0%          0      0%              0      0%              0      0%          0       0%
                           Farms                138            138   100%             0         0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms    908,320        908,320   100%             0         0%          0      0%              0      0%              0      0%          0       0%

      WY                   Population          6,145         6,004    98%                1      0%         55      1%              7      0%              0      0%         78       1%
      Johnson County       Borrowers               5             5   100%                0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms                 290           284    98%                0      0%          0      0%              0      0%              0      0%          6       2%
                           Land in Farms   2,055,522     2,003,685    97%                0      0%          0      0%              0      0%              0      0%     51,837       3%

      WY                   Population         73,142        62,410    85%          2,113        3%        470      1%        748          1%         91          0%      7,310       10%
      Laramie County       Borrowers              22            22   100%              0        0%          0      0%          0          0%          0          0%          0        0%
                           Farms                 564           558    99%              0        0%          0      0%          0          0%          0          0%          6        1%
                           Land in Farms   1,700,356     1,700,356   100%              0        0%          0      0%          0          0%          0          0%          0        0%

      WY                   Population        12,625         12,266    97%                9      0%         60      0%         36          0%              2      0%        252       2%
      Lincoln County       Borrowers             15             12    80%                0      0%          0      0%          0          0%              3     20%          0       0%
                           Farms                511            511   100%                0      0%          0      0%          0          0%              0      0%          0       0%
                           Land in Farms    558,966        558,966   100%                0      0%          0      0%          0          0%              0      0%          0       0%

      WY                   Population         61,226        57,888    95%           438         1%        362      1%        268          0%         18          0%      2,252       4%
      Natrona County       Borrowers              16            14    88%             0         0%          0      0%          0          0%          1          6%          1       6%
                           Farms                 292           287    98%             0         0%          0      0%          0          0%          0          0%          5       2%
                           Land in Farms   2,508,749     2,508,749   100%             0         0%          0      0%          0          0%          0          0%          0       0%

      WY                   Population          2,499         2,434    97%                6      0%         20      1%              3      0%              0      0%         36       1%
      Niobrara County      Borrowers               0             0     0%                0      0%          0      0%              0      0%              0      0%          0       0%
                           Farms                 278           278   100%                0      0%          0      0%              0      0%              0      0%          0       0%
                           Land in Farms   1,344,561     1,344,561   100%                0      0%          0      0%              0      0%              0      0%          0       0%

      WY                   Population        23,178         22,112     95%           19         0%        118      1%        104          0%              0      0%        825       4%
      Park County          Borrowers              0              0      0%            0         0%          0      0%          0          0%              0      0%          0       0%
                           Farms                579            557     96%            0         0%          0      0%          3          1%              7      1%         12       2%
                           Land in Farms    797,270        786,336     99%            0         0%          0      0%      1,863          0%              0      0%      9,071       1%

      WY                   Population          8,145         7,708    95%                3      0%         20      0%         10          0%              0      0%        404       5%
      Platte County        Borrowers               0             0     0%                0      0%          0      0%          0          0%              0      0%          0       0%
                           Farms                 462           458    99%                0      0%          0      0%          0          0%              0      0%          4       1%
                           Land in Farms   1,364,948     1,364,948   100%                0      0%          0      0%          0          0%              0      0%          0       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                        Page 1835
DEMOGRAPHICS OF STATES AND COUNTIES
                                                            White              African American Native American              Asian              Other                 Hispanic
                                           Total         Number      Percent    Number       Percent   Number   Percent   Number   Percent   Number       Percent   Number   Percent
      WY                  Population          23,562        22,789    97%            35         0%        195      1%         97      0%              2      0%        444       2%
      Sheridan County     Borrowers                0             0     0%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Farms                  533           529    99%             0         0%          0      0%          0      0%              0      0%          4       1%
                          Land in Farms    1,208,776     1,208,776   100%             0         0%          0      0%          0      0%              0      0%          0       0%

      WY                  Population          4,843          4,698     97%               5      0%         70      1%         13      0%              0      0%         57       1%
      Sublette County     Borrowers               0              0      0%               0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms                 238            234     98%               0      0%          0      0%          0      0%              0      0%          4       2%
                          Land in Farms     592,754        589,554     99%               0      0%          0      0%          0      0%              0      0%      3,200       1%

      WY                  Population          38,823        34,529    89%           282         1%        280      1%        237      1%         25          0%      3,470       9%
      Sweetwater County   Borrowers                0             0     0%             0         0%          0      0%          0      0%          0          0%          0       0%
                          Farms                  154           154   100%             0         0%          0      0%          0      0%          0          0%          0       0%
                          Land in Farms    1,720,737     1,720,737   100%             0         0%          0      0%          0      0%          0          0%          0       0%

      WY                  Population         11,172         10,864    97%            17         0%         86      1%         46      0%              1      0%        158       1%
      Teton County        Borrowers               0              0     0%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Farms                 102            102   100%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms      62,307         62,307   100%             0         0%          0      0%          0      0%              0      0%          0       0%

      WY                  Population         18,705         17,725    95%            25         0%        114      1%         61      0%              7      0%        773       4%
      Uinta County        Borrowers               0              0     0%             0         0%          0      0%          0      0%              0      0%          0       0%
                          Farms                 265            262    99%             0         0%          0      0%          0      0%              0      0%          3       1%
                          Land in Farms     879,694        879,694   100%             0         0%          0      0%          0      0%              0      0%          0       0%

      WY                  Population          8,388          7,490    89%                7      0%         48      1%         34      0%              8      0%        801       10%
      Washakie County     Borrowers               0              0     0%                0      0%          0      0%          0      0%              0      0%          0        0%
                          Farms                 207            201    97%                0      0%          0      0%          3      1%              0      0%          3        1%
                          Land in Farms     397,883        397,216   100%                0      0%          0      0%          0      0%              0      0%        667        0%

      WY                  Population           6,518         6,342    97%                3      0%         79      1%         11      0%              0      0%         83       1%
      Weston County       Borrowers                0             0     0%                0      0%          0      0%          0      0%              0      0%          0       0%
                          Farms                  231           231   100%                0      0%          0      0%          0      0%              0      0%          0       0%
                          Land in Farms    1,484,583     1,484,583   100%                0      0%          0      0%          0      0%              0      0%          0       0%

      WY                  Population         453,588       412,711    91%          3,426        1%      8,857      2%      2,622      1%        221          0%     25,751       6%
      STATE               Borrowers              349           303    87%              0        0%         20      6%          2      1%         12          3%         12       3%
                          Farms                8,716         8,545    98%              0        0%         61      1%          6      0%         13          0%         91       1%
                          Land in Farms   32,876,071    32,778,267   100%              0        0%          0      0%      1,863      0%          0          0%     95,941       0%




Source: 92 Ag Census and 02/97 FSA PLAS
50801-4-Hq                                         THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                    Page 1836
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           ALBANY, WYOMING                                BIG HORN, WYOMING                               CAMPBELL, WYOMING
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       7                           0                    32                          0                     8                         3
                              Loans                           9                           0                    80                          0                    11                         4
                              Principal and Interest    395,785                           0             5,780,045                          0             1,127,767                    73,159
WHITE                         Borrowers                       6          86%              0      0%            28         88%              0      0%            6          75%             3    100%
                              Loans                           7          78%              0      0%            68         85%              0      0%            8          73%             4    100%
                              Principal and Interest    373,326          94%              0      0%     5,358,077         93%              0      0%      591,695          52%        73,159    100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%            1           3%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%            7           9%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%      159,503           3%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                        1         14%              0      0%            1           3%              0      0%            2          25%              0      0%
                              Loans                            2         22%              0      0%            1           1%              0      0%            3          27%              0      0%
                              Principal and Interest      22,459          6%              0      0%       16,903           0%              0      0%      536,072          48%              0      0%
HISPANIC                      Borrowers                            0      0%              0      0%            2           6%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%            4           5%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%      245,563           4%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1837
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           CARBON, WYOMING                                CONVERSE, WYOMING                                   CROOK, WYOMING
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                        2                      14                        2                      24                        5
                              Loans                           31                        6                      32                       13                      66                       18
                              Principal and Interest   3,569,328                  318,595               3,057,596                  612,700               4,309,685                  569,405
WHITE                         Borrowers                       14         88%            2     100%             12         86%            2     100%             23         96%            5     100%
                              Loans                           29         94%            6     100%             30         94%           13     100%             63         95%           18     100%
                              Principal and Interest   3,449,395         97%      318,595     100%      2,741,593         90%      612,700     100%      4,018,556         93%      569,405     100%
AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
OTHER                         Borrowers                            0      0%              0      0%            1           7%              0      0%            1           4%              0      0%
                              Loans                                0      0%              0      0%            1           3%              0      0%            3           5%              0      0%
                              Principal and Interest               0      0%              0      0%      111,820           4%              0      0%      291,129           7%              0      0%
HISPANIC                      Borrowers                       2          13%              0      0%            1           7%              0      0%                 0      0%              0      0%
                              Loans                           2           6%              0      0%            1           3%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest    119,933           3%              0      0%      204,183           7%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1838
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                           FREMONT, WYOMING                                   GOSHEN, WYOMING                              HOT SPRINGS, WYOMING
                                                        Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                        84                       20                      101                       35                      5                          2
                              Loans                           183                       51                      208                       84                      7                          2
                              Principal and Interest   14,561,313                  614,211               19,438,285                  931,141                781,112                     71,247

WHITE                         Borrowers                        63         75%           16       80%             93         92%           31       89%            5        100%              2    100%
                              Loans                           139         76%           42       82%            189         91%           71       85%            7        100%              2    100%
                              Principal and Interest   10,080,182         69%      535,718       87%     17,349,567         89%      815,737       88%      781,112        100%         71,247    100%

AFRICAN AMERICAN              Borrowers                             0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%                  0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                         19        23%              4     20%                  1      1%              0      0%                 0      0%              0      0%
                              Loans                            36         20%             9      18%             3           1%              0      0%                 0      0%              0      0%
                              Principal and Interest    2,017,288         14%        78,493      13%       445,484           2%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                             0      0%              0      0%             1           1%            1        3%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%             7           3%            7        8%                 0      0%              0      0%
                              Principal and Interest                0      0%              0      0%       199,713           1%       66,377        7%                 0      0%              0      0%

OTHER                         Borrowers                         2          2%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Loans                             8          4%              0      0%                  0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest    2,463,843         17%              0      0%                  0      0%              0      0%                 0      0%              0      0%

HISPANIC                      Borrowers                             0      0%              0      0%                  6      6%              3      9%                 0      0%              0      0%
                              Loans                                 0      0%              0      0%                  9      4%              6      7%                 0      0%              0      0%
                              Prinicpal and Interest                0      0%              0      0%      1,443,521          7%       49,027        5%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                 THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                      Page 1839
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          JOHNSON, WYOMING                                 LARAMIE, WYOMING                                 LINCOLN, WYOMING
                                                       Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent   Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       5                          2                     22                        7                      15                         4
                              Loans                           8                          2                     42                       21                      22                         7
                              Principal and Interest    346,481                      1,449              3,096,035                  254,456               1,209,733                    44,166

WHITE                         Borrowers                       5        100%              2    100%             22       100%             7     100%             12         80%             4    100%
                              Loans                           8        100%              2    100%             42       100%            21     100%             19         86%             7    100%
                              Principal and Interest    346,481        100%          1,449    100%      3,096,035       100%       254,456     100%      1,160,668         96%        44,166    100%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

ASIAN                         Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%

OTHER                         Borrowers                            0      0%              0      0%                 0      0%              0      0%             3         20%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%             3         14%              0      0%
                              Principal and Interest               0      0%              0      0%                 0      0%              0      0%        49,065          4%              0      0%

HISPANIC                      Borrowers                            0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Loans                                0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%
                              Prinicpal and Interest               0      0%              0      0%                 0      0%              0      0%                 0      0%              0      0%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                                                     Page 1840
FSA'S LOAN PORTFOLIO AND DELINQUENCIES
                                                          NATRONA, WYOMING                                  STATE OF WYOMING
                                                       Portfolio       Percent   Delinquent   Percent    Portfolio       Percent   Delinquent   Percent
TOTAL                         Borrowers                       16                         2                     349                        84
                              Loans                           21                         2                     720                       210
                              Principal and Interest   2,823,785                    21,206              60,496,950                 3,511,735

WHITE                         Borrowers                       14         88%             2    100%             303         87%        76          90%
                              Loans                           19         90%             2    100%             628         87%       188          90%
                              Principal and Interest   1,481,024         52%        21,206    100%      50,827,711         84% 3,317,838          94%

AFRICAN AMERICAN              Borrowers                            0      0%              0      0%                  0      0%              0      0%
                              Loans                                0      0%              0      0%                  0      0%              0      0%
                              Principal and Interest               0      0%              0      0%                  0      0%              0      0%

NATIVE AMERICAN               Borrowers                            0      0%              0      0%              20         6%              4      5%
                              Loans                                0      0%              0      0%             39          5%            9        4%
                              Principal and Interest               0      0%              0      0%      2,462,772          4%       78,493        2%

ASIAN                         Borrowers                            0      0%              0      0%             2           1%            1        1%
                              Loans                                0      0%              0      0%            14           2%            7        3%
                              Principal and Interest               0      0%              0      0%       359,216           1%       66,377        2%

OTHER                         Borrowers                        1          6%              0      0%             12          3%              0      0%
                              Loans                            1          5%              0      0%             22          3%              0      0%
                              Principal and Interest   1,192,845         42%              0      0%      4,684,136          8%              0      0%

HISPANIC                      Borrowers                            1      6%              0      0%              12         3%              3      4%
                              Loans                                1      5%              0      0%              17         2%              6      3%
                              Prinicpal and Interest    149,916           5%              0      0%      2,163,116          4%       49,027        1%




Source: 02/97 FSA Portfolio
50801-4-Hq                                                THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                     Page 1841
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
 State Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
 WY CARBON                Approved   No. of Applications                4        4      100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                      30                        0                   0                0                0
                                     Completion to Approval                     17                        0                   0                0                0
                                     Approval to Loan Closing                   19                        0                   0                0                0

                          Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                          0                     0                   0                0               0
                                     Completion to Rejected                         0                     0                   0                0               0

                          Withdrawn No. of Applications                 1           1   100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                0               0
                                    Completion to Withdrawn                         0                     0                   0                0               0

 WY    CONVERSE           Approved   No. of Applications                1        1      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      40                        0                   0                0               0
                                     Completion to Approval                      8                        0                   0                0               0
                                     Approval to Loan Closing                   93                        0                   0                0               0

                          Rejected   No. of Applications                0           0    0%               0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                          0                     0                   0                0               0
                                     Completion to Rejected                         0                     0                   0                0               0

                          Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                0               0
                                    Completion to Withdrawn                         0                     0                   0                0               0

 WY    CROOK              Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      13                        0                   0                0               0
                                     Completion to Approval                      6                        0                   0                0               0
                                     Approval to Loan Closing                   21                        0                   0                0               0

                          Rejected   No. of Applications                1           1   100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                          0                     0                   0                0               0
                                     Completion to Rejected                         0                     0                   0                0               0

                          Withdrawn No. of Applications                 3           3   100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                0               0
                                    Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1842
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                              African             Native
 State Servicing Office   Decision           Average Days       Total     White              American            American             Asian            Hispanic
 WY FREMONT               Approved   No. of Applications             13        6      46%               0   0%          6       46%           0   0%           1     8%
                                     Receipt to Completion                    18                        0              19                     0              80
                                     Completion to Approval                   14                        0               7                     0                1
                                     Approval to Loan Closing                 22                        0              21                     0              10

                          Rejected   No. of Applications             6         2      33%               0   0%          4       67%           0   0%          0      0%
                                     Receipt to Completion                    21                        0              19                     0               0
                                     Completion to Rejected                   28                        0               0                     0               0

                          Withdrawn No. of Applications              5            5   100%              0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                         1                     0                   0                 0               0
                                    Completion to Withdrawn                       5                     0                   0                 0               0

 WY    GOSHEN             Approved   No. of Applications            21        19      90%               0   0%              0   0%            0   0%          2     10%
                                     Receipt to Completion                     4                        0                   0                 0              27
                                     Completion to Approval                   18                        0                   0                 0              13
                                     Approval to Loan Closing                 26                        0                   0                 0              68

                          Rejected   No. of Applications             1         1      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                    16                        0                   0                 0               0
                                     Completion to Rejected                   27                        0                   0                 0               0

                          Withdrawn No. of Applications              0            0    0%               0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                         0                     0                   0                 0               0
                                    Completion to Withdrawn                       0                     0                   0                 0               0

 WY    LINCOLN            Approved   No. of Applications             5         5      100%              0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                     0                        0                   0                 0               0
                                     Completion to Approval                    5                        0                   0                 0               0
                                     Approval to Loan Closing                 16                        0                   0                 0               0

                          Rejected   No. of Applications             0            0    0%               0   0%              0   0%            0   0%          0      0%
                                     Receipt to Completion                        0                     0                   0                 0               0
                                     Completion to Rejected                       0                     0                   0                 0               0

                          Withdrawn No. of Applications              0            0    0%               0   0%              0   0%            0   0%          0      0%
                                    Receipt to Completion                         0                     0                   0                 0               0
                                    Completion to Withdrawn                       0                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                    Page 1843
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                                African             Native
 State Servicing Office   Decision           Average Days       Total       White              American            American            Asian            Hispanic
 WY PARK                  Approved   No. of Applications                7        7      100%              0   0%              0   0%           0   0%           0     0%
                                     Receipt to Completion                      20                        0                   0                0                0
                                     Completion to Approval                     77                        0                   0                0                0
                                     Approval to Loan Closing                   35                        0                   0                0                0

                          Rejected   No. of Applications                2        2      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      13                        0                   0                0               0
                                     Completion to Rejected                     88                        0                   0                0               0

                          Withdrawn No. of Applications                 2        2      100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                       51                        0                   0                0               0
                                    Completion to Withdrawn                    336                        0                   0                0               0

 WY    PLATTE             Approved   No. of Applications            13          13      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      23                        0                   0                0               0
                                     Completion to Approval                      6                        0                   0                0               0
                                     Approval to Loan Closing                   55                        0                   0                0               0

                          Rejected   No. of Applications                7        7      100%              0   0%              0   0%           0   0%          0      0%
                                     Receipt to Completion                      14                        0                   0                0               0
                                     Completion to Rejected                     16                        0                   0                0               0

                          Withdrawn No. of Applications                 2           2   100%              0   0%              0   0%           0   0%          0      0%
                                    Receipt to Completion                           0                     0                   0                0               0
                                    Completion to Withdrawn                         0                     0                   0                0               0

 WY    WASHAKIE           Approved   No. of Applications            11           9      82%               0   0%              0   0%           0   0%          2     18%
                                     Receipt to Completion                      31                        0                   0                0              54
                                     Completion to Approval                      7                        0                   0                0              13
                                     Approval to Loan Closing                   33                        0                   0                0              12

                          Rejected   No. of Applications                1           0    0%               0   0%              0   0%           0   0%          1    100%
                                     Receipt to Completion                          0                     0                   0                0              57
                                     Completion to Rejected                         0                     0                   0                0               4

                          Withdrawn No. of Applications                 5           4   80%               0   0%              0   0%           0   0%          1     20%
                                    Receipt to Completion                           0                     0                   0                0               0
                                    Completion to Withdrawn                         0                     0                   0                0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                     Page 1844
FISCAL YEAR 1996 AVERAGE APPLICATION PROCESSING DAYS - COUNTIES
                                                                                           African             Native
 State Servicing Office   Decision           Average Days       Total     White           American            American             Asian            Hispanic
 WY STATE                 Approved   No. of Applications             82        71   87%              0   0%          6       7%            0   0%           5     6%
                                     Receipt to Completion                     16                    0              19                     0              48
                                     Completion to Approval                    18                    0               7                     0              11
                                     Approval to Loan Closing                  32                    0              21                     0              34

                          Rejected   No. of Applications            18        13    72%              0   0%          4       22%           0   0%          1      6%
                                     Receipt to Completion                    14                     0              19                     0              57
                                     Completion to Rejected                   29                     0               0                     0               4

                          Withdrawn No. of Applications             20        19    95%              0   0%              0   0%            0   0%          1      5%
                                    Receipt to Completion                      6                     0                   0                 0               0
                                    Completion to Withdrawn                   37                     0                   0                 0               0




Source: APPL Database
50801-4-Hq                                          THIS DATA IS PRESENTED AS SUPPLIED AND HAS NOT BEEN AUDITED                                                 Page 1845
